                         SIGTARP: Quarterly Report to Congress | July 21, 2009
                                                                                                            CT
                                                                                                       INSPE OR GE
                                                                                                AL                        N
                                                                                              CI




                                                                                                                          ER
                                                                                         E
                                                                                        SP




                                                                                                                             A L
                                                                                       TRO




                                                                                                                               M
                                                                                                                               RA
                                                                                        UB




                                                                                                                          OG
                                                                                             LE
                                                                                                  D
                                                                                                      ASS                 PR
                                                                                                            E T R ELIEF




SIGTARP
SIG-QR-09-03
                         Q3
                        2009
                                                                                 SIGTARP                                            Office of the Special Inspector General
                                                                                                                                    for the Troubled Asset Relief Program
                                                                                 Advancing Economic Stability Through Transparency, Coordinated Oversight and Robust Enforcement


202.622.1419
Hotline: 877.SIG.2009                                                                                                                                Quarterly Report to Congress
SIGTARP@do.treas.gov                                                                                                                                                July 21, 2009
www.SIGTARP.gov
MISSION
SIGTARP’s mission is to advance economic stability by promoting the
efficiency and effectiveness of TARP management, through transparency,
through coordinated oversight, and through robust enforcement against
those, whether inside or outside of government, who waste, steal or abuse
TARP funds.



STATUTORY AUTHORITY
SIGTARP was established by Section 121 of the Emergency Economic
Stabilization Act of 2008 (EESA). Under EESA, the Special Inspector General
has the duty, among other things, to conduct, supervise and coordinate audits
and investigations of the purchase, management and sale of assets under the
Troubled Asset Relief Program (TARP). In carrying out those duties, SIGTARP
has the authority set forth in Section 6 of the Inspector General Act of 1978,
including the power to issue subpoenas.




Office of the Special Inspector General
for the Troubled Asset Relief Program
General Telephone: 202.622.1419
Hotline: 877.SIG.2009
SIGTARP@do.treas.gov
www.SIGTARP.gov
CONTENTS


Executive Summary                                                     1
  TARP in Focus, and in Context                                       3
  Oversight Activities of SIGTARP                                     5
  SIGTARP’s Recommendations on the Operations of TARP                 7
  Report Organization                                                10

Section 1
THE OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR THE
  TROUBLED ASSET RELIEF PROGRAM                                     11
  SIGTARP’s Creation and Statutory Authority                        13
  SIGTARP’s Oversight Activities Since the April Quarterly Report   15
  Building SIGTARP’s Organization                                   25

Section 2
TARP OVERVIEW                                                        29
  Financial Overview of TARP                                         31
  Financial Institution Support Programs                             45
  Asset Support Programs                                             72
  Automotive Industry Support Programs                               93
  TARP Tutorial: Bankruptcy                                          97
  Homeowner Support Programs                                        114
  Executive Compensation                                            118

Section 3
TARP IN CONTEXT: FINANCIAL INSTITUTION SUPPORT
  AND POLICIES OUTSIDE OF TARP                                      127
  TARP Tutorial: The Federal Reserve System                         130
  TARP in Context: Other Government Programs to Assist the
    Financial Sector                                                137

Section 4
TARP OPERATIONS AND ADMINISTRATION                                  159
  TARP Administrative and Program Expenditures                      161
  Current Contractors and Financial Agents                          162
  Conflicts of Interest                                             167
Section 5
SIGTARP RECOMMENDATIONS                                                                  169
  Recommendations Relating to the Public-Private Investment Program                      171
  Continued Use of Ratings Agencies in TALF                                              184
  Requiring Recipients to Account for Use of TARP Funds                                  186
  Tracking the Implementation of Recommendations in Previous Reports                     187

   Endnotes                                                                              193

APPENDICES
A. Glossary*                                                                               –
B. Acronyms and Abbreviations*                                                             –
C. Reporting Requirements                                                                198
D. Transaction Detail                                                                    202
E. Public Announcement of Audits*                                                          –
F. Key Oversight Reports and Testimonies*                                                  –
G. Correspondence Regarding SIGTARP Recommendations                                      222
H. Organizational Chart                                                                  257

*Visit www.sigtarp.gov to view Appendix A: Glossary, Appendix B: Acronyms and Abbreviations,
Appendix E: Public Announcement of Audits, Appendix F: Key Oversight Reports and Testimo-
nies, and for further reference material.
 INVESTIGATIONS
EXECUTIVE SUMMARY
                                                                                QUARTERLY REPORT TO CONGRESS I JULY 21, 2009   3




EXECUTIVE SUMMARY
In the nine months since the Emergency Economic Stabilization Act of 2008
(“EESA”) authorized creation of the Troubled Asset Relief Program (“TARP”), the
U.S. Department of the Treasury (“Treasury”) has created 12 separate programs
involving Government and private funds of up to almost $3 trillion. From pro-
grams involving large capital infusions into hundreds of banks and other financial
institutions, to a mortgage modification program designed to modify millions of
mortgages, to public-private partnerships using tens of billions of taxpayer dol-
lars to purchase “toxic” assets from banks, TARP has evolved into a program of
unprecedented scope, scale, and complexity. Moreover, TARP does not function
in a vacuum but is rather part of the broader Government efforts to stabilize the
financial system, an effort that includes dozens of inter-related programs operated
by multiple Federal agencies. Thus, before the American people and their repre-
sentatives in Congress can meaningfully evaluate the effectiveness of TARP, not
only must the TARP programs themselves be understood, but also TARP’s scope
and scale must be placed into proper context with the other Government programs
designed to support the financial system. That is one of the ambitious goals of this
report.
    In this report, the Office of the Special Inspector General for the Troubled
Asset Relief Program (“SIGTARP”) endeavors to (i) explain the various TARP
programs and how Treasury has used those programs through June 30, 2009, (ii)
provide a brief explanation of the numerous other Government programs that have
been implemented by Treasury and other Federal agencies to support the financial
and mortgage markets; (iii) describe what SIGTARP has done to oversee the vari-
ous TARP programs since its April Quarterly Report to Congress, dated April 21,
2009 (the “April Quarterly Report”), and (iv) set forth a series of recommendations
for the operation of TARP.

TARP IN FOCUS, AND IN CONTEXT
TARP, as originally envisioned in the fall of 2008, would have involved the pur-
chase, management, and sale of up to $700 billion of “toxic” assets, primarily
troubled mortgages and mortgage-backed securities (“MBS”). That framework was
soon shelved, however, and TARP funds are being used, or have been announced
to be used, in connection with 12 separate programs that, as set forth in Table 1
on the next page, involve a total (including TARP funds, loans and guarantees from
other agencies, and private money) that could reach nearly $3 trillion. Through
June 30, 2009, Treasury has announced the parameters of how $643.1 billion of
the $700 billion would be spent through the 12 programs. Of the $643.1 billion
that Treasury has committed, $441 billion has actually been spent.
    As massive and as important as TARP is on its own, it is just one part of a much
broader Federal Government effort to stabilize and support the financial system.
Since the onset of the financial crisis in 2007, the Federal Government, through
4        SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                   many agencies, has implemented dozens of programs that are broadly designed to
                                                                   support the economy and financial system. As detailed in Section 3 of this report,
                                                                   the total potential Federal Government support could reach up to $23.7 trillion.
                                                                   Any assessment of the effectiveness or the cost of TARP should be made in the
                                                                   context of these broader efforts. Section 3 also provides a tutorial on the Federal
                                                                   Reserve System, which administers many of the non-TARP credit and liquidity
                                                                   facilities that are providing support to the financial system.




    TABLE 1

    TOTAL POTENTIAL FUNDS SUBJECT TO SIGTARP OVERSIGHT, AS OF 6/30/2009                                                     ($ BILLIONS)

                                                                                                                                Total Projected      Projected TARP
    Program                                                        Brief Description or Participant                          Funding at Risk ($)         Funding ($)
    Capital Purchase Program (“CPP”)                               Investments in 649 banks to date; 8 institutions                        $218.0            $218.0
                                                                   total $134 billion; received $70.1 billion in capital                   ($70.1)           ($70.1)
                                                                   repayments
    Automotive Industry Financing Program                          GM, Chrysler, GMAC, Chrysler Financial; received                          79.3              79.3
    (“AIFP”)                                                       $130.8 million in loan repayments (Chrysler
                                                                   Financial)
    Auto Supplier Support Program (“ASSP”)                         Government-backed protection for auto parts                                 5.0              5.0
                                                                   suppliers
    Auto Warranty Commitment Program                               Government-backed protection for warranties of                              0.6              0.6
    (“AWCP”)                                                       cars sold during the GM and Chrysler bankruptcy
                                                                   restructuring periods
    Unlocking Credit for Small Businesses                          Purchase of securities backed by SBA loans                                15.0              15.0
    (“UCSB”)
    Systemically Significant Failing Institutions                  AIG investment                                                            69.8              69.8
    (“SSFI”)
    Targeted Investment Program (“TIP”)                            Citigroup, Bank of America investments                                    40.0              40.0
    Asset Guarantee Program (“AGP”)                                Citigroup, ring-fence asset guarantee                                    301.0               5.0
    Term Asset-Backed Securities Loan Facility                     FRBNY non-recourse loans for purchase of asset-                         1,000.0             80.0
    (“TALF”)                                                       backed securities
    Making Home Affordable (“MHA”) Program                         Modification of mortgage loans                                            75.0              50.0
    Public-Private Investment Program (“PPIP”)                     Disposition of legacy assets; Legacy Loans                   500.0 – 1,000.0                75.0
                                                                   Program, Legacy Securities Program
                                                                   (expansion of TALF)
    Capital Assistance Program (“CAP”)                             Capital to qualified financial institutions; includes                      TBD               TBD
                                                                   stress test
    New Programs, or Funds Remaining for                           Potential additional funding related to CAP; other                       131.4             131.4
    Existing Programs                                              programs
    Total                                                                                                                  $2,365.0 – $2,865.0              $699.0

    Note: See Table 2.1 in Section 2 for notes and sources related to the information contained in this table.
                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 21, 2009   5




OVERSIGHT ACTIVITIES OF SIGTARP

Since the April Quarterly Report, SIGTARP has been actively engaged in fulfill-
ing its vital investigative and audit functions as well as in building its staff and
organization.
    SIGTARP’s Investigations Division has developed rapidly and is quickly be-
coming a sophisticated white-collar investigative agency. Through June 30, 2009,
SIGTARP has 35 ongoing criminal and civil investigations. These investigations
include complex issues concerning suspected accounting fraud, securities fraud,
insider trading, mortgage servicer misconduct, mortgage fraud, public corruption,
false statements, and tax investigations. Two of SIGTARP’s investigations have
recently become public:

• Federal Felony Charges Against Gordon Grigg: On April 23, 2009, Federal
  felony charges were filed against Gordon B. Grigg in the U.S. District Court for
  the Middle District of Tennessee, charging him with four counts of mail fraud
  and four counts of wire fraud. The charges are based on Grigg’s role in embez-
  zling approximately $11 million in client investment funds that he garnered
  through false claims, including that he had invested $5 million in pooled client
  funds toward the purchase of the TARP-guaranteed debt. Grigg pleaded guilty
  to all charges and is scheduled for sentencing on August 6, 2009.
• FTC Action Against Misleading Use of “MakingHomeAffordable.gov”: On
  May 15, 2009, based upon an action brought by the Federal Trade Commission
  (“FTC”), a Federal district court issued an order to stop an Internet-based opera-
  tion that pretended to operate “MakingHomeAffordable.gov,” the official website
  of the Federal Making Home Affordable program. According to the FTC’s com-
  plaint, the defendants purchased sponsored links as advertising on the results
  pages of Internet search engines, and, when consumers searched for “making
  home affordable” or similar search terms, the defendants’ ads prominently and
  conspicuously displayed “MakingHomeAffordable.gov.” Consumers who clicked
  on this link were not directed to the official website, but were diverted to sites
  that solicit applicants for paid loan modification services. The operators of these
  websites either purport to offer loan modification services themselves or sold
  the victims’ personally identifying information to others. SIGTARP is providing
  assistance to FTC during the investigation.

    More than 50% of SIGTARP’s ongoing investigations were developed in whole
or in part through tips or leads provided on SIGTARP’s Hotline (877-SIG-2009
or accessible at www.SIGTARP.gov). Over the past quarter, the SIGTARP Hotline
received and analyzed more than 3,200 tips, running the gamut from expressions of
concern over the economy to serious allegations of fraud.
    SIGTARP remains committed to being proactive in dealing with potential fraud
in TARP. For example, the previously announced TALF Task Force, which was
6   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                           organized by SIGTARP to get out in front of any efforts to profit criminally from
                                           the Term Asset-Backed Securities Loan Facility (“TALF”), has been expanded to
                                           cover the Public-Private Investment Program (“PPIP”). In addition to SIGTARP,
                                           the TALF-PPIP Task Force consists of the Inspector General of the Board of
                                           Governors of the Federal Reserve System, the Federal Bureau of Investigation,
                                           Treasury’s Financial Crimes Enforcement Network, U.S. Immigration and Customs
                                           Enforcement, the Internal Revenue Service Criminal Investigation Division, the
                                           Securities and Exchange Commission, and the U.S. Postal Inspection Service.
                                               On the audit side, SIGTARP is in the process of completing its first round of
                                           audits. SIGTARP will be issuing, at about the time of this report, its first formal
                                           audit report concerning how recipients of Capital Purchase Program (“CPP”) funds
                                           reported their use of such funds. In February 2009, SIGTARP sent survey letters to
                                           more than 360 financial and other institutions that had completed TARP funding
                                           agreements through January 2009. Although most banks reported they did not seg-
                                           regate or track TARP fund usage on a dollar-for-dollar basis, most banks were able
                                           to provide insights into their actual or planned future use of TARP funds. For some
                                           respondents the infusion of TARP funds helped to avoid a “managed” reduction of
                                           their activities; others reported that their lending activities would have come to a
                                           standstill without TARP funds; and others explained that they used TARP funds to
                                           acquire other institutions, invest in securities, pay off debts, or that they retained
                                           the funds to serve as a cushion against future losses. Many survey responses also
                                           highlighted the importance of the TARP funds to the bank’s capital base, and
                                           by extension, the impact of the funds on lending. In light of the audit findings,
                                           SIGTARP renews its recommendation that the Secretary of the Treasury require all
                                           TARP recipients to submit periodic reports to Treasury on their use of TARP funds.
                                               SIGTARP also has audits nearing completion examining the following issues:
                                           executive compensation restriction compliance, controls over external influences
                                           on the CPP application process, selection of the first nine participants for funds
                                           under CPP (with a particular emphasis on Bank of America), AIG bonuses, and
                                           AIG counterparty payments. In addition, SIGTARP is undertaking a series of new
                                           audits, as follows:

                                           • CPP Warrant Valuation and Disposition Process: The audit will seek to
                                             determine (i) the extent to which financial institutions have repaid Treasury’s
                                             investment under CPP and the extent to which the warrants associated with that
                                             process were repurchased or sold; and (ii) what process and procedures Treasury
                                             has established to ensure the Government receives fair market value for the war-
                                             rants and the extent to which Treasury follows a clear, consistent, and objective
                                             process in reaching decisions where differing valuations of warrants exist. This
                                             audit complements a July 10, 2009, report by the Congressional Oversight Panel
                                             examining the warrant valuation process.
                                           • Follow-up Assessment of Use of Funds by TARP Recipients: This audit will
                                             examine use of funds by recipients receiving extraordinary assistance under the
                                                                                QUARTERLY REPORT TO CONGRESS I JULY 21, 2009   7




  Systemically Significant Failing Institutions program, the Automotive Industry
  Financing Program, as well as insurance companies receiving assistance under
  CPP.
• Governance Issues Where U.S. Holds Large Ownership Interests: The audit,
  being conducted at the request of Senator Max Baucus, will examine governance
  issues when the U.S. Government has obtained a large ownership interest in a
  particular institution, including: (i) What is the extent of Government involve-
  ment in management of companies in which it has made sizeable investments,
  including direction and control over such elements as governance, compensa-
  tion, spending, and other corporate decision making? (ii) To what extent are
  effective risk management, internal controls, and monitoring in place to protect
  and balance the Government’s interests and corporate needs? (iii) Are there per-
  formance measures in place that can be used to track progress against long-term
  goals and timeframes affecting the Government’s ability to wind down its invest-
  ments and disengage from these companies? (iv) Is there adequate transparency
  to support decision making and to provide full disclosure to the Congress and the
  public?
• Status of the Government’s Asset Guarantee Program with Citigroup: The
  audit examining the Government’s Asset Guarantee Program (“AGP”) with
  Citigroup, based upon a request by Representative Alan Grayson, will address a
  series of questions about the Government’s guarantee of certain Citigroup assets
  through the AGP such as: (i) How was the program for Citigroup developed? (ii)
  What are the current cash flows from the affected assets? and (iii) What are the
  potential for losses to Treasury, the Federal Deposit Insurance Corporation, and
  the Federal Reserve under the program?
• Making Home Affordable Mortgage Modification Program: This audit will
  examine the Making Home Affordable mortgage modification program to assess
  the status of the program, the effectiveness of outreach efforts, capabilities of
  loan servicers to provide services to eligible recipients, and challenges confront-
  ing the program as it goes forward.

SIGTARP’S RECOMMENDATIONS ON THE OPERATION OF TARP
One of SIGTARP’s oversight responsibilities is to provide recommendations to
Treasury so that TARP programs can be designed or modified to facilitate effective
oversight and transparency and to prevent fraud, waste, and abuse. In Section 5 of
this report, SIGTARP details ongoing recommendations concerning PPIP, TALF,
and tracking use of funds and provides an update on the implementation of recom-
mendations made in previous reports. Two categories of recommendation are worth
highlighting at the outset:

Transparency in TARP Programs
Although Treasury has taken some steps towards improving transparency in TARP
programs, it has repeatedly failed to adopt recommendations that SIGTARP
8   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            believes are essential to providing basic transparency and fulfill Treasury’s stated
                                            commitment to implement TARP “with the highest degree of accountability and
                                            transparency possible.” With one new recommendation made in this report, there
                                            are at least four such unadopted recommendations:

                                            • Use of Funds Generally: One of SIGTARP’s first recommendations was
                                              that Treasury require all TARP recipients to report on the actual use of TARP
                                              funds. Other than in a few agreements (with Citigroup, Bank of America, and
                                              AIG), Treasury has declined to adopt this recommendation, calling any such
                                              reporting “meaningless” in light of the inherent fungibility of money. SIGTARP
                                              continues to believe that banks can provide meaningful information about
                                              what they are doing with TARP funds — in particular what activities they
                                              would not have been able to do but for the infusion of TARP funds. That belief
                                              has been supported by SIGTARP’s first audit, in which nearly all banks were
                                              able to provide such information.
                                            • Valuation of the TARP Portfolio: SIGTARP has recommended that Treasury
                                              begin reporting on the values of its TARP portfolio so that taxpayers can get
                                              regular updates on the financial performance of their TARP investments.
                                              Notwithstanding that Treasury has now retained asset managers and is receiv-
                                              ing such valuation data on a monthly basis, Treasury has not committed to
                                              providing such information except on the statutorily required annual basis.
                                            • Disclosure of TALF Borrowers Upon Surrender of Collateral: In TALF,
                                              the loans are non-recourse, that is, the lender (Federal Reserve Bank of New
                                              York) will have no recourse against the borrower beyond taking possession of
                                              the posted collateral (consisting of asset-backed securities (“ABS”)). Under the
                                              program, should such a collateral surrender occur, TARP funds will be used
                                              to purchase the surrendered collateral. In light of this use of TARP funds,
                                              SIGTARP has recommended that Treasury and the Federal Reserve disclose
                                              the identity of any TALF borrowers that fail to repay the TALF loan and must
                                              surrender the ABS collateral.
                                            • Regular Disclosure of PPIF Activity, Holdings, and Valuation: In the PPIP
                                              Legacy Securities Program, the taxpayer will be providing a substantial portion
                                              of the funds (contributing both equity and lending) that will be used to pur-
                                              chase toxic assets in the Public-Private Investment Funds (“PPIFs”). SIGTARP
                                              is recommending that all trading activity, holdings, and valuations of assets of
                                              the PPIFs be disclosed on a timely basis. Not only should this disclosure be re-
                                              quired as a matter of basic transparency in light of the billions of taxpayer dol-
                                              lars at stake, but such disclosure would also serve well one of Treasury’s stated
                                              reasons for the program in the first instance: the promotion of “price discovery”
                                              in the illiquid market for MBS. Treasury has indicated that it will not require
                                              such disclosure.
                                                                                   QUARTERLY REPORT TO CONGRESS I JULY 21, 2009   9




    Although SIGTARP understands Treasury’s need to balance the public’s trans-
parency interests, on one hand, with the interests of the participants and the desire
to have wide participation in the programs, on the other, Treasury’s default position
should always be to require more disclosure rather than less and to provide the
investors in TARP — the American taxpayers — as much information about what
is being done with their money as possible. Unfortunately, in rejecting SIGTARP’s
basic transparency recommendations, TARP has become a program in which
taxpayers (i) are not being told what most of the TARP recipients are doing with
their money, (ii) have still not been told how much their substantial investments are
worth, and (iii) will not be told the full details of how their money is being invested.
In SIGTARP’s view, the very credibility of TARP (and thus in large measure its
chance of success) depends on whether Treasury will commit, in deed as in word,
to operate TARP with the highest degree of transparency possible.

Imposition of Information Barriers, or “Walls,” in PPIP
In the April Quarterly Report, SIGTARP noted that conflicts of interest and col-
lusion vulnerabilities were inherent in the design of PPIP stemming from the fact
that the PPIF managers will have significant power to set prices in a largely illiquid
market. These vulnerabilities could result in PPIF managers having an incentive
to overpay significantly for assets or otherwise using the valuable, proprietary PPIF
trading information to benefit not the PPIF, but rather the manager’s non-PPIF
business interests. As a result, SIGTARP made a series of recommendations in the
April Quarterly Report, including that Treasury should impose strict conflicts of
interest rules.
     Since the April Quarterly Report, Treasury has worked with SIGTARP to address
the vulnerabilities in PPIP, and SIGTARP made a series of specific recommenda-
tions, suggestions, and comments concerning the design of the program. Treasury
adopted many of SIGTARP’s suggestions and has developed numerous provisions
that make PPIP far better from a compliance and anti-fraud standpoint than when
the program was initially announced.
     However, Treasury has declined to adopt one of SIGTARP’s most fundamental
recommendations — that Treasury should require imposition of an informational
barrier or “wall” between the PPIF fund managers making investment decisions on
behalf of the PPIF and those employees of the fund management company who
manage non-PPIF funds. Treasury has decided not to impose such a wall in this
instance, despite the fact that such walls have been imposed upon asset manag-
ers in similar contexts in other Government bailout-related programs, including by
Treasury itself in other TARP-related activities, and despite the fact that three of
the nine PPIF managers already must abide by similar walls in their work for those
other programs.
     If nothing else, the reputational risk that Treasury and the program could face
if a PPIF manager should generate massive profits in its non-PPIF funds as a result
10   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            of an unfair advantage, even if that advantage is not strictly against the rules, justi-
                                            fies the imposition of a wall. Failure to impose a wall, on the other hand, will leave
                                            Treasury vulnerable to an accusation that has already been leveled against it — that
                                            Treasury is using TARP to pick winners and losers and that, by granting certain firms
                                            the PPIF manager status, it is benefitting a chosen few at the expense of the dozens
                                            of firms that were rejected, of the market as a whole, and of the American taxpayer.
                                            This reputational risk is not one that can be readily measured in dollars and cents,
                                            but is rather a risk that could put in jeopardy the fragile trust the American people
                                            have in TARP and, by extension, their Government.
                                                In addition to these recommendations, SIGTARP also makes additional recom-
                                            mendations, described in more detail in Section 5, concerning other aspects of PPIP
                                            and concerning the use of ratings agencies in TALF.

                                            REPORT ORGANIZATION
                                            The report is organized as follows:

                                            • Section 1 describes the activities of SIGTARP.
                                            • Section 2 describes how Treasury has spent TARP funds thus far and contains
                                              an explanation or update of each program, both implemented and recently
                                              announced.
                                            • Section 3 places TARP in the context of the broader bailout efforts by sum-
                                              marizing multiple other Government programs that support the financial system
                                              and the economy.
                                            • Section 4 describes the operations and administration of the Office of Financial
                                              Stability (“OFS”), the office within Treasury that manages TARP.
                                            • Section 5 lays out SIGTARP’s recommendations to Treasury with respect to the
                                              operation of TARP.
                                            • The report also includes numerous appendices containing, among other things,
                                              figures and tables detailing all TARP investments through June 30, 2009.

                                                The goal is to make this report a ready reference on what TARP is and how it
                                            has been used to date. In the interest of making this report as understandable as
                                            possible, and thereby furthering general transparency of the program itself, certain
                                            technical terms are highlighted in the text and defined in the adjacent margin. In ad-
                                            dition, portions of Sections 2 and 3 are devoted to tutorials explaining the financial
                                            terms and concepts necessary to obtain a basic understanding of the programs’
                                            operations.
            THE OFFICE OF THE SPECIAL
SECTION 1
               INVESTIGATIONS
            INSPECTOR GENERAL FOR THE
            TROUBLED ASSET RELIEF PROGRAM
12   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                                QUARTERLY REPORT TO CONGRESS I JULY 21, 2009   13




SIGTARP’S CREATION AND STATUTORY AUTHORITY
Emergency Economic Stabilization Act
The Office of the Special Inspector General for the Troubled Asset Relief
Program (“SIGTARP”) was created by Section 121 of the Emergency Economic
Stabilization Act of 2008 (“EESA”). Under EESA, SIGTARP has the responsibility,
among other things, to conduct, supervise, and coordinate audits and investiga-
tions of the purchase, management, and sale of assets under the Troubled Asset
Relief Program (“TARP”). SIGTARP is required to report quarterly to Congress to
describe SIGTARP’s activities and to provide certain information about TARP over
that preceding quarter. EESA gives SIGTARP the authorities listed in Section 6 of
the Inspector General Act of 1978, including the power to obtain documents and
other information from Federal agencies and to subpoena reports, documents, and
other information from persons or entities outside of Government. EESA provided
SIGTARP with an initial allocation of $50 million to fund its operations.
    The Special Inspector General, Neil M. Barofsky, was confirmed by the Senate
on December 8, 2008, and sworn into office on December 15, 2008.

SIGTARP Act
On April 24, 2009, the President signed into law the Special Inspector General for
the Troubled Asset Relief Program Act of 2009 (the “SIGTARP Act” or the “Act”),
which amends EESA as follows:

• provides SIGTARP the authority, with limited exceptions, to conduct, supervise,
  and coordinate audits and investigations into any actions taken under EESA
• makes clear that SIGTARP can undertake law enforcement functions without
  first obtaining Attorney General approval
• gives SIGTARP the responsibility to coordinate and cooperate with other in-
  spectors general on oversight of TARP-related activities
• clarifies that SIGTARP’s quarterly reports are due 30 days after the end of a fis-
  cal quarter
• provides SIGTARP with the ability to hire up to 25 Federal retirees, without off-
  set of their pension, and, for six months, the authority to hire Federal employees
  under 5 U.S.C. § 3161, which gives employees a right to return to their original
  agencies once SIGTARP no longer exists
• requires the Treasury Secretary to take steps to address deficiencies identified by
  SIGTARP or certify to Congress that no action is necessary or appropriate
• mandates that SIGTARP shall provide a report to Congress, by September 1,
  2009, on how TARP recipients have used TARP funds
• releases SIGTARP’s $50 million allocation for immediate use
14   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                SIGTARP believes that the Act makes clear that it has the authorities it needs
                                            to fulfill its mission and will significantly improve its ability to attract and hire expe-
                                            rienced Government auditors and investigators.

                                            Ensign-Boxer Amendment
                                            On May 20, 2009, the President signed into law the Helping Families Save Their
                                            Homes Act of 2009, Public Law No. 111-22. Section 402 of this legislation (the
                                            “Ensign-Boxer Amendment”) is named after two of its co-sponsors, Senators John
                                            Ensign and Barbara Boxer. The Ensign-Boxer Amendment, consistent with recom-
                                            mendations made in SIGTARP’s Quarterly Report to Congress, dated April 21,
                                            2009 (the “April Quarterly Report”), requires the U.S. Department of the Treasury
                                            (“Treasury”), in implementing its Public-Private Investment Program (“PPIP”), to:

                                            • impose, in consultation with SIGTARP, strict conflicts-of-interest rules on
                                              Public-Private Investment Fund (“PPIF”) managers to ensure arm’s-length
                                              transactions, compliance with fiduciary duties, and full disclosure of relevant
                                              facts and financial interests
                                            • require PPIF managers to file quarterly reports, disclosing the 10 largest posi-
                                              tions of the fund
                                            • provide for SIGTARP access to PPIF manager books and records
                                            • compel PPIF managers to retain all of their books and records
                                            • require PPIF managers to acknowledge, in writing, that they owe fiduciary du-
                                              ties to the public and private investors in the fund
                                            • provide that PPIF managers must develop robust ethics policies and ensure
                                              compliance with the same
                                            • compel PPIF managers to develop and implement strict investor screening
                                              procedures
                                            • require PPIF managers periodically to identify each investor that directly or
                                              indirectly owns 10% or more of the fund
                                            • consult with SIGTARP and issue regulations governing the interaction of PPIP
                                              with the Term Asset-Backed Securities Loan Facility (“TALF”) and other similar
                                              public-private investment programs

                                               As discussed later in this section and in detail in Section 5 of this report,
                                            SIGTARP has, consistent with this statute, engaged in a series of discussions with
                                            Treasury concerning the design of PPIP. For more detail on PPIP operations,
                                            see the “Public-Private Investment Program” discussion in Section 2: “TARP
                                            Overview.”
                                               The Ensign-Boxer Amendment also made available to SIGTARP an additional
                                            $15 million, but directed that SIGTARP, in expending such funds, prioritize per-
                                            formance audits and investigations of recipients of non-recourse loans made under
                                            any program that is funded by EESA. SIGTARP believes that the Ensign-Boxer
                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 21, 2009          15




Amendment will assist SIGTARP to fulfill its mission under EESA and that it will
substantially improve the controls of PPIP and make it less susceptible to fraud,
waste, and abuse.

Fraud Enforcement Recovery Act
Also on May 20, 2009, the President signed into law the Fraud Enforcement
Recovery Act of 2009, Public Law No. 111-21 (“FERA”). Section 2(d) of FERA
amends 18 U.S.C. § 1031, entitled “Major Fraud Against the United States,” by
clarifying that any fraud related to efforts to obtain Federal financial assistance or        Fraud Enforcement Recovery Act of
economic stimulus made available pursuant to EESA invokes the application of                  2009, Public Law No. 111-21 (“FERA”):
criminal remedies under that section. SIGTARP believes that section 2(d) of FERA              A law enacted to expand the Depart-
will thus enhance deterrence and assist in the prosecution of persons who are                 ment of Justice’s authority to prose-
inclined or attempt to defraud the programs implemented under EESA.                           cute crimes related to mortgage fraud,
                                                                                              commodities fraud, and fraud associat-
                                                                                              ed with Government assistance related
SIGTARP’S OVERSIGHT ACTIVITIES SINCE THE                                                      to the economic crisis.
APRIL QUARTERLY REPORT
SIGTARP has continued to fulfill its oversight role in multiple parallel tracks: from
making recommendations relating to preventing fraud and abuse prospectively; to
auditing aspects of TARP both inside and outside of Government; to investigating
allegations of fraud, waste, and abuse in TARP programs; to coordinating closely
with other oversight bodies; all the while trying to promote transparency in TARP
programs.

Providing Advice on Compliance and Fraud Prevention
To further its goal of improving prospectively the compliance and fraud prevention
aspects of TARP programs, SIGTARP has attempted to establish and maintain
regular lines of communications with the personnel primarily responsible for run-
ning TARP, including those working within Treasury’s Office of Financial Stability
(“OFS”) and within other agencies who manage TARP-related programs or activi-
ties, including the bank regulators, the Federal Reserve Board, and the Federal
Reserve Bank of New York (“FRBNY”), as follows:

• SIGTARP personnel generally receive briefings concerning each new TARP
  initiative and new developments in implemented programs when necessary.
• The Special Inspector General and Deputy Special Inspector General typically
  meet weekly with the head of OFS, OFS’s Chief Compliance Officer, and OFS’s
  General Counsel to discuss ongoing issues and new developments.
• SIGTARP has established regular communication with officials from the
  Federal Reserve System (staff from the Federal Reserve Board of Governors and
  FRBNY) in connection with the Federal Reserve TARP-related programs.
16            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                         Generally, Treasury and the other agencies have been cooperative in making
                                                     their personnel available to SIGTARP and have responded to SIGTARP’s requests
                                                     for documents and information.
                                                         SIGTARP has endeavored, to the extent it has had an opportunity, to examine
                                                     the planned framework for TARP initiatives before their terms are finalized and to
                                                     make recommendations designed to advance oversight and internal controls and
     Mortgage-Backed Securities (“MBS”):             prevent fraud, waste, and abuse within the programs. Since the April Quarterly
     A pool of mortgages bundled together            Report, SIGTARP has made such recommendations with regard to PPIP’s Legacy
     by a financial institution and sold as
                                                     Securities Program, among others.
     securities — a type of asset-backed
     security.
                                                     Recommendations Regarding the Legacy Securities Program
                                                     As discussed more fully in Section 2 of this report, in PPIP’s Legacy Securities
                                                     Program, private fund managers will buy and manage portfolios of legacy mort-
                                                     gage-backed securities (“MBS”) with equity consisting of both private capital and
                                                     TARP funds. In the April Quarterly Report, SIGTARP identified several potential
                                                     vulnerabilities in the basic structure of PPIP and made a series of recommenda-
                                                     tions addressing such vulnerabilities in the areas, among others, of conflicts of
                                                     interest, collusion, money laundering, and how PPIP would interact with TALF.
                                                     Consistent with the Ensign-Boxer Amendment, SIGTARP and Treasury have
                                                     engaged in an active dialogue concerning the compliance and anti-fraud provisions
                                                     of the Legacy Securities Program. In light of those discussions, and after SIGTARP
                                                     consulted extensively with the Federal Reserve and FRBNY (which administers
                                                     several programs in which asset managers are retained in similar circumstances),
                                                     SIGTARP made a series of additional recommendations in two letters to Treasury.
                                                     As discussed in more detail in Section 5 of this report, Treasury has adopted many
                                                     of SIGTARP’s recommendations, making the program far better from a compli-
                                                     ance and fraud-prevention standpoint. However, Treasury has not adopted several
                                                     fundamentally important recommendations, including the need for an information
                                                     barrier, or “wall,” between those managing the PPIP funds and those managing
                                                     portfolios of similar assets at each fund management company.

                                                     SIGTARP Audit Activity
                                                     To fulfill SIGTARP’s mandate to promote the economy, efficiency, and effectiveness
                                                     of TARP programs and operations, SIGTARP’s Audit Division has identified several
                                                     aspects of TARP — some internal to Treasury and some external — that will be the
                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 21, 2009   17




general focus of its work. SIGTARP’s audits generally will be designed to accom-
plish these objectives:

• ensure transparency in TARP programs to the fullest reasonable extent to foster
  accountability in use of funds and program results
• examine whether Treasury managers have developed sufficient internal controls
  and procedures to manage TARP programs and the vendors hired to assist in
  such management
• ensure a fair, equitable, and consistent application and review process for indi-
  viduals and entities seeking relief under the various TARP programs
• test compliance with the policies, procedures, regulations, terms, and conditions
  that are imposed on TARP participants
• coordinate with other relevant audit and oversight entities to maximize audit
  coverage while minimizing overlap and duplication of efforts

SIGTARP’s First Completed Audit: Use of Funds
SIGTARP’s first audit report, which is being released at or about the time of this re-
port, concerns how recipients of Capital Purchase Program (“CPP”) funds reported
their use of such funds. In February 2009, SIGTARP sent survey letters to more
than 360 financial and other institutions that had completed TARP funding agree-
ments through January 2009. In response to those surveys, although most banks
reported that they did not segregate or track TARP fund usage on a dollar-for-dollar
basis, they were able to provide insights into their actual or planned future use of
TARP funds. Over 98% of survey recipients reported their actual uses of TARP
funds. Highlights of the audit include:

• More than 80% of respondents cited the use of funds for lending; some reported
  how it helped them avoid reduced lending. Many banks reported that lending
  would have been lower without TARP funds or would have come to a standstill.
• More than 40% of respondents reported that they used some TARP funds to
  help maintain the capital cushions and reserves required by their banking regu-
  lators to be able to absorb unanticipated losses.
• Nearly a third of the respondents reported that they used some TARP funds to
  invest in MBS, such as those backed by Ginnie Mae, Fannie Mae, and Freddie
  Mac. These actions provided immediate support of the lending and borrowing
  activities of other banks and positioned the banks for increased lending later.
• A smaller number reported using some TARP funds to repay outstanding loans
  — some because the TARP funds were a more cost-effective source of funds
18   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                               than their outstanding debt and some because of pressure from a creditor to use
                                               the funds for that purpose.
                                            • Several banks reported using some TARP funds to buy other banks. One re-
                                               ported that this was a cost-effective way to acquire additional deposits that, in
                                               turn, would facilitate an even greater amount of lending.
                                            • Some banks reported that they had not yet allocated funds for lending and other
                                               activities due to the short time elapsed since the receipt of funds, the weak
                                               demand for credit, and the uncertain economic environment.
                                                As discussed further in Section 5 of this report, in light of the audit findings,
                                            SIGTARP renews its recommendation that the Secretary of the Treasury (“Treasury
                                            Secretary”) require all CPP recipients to submit periodic reports to Treasury on
                                            their use of TARP funds, including reports on their lending, investments, acquisi-
                                            tions, and other activities that were supported by or resulted from their receipt of
                                            TARP funds, as well as a description of what actions they were able to take as a
                                            result of TARP funding.

                                            Audits Nearing Completion
                                            Several additional audits are nearing completion, and SIGTARP plans to issue
                                            reports on the following audits over the next quarter:

                                            • Executive Compensation Compliance: This audit, also based on SIGTARP’s
                                              survey of TARP recipients, examines evolving executive compensation require-
                                              ments during the first nine months of TARP and efforts of CPP recipients to
                                              comply with the requirements as known at the time. This report is expected to
                                              be issued in August 2009.
                                            • External Influences: This audit examines whether, or to what extent, external
                                              parties may have influenced decision making by Treasury or bank regulators in
                                              approving bank applications for funding under CPP. This report is also expected
                                              to be issued in August 2009.
                                            • Funding of the First Nine TARP Recipients, with a Special Focus on
                                              Bank of America: This audit examines the review and approval process associ-
                                              ated with TARP assistance to the first nine CPP recipients, with emphasis on
                                              additional assistance to Bank of America subsequently authorized under the
                                              Targeted Investment and the Asset Guarantee Programs (“TIP” and “AGP”).
                                              The audit also examines selected issues and interactions among Treasury,
                                              Federal Reserve, and Bank of America officials in connection with Bank of
                                              America’s acquisition of Merrill Lynch and the timing of Government assistance
                                              under the latter two programs following the acquisition. This report is expected
                                              to be issued in September 2009.
                                            • Executive Compensation Oversight (AIG Bonuses): This audit examines
                                              payouts of large bonus payments to American International Group (“AIG”)
                                                                               QUARTERLY REPORT TO CONGRESS I JULY 21, 2009   19




  employees in March 2009, including the extent of knowledge and oversight of
  AIG compensation issues by Treasury and FRBNY in light of their respective
  programs involving AIG. This report is expected to be issued in September 2009.
• AIG Counterparty Payments: This audit examines payments made to AIG
  counterparties. AIG, which has received the largest amount of financial assis-
  tance from the Government during the current financial crisis, reportedly made
  counterparty payments at 100% of face value to other financial institutions,
  including some foreign institutions and other financial institutions that had
  received financial assistance under TARP. Questions exist whether any efforts
  were made to negotiate any reduction in those payments. This report is expected
  to be issued in September 2009.

New Audits Underway or Planned
SIGTARP has a number of recently announced audits and several others are
planned. Recently announced audits include:

• CPP Warrant Valuation and Disposition Process: This audit seeks to deter-
  mine (i) the extent to which financial institutions have repaid Treasury’s invest-
  ment under CPP and the extent to which the warrants associated with that
  process were repurchased or sold; and (ii) what process and procedures Treasury
  has established to ensure that the Government receives fair market value for
  the warrants, and the extent to which Treasury follows a clear, consistent, and
  objective process in reaching decisions where differing valuations of warrants
  exist. This audit complements a Congressional Oversight Panel (“COP”) report
  released on July 10, 2009, that examines the warrant valuation process.
• Follow-up Assessments of Use of Funds by TARP Recipients: This audit fol-
  lows up on SIGTARP’s earlier use of funds audit. It focuses on use of funds by
  recipients receiving extraordinary assistance under the Systemically Significant
  Failing Institutions (“SSFI”) program, the Automotive Industry Financing
  Program (“AIFP”), as well as insurance companies receiving assistance under
  CPP. This review seeks to provide a more complete picture of use of funds
  across a broader category of recipients to meet a Congressional mandate for a
  SIGTARP report on use of funds by TARP recipients.
• Governance Issues Where U.S. Holds Large Ownership Interests:
  SIGTARP recently received a request from Senator Max Baucus, Chairman
  of the Senate Committee on Finance, to undertake a body of work examin-
  ing the following issues: (i) What is the extent of Government involvement in
  management of companies in which it has made sizeable investments, including
  direction and control over such elements as governance, compensation, spend-
  ing, and other corporate decision making? (ii) To what extent are effective risk
  management, internal controls, and monitoring in place to protect and balance
20   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                              the Government’s interests and corporate needs? (iii) Are there performance
                                              measures in place that can be used to track progress against long-term goals
                                              and timeframes affecting the Government’s ability to wind down its investments
                                              and disengage from these companies? (iv) Is there adequate transparency to
                                              support decision making and to provide full disclosure to Congress and the
                                              public? SIGTARP is currently engaged in discussions and planning with the
                                              Government Accountability Office (“GAO”) directed toward a potential joint or
                                              complementary effort in addressing this request.
                                            • Status of the Government’s Asset Guarantee Program with Citigroup: This
                                              review, recently requested by Representative Alan Grayson, addresses a series of
                                              questions about the Government’s guarantee of certain Citigroup assets through
                                              the AGP such as: (i) How was the program for Citigroup developed? (ii) What
                                              are the current cash flows from the affected assets? (iii) What is the potential
                                              for losses to Treasury, the Federal Deposit Insurance Corporation (“FDIC”), and
                                              the Federal Reserve under the program? SIGTARP expects to launch a review of
                                              this program during this coming quarter.
                                            • Making Home Affordable Mortgage Modification Program: According
                                              to Treasury, approximately three to four million homeowners could benefit
                                              from the Making Home Affordable (“MHA”) mortgage modification program.
                                              SIGTARP plans to launch a broad review during this coming quarter to assess
                                              the status of the program, the effectiveness of outreach efforts, capabilities of
                                              loan servicers to provide services to eligible recipients, and challenges confront-
                                              ing the program as it goes forward.

                                            SIGTARP Investigations Activity
                                            SIGTARP’s Investigations Division has developed rapidly and is quickly becoming a
                                            sophisticated white-collar investigative agency. Through June 30, 2009, SIGTARP
                                            has opened 37 and has 35 ongoing criminal and civil investigations. These investi-
                                            gations include complex issues concerning suspected accounting fraud, securities
                                            fraud, insider trading, mortgage servicer misconduct, mortgage fraud, public cor-
                                            ruption, false statements, and tax investigations. Two of SIGTARP’s investigations
                                            have recently become public.

                                            Felony Charges Against Gordon Grigg
                                            On April 23, 2009, Federal felony charges were brought against Gordon B. Grigg in
                                            the U.S. District Court for the Middle District of Tennessee, charging Grigg with
                                            four counts of mail fraud and four counts of wire fraud. The charges are based on
                                            Grigg’s role in embezzling approximately $11 million in client investment funds.
                                            Grigg pled guilty to all charges and is scheduled for sentencing on August 6, 2009.
                                               According to public documents, Grigg solicited approximately 60 investors to
                                            invest funds totaling approximately $11 million. Grigg never purchased securities
                                                                                  QUARTERLY REPORT TO CONGRESS I JULY 21, 2009   21




or managed accounts for clients who invested funds with him; instead, he used
the investor funds for his personal benefit and expenses and to disburse “ficti-
tious” earnings and return of deposits to clients who cashed out or closed their
accounts. As an inducement for clients to invest, Grigg promised that he would
generate and sustain high rates of annualized returns on investment, and, as part
of his solicitation, he falsely claimed that he had the ability to invest client funds
in Government-guaranteed commercial paper and bank debt as part of TARP.
SIGTARP investigators provided assistance in the case in coordination with the
United States Attorney’s Office for the Middle District of Tennessee, the Securities
and Exchange Commission (“SEC”), the Federal Bureau of Investigation (“FBI”),
the United States Postal Inspection Service (“USPIS”), the Tennessee Department
of Commerce and Insurance, and the Franklin, Tennessee, Police Department.

Supporting FTC’s Action Enjoining Improper Use of
“MakingHomeAffordable.gov”
On Friday, May 15, 2009, at the request of the Federal Trade Commission (“FTC”),
a Federal district court issued an order to stop an Internet-based operation that pre-
tended to operate “MakingHomeAffordable.gov,” the official website of the Federal
MHA program for mortgage loan assistance. The FTC alleged that the defendants
deceptively diverted consumers who searched online for the free Government-
assistance program to commercial websites that offer loan modification services for
a fee.
    According to the FTC’s complaint, the defendants purchased sponsored links
for their advertising on the results pages of Internet search engines, including
yahoo.com, msn.com, altavista.com, and alltheweb.com. When consumers
searched for “making home affordable” or similar search terms, the defendants’ ads
prominently and conspicuously displayed the website address “makinghomeafford-
able.gov.” Consumers who clicked on this advertised hyperlink were not directed to
the official website for the MHA program, but rather were diverted to websites that
solicit applicants for paid loan modification services. These commercial websites,
which are not part of or affiliated with the U.S. Government, require consumers to
enter personally identifying and confidential financial information. The operators of
these websites either purport to offer loan modification services themselves or sell
the personally identifying information to others.
    The FTC filed an emergency request for a temporary restraining order in the
U.S. District Court for the District of Columbia, Civil Case No. 1:09-cv-00894
(CKK). Judge Colleen Kollar-Kotelly entered a temporary restraining order, barring
the defendants from using the “MakingHomeAffordable.gov” hyperlink or repre-
senting that they are affiliated with the U.S. Government. The order also requires
the four search engine providers to identify those who paid them to place the
ads and to refuse to place paid ads that contain active hyperlinks that are labeled
22   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            “MakingHomeAffordable.gov” or any other domain name containing “.gov.”
                                               SIGTARP is providing assistance and support to the FTC during the
                                            investigation.

                                            SIGTARP Hotline
                                            One of SIGTARP’s primary investigative priorities is to operate the SIGTARP
                                            Hotline and thus provide an interface with the American public to facilitate the re-
                                            porting of concerns, allegations, information, and evidence of violations of criminal
                                            and civil laws in connection with TARP. Over the past quarter alone, the SIGTARP
                                            Hotline has received and analyzed more than 3,200 contacts on the Hotline. These
                                            contacts run the gamut from expressions of concern over the economy to serious
                                            allegations of fraud involving TARP, and more than half of SIGTARP’s investiga-
                                            tions were generated in connection with Hotline tips. The SIGTARP Hotline is
                                            capable of receiving information anonymously, and confidentiality can and will be
                                            provided to the fullest extent possible. The American public can provide informa-
                                            tion by telephone, mail, fax, or online. SIGTARP has established a Hotline con-
                                            nection on its website at www.SIGTARP.gov. SIGTARP honors all whistleblower
                                            protections.

                                            TALF-PPIP Task Force
                                            In a proactive initiative to get out in front of any efforts to profit criminally from
                                            the up to $1 trillion TALF program, SIGTARP organized a multi-agency task force
                                            to deter, detect, and investigate any instances of fraud or abuse in TALF. In con-
                                            nection with the announcement of the Financial Stability Plan (“FSP”), Treasury
                                            announced the outlines of PPIP to deal with the problems posed by “toxic” legacy
                                            mortgages and MBS. The PPIFs set up through PPIP will be able to use TALF to
                                            obtain Federal Reserve financing to purchase such assets. Because of the expected
                                            use of TALF by PPIP and the significant subject-matter overlap, SIGTARP and its
                                            partners have expanded the TALF Task Force to also address the law enforcement
                                            challenges posed by PPIP.
                                                The TALF-PPIP Task Force, comprising both civil and criminal law enforce-
                                            ment agencies, with both investigative and analytical resources, demonstrates
                                            that the agencies involved are meeting that challenge proactively and before the
                                            bulk of the money has been expended. In addition to SIGTARP, the TALF-PPIP
                                            Task Force consists of the Inspector General of the Board of Governors of the
                                            Federal Reserve System, FBI, Treasury’s Financial Crimes Enforcement Network
                                            (“FinCEN”), U.S. Immigration and Customs Enforcement (“ICE”), Internal
                                            Revenue Service Criminal Investigation Division (“IRS-CI”), SEC, and the USPIS.
                                            The members of the TALF-PPIP Task Force combine their shared expertise in
                                            securities fraud investigations and maximize their resources to deter potential
                                            criminals, to identify and stop fraud schemes before they can fully develop, and to
                                                                                   QUARTERLY REPORT TO CONGRESS I JULY 21, 2009   23




bring to justice those who seek to commit fraud through TALF or PPIP. Although
participants of these programs who play by the rules have nothing to fear from this
Task Force, Federal law enforcement is ready now to detect, investigate, and bring
to justice any who would try to steal from these important programs.
    Representatives from each agency participate in regular briefings about TALF
and PPIP, collectively identify areas of fraud vulnerability, engage in the training of
agents and analysts with respect to the complex issues surrounding the program,
and serve as points of contact within each agency for leads relating to TALF and
any resulting cases that are generated. The TALF-PPIP Task Force has already
received substantive briefings from FRBNY, Treasury, and SEC and has further
training sessions scheduled.
    The TALF-PPIP Task Force represents a historic law enforcement effort
with an ambitious goal: to redefine the policing of complex Federal Government
programs by proactively arranging a coordinated law enforcement response before
fraud occurs.

Coordination with Law Enforcement Agencies
As part of its coordination role, SIGTARP has been active in forging partnerships
with other criminal and civil law enforcement agencies. These relationships are de-
signed to benefit both investigations originated by other agencies, when SIGTARP
expertise can be brought to bear, and SIGTARP’s own investigations, which can be
improved by tapping into additional resources. In this regard:

• SIGTARP has continued to develop close working relationships with the FBI,
  IRS-CI, USPIS, ICE, SEC, and the FTC, both with each agency’s headquarters
  and various field offices.
• SIGTARP has brought on a full-time detailee from the FBI’s Washington Field
  Office (“WFO”) to work on SIGTARP investigations and to serve as a liaison
  with the FBI-WFO.
• The Special Inspector General and Deputy Special Inspector General recently
  met with SEC’s new Chief of the Enforcement Division and SIGTARP has
  several ongoing investigations with SEC.
• SIGTARP is in the process of bringing on board a detailee from SEC to assist in
  SIGTARP investigations and to serve as a liaison with SEC.
• SIGTARP has continued to develop relationships with the Department of
  Justice (“DOJ”), both at Main Justice and with U.S. Attorney’s Offices across
  the country, concerning both criminal and civil enforcement, and is currently
  working with various DOJ components on many of its open investigations. The
  Special Inspector General recently gave the keynote address at DOJ/FDIC’s an-
  nual conference on bank fraud.
24   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            • SIGTARP continues to coordinate with more than a dozen States Attorneys
                                              General.
                                            • SIGTARP’s Deputy Special Inspector General for Investigations established
                                              the Assistant Inspector General for Investigations (“AIGI”) TARP Interagency
                                              Working Group. Its objective is to provide an active forum for heads of investiga-
                                              tive divisions within the Inspector General (“IG”) community and other law en-
                                              forcement agencies whose agency mission is in some way affiliated with TARP,
                                              to coordinate and share relevant investigative information at the national level.
                                            • SIGTARP continues to work closely with the New York High Intensity Financial
                                              Crime Area (“NY HIFCA”). NY HIFCA provides SIGTARP with two dedicated
                                              financial analysts, supervised by a Senior Special Agent from ICE, to provide da-
                                              tabase search and analytical support, and the Special Inspector General recently
                                              gave the keynote address at the NY HIFCA’s annual conference. This relation-
                                              ship has already generated several complex ongoing investigations.
                                            • SIGTARP obtains access to Bank Secrecy Act (31 U.S.C. § 5311 et seq.) data-
                                              base services through FinCEN. SIGTARP is working with FinCEN to develop
                                              an advisory regarding TARP programs that will be sent to thousands of financial
                                              institutions, and SIGTARP’s Deputy Special Inspector General gave a presenta-
                                              tion at FinCEN’s Bank Secrecy Act Working Group annual meeting.

                                            Coordination with Other EESA Oversight Bodies
                                            EESA, as amended, is explicit in mandating that SIGTARP coordinate audits and
                                            investigations into TARP with the other primary oversight bodies: the Financial
                                            Stability Oversight Board (“FSOB”), COP, and GAO. Numerous other agencies,
                                            both in the IG community and among criminal and civil law enforcement agencies,
                                            potentially have responsibilities that touch on TARP as well. SIGTARP takes seri-
                                            ously its mandate to coordinate these overlapping oversight responsibilities, both to
                                            ensure maximum coverage and to minimize duplicative requests of TARP manag-
                                            ers. SIGTARP and its partners have continued to have significant success on this
                                            front since the April Quarterly Report. These coordination efforts include:

                                            • bi-weekly conference calls with staff from FSOB
                                            • regular meetings with staff from COP and the launching of a complementary
                                              effort to address Treasury’s repurchase of warrants from TARP recipients
                                            • frequent interactions with GAO to coordinate ongoing and planned work to
                                              avoid any unnecessary duplication of efforts and to better facilitate their indi-
                                              vidual responsibilities
                                                                                QUARTERLY REPORT TO CONGRESS I JULY 21, 2009   25




TARP-IG Council
Due to the scope of the various programs under TARP, numerous Federal agen-
cies have some role in administering or overseeing TARP programs. To further
facilitate SIGTARP’s coordination role, the Special Inspector General founded and
chairs the TARP Inspector General Council (“TARP-IG Council”), made up of
the Comptroller General and those IGs whose oversight functions are most likely
to touch on TARP issues. The Council meets monthly to discuss developments in
TARP and to coordinate overlapping audit and investigative issues. The TARP-IG
Council currently comprises:

•   The Special Inspector General
•   Inspector General of the Department of the Treasury
•   Inspector General of the Board of Governors of the Federal Reserve System
•   Inspector General of the Federal Deposit Insurance Corporation
•   Inspector General of the Securities and Exchange Commission
•   Inspector General of the Federal Housing Finance Agency
•   Inspector General of the Department of Housing and Urban Development
•   Treasury Inspector General for Tax Administration
•   Inspector General for the Small Business Administration
•   Comptroller General of the United States (head of GAO) or designee

Communications with Congress
One of SIGTARP’s primary functions is to ensure that Members of Congress are
kept informed of developments in TARP programs and SIGTARP’s oversight activi-
ties. To fulfill that role, the Special Inspector General and SIGTARP staff regularly
brief Members and staff. More formally, over the past quarter, the Special Inspector
General testified before the Joint Economic Committee (“JEC”) on April 23,
2009; entitled “Following the Money: A Quarterly Report by the Special Inspector
General for the TARP,” the testimony focused on the findings and recommenda-
tions of SIGTARP’s April Quarterly Report. Copies of all of the Special Inspector
General’s written testimony, hearing transcripts, and a variety of other materials
associated with Congressional hearings since SIGTARP’s inception are posted at
www.SIGTARP.gov/reports.



BUILDING SIGTARP’S ORGANIZATION
From the day that the Special Inspector General was confirmed by the Senate,
SIGTARP has worked to build its organization through various complementary
strategies, including hiring experienced senior executives who can play multiple
26             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      roles during the early stages of the organization, leveraging the resources of other
                                                      agencies, and, where appropriate and cost-effective, obtaining services through
                                                      SIGTARP’s authority to contract. Since the April Quarterly Report, SIGTARP has
                                                      continued to make substantial progress in building its operation.

                                                      Hiring
                                                      Each of SIGTARP’s divisions has continued the process of filling out its ranks. As
                                                      of June 30, 2009, SIGTARP had approximately 60 personnel, including detailees
                                                      from other agencies, with several new hires to begin over the coming weeks.
                                                      SIGTARP’s employees hail from many Federal agencies, including DOJ, FBI, IRS-
                                                      CI, Air Force Office of Special Investigations, GAO, Department of Transportation,
                                                      Department of Energy, SEC, DOJ, U.S. Secret Service, United States Postal
                                                      Service, U.S. Army Criminal Investigation Command, Naval Criminal Investigative
                                                      Service, Treasury-Office of the Inspector General, Department of Energy-Office
                                                      of the Inspector General, Department of Transportation-Office of the Inspector
                                                      General, Department of Homeland Security-Office of the Inspector General,
                                                      FDIC-Office of the Inspector General, Office of the Special Inspector General for
                                                      Iraq Reconstruction, and the Department of Housing and Urban Development
                                                      Office of the Inspector General. Hiring is actively ongoing, building to SIGTARP’s
                                                      current goal of approximately 160 full-time employees. The SIGTARP organiza-
                                                      tional chart, as of June 30, 2009, is included in Appendix H.

                                                      SIGTARP Budget
                                                      Section 121(j) of EESA provided $50 million in initial operating funds to
                                                      SIGTARP. When SIGTARP was established and its initial operating resources were
                                                      allocated, TARP was envisioned as a $700 billion asset-purchase and -guarantee
 FIGURE 1.1
                                                      program. In the months that followed, however, TARP evolved into 12 separate
 SIGTARP FY2010 PROPOSED BUDGET                       programs that have been estimated to involve up to approximately $3 trillion, sig-
 $ Millions, % of $48.4 Million
                                                      nificantly expanding the necessary scope of SIGTARP’s oversight operations and re-
                                                      source needs. SIGTARP anticipates that its total budget for FY 2010 will be $48.4
 Other $1.4   3%                                      million, based on the assumption that it will reach its target of 160 staff by early
 Transportation                                       2010. Approximately 50% of SIGTARP’s non-personnel costs will be payments
 $3.1                    6%
                                                      to other Government agencies for services provided. For a detailed breakdown of
      Advisory
                   15%                                SIGTARP’s FY 2010 budget, see Figure 1.1.
      $7.3
                                   48% Personnel           SIGTARP estimates that its initial operating funds will be expended by ap-
                                         $23.2
                                                      proximately the second quarter of FY 2010 and that an additional $28.3 million
                      28%
     Rent, Services
                                                      will be needed to fully fund operations through the fiscal year. Taking into account
     $13.4                                            a portion of the $15 million in additional funds made available by the Ensign-Boxer
                                                      Amendment, which SIGTARP expects to spend over three years (i.e., $5 mil-
                                                      lion per year), SIGTARP has submitted a request to Treasury for a $23.3 million
                                                      amendment to the FY 2010 budget submission.
                                                                               QUARTERLY REPORT TO CONGRESS I JULY 21, 2009   27




SIGTARP’s Physical and Technical Infrastructure
SIGTARP has begun the process of moving into office space at 1801 L Street, NW,
in Washington, D.C., the same office building in which the Treasury officials man-
aging TARP are located. SIGTARP is already occupying temporary quarters in that
building while its two permanent floors are being renovated. SIGTARP anticipates
occupying its permanent space by early 2010.
    SIGTARP operates a website, www.SIGTARP.gov, on which it posts all of its re-
ports, testimony, audits, investigations (once such investigations are made public),
contracts, and more. The website prominently features SIGTARP’s Hotline, which
can also be accessed by phone at 877-SIG-2009 (877-744-2009).
    From the website’s inception through June 30, 2009, more than 12 million visi-
tors have accessed SIGTARP’s website, and SIGTARP’s first two reports have been
downloaded more than 670,000 times.
28   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
SECT
  CH ION        TARP OVERVIEW
       A P2T E R 3
30   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 21, 2009           31




This section summarizes the activities of the U.S. Department of the Treasury
(“Treasury”) in its management of the Troubled Asset Relief Program (“TARP”). It
includes a financial overview and provides updates on established TARP programs,
including the status of TARP executive compensation restrictions.


FINANCIAL OVERVIEW OF TARP
As of June 30, 2009, Treasury had announced commitments to spend $643.1
billion of the $700 billion authorized by Congress in the Emergency Economic
Stabilization Act of 2008 (“EESA”).1 Of this amount, approximately $441 billion
had been expended through nine implemented programs to provide support for
U.S. financial institutions, companies, and individual borrowers.2 On May 6, 2009,
Congress passed the Helping Families Save Their Home Act of 2009 (Public Law
No. 111-22),3 which amended EESA and reduced TARP’s authorized $700 billion
by $1.2 billion.4 Therefore, the Secretary of the Treasury (“Treasury Secretary”)
now “has the authority to purchase and hold up to roughly $699 billion in assets at
one time.”5
     Treasury interprets the $699 billion maximum funding for TARP, as autho-
rized in EESA, as a cap on the amount that can be “outstanding” at any one time.
Therefore, as funds are repaid, they become available for other EESA-authorized
purposes.6 As of June 30, 2009, $70.3 billion7 in TARP funds had been repaid to
the Government. In total, 46.9% of TARP’s available $699 billion was outstanding.8
Any interest or dividends received from Treasury’s investments, as well as revenues
from the sale, exercise, or surrender of the warrants, are deposited into Treasury’s          Warrant: The right, but not the obliga-
general fund for the reduction of public debt and are not available to be re-used by          tion, to purchase a certain number of
Treasury.9 As of June 30, 2009, $6.9 billion in interest and dividends had been re-           shares of common stock at a fixed
ceived by the Government, and $20.3 million in profits had been received from the             price.
sale of warrants and preferred stock (received as a result of exercised warrants).10
     The 12 announced programs within TARP can be categorized in 4 general
groups depending on the type of support they were designed to provide:

• Financial Institution Support Programs — These programs share a common,
  stated goal of stabilizing the financial market to avoid disruption and provide for
  a healthy economy.
• Asset Support Programs — These programs attempt to support asset values
  and liquidity in the market by providing funding to purchase securities.
• Automotive Industry Support Programs — These programs all have a univer-
  sal goal to stabilize the American automotive industry, promoting market stabil-
  ity and a vigorous economy.
• Homeowner Support Programs — These programs encourage homeowner
  affordability by providing loan modification and refinancing assistance.
32            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     Financial Institution Support Programs
                                                     The primary tool of TARP for assisting financial institutions thus far has been a
                                                     direct investment of capital. Financial institutions include bank holding companies
     Systemically Significant: A financial           and certain systemically significant institutions, such as American International
     institution whose failure would impose          Group, Inc. (“AIG”).
     significant losses on creditors and
     counterparties, call into question the          • Capital Purchase Program (“CPP”). Treasury created CPP to provide funds to
     financial strength of other similarly
                                                       “stabilize and strengthen the U.S. financial system by increasing the capital base
     situated financial institutions, disrupt
                                                       of an array of healthy, viable institutions, enabling them [to] lend to consumers
     financial markets, raise borrowing
                                                       and business[es].”11 As of June 30, 2009, Treasury had invested $203.2 bil-
     costs for households and businesses,
     and reduce household wealth.
                                                       lion in institutions through CPP out of a maximum projected funding total of
                                                       $218 billion under the program, of which $70.1 billion had been repaid.12 See
                                                       the “Capital Purchase Program” discussion in this section for more detailed
                                                       information.
                                                     • Capital Assistance Program (“CAP”). Similar to CPP, the goal of CAP is to
                                                       “ensure the continued ability of U.S. financial institutions to lend to creditwor-
                                                       thy borrowers in the face of a weaker than expected economic environment and
                                                       larger than expected potential losses.”13 As originally envisioned by Treasury,
                                                       CAP investments were to be targeted to financial institutions with more than
                                                       $100 billion in assets and would be sized to provide a capital buffer to be deter-
                                                       mined by a Supervisory Capital Assessment Program (“SCAP” or “stress test”).14
                                                       Treasury applied SCAP to 19 of the largest financial institutions and concluded
                                                       that 10 of those institutions will be required to seek additional capital.15 Those
                                                       failing to raise such capital in the private market will be required to take CAP
                                                       funds; however, many financial institutions have raised significant funds on
                                                       their own, which could seemingly limit their need for CAP. In addition to the
                                                       required participants, all qualifying financial institutions may apply under CAP
                                                       for additional capital without the stress-test requirement. As of June 30, 2009,
     Preferred Stock: Equity ownership that            no transactions had occurred under this program. See the “Capital Assistance
     usually pays a fixed dividend, gives the          Program” part of this section for a detailed discussion of the stress tests and
     holder a claim on corporate earnings              their results.
     superior to common stock owners, and            • Systemically Significant Failing Institutions (“SSFI”) Program. Under the
     has no voting rights. Preferred stock             stated terms of the SSFI program, Treasury invests in systemically significant
     also has priority in the distribution of          institutions to prevent their failure and the market disruption that would fol-
     assets in the case of liquidation of a            low.16 As of June 30, 2009, Treasury, through SSFI, had made, and is commit-
     bankrupt company.                                 ted to make investments in, one institution — AIG. This support was provided
                                                       through two transactions — $40 billion17 for the purchase of preferred stock
                                                       from AIG and approximately $29.8 billion for an equity capital facility that AIG
                                                       can draw on as needed.18 As of June 30, 2009, AIG had drawn down $1.15
                                                       billion in equity from the capital facility.19 See the “Systemically Significant
                                                                                  QUARTERLY REPORT TO CONGRESS I JULY 21, 2009           33




  Failing Institutions” part of this section for a detailed discussion of the AIG
  transactions.
• Targeted Investment Program (“TIP”). The stated objective of TIP is to
  make targeted investments in financial institutions “to avoid significant market
  disruptions resulting from the deterioration of one financial institution that can
  threaten other financial institutions and impair broader financial markets and               Senior Preferred Stock: Shares that
  pose a threat to the overall economy.”20 As reported in SIGTARP’s Initial Report             give the stockholder priority dividend
  to Congress (“Initial Report”), dated February 6, 2009, Treasury purchased $20               and liquidation claims over junior pre-
                                                                                               ferred and common stockholders.
  billion of senior preferred stock and received warrants of common stock from
  both Citigroup and Bank of America, for a total expenditure of $40 billion in
  TARP funds.21 As of June 30, 2009, Treasury had made no additional funding
  available under this program. Subsequent to SIGTARP’s April Quarterly Report,
  Citigroup finalized an exchange offering that will convert preferred stock,
  including preferred shares acquired by Treasury through TIP/AGP and CPP,
  to trust preferred shares and common stock, respectively. See the “Targeted
  Investment Program and Asset Guarantee Program” portion of this section for a
  detailed discussion of Citibank’s exchange offering.
• Asset Guarantee Program (“AGP”). Through AGP, Treasury’s stated goal is to
  use insurance-like protections to help stabilize at-risk financial institutions. AGP
  provides certain loss protections on a select pool of mortgage-related or similar            Illiquid Assets: Assets that cannot be
  assets held by participants whose portfolios of distressed or illiquid assets pose a         quickly converted to cash.
  risk to market confidence.22 As discussed in SIGTARP’s Initial Report, Treasury,
  the Federal Deposit Insurance Corporation (“FDIC”), and the Federal Reserve
  agreed to provide certain loss protections with respect to $301 billion in trou-
  bled assets held by Citigroup.23 Treasury’s projected TARP investment through
  this program accounted for $5 billion in protection for Citigroup as of June 30,
  2009.24 A similar arrangement with Bank of America was announced on January
  16, 2009; Bank of America, however, recently requested not to go forward with
  the program. As of June 30, 2009, the matter had not yet been resolved.25 See
  the “Targeted Investment Program and Asset Guarantee Program” discussion in
  this section for more information on Citigroup’s transactions.

Asset Support Programs
The purpose of these programs is to support the liquidity and market value of as-
sets owned by financial institutions. These assets may include various classes of
asset-backed securities (“ABS”) and several types of loans. These programs seek
to bolster the balance sheets of the financial firms and help free up capital so that
financial institutions can extend more credit to support the U.S. economy.

• Term Asset-Backed Securities Loan Facility (“TALF”). TALF was originally
  designed to increase the credit available for consumer and small-business loans
34            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                       through a Federal Reserve loan program backed by TARP funds. TALF provides
     Commercial Mortgage-Backed Securi-
                                                       non-recourse loans to investors secured by certain types of asset-backed securi-
     ties (“CMBS”): A financial instrument
     that is backed by a commercial real               ties. Treasury and the Federal Reserve expanded TALF to cover additional asset
     estate mortgage or a group of com-                classes, including newly issued and legacy commercial mortgage-backed securi-
     mercial real estate mortgages that are            ties (“CMBS”) with the potential to expand into residential mortgage-backed
     packaged together.                                securities (“RMBS”). TALF as originally announced was to be a $200 billion
                                                       program that included $20 billion of TARP funds to be used for purchasing
     Residential Mortgage-Backed Securi-               surrendered collateral.26 The facility can be expanded to $1 trillion of lending;
     ties (“RMBS”): A financial instrument             according to Treasury, it will provide up to $80 billion of TARP funds to sup-
     that is backed by a group of residential          port this program,27 but according to the Federal Reserve, the amount for which
     real estate mortgages that are pack-              Treasury would be responsible would be up to $100 billion.28 As of June 30,
     aged together.
                                                       2009, the Federal Reserve Bank of New York (“FRBNY”) had facilitated four
                                                       TALF subscriptions of non-mortgage-related ABS, totaling approximately $28.5
     Legacy Assets: Also commonly
                                                       billion of TALF borrowing.29 TALF had also launched a subscription for newly
     referred to as troubled or toxic assets,
                                                       issued CMBS in June, for which no loans were issued. An overview of TALF,
     legacy assets are real estate-related
     loans and securities (legacy loans                later in this section, provides more information on these activities.
     and legacy securities) that remain on           • Public-Private Investment Program (“PPIP”). As originally announced,
     banks’ balance sheets that have lost              Treasury, in coordination with FDIC and the Federal Reserve, intended PPIP
     value but are difficult to price due to           to improve the health of financial institutions and restart frozen credit markets
     the recent market disruption.                     through the purchase of legacy assets (e.g., legacy loans, CMBS, RMBS).30 In
                                                       addition to the expansion of TALF to include legacy securities, as discussed
     Legacy Loans: Loans that are often                previously, PPIP was intended to involve investments made through multiple
     underperforming real estate-related               Public-Private Investment Funds (“PPIFs”) in two subprograms — one to pur-
     loans held by a bank that it wishes               chase real estate-related loans (“legacy loans”) and the other to purchase real
     to sell, but recent market disruptions
                                                       estate-related securities (“legacy securities”) from financial institutions.
     have made difficult to price.
                                                       However, as of June 30, 2009, the future of the legacy loans program is in
                                                       doubt because FDIC has shelved the program.31 The legacy securities program
     Legacy Securities: Troubled real estate-
                                                       is under development, and Treasury announced the selection of nine PPIF
     related securities (RMBS, CMBS), and
     other asset-backed securities (“ABS”)             managers on July 8, 2009, that will receive up to $30 billion in TARP funds.
     lingering on institutions’ balance sheets         Treasury has stated that PPIP, originally intended to involve up to $1 trillion in
     because their value could not be                  funds, is expected to utilize up to $75 billion of TARP funds.32 See the “Public-
     determined.                                       Private Investment Program” discussion later in this section for details about the
                                                       program structure and fund manager terms.
     Secondary Market: The secondary                 • Unlocking Credit for Small Businesses (“UCSB”). Under UCSB, Treasury
     market, also known as the aftermarket,            announced that it will begin purchasing up to $15 billion in securities backed
     is the financial market where previously          by Small Business Administration (“SBA”) loans.33 As demand has diminished
     issued securities and financial instru-           in the secondary market for these securities due to adverse credit conditions,
     ments such as stocks, bonds, options,
                                                       there has been a reduction in the volume of new small-business loans written by
     and futures are bought and sold.
                                                       banks. As of June 30, 2009, no transactions had occurred under this program.
                                                       See the discussion of “Unlocking Credit for Small Businesses” in this section for
                                                       more information on the program.
                                                                               QUARTERLY REPORT TO CONGRESS I JULY 21, 2009   35




Automotive Industry Support Programs
The stated objective of TARP’s automotive industry support programs is to “prevent
a significant disruption of the American automotive industry, which would pose a
systemic risk to financial market stability and have a negative effect on the econo-
my of the United States.”34

• Automotive Industry Financing Program (“AIFP”). Under this program,
  Treasury made emergency loans to Chrysler Holding LLC (“Chrysler”), Chrysler
  Financial Services Americas LLC (“Chrysler Financial”), and General Motors
  Corporation (“GM”). In addition to these investments, Treasury purchased
  senior preferred stock from GMAC LLC (“GMAC”). Subsequent to SIGTARP’s
  April Quarterly Report, the manufacturers (Chrysler and GM) were unable to
  obtain necessary concessions from key stakeholders and, therefore, filed for
  bankruptcy on April 30, 2009, and June 1, 2009, respectively. These bankrupt-
  cies involved infusion of additional TARP funds. As of June 30, 2009, Treasury
  had expended or committed $79.3 billion in AIFP investments, of which $130.8
  million had been repaid.35 See the discussion of “Automotive Industry Financing
  Program” later in this section for a detailed discussion on the reorganizations of
  these companies.
• Auto Supplier Support Program (“ASSP”). The stated purpose of ASSP is to
  provide Government-backed financing to break the adverse credit cycle affect-
  ing the auto suppliers and the manufacturers by “providing suppliers with the
  confidence they need to continue shipping their parts and the support they need
  to help access loans to pay their employees and continue their operations.”36
  Treasury’s commitment under this program was $5 billion as of June 30, 2009
  — $3.5 billion for GM and $1.5 billion for Chrysler.37 See the discussion of
  “Auto Supplier Support Program” in this section for more information.
• Auto Warranty Commitment Program (“AWCP”). The Auto Warranty
  Commitment Program was designed by the Administration with the inten-
  tion of bolstering consumer confidence in automobile warranties on GM- and
  Chrysler-built vehicles. Under this program, Government-backed financing
  was to be provided for the warranties of cars sold during the GM and Chrysler
  restructuring periods. As of June 30, 2009, Treasury funded $640.7 million
  toward this program — $360.6 million was made available to GM and $280.1
  million was made available to Chrysler.38 However, Treasury has stated that the
  funds are not expected to be used by the manufacturers. Treasury expects that
  after GM and Chrysler fully emerge from bankruptcy, the committed funds will
  be refunded to Treasury.39 See the discussion of “Auto Warranty Commitment
  Program” in this section for more information.
36                    SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                            Homeowner Support Programs
                                                                            The homeowner support programs are aimed at assisting troubled homeowners and
                                                                            financial institutions holding the affected assets.

                                                                            • Making Home Affordable (“MHA”) Program. According to Treasury, MHA
                                                                              is a foreclosure mitigation plan intended to “help bring relief to responsible
                                                                              homeowners struggling to make their mortgage payments while preventing
                                                                              neighborhoods and communities from suffering the negative spillover effects of
                                                                              foreclosure, such as lower housing prices, increased crime, and higher taxes.”40
                                                                              Treasury, along with other Federal agencies, “will undertake a comprehensive
                                                                              multiple-part strategy,” which will provide for (i) a $75 billion loan modifica-
                                                                              tion program for homeowners in default on their payments or facing imminent
                                                                              default, (ii) a streamlined refinancing process for homeowners whose loans are
                                                                              serviced by Fannie Mae or Freddie Mac, and (iii) approximately $200 billion
                                                                              to support Fannie Mae and Freddie Mac.41 The funds for this effort will be
                                                                              provided from both TARP- and non-TARP-related sources. Treasury announced
                                                                              that up to $50 billion of TARP funds could be expended for this program.42 As
     FIGURE 2.1                                                               of June 30, 2009, $18 billion had been allocated to the program.43
     TARP PROJECTED FUNDING,
     BY PROGRAM                                                                The following figures and tables provide a status summary of the implemented
     $ Billions, % of $699 Billion
                                                                            and announced TARP and TARP-related initiatives:
                        UCSB 2%            ASSP $5.0 1%
                        $15.0
                                            AGP $5.0 1%                     • total potential funds subject to SIGTARP oversight (Table 2.1)
                     TIP $40.0
                                           AWCP $0.6 <1%                    • projected TARP funding by program (Figure 2.1)
           MHA $50.0            6%                                          • expenditure levels by program as of June 30, 2009 (Table 2.2)
                           7%                                               • cumulative expenditures and repayments as of June 30, 2009 (Figure 2.2)
                                                            CPP $218.0
                                                  21%
     SSFI $69.8 10%                                         ($70.1)a        • cumulative expenditures over time for implemented programs (Figure 2.3)
                                                                            • expenditures by program snapshot as of June 30, 2009 (Figure 2.4)
 PPIP $75.0 11%
                                                                            • summary of terms of TARP agreements (Table 2.3 and Table 2.4)
                           11%                   19%                        • summary of largest warrant positions held by Treasury by program as of June 30,
               AIFP $79.3b           11%             New Programs,            2009 (Table 2.5)
                                                     or Remaining
                                   TALF $80.0        Funds for Existing     • summary of dividend and interest payments received by program (Table 2.6)
                                                     Programs $131.4


           Implemented Programs
                                                                              For a reporting of all purchases, obligations, expenditures, and revenues of
           Announced Programs                                               TARP, see Appendix C: “Cross-Reference to Reporting Requirements.”
           Remaining Funds



     Notes: Numbers affected by rounding. As of 6/30/2009, funding for
     Capital Assistance Program (“CAP”) to be determined.

     a
         As of 6/30/2009, $70.1 billion of CPP funding had been repaid.
     b
         As of 6/30/2009, $130.8 million of principal payments related to
         AIFP loans (Chrysler Financial) had been repaid.

     Sources: See final endnote.
                                                                                                                               QUARTERLY REPORT TO CONGRESS I JULY 21, 2009                      37




TABLE 2.1

 TOTAL POTENTIAL FUNDS SUBJECT TO SIGTARP OVERSIGHT, AS OF 6/30/2009                                                                    ($ BILLIONS)

                                                                                                                                           Total Projected             Projected TARP
 Program                                                      Brief Description or Participant                                          Funding at Risk ($)                Funding ($)
 Capital Purchase Program (“CPP”)                             Investments in 649 banks to date; 8 institutions                                         $218.0                       $218.0
                                                              total $134 billion; received $70.1 billion in capital                                    ($70.1)                      ($70.1)
                                                              repayments
 Automotive Industry Financing Program                        GM, Chrysler, GMAC, Chrysler Financial; received                                            79.3                         79.3
 (“AIFP”)                                                     $130.8 million in loan repayments (Chrysler
                                                              Financial)
 Auto Suppliers Support Program (“ASSP”)                      Government-backed protection for auto parts                                                   5.0                          5.0
                                                              suppliers
 Auto Warranty Commitment Program                             Government-backed protection for warranties of                                                0.6                          0.6
 (“AWCP”)                                                     cars sold during the GM and Chrysler bankruptcy
                                                              restructuring periods
 Unlocking Credit for Small Businesses                        Purchase of securities backed by SBA loans                                                 15.0a                         15.0
 (“UCSB”)
 Systemically Significant Failing Institutions                AIG investment                                                                             69.8b                         69.8b
 (“SSFI”)
 Targeted Investment Program (“TIP”)                          Citigroup, Bank of America investments                                                      40.0                         40.0
 Asset Guarantee Program (“AGP”)                              Citigroup, ring-fence asset guarantee                                                      301.0                           5.0
 Term Asset-Backed Securities Loan Facility                   FRBNY non-recourse loans for purchase of asset-                                          1,000.0                         80.0
 (“TALF”)                                                     backed securities
 Making Home Affordable (“MHA”) Program                       Modification of mortgage loans                                                             75.0c                         50.0
 Public-Private Investment Program (“PPIP”)                   Disposition of legacy assets; Legacy Loans                                    500.0 – 1,000.0                            75.0
                                                              Program, Legacy Securities Program
                                                              (expansion of TALF)
 Capital Assistance Program (“CAP”)                           Capital to qualified financial institutions; includes                                        TBD                          TBD
                                                              stress test
 New Programs, or Funds Remaining for                         Potential additional funding related to CAP; other                                         131.4                        131.4
 Existing Programs                                            programs
 Total                                                                                                                             $2,365.0 – $2,865.0                             $699.0

 Notes: Numbers affected by rounding.
 a
   Treasury announced that it would purchase up to $15 billion in securities under the Unlocking Credit for Small Businesses program.
 b
   Actual TARP expenditures as of 6/30/2009.
 c
   $75 billion is for mortgage modification.

 Sources: Treasury, Office of Financial Stability, Chief of Compliance and CFO, SIGTARP interview, 3/30/2009; Treasury, Transactions Report, 7/2/2009, http://www.financialstability.gov/docs/
 transaction-reports/transactions-report_070209.pdf, accessed 7/6/2009; Treasury, “Auto Supplier Support Program: Stabilizing the Auto Industry in a Time of Crisis,” 3/19/2009, http://www.
 treas.gov/press/releases/docs/supplier_support_program_3_18.pdf, accessed 3/19/2009; Treasury, “Unlocking Credit for Small Businesses Fact Sheet,” 3/17/2009, http://www.financialsta-
 bility.gov/roadtostability/unlockingCreditforSmallBusinesses.html, accessed 6/10/2009; Treasury, “Treasury, Federal Reserve, and FDIC Provide Assistance to Bank of America,” 1/16/2009,
 http://www.treas.gov/press/releases/hp1356.htm, accessed 1/16/2009; Treasury Press Release, “U.S. Government Finalizes Terms of Citi Guarantee Announced in November,” 1/16/2009,
 http://www.financialstability.gov/latest/hp1358.html, accessed 6/8/2009; Treasury, “Financial Stability Plan Fact Sheet,” 2/10/2009, http://www.financialstability.gov/docs/fact-sheet.pdf,
 accessed 6/8/2009; Treasury, “Making Home Affordable: Updated Detailed Program Description,” 3/4/2009, http://www.treas.gov/press/releases/reports/housing_fact_sheet.pdf, accessed
 6/10/2009; Treasury, “Public-Private Investment Program,” 4/6/2009, http://www.financialstability.gov/roadtostability/publicprivatefund.html, accessed 6/9/2009.
38             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     TABLE 2.2

     EXPENDITURE LEVELS BY PROGRAM, AS OF 6/30/2009                    ($ BILLIONS)

                                                                                         Amount             Percent (%)   Section Reference
     Authorized Under EESA                                                                        $700.0
     Released Immediately                                                       $250.0                           35.8%
     Released Under Presidential Certificate of Need                             100.0                           14.3%
     Released Under Presidential Certificate of Need &
                                                                                 350.0                           50.1%
     Resolution to Disapprove Failed
     Helping Families Save Their Homes Act of 2009                                    (1.2)                      (0.2)%
     Total Released                                                                               $698.8       100.0%
     Less: Expenditures by Treasury Under TARPa
     Capital Purchase Program (“CPP”):
            Bank of Americab                                      $25.0                                           3.6%
            Citigroup                                              25.0                                           3.6%
            JPMorganc                                              25.0                                           3.6%    “Financial Institution Support
            Wells Fargo                                            25.0                                           3.6%    Programs”
            Goldman Sachsc                                         10.0                                           1.4%
            Morgan Stanley c                                       10.0                                           1.4%
            Other Qualifying Financial Institutionsd               83.2                                          11.9%
     CPP Total                                                                 $203.2                           29.1%
     Systemically Significant Failing Institutions (“SSFI”)
                                                                                                                          “Financial Institution Support
     Program:
                                                                                                                          Programs”
           AIG                                                    $69.8                                          10.0%
     SSFI Total                                                                  $69.8                          10.0%
     Targeted Investment Program (“TIP”):
                                                                                                                          “Financial Institution Support
            Bank of America                                       $20.0                                           2.9%
                                                                                                                          Programs”
            Citigroup                                              20.0                                           2.9%
     TIP Total                                                                   $40.0                            5.8%
     Asset Guarantee Program (“AGP”):                                                                                     “Financial Institution Support
            Citigroupe                                             $5.0                                           0.7%    Programs”
     AGP Total                                                                    $5.0                            0.7%
     Term Asset-Backed Securities Loan Facility (“TALF”):
                                                                                                                          “Asset Support Programs”
            TALF LLC                                              $20.0                                           2.9%
     TALF Total                                                                  $20.0                            2.9%
     Automotive Industry Financing Program (“AIFP”):
            GM                                                    $49.5                                           7.1%
                                                                                                                          “Automotive Industry Support
            GMAC                                                   13.4                                           1.9%
                                                                                                                          Programs”
            Chrysler                                               14.9                                           2.1%
            Chrysler Financialf                                     1.5                                           0.2%
     AIFP Total                                                                  $79.3                          11.3%
     Automotive Supplier Support Program (“ASSP”):
                                                                                                                          “Automotive Industry Support
           GM Suppliers Receivables LLCg                           $3.5                                           0.5%
                                                                                                                          Programs”
           Chrysler Holding LLCg                                    1.5                                           0.2%
     ASSP Total                                                                   $5.0                            0.7%
     Automotive Warranty Commitment Program (“AWCP”):
                                                                                                                          “Automotive Industry Support
           GM                                                      $0.4                                           0.1%
                                                                                                                          Programs”
           Chrysler                                                 0.3                                           0.0%
     AWCP Total                                                                   $0.6                            0.1%
     Making Home Affordable (“MHA”):
           Countrywide Home Loans Servicing LP                     $5.2                                           0.7%
           Chase Home Finance                                       3.6                                           0.5%
           Wells Fargo Bank, NA                                     2.4                                           0.3%    “Homeowner Support Programs”
           CitiMortgage                                             1.1                                           0.2%
           GMAC Mortgage                                            1.0                                           0.1%
           Other Financial Institutionsh                            4.7                                           0.7%
     MHA Total                                                                   $18.0                            2.5%
     Subtotal - TARP Expenditures                                                                 $441.0         63.1%
     TARP Repaymentsi                                                                             $(70.3)      (10.0)%
     Balance Remaining of Total Funds Made
     Available as of 6/30/2009                                                                    $328.0        46.9%
                                                                                                                                                           QUARTERLY REPORT TO CONGRESS I JULY 21, 2009                              39




Notes: Numbers affected by rounding.
a
  From a budgetary perspective, what Treasury has committed to spend (e.g., signed agreements with TARP fund recipients).
b
  Bank of America’s share is equal to two CPP investments totaling $25 billion, which is the sum of $15 billion received on 10/28/2008 and $10 billion received on 1/9/2009.
c
  These institutions repaid their CPP funds pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009.
d
  Other Qualifying Financial Institutions (“QFIs”) include all QFIs that have received less than $10 billion through CPP.
e
  Treasury committed $5 billion to Citigroup under AGP; however, this funding is conditional based on losses realized and may potentially never be expended. This amount is not an actual outlay of cash.
f
  Treasury’s $1.5 billion loan to Chrysler Financial represents the maximum loan amount. This $1.5 billion has not been fully expended because the loan will be funded incrementally at $100 million per week.
g
  Represents a special purpose vehicle (“SPV”) created by the manufacturer. Balance represents the maximum loan amount, which will be funded incrementally.
h
  Other Financial Institutions that have received less than $1 billion through MHA.
i
  As of 6/30/2009, CPP repayments total $70.1 billion and AIFP loan repayments (Chrysler Financial) total $130.8 million.

Sources:
Emergency Economic Stabilization Act, P.L. 110-343, 10/3/2008; Library of Congress, “A Joint Resolution Relating to the Disapproval of Obligations under the Emergency Economic Stabilization Act of
2008,” 1/15/2009, www.thomas.loc.gov, accessed 1/25/2009; Helping Families Save Their Homes Act of 2009, P.L. 111-22, 5/20/2009; Treasury, Transactions Report, 7/2/2009, http://www.financial-
stability.gov/docs/transaction-reports/transactions-report_070209.pdf, accessed 7/6/2009; Treasury, response to SIGTARP data call, 7/8/2009.



    FIGURE 2.2                                                                                                                                             FIGURE 2.4

    CUMULATIVE EXPENDITURE AND                                                                                                                             EXPENDITURES BY PROGRAM, SNAPSHOT
                                                                                                                                                           $ Billions, % of $441.0 Billion
    REPAYMENTS, AS OF 6/30/2009
    $ Billions
                                                                                                                                                                                        AGP $5.0 1%
                                                                                                                                                                                         ASSP $5.0 1%
                                                                                                                                                           MHA $18.0 4%

                                                                                                                                        TALF $20.0 5%
                                                                                          $328.03                                                                                                           AWCP $0.6 0.1%
                                                                                                                                                               TIP $40.0
                                                                                                                                                                            9%
                                                                $70.25
       $698.76
                                                                                                                                                                                                     46% CPP $203.2a
                                   $440.98                                                                                                                 SSFI $69.8 16%


                                                                                                                                                                                   18%
       Total TARP                 TARP                        TARP                        TARP Balance
                                                                                                                                                                              AIFP $79.3b
       Released                   Expenditures                Repayments                  Remaining

       Note: Numbers affected by rounding.                                                                                                                 Notes: Numbers affected by rounding.
                                                                                                                                                           a
                                                                                                                                                             As of 6/30/2009, $70.1 billion of CPP funding had been repaid.
       Sources: Treasury, Transactions Report, 7/2/2009; Treasury, response to SIGTARP data call, 7/8/2009.                                                b
                                                                                                                                                             As of 6/30/2009, $130.8 million of principal payments related to AIFP
                                                                                                                                                             loans (Chrysler Financial) had been repaid.

                                                                                                                                                           Sources: Treasury, Transactions Report, 7/2/2009; Treasury, response to
                                                                                                                                                           SIGTARP data call, 7/8/2009.

FIGURE 2.3
EXPENDITURES, BY PROGRAM, CUMULATIVE, 10/2008 – 6/2009
$ Billions


500
                                                                                                                                         $5.0       AGP
                                                                                                                                        $18.0       MHA
                                                                                                                                        $20.0       TALF
400
                                                                                                                                        $40.0       TIP

                                                                                                                                        $69.8       SSFI
300
                                                                                                                                            a
                                                                                                                                        $85.0       Auto
                                                                                                                                                            b
200                                                                                                                                                 Programs


                                                                                                                                                c
100                                                                                                                                    $203.2       CPP


                  0
   0
   10/31              11/30            12/31             1/31            2/28            3/31            4/30            5/31   6/30
                      2008                                                                   2009
                AGP
                MHA
                TALF
                TIP
                SSFI
                Auto Programs
                CPP

   Notes: Numbers affected by rounding.
   a As of 6/30/2009, $130.8 million of principal payments related to AIFP loans (Chrysler Financial) had been repaid.
   b Auto Programs include AIFP, ASSP, and AWCP.
   c As of 6/30/2009, $70.1 billion of CPP funding had been repaid.


   Sources: Treasury, Transactions Report, 7/2/2009; Treasury, response to SIGTARP data call, 7/8/2009.
40                SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     TABLE 2.3

      EQUITY AGREEMENTS
      TARP Program                 Company                   Date of Agreement                              Cost Assigned               Description of Investment
      CPP – Public                 282 QFIs                  10/14/2008a and later                             $199.1 billion           Senior Preferred Equity
                                                                                                                                        Common Stock Purchase Warrants
                                                                                b
      CPP – Private                331 QFIs                  11/17/2008 and later                                 $3.8 billion          Preferred Equity

                                                                                                                                        Preferred Stock Purchase Warrants that are exercised
                                                                                                                                        immediately
      SSFI                          AIG                      4/17/2009                                         $41.6 billionc           Non-Cumulative Preferred Equity

                                                                                                                                        Common Stock Purchase Warrants

      SSFI                          AIG                      4/17/2009                                         $29.8 billiond
                                                                                                                                        Non-Cumulative Preferred Equity

                                                                                                                                        Common Stock Purchase Warrants
      TIP                          Citigroup                 12/31/2008                                        $20.0    billione        Trust Preferred Securities
                                                                                                                                        Warrants
                                                                            f
      TIP                          Bank of America           1/16/2009                                          $20.0 billion           Senior Preferred Equity
                                                                                                                                        Warrants
      AIFP                         GMAC LLC                  12/29/2008                                           $5.0 billion          Senior Preferred Membership Interests
                                                                                                                                        Preferred Stock Purchase Warrants that are exercised
                                                                                                                                        immediately
      AIFP                         GMAC LLC                  5/21/2009                                            $7.5 billion          Mandatorily Convertible Preferred Stock
                                                                                                                                        Preferred Stock Purchase Warrants that are exercised
                                                                                                                                        immediately
      AIFP                         GMAC LLC                  5/29/2009                                            $0.9 billion          Common Equity Interest




     Notes: Numbers affected by rounding.
     a
       Announcement date of CPP Public Term Sheet.
     b
       Announcement date of CCP Private Term Sheet.
     c
       AIG exchanged Treasury’s $40 billion investment in Cumulative Preferred Stock (obtained on 11/25/2008) for Non-Cumulative Preferred Stock, effectively cancelling the original $40 billion investment.
     d
       The Equity Capital Facility was announced as a $30 billion commitment, but Treasury reduced this amount by the value of the AIGFP Retention Payment Amount of $165 million.
     e
       Citigroup exchanged its $20 billion Senior Preferred Equity (obtained on 12/31/2008) for Trust Preferred Securities.
     f
       Date as of Treasury’s 1/27/2009 Transactions Report. The Security Purchase Agreement has a date of 1/15/2009.
                                                                                                                          QUARTERLY REPORT TO CONGRESS I JULY 21, 2009                                41




 Investment Information                                                                              Dividends                                                     Term of Agreement
 1% - 3% of risk–weighted assets, not to exceed $25 billion for each QFI                             5% for first 5 years, 9% thereafter                           Perpetual
 15% of senior preferred amount                                                                      —                                                             Up to 10 years
 1% - 3% of risk–weighted assets, not to exceed $25 billion for each QFI                             5% for first 5 years, 9% thereafter                           Perpetual

 5% of preferred amount                                                                              9%                                                            Up to 10 years

 $41.6 billion aggregate liquidation preference                                                      10%                                                           Perpetual
 2% of issued and outstanding common stock on investment date; $2.50                                 —                                                             Up to 10 years
 exercise price
 Up to $29.8 billion aggregate liquidation preference. As of 6/30/2009, the                          10%                                                           Up to 5 years
 aggregate liquidation preference was $1.15 billion.
 150 common stock warrants outstanding; $0.00002 exercise price                                      —                                                             Up to 10 years
 $20 billion                                                                                         8%                                                            Perpetual
 10% of total preferred stock issued; $10.61 exercise price                                          —                                                             Up to 10 years
 $20 billion                                                                                         8%                                                            Perpetual
 10% of total preferred stock issued; $13.30 exercise price                                          —                                                             Up to 10 years
 $5 billion                                                                                          8%                                                            Perpetual
 5% of preferred amount                                                                              9%                                                            Up to 10 years

 $7.5 billion                                                                                        9%                                                            Perpetual
 5% of preferred amount                                                                              —                                                             Up to 10 years

 This equity interest was obtained by exchanging a prior debt obligation with                        —                                                             Perpetual
 General Motors. See “Debt Agreements” table for more information.




Sources: Treasury, Transactions Report, 7/2/2009; Treasury, “TARP Capital Purchase Program Agreement, Senior Preferred Stock and Warrants, Summary of Senior Preferred Terms,” 10/14/2008;
Treasury, “TARP Capital Purchase Program Agreement, (Non-Public QFIs, excluding S Corps and Mutual Organizations) Preferred Securities, Summary of Warrant Terms,” 11/17/2008; Treasury, “Securi-
ties Purchase Agreement dated as of November 25, 2008 between American International Group, Inc. and United States Department of Treasury,” 11/25/2008; Treasury, “TARP AIG SSFI Investment,
Senior Preferred Stock and Warrant, Summary of Senior Preferred Terms,” 11/25/2008; Treasury, “Securities Purchase Agreement dated as of January 15, 2009 between Citigroup, Inc. and United States
Department of Treasury,” 1/15/2009; Treasury, “Citigroup, Inc. Summary of Terms, Eligible Asset Guarantee,” 11/23/2008; “Securities Purchase Agreement dated as of January 15, 2009 between Bank of
America Corporation and United States Department of Treasury,” 1/15/2009; Treasury, “Bank of America Summary of Terms, Preferred Securities,” 1/16/2009; Treasury, “GMAC LLC Automotive Industry
Financing Program, Preferred Membership Interests, Summary of Preferred Terms,” 12/29/2008; Treasury, response to SIGTARP data call, 7/13/2009; Treasury, “Factsheet on Capital Purchase Program,”
3/17/2009.
42              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     TABLE 2.4

     DEBT AGREEMENTS
     TARP                                                 Date of                                Cost
     Program            Company                           Agreement                          Assigned          Description of Investment
     CPP –              36 QFIs                           1/14/2009      a
                                                                                            $0.4 billion       Senior Subordinated Securities
     S-Corps
                                                                                                               Senior Subordinated Security Warrants that are exercised immediately

     AIFP               General Motors                    12/31/2008                     $19.8 billionb        Debt Obligation with Warrants and Additional Note




     AIFP               General Motors                    1/16/2009                         $0.9 billion       Debt Obligation



     AIFP               Chrysler                          1/2/2009c                       $4.8 billionb        Debt Obligation with Additional Note




     AIFP               Chrysler Financial                1/16/2009                         $1.5 billion       Debt Obligation with Additional Note



     AIFP               Chrysler                          5/1/2009                          $3.8 billion       Debt Obligation with Additional Note




     AIFP               Chrysler                          5/27/2009                         $6.6 billion       Debt Obligation with Additional Note, Equity Interest




     AIFP               General Motors                    6/3/2009,                       $30.1 billion        Debt Obligation with Additional Note
                                                          amended
                                                          7/10/2009

     ASSP               GM Supplier                       4/9/2009                          $3.5 billion       Debt Obligation with Additional Note
                        Receivables LLC

     ASSP               Chrysler                          4/9/2009                          $1.5 billion       Debt Obligation with Additional Note
                        Receivables SPV LLC


     Notes: Numbers affected by rounding.
     a
       Announcement date of CPP S-Corporation Term Sheet.
     b
       Amount includes AWCP commitments.
     c
       Date as of Treasury’s 1/27/2009 Transactions Report. The Security Purchase Agreement has a date of 12/31/2008.
                                                                                                                           QUARTERLY REPORT TO CONGRESS I JULY 21, 2009               43




                                                                                                    Interest /                                           Term of
Investment Information                                                                              Dividends                                            Agreement
Each QFI may issue Senior Securities with an aggregate principal amount of                          7.7% for first 5 years; 13.8% thereafter             30 years
1% – 3% of its risk-weighted assets, but not to exceed $25 billion.
Treasury will receive warrants to purchase an amount equal to 5% of the                             13.8%                                                10 years
Senior Securities purchased on the date of investment.
This loan was funded incrementally; $4 billion funded on 12/31/2008, $5.4                           LIBOR + 3%                                           12/29/2011
billion funded on 1/21/2009, $4 billion funded on 2/17/2009. Subse-
quently, this loan was then amended; $2 billion on 4/22/2009 and $4 billion
on 5/20/2009. In addition, on 5/27/2009, $361 million was set aside in an
SPV for the AWCP.
This loan was exchanged for a portion of GM’s common equity interest in                             LIBOR + 3%                                           1/16/2012
GMAC LLC on 5/29/2009. See “Equity Agreements” table for more
information.
Loan of $4 billion; additional note of $267 million (6.67% of the maximum                           3% or 8% (if the company is in default of its        1/2/2012
loan amount). Subsequently, this loan was then amended; $500 million on                             terms under the agreement) plus the greater
4/29/2009. In addition, on 4/29/2009, $280 million was set aside in an                              of (a) three-month LIBOR or (b) LIBOR floor
SPV for the AWCP.                                                                                   (2.0%)
Loan is funded incrementally at $100 million per week; additional note is                           LIBOR + 1% for first year                            1/16/2014
$75 million (5% of total loan size), which vests 20% on closing and 20% on                          LIBOR + 1.5% for remaining years
each anniversary of closing.
Loan of $3 billion committed to Chrysler for its bankruptcy period. Subse-                          (i) the greater of (a) LIBOR for the related         9/30/2009, subject to
quently, this loan was amended; $757 million was added on 5/20/2009.                                interest period or (b) two percent (2%) plus (ii)    certain conditions
Treasury funded $1.9 billion during bankruptcy period. The remaining                                three and five-tenths percent (3.5%)
amount will be de-obligated.
Commitment to New CarCo Acquisition LLC (renamed Chrysler Group LLC                                 For $2 billion: (i) the Eurodollar Rate, plus (ii)   For $5 billion note:
on or about 6/10/2009) of up to $6.642 billion. The total loan amount is                            (a) 5% or, on loans extended past the original       12/10/2011; provided
up to $7.142 billion including $500 million of debt assumed from Treasury’s                         maturity date, (b) 6.50%. For $5.142 billion         that issuer may extend
1/2/2009 credit agreement with Chrysler Holding LLC. The debt obligations                           note: (i) the Eurodollar Rate plus 7.91% and         maturity for up to
are secured by a first-priority lien on the assets of New CarCo Acquisition                         (ii) an additional $17 million in PIK interest per   $400 million of principal
LLC (the company that purchased Chrysler LLC’s assets in a sale pursuant                            quarter. For other notes: Eurodollar Rate plus       to 6/10/2017. For other
to Section 363 of the Bankruptcy Code).                                                             7.91%                                                notes: 6/10/2017
Original $30.1 billion funded. Amended loan documents provided that $986                            LIBOR + 3%                                           Originally 10/31/2009, re-
million of the original DIP loan was left for the old GM.                                                                                                vised to remain outstand-
                                                                                                                                                         ing during the pendency of
                                                                                                                                                         the liquidation
Original loan amount was $3.5 billion, but it was decreased permanently to                          (i) the greater of (a) LIBOR for the related         4/9/2010
$2.5 billion on 7/8/2009.                                                                           interest period or (b) two percent (2%) plus (ii)
                                                                                                    three and five-tenths percent (3.5%)
Original loan amount was $1.5 billion, but it was decreased permanently to                          (i) the greater of (a) LIBOR for the related         4/9/2010
$1 billion on 7/8/2009.                                                                             interest period or (b) two percent (2%) plus (ii)
                                                                                                    three and five-tenths percent (3.5%)

Sources: Treasury, “Loan and Security Agreement By and Between General Motors Corporation as Borrower and The United States
Department of Treasury as Lender Dated as of December 31, 2008,” 12/31/2008. Treasury, “General Motors Corporation, Indicative
Summary of Terms for Secured Term Loan Facility,” 12/19/08; Treasury, “General Motors Promissory Note,” 1/16/2009; Treasury,
“Loan and Security Agreement By and Between Chrysler Holding LLC as Borrower and The United States Department of Treasury as
Lender Dated as of December 31, 2008,” 12/31/2008; Treasury, “Chrysler, Indicative Summary of Terms for Secured Term Loan
Facility,” 12/19/2008; Treasury, “Chrysler LB Receivables Trust Automotive Industry Financing Program, Secured Term Loan, Summary
of Terms,” 1/16/2009; OFS, response to SIGTARP draft report, 1/30/2009; Treasury, Transactions Report, 6/30/2009; Treasury,
response to SIGTARP data call, 7/13/2009; Treasury, “Fact Sheet on Capital Purchase Program,” 3/17/2009; Treasury Press Release,
“Treasury Releases Capital Purchase Program Term,” 1/14/2009; Treasury, “TARP Capital Purchase Program (Subchapter S Corpora-
tion), Senior Securities, Summary of Terms,” 1/14/2009.
44                SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     TABLE 2.5

      LARGEST POSITIONS IN WARRANTS OUTSTANDING HELD BY TREASURY, BY PROGRAM, AS OF 6/30/2009
                                                                                                                                                                                                      Amount “In
                                                                             Stock Price                                             Strike Price                                                    the Money”
                                                                                   as of                       Number of               as Stated          Stock Price In or Out                    or “Out of the
                                                                 Transaction Transaction                        Warrants                   in the               as of   of the                     Money” as of
     Participant                                                       Date        Date                       Outstanding            Agreements           6/30/2009 Money?                           6/30/2009
     Capital Purchase Program (“CPP”):
     Citigroup                                                   10/28/2008               $13.41           210,084,034                      $17.85                  $2.97           OUT                    $(14.88)
     Bank of America                                             10/28/2008                 23.02            73,075,674                        30.79                13.20           OUT                      (17.59)
     Bank of America                                                 1/9/2009               12.99            48,717,116                        30.79                13.20           OUT                      (17.59)
     Wells Fargo                                                 10/28/2008                 34.46          110,261,688                         34.01                24.26           OUT                          (9.75)
     JPMorgan      Chasea                                        10/28/2008                 37.60            88,401,697                        42.42                34.11           OUT                          (8.31)
     Morgan Stanleya                                             10/28/2008                 15.20            65,245,759                        22.99                28.51            IN                           5.52
     Systemically Significant Failing
     Institutions (“SSFI”) Program:
      AIGb                                                       11/25/2008                 35.40             2,689,938                        50.00                23.20           OUT                      (26.80)
      AIGb                                                         4/17/2009                32.40                       150                    0.00c                23.20            IN                          23.20
     Targeted Investment Program (“TIP”):
      Citigroup                                                  12/31/2008                   6.71         188,501,414                         10.61                 2.97           OUT                          (7.64)
      Bank of America                                              1/16/2009                  7.18         150,375,940                         13.30                13.20           OUT                          (0.10)
     Automotive Industry Financing
     Program (“AIFP”):
      GM                                                         12/31/2008                   3.20         122,035,597                          3.47                 1.09           OUT                          (2.38)
     Asset Guarantee Program (“AGP”):
      Citigroup                                                    1/16/2009                  3.50           66,531,728                        10.61                 2.97           OUT                          (7.64)

      Notes: Numbers affected by rounding.
      a
        These institutions repaid their CPP funds pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009. Treasury still holds these warrants in its portfolio for these
        institutions.
      b
        All warrant and stock data for AIG are based on the 6/30/2009 reverse stock split of 1 for 20.
      c
        $0.00002 strike price.

      Sources: Treasury, Transactions Report, 7/2/2009; Treasury, response to SIGTARP data call, 7/8/2009; Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com.




                                                                            TABLE 2.6

                                                                            DIVIDEND AND INTEREST PAYMENTS,
                                                                            BY PROGRAM ($ MILLIONS)
                                                                            Program                                              Amount
                                                                            CPP                                                 $5,254.7
                                                                            SSFI                                                          —–


                                                                            TIP                                                   1,128.9
                                                                            AGP                                                     107.6
                                                                            AIFPa                                                   361.3
                                                                            ASSP                                                        0.7
                                                                            Total                                              $6,853.2

                                                                            Notes: Numbers affected by rounding. Data as of 6/30/2009.
                                                                            a Includes AWCP

                                                                            Source: Treasury, response to SIGTARP data call, 7/8/2009.
                                                                                    QUARTERLY REPORT TO CONGRESS I JULY 21, 2009                             45




FINANCIAL INSTITUTION SUPPORT PROGRAMS
                                                                                                  Qualifying Financial Institutions
Treasury created five TARP programs that involve investment of capital or guaran-
                                                                                                  (“QFIs”): Private and public U.S.-con-
tee of assets in return for equity in financial institutions. Two investment pro-                 trolled banks, savings associations,
grams, the Capital Purchase Program (“CPP”) and the Capital Assistance Program                    bank holding companies, certain
(“CAP”), are open to all qualifying financial institutions (“QFIs”). The other three              savings and loan holding companies,
programs, the Systemically Significant Failing Institutions (“SSFI”) program,                     and mutual organizations.
Targeted Investment Program (“TIP”), and Asset Guarantee Program (“AGP”) are
made available on a case-by-case basis to specific institutions needing exceptional
assistance above that of CPP and CAP.
                                                                                              FIGURE 2.5
Capital Purchase Program
                                                                                              CPP EXPENDITURES, BY PARTICIPANT,
Treasury currently anticipates that $218 billion of CPP TARP funds will eventually
                                                                                              CUMULATIVEa
be invested in QFIs, which include private and public U.S.-controlled banks, sav-             $ Billions, % of $203.2 Billion
ings associations, bank holding companies (“BHCs”) (including insurance compa-
nies organized as BHCs), certain savings and loan holding companies (“SLHCs”),                                                     Bank of America
                                                                                                                                   $25.0
mutual banks, and mutual holding companies. According to Treasury, the intention
                                                                                                    Other
of CPP is to invest in healthy, viable banks to promote financial stability, maintain         Institutions
                                                                                                                            12.3%              JPMorgan
                                                                                                                                               Chase
confidence in the financial system, and permit institutions to continue meeting                     $83.2    40.9%
                                                                                                                                               $25.0
                                                                                                                                  12.3%
the credit needs of American consumers and businesses.44 For a summary of the
distribution of CPP funding by participant — not including any repayment — see                                                    12.3%
                                                                                                                                               Wells Fargo
Figure 2.5.                                                                                                                                    $25.0
                                                                                                                             12.3%

                                                                                                             4.9%                  Citigroup
Program Updates                                                                                    Morgan Stanley                  $25.0
CPP operations have remained similar to what has been outlined in SIGTARP’s                                $10.0
                                                                                                                           4.9%
Initial Report and April Quarterly Report; however, on April 7, 2009, Treasury                                             Goldman Sachs
                                                                                                                           $10.0
announced an extension of the program to mutual holding companies,45 and, one
week later, it released a program term sheet for mutual banks.46 On May 13, 2009,             Notes: Numbers affected by rounding. Data as of 6/30/2009.
                                                                                              Bank of America = Bank of America Corporation; JPMorgan Chase =
Treasury announced an expansion of CPP known as “CPP for Small Banks.”                        JPMorgan Chase & Co.; Wells Fargo = Wells Fargo and Company;
                                                                                              Citigroup = Citigroup Inc.; Goldman Sachs = The Goldman Sachs
                                                                                              Group, Inc.
                                                                                              a
                                                                                                $203.2 billion represents total CPP funds expended before any
                                                                                              CPP repayments. JPMorgan, Goldman Sachs, Morgan Stanley,
                                                                                              and some other institutions have repaid their TARP funds under
Bank Holding Company (“BHC”): A company      Mutual Banks: Depository institutions that       CPP.
that controls a bank. Typically, a company   are owned by their depositors and do not
                                                                                              Source: Treasury, Transactions Report, 7/2/2009.
controls a bank through the ownership of     have a holding company associated with
25% or more of its voting securities.        them.

Savings and Loan Holding Company             Mutual Holding Company: A bank or savings
(“SLHC”): A company (other than a BHC)       and loan holding company that is part of a
that controls a savings association.         mutual bank that is owned by depositors;
                                             distributes income in proportion to the
                                             amount of business that members do with
                                             the company.
46            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     TABLE 2.7

       For more information on the CPP               KEY DATES AND DEADLINES FOR CPP APPLICATION PROCESS,
       application process, refer to SIGTARP’s       BY APPLICANT CATEGORY
       Initial Report, Section 3: “TARP                                                              Announced                       Application                      Number of
       Implementation and Administration.”           Type                                            Date                            Deadline                        Participants
                                                     Publicly Helda                                  10/14/2008                      11/14/2008                                  282
                                                     Privately Heldb                                 11/17/2008                      12/8/2008                                   331
                                                     “S”   Corporationc                              1/14/2009                       2/13/2009                                    36
                                                     Mutual Organizationsd                           4/7/2009                        5/7/2009                                      —
                                                     Mutual Bankse                                   4/14/2009                       5/14/2009                                     —
                                                     Small   Banksf (< $500 million in assets)       5/13/2009                       11/21/2009                                  10g

                                                     Notes: Private QFIs are those that are non-public QFIs, excluding S Corporations and mutual organizations.
                                                     a Treasury, “Treasury Announces TARP Capital Purchase Program Description,” 10/14/2008, www.treas.gov, accessed 1/22/2009.
                                                     b Treasury, “Process Related FAQs for Private Bank Capital Purchase Program,” no date, www.treas.gov, accessed 1/22/2009.
                                                     c Treasury, “S Corporation FAQs,” no date, www.treas.gov, accessed 1/22/2009.
                                                     d Treasury, “Process Related FAQs for the Capital Purchase Program, Mutual Holding Company FAQs,” 4/7/2009,

                                                       www.financialstability.gov, accessed 4/7/2009.
                                                     e Treasury, “Treasury Releases Capital Purchase Program Term Sheet for Mutual Banks,” 4/14/2009, www.financialstability.gov,

                                                       accessed 6/1/2009.
                                                     f Treasury, “Remarks by Secretary Geithner Before the Independent Community Bankers of America Annual Washington Policy Summit,”

                                                       5/13/2009, www.financialstability.gov, accessed 6/1/2009.
                                                     g This number includes publicly held institutions, privately held institutions, and “S” Corps.




                                                     In addition, on May 14, 2009, insurance companies that organized themselves
                                                     under the terms of a BHC and applied within the initial application window were
                                                     granted preliminary approval to participate in CPP.47 The application process for
                                                     these qualified financial institutions is the same as the process for the previously
                                                     funded QFIs. Key dates for each type of institution that has or may apply for CPP
                                                     funding are outlined in Table 2.7.
                                                         Unique term sheets provide CPP guidance for these three types of mutual hold-
                                                     ing companies:

                                                     • publicly traded, subsidiary holding companies
                                                     • privately held, mid-tier subsidiary holding companies
                                                     • top-tier, mutual holding companies that do not have subsidiary holding
                                                       companies

                                                         The terms for the publicly traded and privately held subsidiary holding com-
     Senior Securities: A debt or equity             panies are similar to those of public and private corporations receiving preferred
     security that has a higher priority over        shares and warrants currently under CPP.48
     others.                                             For its CPP investment in mutual banks and mutual holding companies, the
                                                     Government will receive senior securities that carry a value equal to and not less
     Risk-Weighted Assets: The amount of             than 1% of the recipient firm’s risk-weighted assets and not more than $25 billion
     a bank’s total assets after applying an         or 3% of the recipient firm’s risk-weighted assets. This is similar to the amount of
     appropriate risk factor to each asset.          preferred shares that are received by Treasury from participating public corpora-
                                                     tions. The senior securities have a maturity of 30 years and carry interest rates of
                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 21, 2009                                    47


 FIGURE 2.6

TRACKING CAPITAL PURCHASE PROGRAM INVESTMENTS ACROSS THE COUNTRY




                                                                                      $10 Billion or More
                                                                                      $1 Billion to $10 Billion
                                                                                      $100 Million to $1 Billion
                                                                                      $10 Million to $100 Million
                                                                                      Less than $10 Million
                                                                                      $0



                                                                                   Note: Banks in Montana and Vermont had not received any funds as of
                                                                                   6/30/2009.

                                                                                   Source: Treasury, “Local Impact of the Capital Purchase Program,”
                                                                                   6/30/2009, www.financialstability.gov, accessed 6/30/2009.




7.7% for the first five years and 13.8% for their remaining life. Due to the differing
                                                                                                   TABLE 2.8
tax structures of mutual organizations, these interest rates approximate the eco-
nomics of the 5% and 9% dividends required for many other CPP participants, in-                    CPP ORIGINAL INVESTMENT
cluding the publicly held BHCs. Just as it does with a private company under CPP,                  SUMMARY
Treasury will receive warrants to purchase senior securities equal to 5% of the value              Largest Capital Investment                   $25 Billion

of the CPP investment.49 Additionally, on May 13, 2009, the Treasury Secretary                     Smallest Capital Investment                  $301,000

announced that the CPP application window would be re-opened for banks with                        Average Capital Investment                   $312.1 Million
                                                                                                   Median Capital Investment                    $11.8 Million
assets under $500 million until November 21, 2009.50 According to Treasury, it will
be using the repayments of some of the largest banks to fund this expansion, which                 Notes: Numbers affected by rounding. Data as of 6/30/2009.
                                                                                                   These numbers are based on total Treasury CPP investment
will permit small banks to receive an amount up to 5% of their risk-weighted assets.               since 10/28/2008. Bank of America Corporation and Sun-
                                                                                                   Trust Banks, Inc., each received investments in two separate
These increases apply to all QFIs with assets under $500 million, including public                 transactions.

and private corporations, S corporations, and mutual institutions.51                               Sources: Treasury, Transactions Report, 7/2/2009. Treasury,
                                                                                                   response to SIGTARP draft report, 7/13/2009.


Status of CPP Funds
As of June 30, 2009, Treasury had purchased $203.2 billion in preferred stock                      TABLE 2.9
and subordinated debentures from 649 different QFIs in 48 states, the District of                  CPP ORIGINAL INVESTMENT
Columbia, and Puerto Rico. Closings for CPP purchases generally occur each week                    SIZE
on Friday, and information regarding the transactions are made publicly available                  $10 Billion or More                                   6
by the following Tuesday. For geographical distribution of all the QFIs that have                  $1 Billion to $10 Billion                             19
received funding see Figure 2.6. For a full listing of CPP recipients, see Appendix                $100 Million to $1 Billion                            56
D: “Transaction Detail.”                                                                           Less than $100 Million                                568
    Although the original eight largest investments accounted for $134.2 billion of                Total                                                 649
the program, CPP has also had many more modest investments: 301 of 649 recipi-                     Notes: Data as of 6/30/2009. These numbers are based on
                                                                                                   total Treasury CPP investment since 10/28/2008. Bank of
ents received $10 million or less.52 Table 2.8 and Table 2.9 show the distribution of              America Corporation and SunTrust Banks, Inc., each received
                                                                                                   investments in two separate transactions.
the investments by size.
                                                                                                   Source: Treasury, Transactions Report, 7/2/2009.
48                 SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     For more information on CPP repay-
                                                          Repayment of Funds
     ment, see Section 2: “TARP Overview” in
                                                          According to the CPP contracts between Treasury and the institutions, banks
     SIGTARP’s April Quarterly Report.
                                                          were not permitted to repay their CPP funds, subject to certain limitations, within
                                                          the first three years; however, this portion of the agreement was changed by the
                                                          enactment of the American Recovery and Reinvestment Act of 2009 (“ARRA”),
                                                          which required Treasury to permit financial institutions to repay the capital infu-
                                                          sions, subject to their consultation with the appropriate Federal Banking Agency
     Federal Banking Agency (“FBA”): One of
     four agencies:
                                                          (“FBA”).53
     1) Comptroller of the Currency                           Institutions seeking to buy back their preferred shares, in essence repay their
     2) Board of Governors of the Federal                 TARP funds, must meet the standards required by their respective banking supervi-
        Reserve System                                    sor. According to Treasury, FBA supervisors will determine if the interested CPP
     3) Federal Deposit Insurance                         recipient has sufficient equity without the CPP funds, an ability to lend, and a
        Corporation                                       comprehensive internal capital-assessment process.54 On June 1, 2009, the Federal
     4) Office of Thrift Supervision                      Reserve announced additional specific criteria that it will use to review any request
                                                          for repayment of CPP funds from the top 19 BHCs included in the Supervisory
                                                          Capital Assessment Program (“SCAP”) process:55

                                                          • fulfill its role as an intermediary to provide lending to creditworthy households
      FIGURE 2.7
                                                            and businesses without TARP capital
                                                          • maintain levels of capital consistent with supervisory expectations
      SNAPSHOT OF CPP FUNDS
      OUTSTANDING AND REPAID,                             • serve as financial and managerial support to its subsidiaries
      BY QUARTER                                          • be able to access equity on the private markets
      $ Billions                                          • meet its obligations and lending without reliance on FDIC’s Temporary
                            $198.8          $203.2          Liquidity Guarantee Program (“TLGP”) (For more information on this program,
               $177.5                                       see “TARP in Context — Other Government Programs to Assist the Financial
       200                     $0.4
                                             $70.1
                                                            Sector,” in Section 3 of this report.)
                            $198.4
       150     $177.5                                     • carry a capital level necessary to meet the more adverse economic scenarios
                                                            under the SCAP testing
                                            $133.1
       100

                                                              For further details on SCAP, refer to the “Capital Assistance Program” discus-
        50
                                                          sion later in this section.
          0                                                   As of June 30, 2009, 32 banks had repurchased their shares from Treasury.
              Q42008        Q12009          Q22009        Treasury has received $70.1 billion in principal and an additional $316.1 million
               CPP Funds Outstanding at Quarter’s End     in accrued and unpaid dividends.56 Figure 2.7 shows the amount of CPP funds
               CPP Funds Repaid at Quarter’s End          outstanding, adjusted for repayments. For details of share repurchases conducted
                                                          as of June 30, 2009, see Appendix D: “Transaction Detail.”
      Note: Numbers affected by rounding.

      Source: Treasury, Transactions Report, 7/2/2009.    Repurchase of Warrants
                                                          To maximize the benefit to the taxpayer, EESA mandated that Treasury receive
                                                          warrants when it invests in troubled assets. The warrants for publicly traded institu-
                                                          tions provide Treasury the right to purchase shares of common stock, or, in the case
                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 21, 2009   49




of non-publicly traded institutions, preferred stock or debt at a fixed price.57 Under
CPP, the warrants expire in 10 years. As of June 30, 2009, Treasury had not exer-
cised its right under the warrants to purchase common shares in any of the public
institutions but had done so for non-public institutions.58
    With institutions beginning to repay their CPP funds, the U.S. Government has
clarified its treatment of warrant repurchases in various ways. Under the standard
CPP Securities Purchase Agreement (“SPA”) and ARRA, publicly traded TARP re-
cipients have the right to repurchase their warrants with proper notice to Treasury
at the fair market value. Non-public TARP recipients have the right to repurchase
the preferred shares and subordinated debt that Treasury took when it immediately
exercised the warrants at the time their CPP transactions closed.59 ARRA states
that, following the repayment of TARP funding, Treasury “shall liquidate warrants
associated with such assistance at the current market price.”60 On May 20, 2009,
Congress passed the Helping Families Save Their Homes Act of 2009 (Public Law
No. 111-22), which amended the ARRA provision requiring Treasury to liquidate
its warrants immediately upon TARP repayment. Specifically, the phrase “shall
liquidate” was changed to “may liquidate” — indicating that Treasury has discretion
in deciding when it should sell or exercise its warrants.61
    On June 26, 2009, Treasury announced guidance for the warrant repurchase
process for publicly traded institutions. If an institution wishes to repurchase war-
rants from Treasury, it must first take the following steps:62

Step 1: Notification to Treasury with Determination of Fair Market Value
Any institution wishing to repurchase its warrants must notify Treasury within 15
days of repayment of TARP funds.63 According to the CPP SPA, the notification
must include the number of warrants to be repurchased and the determination of
fair market value from the board of directors. Moreover, the board of directors must
be acting in good faith with reliance on an “independent investment banking firm.”
The independent appraiser must be retained by the TARP recipient and approved
by Treasury.64

Step 2: Treasury Evaluates Repurchase Offer
According to the CPP SPA and the guidance announced by Treasury, Treasury will
have 10 days to evaluate the TARP recipient’s offer of fair market value as required
by ARRA.65 According to Treasury, it will be using three different valuation method-
ologies to determine market values of the warrants:66

• market-price approach – For those warrants listed on a securities exchange,
  current market value is used. However, many of the warrants that Treasury
50   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                              holds are not listed on a securities exchange. In these cases, Treasury will use
                                              market prices of securities with similar characteristics to assess the market value
                                              of the warrants. Securities with similar characteristics include traded warrants,
                                              traded options, common equity, and securities listed by similar institutions. Treasury
                                              has stated that it will be using 5-10 market participants, such as investment banks
                                              and asset management firms, to provide quotes on the value of the warrants.
                                            • financial models – Treasury stated that it will conduct valuations based on
                                              well-known, common financial models, such as the binomial and Black-Scholes
                                              models. The models use various known inputs as well as assumptions about the
                                              volatility and dividends of the common stock of the institution to calculate the
                                              value of the warrants. To measure the volatility and assumptions of the common
                                              stock, Treasury will be using a 60-day trailing volatility for the past 10 years of
                                              the common stock price.
                                            • third-party valuation – Treasury will be using the three asset managers that it
                                              has hired to manage TARP assets and other outside consultants to assess inde-
                                              pendently the value of each institution’s warrants.

                                            Step 3: Negotiation Period
                                            Should Treasury reject the TARP recipient’s repurchase offer, the Chief Executive
                                            Officer (“CEO”) of the TARP recipient and a representative of Treasury shall meet
                                            to discuss Treasury’s objections to the valuation proposed by the TARP recipient
                                            and attempt to reach an agreement.67 As of June 30, 2009, all of the warrant repur-
                                            chases have occurred as a product of this negotiation period.68

                                            Step 4: Appraisal Procedure
                                            If, in 10 days, no price is agreed upon, either the institution or Treasury may invoke
                                            the “Appraisal Procedure.” This involves Treasury and the TARP recipient each
                                            choosing an independent appraiser to agree mutually upon the fair market value of
                                            the warrants. If, after 30 days, the two appraisers are not able to agree upon a fair
                                            market value, then a third independent appraiser will be chosen with the consent
                                            of the first two appraisers.69 The third appraiser has 30 days to make a decision,
                                            and, subject to limitations — such as if one of the three valuations is significantly
                                            different from the other two — a composite valuation of the three appraisals is
                                            used to establish the fair market value.70 Treasury and the institution will be bound
                                            by this price determination, but Treasury has stated that if the recipient is not satis-
                                            fied with this price, it may withdraw its notification to repurchase the warrants.71
                                            Under the CPP SPA, the costs of conducting any appraisal procedure “shall be
                                            borne by the Company.”72

                                            Alternate Disposition of Warrants
                                            If the institution and Treasury do not invoke the “Appraisal Procedure,” or if the
                                            institution decides not to seek to repurchase its warrants, Treasury has various
                                                                                                                            QUARTERLY REPORT TO CONGRESS I JULY 21, 2009   51




options as to how it manages these investments over the 10-year exercisable period
— it may sell them, exercise them, or hold them as it sees fit to otherwise maximize
benefit to the taxpayers. When selling the warrants on the open market, Treasury
has stated that it will do so through an auction process. As of June 30, 2009, guid-
ance on this auction process has not yet been released.73 Treasury has stated that it
intends to liquidate the warrants of institutions that have redeemed their CPP pre-
ferred shares quickly.74 While under the SPA, Treasury also has the right to auction
50% of the warrants of financial institutions that have not yet repaid TARP funds;75
as of June 30, 2009, it had not done so.
    As of June 30, 2009, 11 banks had repurchased their warrants for a total of
$18.7 million,76 while three private institutions whose warrants were immediately
exercised into preferred shares had repurchased those shares for a total of
$1.6 million.77 For a list of institutions, both public and private, that have repaid
their TARP funds and repurchased their warrants as of June 30, 2009, see Table
2.10. These institutions are no longer part of TARP.
TABLE 2.10

CPP WARRANT REPURCHASES (PUBLIC)                                 ($ MILLIONS)

                                                                                   Number of                 Amount of
Repurchase                                                                          Warrants                 Repurchase as
Date                 Institution                                                 Repurchased                 of 6/30/2009
5/8/2009             Old National Bancorp                                               813,008                 $1.2
5/20/2009            Iberiabank    Corporationa                                         138,490                  1.2
5/27/2009            FirstMerit Corporation                                             952,260                  5.0
5/27/2009            Sun Bancorp, Inc.                                                1,543,376                  2.1
5/27/2009            Independent Bank Corp.                                             481,664                  2.2
6/17/2009            Alliance Financial Corporation                                     173,069                  0.9
6/24/2009            First Niagara Financial Groupa                                     953,096                  2.7
6/24/2009            Berkshire Hills Bancorp, Inc.                                      226,330                  1.0
6/24/2009            Somerset Hills Bancorp                                             163,065                  0.3
6/24/2009            SCBT Financial Corporation                                         303,083                  1.4
6/30/2009            HF Financial Corp.                                                 302,419                  0.7
Total Warrants – Public                                                              6,049,860               $18.7
CPP WARRANT REPURCHASES (PRIVATE)                                 ($ MILLIONS)
                                                                                     Number of                Amount of
Repurchase                                                                            Preferred               Repurchase as
Date                  Institution                                                       Shares                of 6/30/2009
4/15/2009             Centra Financial Holdings, Inc./                                         750              $0.8
                      Centra Bank, Inc.
4/22/2009             First ULB Corp.                                                          245                0.2
5/27/2009             First Manitowoc Bancorp, Inc.                                            600                0.6
Total Preferred Shares – Private                                                           1,595                $1.6

Notes: Numbers affected by rounding. Data as of 6/30/2009. This does not include the $60 million warrant repurchase by State Street
Corporation that occurred on 7/8/2009.
a
  These institutions reduced the original amount of warrants issued through a qualified equity offering.

Source: Treasury, Transactions Report, 7/2/2009.
52       SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                Treasury Lending Snapshots
                                                Treasury snapshots were instituted in January 2009 as a means to track progress
                                                toward the stated goal of CPP: “building a capital base of viable U.S. financial in-
                                                stitutions, enabling them to continue lending to businesses and consumers during
                                                this unprecedented financial crisis and economic downturn.”78 Treasury continues
                                                to measure the lending activities of CPP recipients by performing both monthly
                                                and quarterly data analysis.79 There are currently two types of monthly reports is-
                                                sued on CPP. Originally, the monthly intermediation snapshots were conducted for
                                                the 21 largest CPP participants. In March 2009, Treasury announced that it would
                                                require all CPP participants to submit data for a new monthly lending report that
                                                complements the monthly intermediation snapshots. The first monthly lending re-
                                                port for all CPP participants was published on June 1, 2009, and included data for
                                                February and March of 2009. A second monthly lending report with April data was
                                                issued on June 19, 2009. Going forward, this report will be released around the
                                                20th of each month.80 As of June 30, 2009, information from the 21 largest CPP
                                                participants had been collected and released through April 2009.

                                                April 2009 Monthly Intermediation Snapshot
                                                The most recent monthly intermediation snapshot for the 21 largest CPP recipi-
                                                ents was released on June 15, 2009, reporting data for the period of April 1, 2009,
                                                to April 30, 2009. The responses found a decline in total new lending of 7% from
                                                March to April; the report also included new information on small-business lending
                                                that will be reported in all surveys going forward. Treasury reviewed and analyzed
                                                the data and came to the following conclusions:81

                                                • Consumer lending levels decreased as a result of a weakening labor market and
                                                  declines in household wealth.
                                                • Commercial and industrial lending was reportedly “well below normal levels.”
                                                • Banks reported $267 billion in outstanding small-business loan balances, with
                                                  $8 billion in small-business loan originations over the month.

     For more information on the Capital        Capital Assistance Program
     Assistance Program, refer to SIGTARP’s     On February 10, 2009, Treasury announced the Capital Assistance Program
     April Quarterly Report, Section 2:
                                                (“CAP”).82 The CAP process has two main steps for the 19 largest BHCs (all other
     “TARP Overview.”
                                                QFIs need not participate in the first step but have the option to participate in the
                                                second step):83

                                                • a “stress test” (also known as the Supervisory Capital Assessment Program
                                                  (“SCAP”)) to evaluate the 19 largest BHCs’ capital levels for their ability to with-
                                                  stand an adverse economic scenario
                                                                                  QUARTERLY REPORT TO CONGRESS I JULY 21, 2009        53




• an application to Treasury for funding in the form of additional capital infu-
                                                                                               Manditorily Convertible Preferred
  sions or as a means to convert CPP investments to CAP mandatorily convertible
                                                                                               (“MCP”) shares: A type of preferred
  preferred (“MCP”) shares (available to all QFIs)                                             share (ownership in a company that
                                                                                               generally entitles the owner of the
     CAP’s stated goal is to “ensure the continued ability of U.S. financial institu-          shares to collect dividend payments)
tions to lend to creditworthy borrowers in the face of a weaker-than-expected                  that can be converted to common
economic environment and larger-than-expected potential losses.”84 As of June 30,              stock under certain parameters at
2009, one institution had applied for but had not yet been approved for CAP.                   the discretion of the company — and
     Since SIGTARP’s April Quarterly Report, the Federal Reserve released the                  must be converted to common stock
results of SCAP and provided recommendations for further actions that certain in-              by a certain time.
stitutions will need to take to meet enhanced capital requirements. Of the 19 insti-
tutions that participated in SCAP, the Federal Reserve determined that 10 needed
approximately $75 billion total in additional capital, and the other 9 institutions
had sufficient capital to cover potential losses even in the more adverse scenario.85
     Upon publication of the SCAP results, Treasury announced a November 9, 2009,
deadline for those 10 institutions that need to raise additional capital to meet the
enhanced capital requirements. Treasury also extended the application deadline for
all institutions wishing to participate in CAP to November 9, 2009.86 For a timeline
and description of the CAP process, see Figure 2.8 on the next page.

Supervisory Capital Assessment Program (“SCAP”)
SCAP, otherwise known as the “stress test,” was a key component of CAP. The
stress test was conducted by the FBAs with the stated intention of ensuring that
the largest financial institutions have sufficient capital to cover losses and continue
lending in a more adverse economic scenario than was anticipated at the time the
tests were conducted. All domestic BHCs with assets exceeding $100 billion at the
end of 2008 were required to participate. At the end of 2008, there were 19 BHCs
with assets of more than $100 billion, representing roughly two-thirds of aggregate
U.S. BHC assets.87
    According to the Federal Reserve, the stress test was a forward-looking exer-
cise utilizing both a baseline and adverse scenario of the economy for the next two
years. The test was administered by various teams of supervisors and analysts from
the FBAs with specialized knowledge of the participating firms or expertise in spe-
cific asset classes or securities.88
    On May 7, 2009, the Federal Reserve released the results of the SCAP pro-
cess, revealing that 9 of the 19 BHCs had sufficient capital to withstand the most
adverse scenario of the tests. As of June 30, 2009, eight of the nine institutions
that had sufficient capital under SCAP were approved by their FBAs and had
repaid their CPP funds, but had outstanding warrants owned by the Government.
As of the drafting of this report, State Street Corporation repurchased its related
warrants for $60 million making it the only institution out of the nine to be out of
54                SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




FIGURE 2.8

CAPITAL ASSISTANCE PROGRAM PROCESS AND TIMELINE


                                                                                   FEBRUARY 2009



                                                                           FEBRUARY 10                           FEBRUARY 25
                                                                     Treasury announces                          Treasury releases
                                                                       Capital Assistance                        the terms for
                                                                        Program (“CAP”).                         QFIs applying
                                                                                                                 for CAP funding.


              FEBRUARY 25
     Stress testing begins for                                  Top 19 BHCs                                                                    All Other QFIs
            the top 19 BHCs.


                    MAY 7                                  Stress Test for Top
      Federal Reserve and                                       19 BHCs
 Treasury announce results
             of stress test.


                                            9 BHCs with                      10 BHCs Need
                                           Sufficient Capital               Additional Capital

                     JUNE 8
10 BHCs that did not have
sufficient capital submitted                                             Create a Capital Plan
 their capital plans on how
        they would raise the
          necessary capital.
              NOVEMBER 9
     Deadline for 10 BHCs to                                              Raise Capital in the
                                                                            Private Market
      raise additional capital.




                                                                                                                                                                                         NOVEMBER 9
                                                                 Raised                        Still Needs                     Apply for CAP            Apply to Convert CPP
                                                                                                                                                                                         Application deadline for
                                                           Sufficient Capital               Additional Capital                   Funding                 Investments to CAP
                                                                                                                                                                                         applicants.


                                                                                                                                                                                         7 YEARS AFTER CAP
                                                                                                                                                                                         SETTLEMENT DATE
                                                                                                                                        Conversion from CAP                              Convertible preferred
                                                                                                                                         to Common Stock                                 shares held by Government
                                                                                                                                                                                         mandatorily convert to
                                                                                                                                                                                         common shares, if not yet
                                                                                                                                                                                         voluntarily converted.


Note: Many of the 10 BHCs have raised significant funds on their own, which could seemingly limit their need for CAP.

Sources: Federal Reserve, “Banking Organizations Have Submitted Capital Plans To Bolster Their Capital,” 6/8/2009, www.federalreserve.gov, accessed 6/8/2009; Treasury, “Statement from Treasury Secretary
Tim Geithner Regarding the Treasury Capital Assistance Program and the Supervisory Capital Assessment Program,” 5/7/2009, www.financialstability.gov, accessed 5/7/2009; Treasury, “Secretary Geithner
Introduces Financial Stability Plan,” 2/10/2009, www.treas.gov, accessed 3/25/2009; Treasury Press Release, “U.S. Treasury Releases Terms of Capital Assistance Program,” 2/25/2009, www.treas.gov,
accessed 3/25/2009; Treasury, “Summary of Mandatorily Convertible Preferred Stock Terms,” 3/25/2009, www.treas.gov, accessed 3/25/2009.

.
                                                                                   QUARTERLY REPORT TO CONGRESS I JULY 21, 2009            55




                                                                                                “Tier One Capital” (“T1”) vs.
                                                                                                “Tier One Common” (“T1 Common”):
                                                                                                Two of the most relevant measures of
                                                                                                capital adequacy are tier one capital
                                                                                                (“T1”) and tier one common (“T1 Com-
                                                                                                mon”). For many TARP recipients, these
TARP.89 The ninth BHC, MetLife, is not a TARP recipient. The other 10 BHCs
                                                                                                two measures are significantly divergent
need to raise an additional $75 billion total of new capital in order to meet the
                                                                                                in the current market, capturing different
capital level deemed necessary to withstand a more adverse economic scenario.                   aspects of the institution’s health or lack
Options for raising the needed capital for these institutions include, but are not              thereof.
limited to: issuing common stock, exchanging preferred shares for common shares,
selling non-core businesses, increasing corporate earnings, or applying for CAP                 T1 or “core capital” consists primarily
                                                                                                of common equity (including retained
investments. Those failing to raise private funds would be required to take CAP
                                                                                                earnings), limited types and amounts
funds or convert their CPP funds to mandatory convertible shares; however, many
                                                                                                of preferred equity, certain minority
financial institutions have raised significant funds on their own, which could seem-            interests, and limited types and amounts
ingly limit their need for CAP.90 Nine of the 10 BHCs needing additional capital                of trust preferred securities. T1 does
have begun raising this capital in the private markets; the remaining BHC, Morgan               not include goodwill and certain other
Stanley, has already raised its additional capital and repaid its TARP funding.                 intangibles. Certain other assets are also
                                                                                                excluded from T1. It can be described as
                                                                                                a measure of the bank’s ability to sustain
SCAP Assumptions
                                                                                                future losses and still meet depositor’s
The stress test was designed to determine how much additional capital each insti-               demands. Federal regulators look at T1
tution may need to remain well capitalized in adverse economic conditions until                 to calculate the tier one capital ratio (“T1
the end of 2010. Well capitalized was a standard defined as being able to main-                 Ratio”), which determines what percent-
tain a 6% tier one risk-based capital ratio (“T1 Ratio”) and a 4% tier one common               age of a bank’s total assets is catego-
                                                                                                rized as T1. Under traditional Federal
risk-based ratio (“T1 Common Ratio”), which is also known as a tangible common
                                                                                                regulations, a bank with a T1 Ratio of
equity ratio (“TCE Ratio”).91 Generally, the Federal Reserve’s risk-based capital
                                                                                                4% or greater is considered adequately
guidelines for BHCs require a minimum 4% T1 Ratio; however, supervisors expect                  capitalized.
BHCs to hold T1 well in excess of the minimum ratio. Supervisors have indicated
that common equity (the component of T1 most able to absorb losses) should be                   T1 Common, also known as tangible
the dominant component of T1. The calculation of a T1 Common Ratio assessed                     common equity (“TCE”), is calculated
                                                                                                by removing all non-common elements
the composition of the BHCs’ T1 Ratio to determine whether common equity was
                                                                                                from T1, e.g., preferred equity, minority
sufficiently dominant. Once these two ratios were calculated, supervisors followed
                                                                                                interests, and trust preferred securities.
the normal supervisory evaluation process to determine whether a firm’s current                 It can be thought of as the amount that
capital was sufficient in light of its risk profile.92 SCAP’s required ratios are higher        would be left over if the bank were dis-
than current Federal regulations.                                                               solved and all creditors and higher levels
    In SCAP, the regulators created two forward-looking economic scenarios. The                 of stock, such as preferred stock, were
                                                                                                paid off. T1 Common is the highest “qual-
first scenario was a baseline forecast for 2009 and 2010 based on the most recent
                                                                                                ity” of capital in the sense of providing a
projections available from three professional forecasters prior to the start of the
                                                                                                buffer against loss by claimants on the
stress test on February 25, 2009.93 Although the baseline was intended to forecast              bank. T1 Common is used in calculating
likely economic metrics, the unemployment rate eclipsed the baseline assump-                    the tier one common risk-based ratio
tion of an annual average of 8.4% unemployment with the June 2009 unemploy-                     (“T1 Common Ratio”) which determines
ment rate of 9.5%.94 The second scenario evaluated the institutions under worse                 what percentage of a bank’s total assets
                                                                                                is categorized as T1 Common. The high-
economic conditions than those provided in the baseline forecast — an “adverse
                                                                                                er the percentage, the better capitalized
case” scenario. The assumptions for the baseline and adverse case compared to the
                                                                                                the bank. Preferred stock is an example
                                                                                                of capital that is counted in T1, but not in
                                                                                                T1 Common. For more information on a
                                                                                                bank’s capital structure, see the “Capital
                                                                                                Structure Tutorial” in SIGTARP’s April
                                                                                                Quarterly Report.
56            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     economic indicators as of June 30, 2009, are in Table 2.11, and demonstrate that
     Tier One Capital (“T1”): = Common               as of June 30, 2009, two of the three indicators (Real GDP and Unemployment)
     stockholders’ equity + Preferred equity         indicate that the economic downturn may be more severe than even the adverse
     (subject to regulatory limits) + Minority       scenario for 2009.
     interests + Trust preferred securities              To understand how much capital is needed to withstand a certain amount of
     (subject to regulatory limits) – Good-
                                                     losses and still maintain a capital buffer of at least a 6% T1 Ratio and at least a 4%
     will – Certain other assets (subject to
                                                     T1 Common Ratio, the BHCs were asked by their FBA regulators to project esti-
     regulatory limits).
                                                     mated losses on loans, securities, and trading-related exposures based upon 2008
                                                     year-end financial data.95
     Tier One Common Equity (“T1 Com-
     mon”): = T1 – Preferred equity –                    According to the Federal Reserve, under the more adverse scenario, together
     Minority interests – Trust preferred            the 19 BHCs had approximately $837 billion in T1, $413 billion of which was T1
     securities.                                     Common. These BHCs estimated their net losses to be $185 billion for 2009 and
     Tier One Risk-based Capital Ratio (“T1          2010. That would leave them with a required SCAP buffer of $74.6 billion un-
     Ratio”): = T1/Risk-weighted assets              der the adverse scenario. When calculating the required SCAP buffer, FBAs took
                                                     into account financial results and any actions that BHCs may have taken dur-
     Tier-One Common Risk-based Ratio                ing the first quarter of 2009.96 For example, SCAP took into account Citigroup’s
     (“T1 Common Ratio”): = T1 Common /              announced exchange offer on February 27, 2009. The announced offer was to
     Risk-weighted assets                            convert private preferred and Treasury’s CPP investments to common equity, which

     Professional Forecasters: Economic              TABLE 2.11
     expert firms that use various economic          STRESS TEST AND CURRENT MACROECONOMIC SCENARIOS
     data to publish their own projections.                                                      2009 Scenarios                  2010 Scenarios               Economic
     The three forecasters used for the                                                                           More                             More Indicators, as of
     purpose of the stress test were the                                                        Baseline        Adverse           Baseline       Adverse     6/30/2009
     Consensus Forecasts, the Blue Chip              Real GDP
                                                                                                    (2.0%)          (3.3%)             2.1%           0.5%                    (5.5%)
     Survey, and the Survey of Professional          (% Change in Annual Average)

     Forecasters. They are independent of            Annual Average Civilian
                                                                                                     8.4%            8.9%              8.8%         10.3%                     9.5% a
                                                     Unemployment Rate
     Treasury.
                                                     House Prices
                                                     (% Change Relative to Q4                     (14.0%)         (22.0%)             (4.0%)        (7.0%)                 (18.6%) b
     SCAP Buffer: The amount of capital              of Prior Year)
     needed for an institution to sustain a
                                                     Notes: As reported by the source document, baseline forecasts for real GDP and the unemployment rate equal the average of projec-
     6% Tier One Ratio and a 4% Tangible             tions released by Consensus Forecasts, the Blue Chip Survey, and the Survey of Professional Forecasters in February 2009.
                                                     a
                                                       9.5% is the annualized rate, not the “annual average.”
     Common Equity Ratio under the more              b
                                                       Number is based off of the S&P Case-Shiller 10-city Home Price Index for first quarter of 2009.
     adverse economic scenario.                      Sources: Federal Reserve, “The Supervisory Capital Assessment Program: Design and Implementation,” 4/24/2009;
                                                     Real GDP as of 6/30/2009: Bureau of Economic Analysis, “Gross Domestic Product, 1st quarter 2009 (final),” 6/25/2009,
                                                     www.bea.gov, accessed 7/9/2009; Unemployment rate as of 6/30/2009: Department of Labor, “The Employment Situation: June
                                                     2009,” 6/30/2009, www.bls.gov, accessed 7/9/2009; Changes in Housing Prices as of 6/30/2009: Treasury Office of Thrift Super-
                                                     vision, “First Quarter 2009 Thrift Industry Report — Economic Data,” 6/2/2009, www.files.ots.treas.gov, accessed 7/10/2009.
                                                                                                                               QUARTERLY REPORT TO CONGRESS I JULY 21, 2009                           57




                                                                                                                                          TABLE 2.12
in effect, increased its T1 Common. The terms of the exchange offer subsequently
                                                                                                                                           SCAP RESULTS FOR THE LARGEST 19
were finalized on June 9, 2009, and are described later in this section.                                                                   BHCs ($ BILLIONS)
    Table 2.12 shows the SCAP buffer calculation in aggregate for all 19 BHCs un-                                                         Tier One Capital                                    $836.7
der the more “adverse” scenario. Table 2.13 shows the results of SCAP for the 10                                                          Tier One Common Capital (included
                                                                                                                                                                                                412.5
BHCs needing additional capital, and Table 2.14 shows the results of SCAP for the                                                         in above amount)

9 BHCs that have sufficient capital to withstand the more adverse scenario detailed                                                       Total Estimated Losses                               (599.2)
                                                                                                                                          Add Purchase Accounting
under SCAP.                                                                                                                                                                                       64.3
                                                                                                                                          Adjustments
                                                                                                                                          Add Resources other than Capital to
                                                                                                                                                                                                362.9
Post-SCAP Alternatives                                                                                                                    Absorb Losses
On June 8, 2009, the 10 BHCs requiring additional capital to meet the capital                                                             SCAP Buffer as of 12/31/2008                        $185.0
buffer requirement submitted detailed capital plans to their FBAs outlining how                                                           Less Capital Actions and Effects of
                                                                                                                                                                                                110.4
                                                                                                                                          1st Quarter Results
they planned to raise the necessary capital. According to the Federal Reserve, these
                                                                                                                                          Required SCAP Buffer                                  $74.6
capital plans, when implemented, “would provide sufficient capital to meet the re-
quired buffer under the assessment’s more adverse scenario.”97 The Federal Reserve                                                        Source: Board of Governors of the Federal Reserve, “The
                                                                                                                                          Supervisory Capital Assessment Program: Overview of Results,”
has also stated that it will work with the institutions to ensure their plans get                                                         5/7/2009.




TABLE 2.13

SCAP RESULTS FOR INSTITUTIONS NEEDING ADDITIONAL CAPITAL                                                       ($ BILLIONS)


                                            Bank of            Wells                                                          Sun Morgan                          Fifth
                                           America            Fargo         GMAC         Citigroup       Regions             Trust Stanley KeyCorp               Third           PNC          Total
Tier One Capital                             $173.2            $86.4         $17.4          $118.8           $12.1          $17.6      $47.2      $11.6         $11.9          $24.1
Tier One Common Capital                          74.5           33.9           11.1             22.9            7.6            9.4      17.8          6.0           4.9          11.7
Total Estimated Losses                         136.6            86.1             9.2          104.7             9.2           11.8      19.7          6.7           9.1          18.8
Purchase Accounting
                                                 13.3           23.7              —                —              —                —      —            —             —             5.9
Adjustments
Projected Non-Capital
                                                 74.5           60.0           (0.5)            49.0            3.3            4.7       7.1          2.1           5.5            9.6
Resourcesa
SCAP Shortfall as of
                                                 46.5           17.3             6.7            92.6            2.9            3.4       8.3          2.5           2.6            2.3
12/31/2008
1 Quarter Results and Actions
 st
                                                 12.7             3.6          (4.8)            87.1            0.4            1.3       6.5          0.6           1.5            1.7
Additional Capital Required                   $33.9           $13.7          $11.5             $5.5           $2.5           $2.2      $1.8         $1.8          $1.1          $0.6        $74.6

Notes: Numbers affected by rounding.
a
  Resources include Pre-provision Net Revenue (“PPNR”) and the resources available from the allowance for loan and lease losses.
Source: Board of Governors of the Federal Reserve, “The Supervisory Capital Assessment Program: Overview of Results,” 5/7/2009.
58              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     TABLE 2.14

     SCAP RESULTS FOR INSTITUTIONS NOT NEEDING ADDITIONAL CAPITAL ($ BILLIONS)
                                        American                          Bank of NY                            Goldman JPMorgan                        State
                                         Express           BB&T Co.           Mellon CapitalOne                   Sachs    Chase             MetLife   Street    USB
     Tier One Capital                        $10.1               $13.4            $15.4            $16.8          $55.9        $136.2         $30.1    $14.1    $24.4
     Tier One Common
     Capital                                   10.1                 7.8             11.0             12.0          34.4           87.0         27.8     10.8     11.8
     Total Estimated Losses                    11.2                 8.7              5.4             13.4          17.8           97.4          9.6      8.2     15.7
     Purchase Accounting
                                                  —                   —                —                  1.5          —          19.9           —        —        —
     Adjustments
     Projected Non-Capital
                                               11.9                 5.5              6.7                  9.0      18.5           72.4          5.6      4.3     13.7
     Resourcesa
     SCAP Shortfall as of
                                                  —                   —                —                   —           —                —        —        —        —
     12/31/2008
     1st Quarter Results and
                                                 0.2                0.1              (0.2)            (0.3)          7.0               2.5      0.6      0.2      0.3
     Actions
     Additional Capital
     Required                                     —                   —                —                   —           —                —        —        —        —

     Notes: Numbers affected by rounding.
     a
       Resources include PPNR and the resources available from the allowance for loan and lease losses.

     Source: Board of Governors of the Federal Reserve, “The Supervisory Capital Assessment Program: Overview of Results,” 5/7/2009.




                                                                         implemented quickly and are completed by the November 9, 2009, capital-raising
                                                                         deadline.98 The capital plan must include the following:99

                                                                         • detailed description of the actions that will be taken to raise the amount of capi-
                                                                           tal and/or type of capital needed to meet the SCAP buffer
                                                                         • list of steps to address weaknesses in the BHC’s internal processes for managing
                                                                           and maintaining effective capital
                                                                         • outline of steps that the BHC will take to repay TARP funds over an allotted
                                                                           time and reduce reliance on guarantees through FDIC’s TLGP

                                                                             Should a BHC not meet its required SCAP buffer by November 9, 2009, it will
                                                                         have to take additional capital assistance through CAP. This may include either
                                                                         Treasury-approved conversion of the BHCs’ CPP investment to CAP MCP shares
                                                                         or the issuance of new CAP MCP shares.100 As of June 30, 2009, many financial
                                                                         institutions have raised significant funds on their own, which could seemingly limit
                                                                         their need for CAP. Table 2.15 shows how the following banks have already begun
                                                                         to raise capital in different ways.
                                                                                                                        QUARTERLY REPORT TO CONGRESS I JULY 21, 2009                                 59




Status of CAP
According to Treasury, those institutions that were not part of SCAP have until
November 9, 2009, to apply for the CAP program. When applying for CAP, QFIs
can either apply directly for additional TARP funding in the form of CAP MCP
shares or apply to convert their CPP preferred shares in exchange for CAP MCP                                                         For more information on the Capital
shares. 101 As of June 30, 2009, only one institution had applied for CAP, and none                                                   Assistance Program terms and condi-
                                                                                                                                      tions, see SIGTARP’s April Quarterly
had yet been funded.
                                                                                                                                      Report, Section 2: “TARP Overview.”




TABLE 2.15

SCAP PROGRESS AS OF 6/30/2009                             ($ BILLIONS)
                                            Capital            Capital Raised/
                                        Needed per            Announced as of Capital Needed
Financial Institution                        SCAP l               6/30/2009 by 11/9/2009                        Method of Raising Capital
                                                                                                                Exchange offering, common equity offering, reduced dividends,
Bank of Americaa                                 $33.9                       $33.9                       —
                                                                                                                gain from dispositions
Citigroupb                                          5.5                         5.5                      —      Expanded already announced exchange offer
Fifth Third Bancorp    c
                                                    1.1                         2.2                      —      Exchange offering, tender offering
                                                                                                                Received $7.5 billion from MCP share issuance to Treasury
GMAC LLCd                                         11.5                          3.5                    8.0
                                                                                                                through AIFP ($3.5 billion used to meet capital requirements)
Keycorpe                                            1.8                         1.3                    0.5      Exchange offering
Morgan Stanleyf,g                                   1.8                         2.2                      —      Public equity offering
PNC   h
                                                    0.6                         0.6                      —      At-the-market equity offering
Regions Financial Corpi                             2.5                         2.5                      —      Exchange offering
SunTrustj                                           2.2                         2.1                    0.1      Equity offering, tender offering
Wells Fargo   k
                                                  13.7                          8.6                    5.1      Equity offering
Total                                           $74.6                       $62.5                  $13.7

Notes: Numbers affected by rounding. Data as of 6/30/2009.

Sources:
a
  Bank of America, “Press Release,” 6/25/2009, newsroom.bankofamerica.com/index.              g
                                                                                                  Morgan Stanley has since repaid its TARP funds on 6/17/2009.
  php?s=43&item=8485, accessed 6/23/2009.                                                     h
                                                                                                  PNC, “Press Release,” 5/27/2009, http://pnc.mediaroom.com/index.php?s=43&item=635,
b
  Citigroup Inc., “Press Release,” 5/7/2009, www.citigroup.com/citi/press/2009/090507f.htm,       accessed 6/23/2009.
  accessed 6/30/2009.                                                                         i
                                                                                                  Regions Financial, “Press Release,” 6/18/2009, www.regions.com/about_regions/IR_newsreleases.
c
  Fifth Third Bancorp, 8-K, 6/4/2009, www.sec.gov, accessed 6/23/2009.                            html, accessed 6/30/2009.
d
  Treasury, Transaction Report, 7/2/2009, www.financialstability.gov, accessed 7/2/2009.      j
                                                                                                  SunTrust, 8-K, 6/8/2009, www.sec.gov, accessed 6/23/2009.
e
  Keycorp, “Press Release,” 6/3/2009, www.snl.com/irweblinkx/file.aspx?IID=100334&FID=        k
                                                                                                  Wells Fargo, “Press Release,” 5/8/2009, www.wellsfargo.com/press/2009/20090508_stock_
  7893270, accessed 6/23/2009.                                                                    raise_results, accessed 6/23/2009.
f
  Morgan Stanley, “Press Release,” 6/2/2009, www.morganstanley.com/about/press/articles/      l
                                                                                                  Board of Governors of the Federal Reserve, “The Supervisory Capital Assessment Program: Overview
  beb071fc-4f61-11de-96f6-3f25a44c9933.html, accessed 6/23/2009.                                  of Results,” 5/7/2009.
60             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM                                                                       60




                                                      Systemically Significant Failing Institutions Program
                                                      According to Treasury, the Systemically Significant Failing Institutions (“SSFI”)
                                                      program was established to “provide stability and prevent disruptions to financial
                                                      markets from the failure of institutions that are critical to the functioning of the
                                                      nation’s financial system.”102 As of June 30, 2009, $69.8 billion has been allocated
                                                      through the SSFI program to American International Group, Inc. (“AIG”), the sole
                                                      participant.

                                                      American International Group, Inc.
                                                      The $69.8 billion of TARP funds allocated to AIG includes $40 billion of preferred
     Equity Capital Facility: A commitment            stock purchased from AIG on November 25, 2008, and the more recent establish-
     to invest equity capital in a firm under         ment of a $29.8 billion equity capital facility. AIG used the proceeds of Treasury’s
     certain future conditions.                       initial stock purchase to reduce the amount it had previously borrowed from the
                                                      Federal Reserve.103 On March 2, 2009, Treasury and the Federal Reserve an-
     Securities Exchange: An agreement be-            nounced a restructuring and sale of certain assets that will allow the company to
     tween a firm and investors, permitting           repay a portion of the Federal Reserve’s assistance packages to AIG. This overall
     the investors to exchange one class of           restructuring of the Government’s interests included a securities exchange, the
     securities for another.                          previously mentioned $29.8 billion equity capital facility, and an amendment to the
                                                      Federal Reserve’s Revolving Credit Facility. According to Treasury, the restructuring
                                                      will strengthen the company’s finances and is a long-term solution for AIG, its cus-
                                                      tomers, U.S. taxpayers, and the financial system as a whole.104 On April 17, 2009,
                                                      Treasury and AIG signed the securities exchange agreement and the equity facility
                                                      agreement as part of AIG’s ongoing restructuring efforts.105 According to Treasury,
                                                      “orderly restructuring is essential to AIG’s repayment of the support it has received
                                                      from U.S. taxpayers and to preserving financial stability.”106

                                                      Restructuring
                                                      AIG’s “orderly restructuring” goes beyond the restructuring of its Government
                                                      assistance to include an internal restructuring plan for the company’s assets and
                                                      risk positions. This internal restructuring, which includes asset sales, is an attempt
                                                      by AIG to “protect and enhance the value of its key businesses, and position these
                                                      franchises for the future as more independently run, transparent companies.”107
                                                      Subsequent to SIGTARP’s April Quarterly Report, the following restructuring
                                                      transactions have transpired:108
                                                      • Government Agreements: Agreements for a securities exchange and eq-
                                                          uity capital facility have been executed, and changes to the Federal Reserve
                                                          Revolving Credit Facility have been made.
                                                      • Separation Activities: Two of AIG’s largest foreign life insurance businesses
                                                          — American International Company Ltd. (“AIA”) and American Life Insurance
                                                          Company (“ALICO”) — have been put into special purpose vehicles (“SPVs”),
61                                                                                                                             QUARTERLY REPORT TO CONGRESS I JULY 21, 2009   61




       with significant preferred stock interests in those SPVs used to pay down the
       Federal Reserve Revolving Credit Facility.
     • Financial Products Corp. Unwind: AIG continues to reduce the risk of its
       derivatives portfolios held by its subsidiary, Financial Products Corp.
     • Asset Sales: AIG continues to sell off subsidiaries that are not part of its core
       business.

     Government Agreements
     The restructuring of the Government’s assistance package for AIG involved
     three new agreements with two Government agencies. The securities exchange
     and equity capital facility are Treasury agreements, and the amended Revolving
     Credit Facility is with the Federal Reserve. All three agreements are subject to
     Government inspection and control requirements. Provisions for the AIG-Treasury
     contracts include, among others, inspection rights, internal control establishment,
     executive compensation limits, limited lobbying activity, use of funds reporting,
     and dividend rate adjustments. Table 2.16 illustrates these provisions in more
     detail.


     TABLE 2.16

      STANDARD PROVISIONS FOR AIG TREASURY CONTRACTS
      Provision                              Description
                                             Treasury, SIGTARP, and the Comptroller General of the United States
      Inspection Rights                      have access to personnel, and any books, papers, records, or other
                                             data.
                                             AIG must establish internal controls to ensure compliance with the
      Internal Controls                      terms of the contract, and must report on the implementation of the
                                             internal controls quarterly.
                                             AIG must comply with all EESA executive compensation requirements
                                             and any amendments. AIG must also make its best efforts to comply
      Executive Compensation
                                             with the executive compensation restrictions to non-U.S.-based
                                             senior employees.
                                             AIG shall continue to maintain and implement its policy on lobbying,
      Limited Lobbying Activity
                                             governmental, ethics, and political activities.
      Dividend Rate Adjustment               Treasury can change the dividend rate with the objective of
                                             protecting the U.S. taxpayer.
      Preferred Stock Directors              In the event that the board does not declare dividends for four
                                             quarters (does not need to be consecutive), Treasury has the right
                                             to elect the greater of (a) two members of the board of directors or
                                             (b) 20% of the entire board (currently there are 11 directors). Upon
                                             the receipt of four consecutive full dividend payments, the board
                                             members will step down.

      Note: The executive compensation requirements released on 5/15/2009 apply to AIG.
      Source: Treasury, “Securities Exchange Agreement dated as of April 17, 2009, between American International Group, Inc. and
      United States Department of the Treasury,” 4/17/2009, www.financialstability.gov/docs/agreements/Series.E.Securities.Exchange.
      Agreement.pdf, accessed 6/8/2009.
62            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     Securities Exchange Agreement
                                                     The securities exchange allows AIG to replace the 4 million shares of cumulative
                                                     preferred stock issued to Treasury in November 2008 (“Series D stock”) worth $40
     Cumulative Preferred Stock: A type of           billion with 400,000 shares of non-cumulative preferred stock (“Series E stock”)
     stock that requires a defined dividend          worth $41.6 billion.109 The price of the Series E stock was set at the total value of
     payment. If the company does not pay            the Series D stock plus any unpaid dividends.110 The Series D stock paid a 10% an-
     the dividend, it still owes the missed          nual dividend (paid quarterly), and the new Series E stock will pay a 10% dividend
     dividends to the owner of the stock.            if the board of directors declares dividends.111 AIG may only repurchase the new
                                                     Series E stock with the proceeds of new sources of private capital.112 In addition
     Non-cumulative Preferred Stock: Unpaid
                                                     to the newly issued preferred stock, AIG has issued warrants to Treasury. These
     dividends do not accrue on shares of
                                                     warrants are exercisable for 2,689,938.3 shares of common stock, which represent
     stock when a company does not make
                                                     2% of AIG’s outstanding common stock as of June 30, 2009.113 The warrants have
     a dividend payment.
                                                     a strike price of $50, and, on June 30, 2009, the current price of AIG stock was
     Reverse Stock Split: A method used by           $23.20. On June 30, 2009, AIG had a 1-for-20 reverse stock split, which increased
     corporations to reduce the number of            the stock price by a multiple of 20 and reduced the shares outstanding by a quo-
     shares outstanding and increase the             tient of 20. The warrants adjust by the same multiple as the stock; the previously
     share price proportionally. The total           stated terms of the warrants reflect this reverse stock split.
     value of the shares outstanding remains
     the same. Based on the AIG reverse              Equity Capital Facility
     stock split, if a shareholder owned 100         The equity capital facility was announced as a five-year, $30 billion agreement
     shares of common stock valued at $1             between AIG and Treasury.114 Under the agreement, AIG agrees to issue and sell to
     before the 1-for-20 reverse stock split,
                                                     Treasury 300,000 shares of 10% non-cumulative preferred stock (“Series F stock”),
     after the reverse stock split the share-
                                                     plus warrants to purchase 150 shares of common stock.115 Dividends on the Series
     holder would own 5 shares of stock
                                                     F stock do not accumulate and are only owed when declared by the board of direc-
     valued at $20 each.
                                                     tors. The strike price of the warrants is $0.00002 per share.116 On June 30, 2009,
                                                     AIG’s common stock price was $23.20 per share. The agreement terms reflect the
                                                     June 30, 2009, reverse stock split.
                                                         Technically, Treasury has already acquired all 300,000 shares of Series F stock,
                                                     but the shares had no value until cash was disbursed from Treasury to AIG. Upon
                                                     such disbursements, the facility is said to be “drawn upon,” and the value of Series
                                                     F stock increases by the amount of the drawdown.117 In order to draw down the
                                                     equity capital facility, AIG must provide an outline of the expected uses of the
                                                     funds.118 As of June 30, 2009, AIG has drawn down $1.15 billion to improve the
                                                     capitalization of its domestic life insurance and retirement services businesses.119
                                                         In March 2009, AIG made $165 million in retention payments to certain
                                                     employees in its Financial Products Corp. and Trading Group Inc. subsidiaries
                                                     (“AIGFP Retention Payment Amount”).120 In an attempt to recoup the $165 mil-
                                                     lion from AIG, Treasury reduced the amount of capital available through the equity
                                                     capital facility by $165 million. This reduced the $30 billion value of the facility to
                                                     $29.835 billion. In addition to the AIGFP Retention Payment Amount, Treasury
                                                     assigned a $165 million commitment fee to AIG for the use of the facility.121 The
                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 21, 2009             63




commitment fee is due in three installments of $55 million on each of the follow-
ing dates: December 17, 2010; August 17, 2012; and April 17, 2014, and must be
paid from the operational capital of AIG.122

Federal Reserve Revolving Credit Facility
The Federal Reserve will make several modifications to the Revolving Credit
Facility established in September 2008:
• The credit facility will be repaid and reduced in exchange for up to approxi-
   mately $26 billion in preferred interests in two special purpose vehicles created
   to hold all of the outstanding common stock ALICO and AIA.123
   – The total amount available under the Revolving Credit Facility will be reduced
      to $25 billion.
• The Federal Reserve will make up to $8.5 billion in new loans to AIG. The loans             Derivative: A financial instrument whose
   will be repaid by the cash flow received from designated blocks of the domestic            value is based on (“derived from”) a
   life insurance subsidiaries of AIG.124                                                     different underlying asset, indicator, or
• The interest rate on the facility is the three-month London Interbank Offered               financial instrument.
   Rate (“LIBOR”) plus 300 basis points. The previous interest rate floor of 3.5%
                                                                                              Credit Default Swap (“CDS”): A contract
   will be removed from the credit facility.125
                                                                                              where the seller receives a series of pay-
                                                                                              ments from the buyer in return for agree-
AIG Financial Products Corp. Unwind
                                                                                              ing to make a payment to the buyer
AIG Financial Products Corp. (“AIGFP”) is a subsidiary of AIG whose primary
                                                                                              when a particular credit event outlined in
business is trading in derivatives of stocks, bonds, credit, and commodities as well          the contract occurs (for example, if the
as energy trading and trading in the foreign exchange markets. Derivatives are                credit rating on a particular bond or loan
financial instruments that “derive” their value from something else (residential              is downgraded or goes into default). It
mortgage-backed securities, commercial mortgage-backed securities, etc.). AIG’s fi-           is commonly referred to as an insurance
nancial woes were largely a result of AIGFP’s position as underwriter of one type of          product where the seller is providing
derivative, credit default swaps (“CDSs”), that sustained substantial losses in 2008.         the buyer insurance against the failure
AIGFP’s CDS exposure on multi-sector collateralized debt obligations (“CDOs”)                 of a bond. The buyer, however, does
alone accounted for approximately $19 billion of the $24.5 billion in losses AIG              not need to own the asset covered by
announced in the third quarter of 2008.                                                       the contract, which means it can serve
                                                                                              essentially as a “bet” against the underly-
    The downgrade of AIG’s AAA credit rating by the rating agencies triggered a
                                                                                              ing bond.
credit event under many of its derivative contracts. This event required AIGFP to
post additional collateral to its counterparties. As of November 5, 2008, AIGFP had
                                                                                              Collateralized Debt Obligation (“CDO”):
posted or agreed to post $37.3 billion in collateral to its counterparties. These col-
                                                                                              A financial instrument that entitles the
lateral postings payments exceeded the funds AIG had available, and that is when              purchaser to some portion of the cash
the Federal Reserve and Treasury began providing assistance to stabilize the com-             flows from a portfolio of assets, which
pany. Part of AIG’s restructuring plan involves the unwinding of AIGFP’s derivative           may include bonds, loans, mortgage-
exposure. According to AIG’s first-quarter financial statements, released May 7,              backed securities, or other CDOs.
2009, AIGFP has begun to reduce the exposed risk of AIG; the notional amount
of AIG’s derivative portfolio exposure has been reduced by more than 40% — from               Notional: Face value.
approximately $2.7 trillion to approximately $1.5 trillion.
64   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Asset Sales
                                            AIG has also begun a large-scale asset divestiture plan in a move to “protect and
                                            enhance the value of its key business.”126 AIG has completed the sale of eight sub-
                                            sidiaries and one large office building in Tokyo. When AIG sells an asset, the total
                                            sale price could be in the form of cash or AIG debt assumed by the purchaser. The
                                            total sales price of the nine completed sales is approximately $5.3 billion, includ-
                                            ing approximately $4.6 billion cash and notes and $726 million debt assumed by
                                            the purchasers. Table 2.17 lists the assets and the respective sale prices with the
                                            applicable debt assumptions by the purchasers.127




                                            TABLE 2.17

                                             AIG ASSET SALES              ($ MILLIONS)

                                                                                                                                    Debt Assumed                Total Sale
                                             Subsidiary                                                                  Cash        by Purchaser                    Price
                                             AIG PhilAm Savings Bank, PhilAm Auto Financing
                                                                                                                           $43                     $—                    $43
                                             and Leasing, and PFL Holdings
                                             Hartford Steam Boiler                                                         739                        76                 815
                                             AIG Insurance Company of Canada                                               263                        —                  263
                                             AIG Retail Bank Public Company Limited and its
                                             credit card operations, AIG Card (Thailand)                                    45                      495                  540
                                             Company Limited, in Thailand
                                             AIG Private Bank Limited                                                      253                        55                 308
                                             Deutsche Versicherungs-und
                                                                                                                            26                        —                   26
                                             Rückversicherungs-Aktiengesellschaft
                                             AIGFP Commodity Index Business                                                150                        —                  150
                                             21st Century Insurance Group                                               1,900                       100               2,000
                                             Tokyo Office Building                                                      1,200                         —               1,200
                                             Total                                                                   $4,619                      $726              $5,345

                                             Note: These numbers and announcements are from the unaudited quarterly report and press releases.

                                             Sources: American International Group, Inc., 10-Q, “Quarterly Report Pursuant to Section 13 or 15(d) of the Securities Exchange
                                             Act of 1934,” 3/31/2009, www.sec.gov/Archives/edgar/data/5272/000095012309008272/y76976e10vq.htm, accessed
                                             7/9/2009, pp. 3-4; AIG Press Release, “AIG Completes Sale of Prime Tokyo Real Estate Asset to Nippon Life Insurance Company,”
                                             5/28/2009, ir.aigcorporate.com/phoenix.zhtml?c=76115&p=irol-newsArticle&ID=1293557&highlight=, accessed 7/10/2009;
                                             AIG Press Release, “AIG Financial Products Corp Completes Sale of Commodity Index Business,” 5/7/2009, ir.aigcorporate.com/
                                             phoenix.zhtml?c=76115&p=irol-newsArticle&ID=1285771&highlight=, accessed 7/10/2009.
                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 21, 2009             65




Targeted Investment Program and Asset Guarantee Program
Under the Targeted Investment Program (“TIP”), Treasury had invested, as of
June 30, 2009, $40 billion of TARP funds in Citigroup and Bank of America.
Furthermore, under the Asset Guarantee Program (“AGP”), Treasury had commit-
ted a total of $5 billion to support $301 billion of assets held by Citigroup. As of
June 30, 2009, Citigroup is the sole participant in AGP.

• Stated goal of TIP: To invest funds, on a case-by-case basis, “to strengthen the
  economy and protect American jobs, savings, and retirement security” where
  “the loss of confidence in a financial institution could result in significant mar-
  ket disruptions that threaten the financial strength of similarly situated financial
  institutions.”128
• Stated goal of AGP: To use insurance protections to help stabilize at-risk
  financial institutions. Treasury insures a select pool of troubled assets and col-
  lects premiums in return. This program differs from other financial institution
  solvency programs in that Treasury does not invest TARP funds in the institu-
  tion directly; rather, TARP funds are reserved to cover a portion of the possible
  losses in the selected assets.129

Citigroup Inc.
Treasury has provided no financing to Citigroup beyond its earlier CPP, TIP, and
AGP funding. Citigroup has received a total of $50 billion in TARP funding over
three installments:
• CPP: $25 billion on October 28, 2008
• TIP: $20 billion on December 31, 2008
• AGP: $5 billion loss protection on January 15, 2009

    The $5 billion AGP commitment is for Treasury’s portion of the loss exposure              Ring-Fencing: Segregating assets from
on the ring-fencing of approximately $301 billion worth of troubled Citigroup                 the rest of a financial institution, often so
assets. This amount has not been paid directly to Citigroup, but rather, has been             that asset problems can be addressed in
placed in reserve against the possibility of future losses on the assets in the ring-         isolation.
fence.130 There have been no additional TARP funds allocated to Citigroup since
SIGTARP’s April Quarterly Report. However, Treasury’s investments in Citigroup                Exchange: In reference to Citigroup
                                                                                              agreement, taking one type of stock
have been modified through a set of exchange offerings that were finalized on
                                                                                              (e.g., preferred) and converting it at a
June 9, 2009.131 The effects of these exchange offers are mixed. The CPP exchange
                                                                                              specific rate to another type of stock
will reduce the dividends payable to Treasury, and Treasury will receive a more
                                                                                              (e.g., common).
junior position on the conversion of those shares in the event of a bankruptcy. The
TIP and AGP exchange to trust preferred securities will result in Treasury having a
66            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     For more information on Treasury’s original     more senior claim in bankruptcy and Treasury will have a higher priority to receive
     investments in Citigroup, see SIGTARP’s         regular interest payments.132 Additionally, Citigroup is implementing a Tax Benefit
     Initial Report and SIGTARP’s April              Preservation Plan to protect its shareholders from the potential loss of value of
     Quarterly Report.                               tax benefits through the dilution that is caused by the exchanges. If followed by
                                                     shareholders, this plan will protect a large amount of tax benefits — such as loss
                                                     carry-forwards — that Citigroup can use to offset future income.133 A more detailed
                                                     description of this plan is provided later in this section.
     Loss Carry-Forward: Technique used
     to apply a loss from the current year           Citigroup Exchange Offering
     to a future year in order to reduce the         On June 9, 2009, Citigroup finalized several private and public preferred securi-
     company’s future tax liability.                 ties exchange offers that were announced on February 27, 2009. These exchanges
                                                     generally involve arranging for preferred shareholders, including Treasury, to trade
     Interim Security: In the case of the            in their shares for new interim securities that can be converted to common stock at
     Citigroup exchange, a preferred stock           the request of Citigroup.134 This will permit the interim securities to be counted as
     that is convertible and designated as a
                                                     “tangible common equity,” thus strengthening Citigroup’s capital structure. When
     common stock equivalent.
                                                     Citigroup originally announced this exchange offering in February 2009, it intend-
                                                     ed to exchange up to $27.5 billion of its non-Treasury held preferred securities, and
     Treasury-Owned Preferred Stock:
                                                     Treasury had announced that it would match up to $25 billion of the non-Treasury
     Comprises CPP preferred stock, AGP
     preferred stock, and TIP preferred              held shares exchanged with its CPP preferred shares (Treasury-owned preferred
     stock.                                          stock). Since then, Citigroup participated in Treasury’s stress test (Supervisory
                                                     Captial Asset Program, or SCAP) to determine an appropriate capital buffer for the
                                                     firm in case of adverse economic conditions. Treasury concluded that Citigroup
                                                     needed to raise $5.5 billion in tangible common equity, even after receiving credit,
                                                     during the SCAP testing, for the $52.5 billion to be exchanged. On May 7, 2009,
                                                     Citigroup announced it will expand the original private portion of its exchange
                                                     offering by $5.5 billion to meet the required buffer under SCAP.135 Refer to the
                                                     “Capital Assistance Program” discussion in this section for more detail on SCAP.
                                                         Citigroup has offered the exchange until July 24, 2009, to both its private and
                                                     public preferred shareholders, with Treasury agreeing to match up to $25 bil-
                                                     lion of its CPP preferred shares in the transactions. Should there be full (private,
                                                     public, and Treasury) participation. Citigroup would convert approximately $58

                                                     TABLE 2.18

                                                     CITIGROUP PREFERRED STOCK EXCHANGE PARTICIPANTS ($ BILLIONS)
                                                                                                                   Outstanding                           Maximum Participation
                                                     Private Preferred                                                      $12.5                                                  $12.5
                                                     Public Preferred and Trust Preferred                                     30.6                                                   20.5
                                                     Treasury-Owned Preferred                                                 50.0                                                   25.0
                                                     Total                                                                 $93.1                                                   $58.0

                                                     Note: Public preferred and trust preferred are combined because public preferred shareholders will exchange first during the exchange
                                                     of public preferred shares, and trust preferred will make up the difference to complete the transaction.
                                                     Source: Citigroup, Schedule 14A, 6/10/2009, www.sec.gov/Archives/edgar/data/831001/000119312509128779/dprer14a.htm,
                                                     accessed 6/15/2009.
                                                                                                                     QUARTERLY REPORT TO CONGRESS I JULY 21, 2009   67




FIGURE 2.9

              CITIGROUP EXCHANGE OVERVIEW


                                              PRE-EXCHANGE OWNERSHIP


             Private Preferred          Public Preferred                                         Newly Created
                                                                        Treasury
                Shareholder               Shareholder                                                Trust



              Private Preferred          Public Preferred             CPP Preferred              Trust Preferred
                    Stock                     Stock                      Stock                      Security

                                                                       TIP Preferred
                                                                           Stock

                                                                      AGP Preferred
                                                                         Stock




                                             POST-EXCHANGE OWNERSHIP


             Private Preferred          Public Preferred                                         Newly Created
                                                                         Treasury
                Shareholder               Shareholder                                                Trust



                  Interim                     Interim                    Interim                   TIP Preferred
                 Securities                  Securities                 Securities                     Stock

                                         Public Preferred            Trust Preferred              AGP Preferred
                                              Stocka                    Security                     Stock



             Notes: Private preferred stock, public preferred stock, and CPP preferred stock will be exchanged for
             interim securities until shareholders approve the transaction.
             a
               If the Public Preferred Exchange has maximum participation, there will be $10.05 billion of Public
             Preferred Stock outstanding.

             Source: Citigroup, Exchange Agreement, 6/9/2009, www.sec.gov, accessed 6/10/2009.



billion of its preferred stock.136 Table 2.18 lists the total value of the outstanding
preferred stock by exchange participants and the maximum participation allowed by
Citigroup in the exchange agreement.
     The exchange offer closing and conversion to common stock is dependent on
many factors, including regulatory and shareholder approvals. Figure 2.9 illustrates
the ownership of the participating shareholders pre- and post-exchange. Treasury,
public shareholders, and private shareholders are holding interim securities until
they receive shareholder approval. The details of each transaction are discussed in
the following sections.

Private Preferred Exchange Offer
According to the exchange agreements, the private preferred shareholders will
exchange their shares first on the condition that they elect to exchange at least
68                SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




 FIGURE 2.10                                                   $11.5 billion of preferred shares. Under the exchange, Treasury will convert a por-
                                                               tion of its CPP investment that is matched to the amount of preferred shares being
 CITIGROUP PRIVATE PREFERRED                                   exchanged by private preferred shareholders and will receive from Citigroup the
 EXCHANGE PROCESS
                                                               following assets in exchange:137
                              PRIVATE PREFERRED                • interim securities that will convert to common stock upon shareholder approval
                                SHAREHOLDERS                   • a warrant to purchase common shares should shareholder approval not be
                                                                   obtained
                                    Public
                                Preferred Stock
                                                                  The interim securities are designed to encourage shareholder approval of their
        Exchange private
                                                               exchange. For example, they will pay a 9% dividend that, should shareholder ap-
      preferred stock for
                                                               proval not be obtained within six months, will increase by two percentage points
   interim securities and
   warrants to purchase
                                   Interim
                                  Securities      & Warrants   each quarter to a maximum of 19%. For example, during the first quarter following
 common stock, pending
   shareholder approval.                                       the six-month deadline, the dividends will be increased from 11% to 13% if the
 If shareholders approve,                                      shareholder approval is not obtained. The warrant will have $0.01 exercise price
    warrants are cancelled
                                   Common                      and permit purchase up to 790 million shares of common stock. Should share-
     and interim securities
      convert to common             Stock
                    stock.                                     holder approval be obtained, the warrants will be cancelled.138 For a more detailed
                                                               description on the private preferred exchange process, see Figure 2.10.
 Source: Citigroup, “Exchange Agreement,” 6/9/2009,
 www.sec.gov, accessed 6/10/2009.
                                                               Public Preferred Exchange Offer
                                                               After the private preferred shareholders have exchanged their shares, Citigroup
                                                               will provide exchanges to its public preferred shareholders. Treasury will match
                                                               both the public and private exchanges dollar-for-dollar up to $25 billion at a
                                                               conversion rate of $3.25 per share. If shareholder approval is not obtained upon
                                                               closing, Citigroup will issue to Treasury interim securities that will be convertible


                                                               FIGURE 2.11

                                                               CITIGROUP PUBLIC PREFERRED EXCHANGE PROCESS


                                                                                                              PUBLIC PREFERRED
                                                                                                               SHAREHOLDERS


                                                                                                           Public              Public
                                                                                                       Preferred Stock     Preferred Stock



                                                                If shareholders have not approved
                                                                    the exchange as of the closing                                                 If shareholders approve the
                                                                       date, public preferred stock
                                                                                                          Interim                                  exchange as of the closing date,
                                                                      converts to interim securities     Securities                                public preferred stock converts
                                                                     pending shareholder approval.                                                 directly to common stock.




                                                                                                          Common               Common
                                                                                                           Stock                Stock



                                                               Source: Citigroup, Exchange Agreement, 6/9/2009, www.sec.gov, accessed 6/10/2009.
                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 21, 2009               69




to common stock upon approval.139 For a more detailed description on the public
preferred exchange process, see Figure 2.11.
                                                                                              Trust Preferred Security: A security
    In addition to the exchange of up to $25 billion of its preferred shares obtained
                                                                                              that has both equity and debt char-
under CPP, Treasury will be exchanging the preferred stock it received under the              acteristics, created by establishing a
TIP and AGP programs, to new trust preferred securities. According to Treasury,               trust and issuing debt to it. A company
the new securities will have “greater structural seniority,” than the existing stock;         would create a trust preferred security
for example, they will have a more senior claim in bankruptcy and will have a                 to realize tax benefits, since the trust is
higher priority to receive regular monthly interest payments.140 They will have an            tax deductible.
annual coupon rate of 8% maturing in 2039 — meaning Citigroup will be paying
8% interest payments on Treasury’s investments.141 Citigroup will also create a new           Coupon Rate: Interest rate to be paid
trust that will issue and sell the trust preferred securities to Treasury in exchange         as a percentage of the face value of
for the TIP and AGP shares, as well as any remaining CPP shares that are not                  the security. For example, if a $100
                                                                                              security has an 8% coupon, the owner
exchanged to interim securities or common stock.142
                                                                                              of the security will receive $8 each
                                                                                              year for the life of the security.
Tax-Benefits Preservation Plan
On June 9, 2009, Citigroup announced that the Board of Directors had unani-
                                                                                              Ownership Change: Under U.S. income
mously adopted a tax-benefits preservation plan. Citigroup cited this as an effort            tax law, an ownership change will
to protect Citigroup’s ability to utilize certain tax assets, such as operating loss          occur if an owner that controls at
carry-forwards to offset future income.143 Under current tax law, should there be an          least 5% of the company increases its
ownership change, Citigroup’s ability to offset future income with its current and            holding by 50% or more over a rolling
recent losses for tax purposes could be eliminated or drastically reduced.                    three-year period.
    In order to preserve the value of these potential tax benefits, Citigroup
must avoid certain events that might be deemed to be a change of ownership.
Accordingly, Citigroup’s plan contains two provisions that discourage the following
changes in ownership:144
• any person or group from becoming a 5% shareholder
• existing 5% (or more) shareholders from acquiring more than a specified num-
   ber of additional shares of Citigroup

    In an attempt to preserve the future tax benefits of the losses, Citigroup pre-
pared a strategy to dilute any increase in ownership that could jeopardize any of the
tax loss carry-forward. Citigroup’s strategy included declaring a stock dividend on
the interim securities and common stock allowing shareholders to purchase more
stock thus permitting the dilution of the stock to avoid a change in control, threby
protecting the tax benefits.

Bank of America Corporation
As of June 30, 2009, Treasury has provided no financing to Bank of America be-
yond its earlier CPP and TIP funding. Bank of America has received a total of $45
billion in three installments:
• CPP: $15 billion on October 28, 2008
• CPP: $10 billion on January 9, 2009
• TIP: $20 billion on January 16, 2009
70           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                        On January 16, 2009, Treasury had announced the potential participation by
                                                    Bank of America in AGP. On May 7, 2009, Bank of America announced it was no
                                                    longer seeking such assistance.145 As of June 30, 2009, according to Treasury of-
                                                    ficials, the matter remains unresolved.

                                                    Use of Funds Reports
                                                    Under their TIP agreements, based on SIGTARP’s recommendations, both
                                                    Citigroup and Bank of America are required to submit a quarterly “use of funds
                                                    report.” The use of funds report must include the following information:146
                                                    • how TARP funds were used
                                                    • the implementation of internal controls for TARP funds
                                                    • compliance or non-compliance with restrictions on use of TARP funds

                                                    Use of Funds Report: Citigroup, Inc.
                                                    On May 12, 2009, Citigroup released its second use of funds report. The 60-
                                                    page “TARP Progress Report for First Quarter 2009,” describes the steps taken to
                                                    deploy TARP capital received.147 According to the report, Citigroup’s Special TARP
                                                    Committee (the “TARP Committee”) of senior executives had approved nearly $45
                                                    billion in initiatives to support the U.S. economy and expand the flow of credit.148
                                                    The report lists and describes its procedures for deployment of TARP capital as well
                                                    as executive compensation reductions.149 Included in Citigroup’s report is a list of
                                                    some of the internal controls put in place in connection with TARP-related lend-
                                                    ing. The internal controls include the following guidelines:150
                                                    • The TARP Committee may approve deployment of TARP-related capital for au-
                                                        thorized purposes, up to a certain maximum, without gaining further approval.
                                                    • Businesses are required to report quarterly to the TARP Committee on TARP-
                                                        related activities, the performance of any investments, and the benefit of any
                                                        activities to the flow of credit and the U.S. housing system.
                                                    • The TARP Committee will report quarterly to Citigroup’s board of directors on
                                                        the specific uses of TARP funds.
                                                    • Use of TARP capital must be reported to Head of Financial Planning and
                                                        Analysis with appropriate supporting materials to ensure effective monitoring.
     Municipal Lending: Loans to city and           • The committee will ensure that the Citigroup Finance Department has appro-
     state governments.                                 priate financial reporting concerning the uses of TARP capital.
                                                    • The TARP Committee will meet as often as required but no less than every
     Supplier Financing: The purchase of                quarter.
     accounts receivables of small- and
     medium-sized businesses.
                                                      The report details Citigroup activities, including approximately $8.25 billion in
                                                    TARP-related new loans for the first quarter between municipal lending, supplier
                                                                                QUARTERLY REPORT TO CONGRESS I JULY 21, 2009                              71




                                                                                         TABLE 2.19
financing, residential mortgages, and auto loans. Citigroup further reported that it
                                                                                          CITIGROUP USE OF FUNDS,
expanded its assistance to homeowners by modifying mortgages for approximately            AS OF 6/30/2009 ($ BILLIONS)
80,000 homeowners with a total combined debt of more than $9 billion.151 Table            Conforming Mortgage Securities                        $10.0
2.19 lists the TARP-related use of funds reported by Citigroup.                           Non-Conforming Mortgage Loans                             8.2
                                                                                          U.S. Prime Residential Mortgage                           7.5
Use of Funds Report: Bank of America Corporation                                          Securities
On May 11, 2009, Bank of America submitted a four-page use of funds report                Credit Cards                                              5.8
pursuant to its TIP agreement. Included in the report is a certification by the Chief     Municipal Financing                                       5.0
Accounting Officer (“CAO”) that the required internal controls are in place, a            Business and Personal Loans                               2.5
description of the requirements stated in the contract, and a one-page discussion of      Supplier Financing                                        2.0
the use of funds.                                                                         Corporate Loan Securitization                             1.5
    According to the report submitted by Bank of America, the internal controls           Student Loans                                             1.0
are described as “incorporated.”152 In contrast to Citigroup’s use of funds report,       Residential Mortgages                                     1.0
Bank of America’s report does not provide any details of its lending or the amount        Auto Loans                                                0.3
of lending that has occurred as a result of the increased capital provided by TARP.       Total                                                $44.8
Bank of America acknowledged that it did not segregate the $20 billion of TARP
                                                                                          Source: Citigroup, “What Citi is Doing to Expand the Flow of
funds on its balance sheet and included it as part of the operating capital, stating      Credit, Support Homeowners and Help the U.S. Economy,
                                                                                          TARP Progress Report for First Quarter 2009,” 5/12/2009,
that, “since all TARP investment funds are part of our operating capital, they can-       www.citigroup.com, accessed 6/1/2009.
not effectively be segregated and they cannot be ‘unspent.’”153 According to Bank of
America, the additional $20 billion was used to “bolster the company’s capital and
liquidity positions.”154 In its report, Bank of America listed the contract require-
ments as part of its internal controls relating to executive compensation, lobby-
ing, and other expenses. It did not provide detail as to how it is implementing the
internal controls.
72            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     ASSET SUPPORT PROGRAMS
                                                     Treasury, either on its own or in conjunction with the Federal Reserve, has cre-
                                                     ated three programs to support demand in financial markets for hard-to-value
                                                     assets and to restart the credit markets by supporting new loans: the Term Asset-
                                                     Backed Securities Loan Facility (“TALF”), the Public-Private Investment Program
                                                     (“PPIP”), and Unlocking Credit for Small Businesses (“UCSB”).
                                                          The Federal Reserve’s TALF program will provide up to $1 trillion in funding
     Commercial Mortgage-Backed Securi-              to institutions pledging asset-backed securities (“ABS”) as collateral. According
     ties (“CMBS”): A financial instrument           to Treasury, it will provide $80 billion of TARP funds to absorb losses on TALF
     that is backed by a commercial real             (although the Federal Reserve characterized Treasury’s commitment as up to $100
     estate mortgage or a group of com-              billion).155 As announced on May 1, 2009, TALF was expanded to include commer-
     mercial real estate mortgages that are          cial mortgage-backed securities (“CMBS”) as eligible collateral for TALF loans.156
     packaged together.                              Through June 30, 2009, the Federal Reserve had facilitated five TALF subscrip-
                                                     tions: four subscriptions related to non-mortgage-backed ABS totaling approximate-
                                                     ly $28.5 billion in TALF loans, and one commercial mortgage-backed subscription
                                                     with no TALF loans issued.
                                                          In addition to the expansion of TALF, PPIP, as announced, included two sub-
                                                     programs, the Legacy Loans Program and the Legacy Securities Program. The
                                                     Legacy Loans Program was intended to utilize equity provided by Treasury and debt
                                                     guarantees provided by FDIC to facilitate purchases of legacy mortgage loans held
                                                     by banks; the program, however, has been shelved by FDIC. The Legacy Securities
                                                     Program utilizes equity provided by Treasury and debt potentially provided by
                                                     Treasury, through TARP, and/or the Federal Reserve, through TALF, to facilitate
                                                     purchases of legacy mortgage-backed securities (“MBS”) held by various financial
                                                     institutions.
                                                          Through the UCSB program, Treasury will purchase up to $15 billion in securi-
                                                     ties backed by Small Business Administration (“SBA”) loans.

                                                     Term Asset-Backed Securities Loan Facility

                                                     Program Summary
                                                     In November 2008, the Federal Reserve and Treasury announced TALF, under
                                                     which the Federal Reserve Bank of New York (“FRBNY”) would issue up to $200
                                                     billion in loans to make credit available to consumers and small businesses, backed
                                                     by $20 billion of TARP funds.157 Subsequently, in February 2009, Treasury and the
                                                     Federal Reserve announced that they were prepared to expand TALF up to $1 tril-
                                                     lion, which, according to Treasury, will include up to $80 billion of TARP funds.158
                                                     TALF is divided organizationally into two parts:
                                                     • lending program – originates loans to eligible institutions
                                                     • asset disposition facility – an SPV used by FRBNY to purchase and manage
                                                         any collateral surrendered by borrowers from the TALF lending program
                                                                                   QUARTERLY REPORT TO CONGRESS I JULY 21, 2009            73




   FRBNY will manage both the lending program and the asset disposition facility.             For more information on TALF mechan-
The funding for the lending program comes from FRBNY. According to Treasury,                  ics, see Section 2: “TARP Overview” of
the funding for the asset disposition SPV will first come from interest payments              SIGTARP’s April Quarterly Report.
made by borrowers from the lending program, then from Treasury’s use of up to
$80 billion in TARP funds to purchase subordinated debt from the SPV, and finally,
from FRBNY non-recourse loans.

TALF Mechanics
As discussed in SIGTARP’s April Quarterly Report to Congress, borrowers in the
TALF lending program post ABS as collateral for non-recourse loans issued by
FRBNY. The eligibility of the TALF borrower and the TALF collateral is determined
through an application process.
   Prior to SIGTARP’s April Quarterly Report, only certain newly issued ABS —
securities issued on or after January 1, 2009 — were eligible for TALF. The loans
supporting the ABS were limited to:
• auto, student, and credit-card loans
• equipment loans
• floorplan loans
• commercial and rental fleet leases                                                            Floorplan: Revolving lines of credit
                                                                                                used to finance inventories of items.
• receivables related to residential mortgage servicing advances (servicing advance
   receivables)
                                                                                                Servicing Advance Receivables:
• small-business loans guaranteed by the SBA
                                                                                                Receivables related to residential
                                                                                                mortgage loan securitizations that
    On May 1, 2009, the Federal Reserve added insurance premium finance loans                   grant the servicer first priority in any
and CMBS to the list of eligible ABS for TALF. Additionally, the Federal Reserve                insurance or liquidation proceeds
announced the inclusion of select legacy CMBS for the July TALF subscription;                   from a loan, and, if those proceeds
this marks the first time that legacy securities will be included in TALF. Legacy se-           are insufficient, grants the servicer a
curities are those securities issued before January 1, 2009, and account for a large            first priority to general collections of
percentage of the ABS currently lingering on the books of financial institutions. For           the related securitization.
a more detailed discussion about collateral eligibility, see the “Term Asset-Backed
Securities Loan Facility” discussion in Section 2: “TARP Overview” in SIGTARP’s                 Insurance Premium Finance Loan:
April Quarterly Report.                                                                         Loan issued to small businesses so
                                                                                                they may obtain property or casualty
    Once the collateral is deemed to be eligible, a haircut is assigned to the collater-
                                                                                                insurance.
al. Haircuts represent the borrower’s “skin in the game” — or the amount of money
the borrower must invest — and are required for all TALF loans in varying amounts
                                                                                                Haircut: Difference in the value of the
based on the type and riskiness of the ABS securing the TALF loan. Under TALF,                  collateral and the value of the loan
FRBNY will lend each borrower the amount of the purchase price of the pledged                   (the loan value is less than the col-
ABS minus the haircut, subject to certain limitations. The initial haircuts for                 lateral value).
non-mortgage-backed collateral as a percentage of collateral value are posted on
FRBNY’s website.
74            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                         Much like haircuts, the interest rates for TALF loans are based on the loan
                                                     asset class, and most are quoted at a spread over LIBOR, which is a generally
                                                     accepted interest rate standard. Interest payments on the TALF loans are payable
                                                     monthly or quarterly, depending on the frequency of the interest payments on the
                                                     collateral. TALF loan interest rates may be fixed or floating, as determined by the
                                                     collateral, and are generally below what is currently available in the private mar-
                                                     kets. FRBNY posts the interest rates for TALF loans on its website.

                                                     Program Developments
                                                     As the TALF program matures, a number of updates have been introduced, which,
                                                     according to the Federal Reserve, serve three primary purposes:
                                                     • to maximize TALF’s impact on all sectors of the ABS market
                                                     • to provide transparency to investors and the marketplace
                                                     • to protect the taxpayers’ interests

                                                         Subsequent to SIGTARP’s April Quarterly Report, the following program-relat-
                                                     ed developments occurred and are discussed in greater detail in this section:
                                                     • Three additional TALF subscriptions (for a total of five) were conducted by
                                                        FRBNY.
                                                     • TALF-eligible collateral criteria were expanded to include: insurance premium
     Subscription: Process of investors
                                                        finance loans and CMBS — both legacy and newly issued.
     signing up and committing to invest in
                                                     • Two new nationally recognized statistical rating organizations (“NRSROs”) were
     a financial instrument before the actual
                                                        added to provide ratings for CMBS only: Realpoint, LLC, and DBRS.
     closing of the purchase.
                                                     • A proposed change to Standard & Poor’s (“S&P’s”) current ratings methodology
                                                        for CMBS could result in ratings downgrades for CMBS that might otherwise
                                                        have been eligible collateral for TALF loans.
                                                     • CMBS-specific haircut methodology was established.
                                                     • The role of collateral monitor for CMBS was created to act as another layer of
                                                        risk mitigation.
                                                     • Updated program mechanics were introduced for risk mitigation through man-
                                                        datory pre-payment of principal on loans collateralized by CMBS.
                                                     • The Federal Reserve hired a law firm to assist in the performance of a fraud risk
                                                        assessment for TALF.

                                                     TALF Subscription Activity
                                                     As of June 30, 2009, FRBNY had conducted five subscriptions of TALF. Four
                                                     of these subscriptions related to newly issued, non-mortgage-backed ABS (and
                                                     occurred in the first part of March, April, May, and June), and one subscription
                                                     related to newly issued CMBS (which occurred on June 16, 2009) for which there
                                                     was no activity.
                                                                                                                             QUARTERLY REPORT TO CONGRESS I JULY 21, 2009   75




TABLE 2.20

 TALF LOANS BY ABS SECTOR, 3/2009 – 6/2009
 (NON-MORTGAGE-BACKED COLLATERAL) ($ BILLIONS)
                                                   March            April             May             June
 ABS Sector                                         2009           2009              2009             2009                   Total
 Auto Loans                                          $1.9            $0.8             $2.2             $3.3                  $8.2
 Student Loans                                          —               —               2.4              0.2                      2.6
 Credit Card Receivables                               2.8             0.9              5.5              6.2                 15.4
 Equipment Loans                                        —               —               0.5              0.6                      1.1
 Floorplan Loans                                        —               —                 —                —                       —
 Small-Business Loans                                   —               —               0.1              0.1                      0.2
 Servicing Advance Receivables                          —               —                 —              0.5                      0.5
 Premium Finance                                        —               —                 —              0.5                      0.5
 Total                                               $4.7           $1.7            $10.6            $11.5                 $28.5

 Notes: Numbers affected by rounding. Data as of 6/30/2009.
 As of 6/25/2009, $25.2 billion in TALF loans were outstanding. The 7/7/2009 subscription was for approximately $5.4 billion in
 TALF loans.

 Sources: FRBNY, “Term Asset-Backed Securities Loan Facility: Operation Announcement,” 6/2/2009, www.ny.frb.org/markets/
 talf_operations_090602.html, accessed 6/3/2009. FRBNY, “Term Asset-Backed Securities Loan Facility: Operation Announcement,”
 5/5/2009, www.newyorkfed.org/markets/TALF_operations_090512.html, accessed 5/29/2009. FRBNY, “Term Asset-Backed Securi-
 ties Loan Facility: Operation Announcement,” 4/7/2009, www.newyorkfed.org/markets/TALF_operations_090407.html, accessed
 5/29/2009. FRBNY, “Term Asset-Backed Securities Loan Facility: Operation Announcement,” 3/19/2009, www.newyorkfed.org/
 newsevents/news/markets/2009/ma090319.html, accessed 5/29/2009. FRBNY, “Term Asset-Backed Securities Loan Facility: non-
 CMBS,” 7/7/2009, www.newyorkfed.org/markets/TALF_operations.html, accessed 7/8/2009.




Subscriptions Using Non-Mortgage-Backed Collateral
As of June 30, 2009, FRBNY had facilitated four TALF non-mortgage-backed ABS
subscriptions, totaling approximately $28.5 billion. As Table 2.20 illustrates, TALF
lending for non-mortgage-backed ABS has grown since the initial subscription in
March 2009.
   TALF loans issued for the purchase of ABS backed by student loans and ABS
backed by loans guaranteed by the SBA may have up to five-year maturities, as
opposed to up to three-year maturities for the non-mortgage-backed loans extended
thus far.

Subscriptions Using Mortgage-Backed Collateral
On June 16, 2009, FRBNY concluded the first subscription of TALF related to
newly issued CMBS. This was the first subscription with mortgage-backed securi-
ties as collateral. No loans were issued to borrowers during the subscription. Prior
to the subscription, during public remarks, the President of FRBNY indicated
that participation would be minimal because there had been little advance notice.
According to industry sources, for commercial real estate “it can take as long as six
months from the time a loan is originated to when it’s securitized.”159
76             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      Commercial Mortgage-Backed Securities
                                                      On May 1, 2009, the Federal Reserve issued a press release announcing the
                                                      expansion of TALF to include qualifying newly issued CMBS as eligible collateral
                                                      for TALF loans.160 On May 19, 2009, the Federal Reserve announced that legacy
                                                      CMBS would also be included.161 According to the Federal Reserve, “The CMBS
                                                      market came to a standstill in mid-2008. The inclusion of CMBS as eligible col-
                                                      lateral for TALF loans will help prevent defaults on economically viable commercial
                                                      properties, increase the capacity of current holders of maturing mortgages to make
     Amortization Schedule: A complete                additional loans, and facilitate the sale of distressed properties.”162
     schedule of periodic blended loan pay-               Commercial real estate mortgages that back CMBS are typically structured so
     ments, showing the amount of principal           that mortgage borrowers are required to make monthly payments consistent with
     and the amount of interest in each               a 20- to 30-year amortization schedule, but have a shorter term, which requires
     payment so that the loan will be paid            the borrower to make a bullet or balloon payment as the term reaches maturity. In
     off over a certain time period.                  other words, the term of the mortgage may be five years, but unlike most residential
                                                      mortgages, at the end of the commercial real estate loans, most of the principal has
     Term: The period of time assigned as             not yet been repaid, leaving a very large final payment. As a result, most commer-
     the lifespan of any investment.
                                                      cial mortgages are refinanced, that is, a new loan is sought at the end of the term.
                                                      Commercial lenders often make mortgage loans with the understanding that bor-
     Bullet Payment: A one-time, lump-sum
                                                      rowers will seek to refinance when the bullet becomes due.
     repayment of an outstanding loan, typi-
     cally made by the borrower after very
                                                          As discussed in further detail in “TARP Tutorial: Securitization” in
     little, if any, amortization of the loan.        Section 2: “TARP Overview” of SIGTARP’s April Quarterly Report, securities is-
                                                      suance provides financial institutions a significant source of liquidity to make new
                                                      loans and refinance existing loans. When the CMBS market shut down last year,
                                                      commercial mortgage borrowers discovered that commercial lenders were not will-
                                                      ing to refinance commercial real estate loans. Because many borrowers are unable
                                                      to make the final bullet payment without financing, this has created a potential
                                                      crisis in the commercial real estate market.

                                                      Which CMBS Will Meet Collateral Eligibility Requirements?
                                                      In order to qualify as TALF collateral, newly issued CMBS and legacy CMBS must
                                                      meet a number of eligibility requirements. Some eligibility requirements are the
                                                      same for both newly issued and legacy CMBS:163
                                                      • Eligible CMBS must evidence an interest in a trust fund consisting of fully
                                                         funded mortgage loans and not other CMBS, other securities, interest rate swap
                                                         or cap instruments, or other hedging instruments.
                                                      • Eligible CMBS must have a credit rating in the highest long-term investment-
                                                         grade rating category from at least two TALF CMBS-eligible rating agencies and
                                                         must not have a credit rating below the highest investment-grade rating category
                                                         from any TALF CMBS-eligible rating agency.
                                                      • Eligible CMBS must entitle its holders to payments of principal and interest.
                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 21, 2009           77




• Eligible CMBS must not be issued by an agency or instrumentality of the
  United States or a Government-sponsored enterprise.
• Eligible CMBS must include a mortgage or similar instrument on a fee or lease-
  hold interest in one or more income-generating commercial properties.

  Some eligibility requirements for newly issued CMBS are similar to require-
ments for legacy CMBS with minor, but important, differences:

  Newly issued CMBS:164
• Eligible newly issued CMBS must evidence first-priority mortgage loans that are
  current in payment at the time of securitization.
• Eligible newly issued CMBS must not be junior to other securities with claims
  on the same pool of loans.
• Each property underlying eligible newly issued CMBS must be located in the
  United States or one of its territories.

  Legacy CMBS:165
• Eligible legacy CMBS must not have been junior to other securities with claims
  on the same pool of loans upon issuance.
• As of the TALF loan subscription date, at least 95% of the properties underlying
  eligible legacy CMBS, by related loan principal balance, must be located in the
  United States or one of its territories.
• If issued during or after 2005, eligible legacy CMBS must be “super senior” in
  priority at the time of the TALF loan, meaning the holder is entitled to first pay-
  ment. It became common practice in 2005 to sub-tranche (or further subdivide
  cash flows), and TALF will only accept the most senior of these sub-tranches in
  the highest rating category.166

   For CMBS, the Federal Reserve has retained the services of a collateral
                                                                                              Collateral Monitor: Independent third
monitor to evaluate ABS to ensure that specific risks to the Federal Reserve and
                                                                                              party engaged by the Federal Reserve
Treasury are mitigated. For more on the role of the collateral monitor, refer to the
                                                                                              to assess the riskiness of the underly-
“Compliance and Fraud Prevention” discussion later in this section.
                                                                                              ing mortgage pools.

Nationally Recognized Statistical Rating Organizations for CMBS
The ratings assigned by NRSROs to CMBS are developed through methodologies
intended to provide a depiction of a financial instrument’s likelihood of default,
or riskiness. NRSRO methodologies often involve proprietary models, drawing on
basic assumptions about the MBS and comparisons of similarly structured invest-
ments, which may periodically be reviewed and could result in changes to ratings
issued by an NRSRO.
78   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                The ratings issued by NRSROs are integral to participation in the TALF pro-
                                            gram. The terms and conditions of TALF have two distinct requirements related to
                                            ratings for pledged collateral:
                                            • At the time of subscription for the TALF loan, pledged collateral must have the
                                                highest long-term investment-grade rating category (e.g., AAA) from two or more
                                                TALF-eligible rating agencies.
                                            • Collateral cannot have a credit rating less than the highest rating from any
                                                TALF-eligible rating agency, nor can it be currently on review or on watch for
                                                downgrade by any of the approved NRSROs.

                                                If collateral pledged for a TALF loan does not possess the necessary ratings, the
                                            borrower may not pledge that collateral as security for a TALF loan.
                                                Prior to the expansion of TALF, the Federal Reserve would accept ratings from
                                            S&P’s, Moody’s Investors Service, and Fitch Ratings for non-mortgage-backed
                                            ABS. On May 19, 2009, the Federal Reserve announced the addition of two new
                                            NRSROs to its list of acceptable NRSROs — DBRS and Realpoint, LLC — specif-
                                            ically for their experience in dealing with CMBS.167 These five NRSROs are known
                                            as TALF-eligible ratings agencies, because the ratings they issue may be relied on
                                            for determining collateral eligibility. In light of TALF’s expansion to additional asset
                                            classes, “the Federal Reserve will periodically review its use of NRSROs for the
                                            purpose of determining TALF-eligible ABS.”168

                                            Potential Downgrade of CMBS
                                            On May 26, 2009, S&P’s proposed changes to the methodology it uses to rate
                                            CMBS.169 The change in methodology will likely cause significant downgrades for
                                            CMBS issued within the past three years, particularly with respect to the highest
                                            long-term rating. It is being reported that, “25%, 60%, and 90% of the most senior
                                            tranches of the 2005, 2006, and 2007 issuances, respectively, could be downgrad-
                                            ed.”170 On June 26, 2009, S&P affirmed that it would adopt this stance.171 Because
                                            of the eligibility requirement that collateral cannot have a credit rating less than
                                            the highest rating from any major TALF-eligible rating agency, these downgrades by
                                            S&P will render a significant portion of the legacy CMBS market ineligible for par-
                                            ticipation in the TALF program. SIGTARP will follow these developments closely
                                            and report on substantive changes to program design in subsequent reports.

                                            Haircuts for Legacy CMBS Collateral
                                            Similar to collateral requirements for other types of ABS collateral, TALF loans
                                            secured by CMBS require borrowers to put up a portion of their own money, or
                                            the haircut. The amount of the haircut is designed to reflect the inherent riski-
                                            ness of the collateral and the potential for it to decline in value. Haircuts for newly
                                            issued CMBS will be at 15%, increasing by one percentage point for each year of
                                                                               QUARTERLY REPORT TO CONGRESS I JULY 21, 2009                             79




TABLE 2.21

 EXAMPLE CMBS EFFECTIVE HAIRCUT CALCULATION
 CMBS        Expected        Par   Market                           TALF   Effective
 Value       Life          Value    Value   Haircut %   Haircut $   Loan    Haircut
 High        Five Years   $1,000   $1,000        15%        $150    $850        15%
 Medium      Five Years    1,000     700         15%         150     550        21%
 Low         Five Years    1,000     400         15%         150     250        38%




additional average life over five years.172 Although also at 15%, haircuts on legacy
CMBS provide an additional technical-downside protection in that “the haircuts              Par Value: The dollar value assigned
are based on a percentage of par value, but applied on a dollar basis to market             to a security by the issuer.
prices.”173 For example, assume that a TALF borrower pledges legacy CMBS with
a par value of $1,000 for a TALF loan. The CMBS have an average life of five
years, which would require a 15% haircut from the borrower. If the legacy CMBS
were trading at full value, the borrower could get a loan for $850, putting up $150
(taking a $150 haircut). If, however, the legacy CMBS are trading at $700, the
borrower will only be able to secure a $550 TALF loan (the haircut is still $150 but
it now represents 21% of the now-lower market value). This formulation creates an
“effective haircut” that considers the proportion of the haircut to loan amount. The
lower the market value of the legacy CMBS, the higher percentage of market value
will be the haircut. See Table 2.21 for scenarios based on differing market values
for legacy CMBS.
    Calculating haircuts in this manner acknowledges that legacy CMBS with large            Weighted Average Life: The average
differences between par value and market value are generally likely to be experienc-        number of years for which each dollar
ing performance problems with the underlying assets. This approach to calculating           of unpaid principal on a loan or mort-
the required haircut minimizes the loan amount extended by the Federal Reserve              gage remains outstanding.
and thus the potential exposure to loss.
    Haircuts are designed to consider the weighted average life of a security, which
provides insight regarding how many years it will take to repay the principal. The
loans underlying a CMBS typically have a longer life than those of non-mortgage          TABLE 2.22
ABS. The standard haircut for CMBS is 15%. To see the CMBS haircut percent-
                                                                                          CMBS HAIRCUT PERCENTAGES
ages across a range of average life for the underlying collateral, see Table 2.22.
                                                                                                          Average Life (years)
                                                                                          0–5         6         7        8         9      10
Compliance and Fraud Prevention
                                                                                          15%       16%       17%      18%      19%       20%
As discussed in detail in Section 4: “Looking Forward: SIGTARP’s
Recommendations to Treasury” of SIGTARP’s April Quarterly Report, SIGTARP                 Source: FRBNY, “Term Asset-Backed Securities Loan Facility:
                                                                                          Terms and Conditions” 5/19/2009, www.newyorkfed.org/
made a series of recommendations regarding TALF program mechanics and fraud               markets/talf_terms.html, accessed 5/19/2009.

prevention procedures. Subsequently, in two letters to SIGTARP, dated
May 5, 2009, and May 22, 2009, the Board of Governors of the Federal Reserve
responded to many of the recommendations from the past quarterly report and
outlined plans to implement procedures to address these concerns in subsequent
80            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     TALF operations. Those letters are included in Appendix G: “Correspondence
     Primary Dealers: Banks and securi-              Regarding SIGTARP Recommendations.”
     ties broker-dealers that trade in U.S.
     Government securities with the Federal          Compliance Summary
     Reserve Bank of New York for the                Under TALF, the primary dealers are responsible for many of the compliance-relat-
     purpose of carrying out open market             ed activities, including performing due diligence regarding the eligibility of pledged
     operations. There are currently 16              ABS and the TALF applicant. Specifically, each primary dealer is responsible for
     primary dealers.                                applying its “Know Your Customer” / “Anti-Money Laundering” identification
                                                     program to each TALF borrower and making a representation to FRBNY that the
                                                     borrower is eligible for participation in TALF.174

     For further detail regarding the primary        CMBS Risk Mitigation through Collateral Monitoring
     dealer’s role in TALF, see Section 2:
                                                     In addition to haircuts, which are predetermined, fixed percentages, FRBNY will
     “TARP Overview” of SIGTARP’s April
                                                     conduct an actual valuation of any pledged collateral using adverse economic
     Quarterly Report.
                                                     assumptions to determine the maximum price at which it will be willing to lend.
                                                     This may lead to lower TALF loan values than would have been issued relying
                                                     solely on haircuts for risk mitigation, and this practice is designed to ensure that
                                                     the total amount of money lent to the borrower will not exceed the total value of
                                                     the CMBS should the market continue to deteriorate. The process will also help to
                                                     deter collusion, in that a proposed price that is deemed too high may be rejected
                                                     by the Federal Reserve. FRBNY has retained the services of a collateral monitor to
                                                     assist with this collateral evaluation using certain eligibility requirements provided
                                                     by the Federal Reserve. According to FRBNY, the collateral monitor will also assess
                                                     the pledged collateral pool for diversity of loan size, geography, property type, and
                                                     borrower sponsorship to avoid over-concentration in any particular sector. The
                                                     collateral monitor will “estimate the value of the collateral under adverse eco-
                                                     nomic conditions, and the FRBNY will not make a loan that exceeds the stressed
                                                     valuation.”175
                                                         For example, a stressed valuation performed by the collateral monitor may
                                                     evaluate the performance of CMBS in light of increased unemployment. Any
                                                     increase to the unemployment rate would likely decrease the need for corporate
                                                     office space, thus increasing vacancies and reducing rent collection. Commercial
                                                     borrowers that recently took out a mortgage for the development of office space
                                                     may thus default on the mortgage because of less income, which subsequently
                                                     would harm the performance of CMBS. The collateral monitor’s evaluation may
                                                     show that CMBS with a market value of $600 under current economic conditions
                                                     would be worth $400 if the unemployment rate increases. Under this scenario,
                                                     a TALF borrower pledging the CMBS as collateral for a TALF loan would not be
                                                     granted a loan greater than the stressed value of $400. Specific information about
                                                     the Federal Reserve’s stress valuation of CMBS will not be made public.
                                                                                  QUARTERLY REPORT TO CONGRESS I JULY 21, 2009   81




    On June 16, 2009, FRBNY announced the retention of Trepp LLC as its first
collateral monitor for the assessment of CMBS eligibility, both newly issued and
legacy. According to FRBNY, Trepp will “assist the New York Fed by providing valu-
ation, modeling, analytics and reporting.”176 FRBNY further clarified that it may
rely upon other firms as collateral monitors.

Risk Mitigation through Prepayment
The expansion of TALF includes additional protections to limit the Federal
Reserve’s exposure to losses from collateral declining in value and to encourage
borrowers to repay principal instead of abandoning the collateral at the end of the
TALF loan term.
    Any remittance of principal for legacy CMBS must be used immediately to
pay down the TALF loan in proportion to the haircut of that loan.177 In the case of
CMBS, these principal remittances occur when a borrower prepays the mortgage,
entitling the security holder to payment beyond the security’s normal cash flow. For
example, if a TALF borrower obtained a three-year TALF loan with a 15% haircut,
the borrower would keep only 15% of any principal remittance, and the remain-
ing 85% would go to FRBNY to pay down the loan. In other words, if $1,000 of
principal was remitted, the TALF borrower would receive $150, and $850 would go
to FRBNY to pay down principal on the borrower’s TALF loan.
    A second CMBS risk mitigation involves the use of interest payments received
by the holder of the CMBS. The interest generated by the CMBS is received by
FRBNY’s custodian and distributed in the following order:
• pay interest on TALF loan
• pay the TALF borrower subject to a cap
• pay down outstanding principal on the TALF loan
    Assuming the interest received from CMBS is greater than interest payable on
the TALF loan, interest will be remitted to the TALF borrower until the following
limits are reached (on a five-year TALF loan) after which interest will go to pay
down remaining principal on the TALF loan:
• 25% of the haircut amount (annually) for the first three years of the TALF loan
• 10% of the haircut amount during the fourth year of the TALF loan
• 5% of the haircut amount during the fifth year of the TALF loan

    For example, if a TALF borrower puts up a haircut of $100 for a five-year TALF
loan, the interest remitted to the borrower from the CMBS — above and beyond
the interest that is paid to the Federal Reserve for the loan — cannot exceed $25
for the first year, $25 for the second year, $25 for the third year, $10 for the fourth
year, and $5 for the fifth year. All payments more than these amounts go to the
Federal Reserve to repay the principal on the loan. In this way, the surrendering of
assets at the end of the TALF loan term will be discouraged as some principal will
82   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            have been repaid and the borrower will have retained some “skin in the game.”
                                            Otherwise, a borrower could recoup its entire haircut and profit, and have no
                                            incentive to pay off the loan, and reacquire the CMBS, at the end of the loan.

                                            Fraud Risk Assessment
                                            In a May 22, 2009, letter to SIGTARP, the Federal Reserve indicated that FRBNY
                                            had retained the services of a law firm to assist in the performance of a compre-
                                            hensive fraud risk assessment for TALF.178 According to the Federal Reserve, the
                                            assessment “will include a review of fraud cases and investigation consultation
                                            with a wide range of relevant law enforcement, government agencies, academics,
                                            law firms and public and private investors and recommendations regarding addi-
                                            tional measures, strategies or controls to reduce the potential fraud risk associated
                                            with the program.”179 SIGTARP has met with FRBNY and a representative of the
                                            law firm.
                                                Additionally, FRBNY is developing an inspection program of the primary deal-
                                            ers facilitating TALF loans to ensure they are performing the required due dili-
                                            gence of collateral and borrowers.

                                            Performance of ABS Markets
                                            On June 4, 2009, the president and chief executive of FRBNY, William C. Dudley,
                                            addressed the Securities Industry and Financial Markets Association and Pension
                                            Real Estate Association’s Public-Private Investment Program Summit in New York
                                            City regarding TALF.
                                                During the remarks, Mr. Dudley stated, “TALF loans have accounted for a bit
                                            more than half of total issuance volume of ABS (since the initial TALF subscrip-
                                            tion)...this means that the TALF is helping to restart the market, rather than the
                                            TALF being the market.”180 Additionally, Mr. Dudley noted that, “spreads on con-
                                            sumer ABS have been coming down sharply from their peak levels reached late last
                                            year. For example, the spreads on AAA-rated credit card ABS have narrowed from
                                            a peak of about 600 basis points over LIBOR to slightly above 200 basis points
                                            currently.”181
                                                                                   QUARTERLY REPORT TO CONGRESS I JULY 21, 2009             83




                                                                                                Legacy Assets: Also known as troubled
                                                                                                or toxic assets, legacy assets are real
                                                                                                estate-related loans and securities
Public-Private Investment Program                                                               (legacy loans and legacy securities)
On March 23, 2009, Treasury, in combination with FDIC and the Federal Reserve,                  that remain on banks’ balance sheets
announced the Public-Private Investment Program (“PPIP”), a $500 billion to                     and that have lost value, but are dif-
                                                                                                ficult to price due to the recent market
$1 trillion effort to improve the health of financial institutions holding legacy assets
                                                                                                disruption.
on their balance sheets and to restart frozen credit markets.182 As noted by FDIC,
these troubled loans and securities “have depressed market perceptions of banks
                                                                                                Market Value: Price at which a security
and impeded new lending.”183 PPIP is designed to purchase these legacy assets                   could be bought or sold.
from institutions through multiple Public-Private Investment Funds (“PPIFs”)
funded by Government and private-investor capital as well as desirable debt financ-             Mark-to-market: Assets are carried at
ing. PPIP will initially focus on assets related to mortgages on residential and com-           fair market value on a continual basis
mercial real estate.184 At program announcement, Treasury declared its intention to             with periodic changes in the fair value.
commit up to $100 billion to PPIP and the expansion of TALF to legacy assets.185                Fluctuations in value are shown in the
On July 8, 2009, Treasury announced that it will initially invest up to $30 billion of          corporate earnings.
equity and debt in nine PPIFs for the purchase of legacy securities.186
                                                                                                Illiquid market: A market in which
Understanding the Current Environment                                                           assets cannot be quickly converted to
                                                                                                cash.
PPIP’s success in meeting its goal of taking toxic assets off of banks’ books is
dependent on banks’ willingness to sell such assets. In order to assess the incentive
                                                                                                Fair Value: The price that would be
for banks to participate and sell their troubled assets, it is necessary to understand
                                                                                                received by the holder of that asset in
how institutions must account for these assets. Companies have traditionally held               an orderly transaction.
certain assets — like stocks of other companies and asset-backed securities (“ABS”)
— on their books at market value. Accounting standards required banks to value                  Recognized: Gains or losses that occur
certain assets at the current market price (i.e., mark-to-market). Consequently, if             when an asset is re-valued or sold.
the market value decreased, the company had to recognize a loss on its balance
sheet equal to the amount of the drop in value of the security, even though it has              Financial Accounting Standards Board
not sold it. Similarly, if the market value increased, banks could recognize a gain, or         (“FASB”): Established in 1973, FASB
profit, on their balance sheet, improving their capital position with no actual sale            is the regulatory body responsible for
taking place. The mark-to-market methodology is a snapshot of value — it does not               establishing rules for financial account-
capture the expected future earnings or the expected lifetime losses of the securi-             ing and the reporting of public, private,
                                                                                                and not-for-profit companies. Those
ties.187 Illiquid and inactive markets make this fair value determination more dif-
                                                                                                standards “govern the preparation of
ficult. The recent turmoil in the economy caused the market value of ABS to drop
                                                                                                financial reports and are officially rec-
significantly, and, for some legacy securities, the market ceased to exist. As a result,
                                                                                                ognized as authoritative by the Securi-
institutions have had to recognize losses on their balance sheets reflective of the             ties and Exchange Commission [“SEC”]
much lower market value of these assets.                                                        and the American Institute of Certified
    The economic crisis focused scrutiny on the Financial Accounting Standards                  Public Accountants [regulators].”189
Board (“FASB”), which sets corporate accounting principles, and on mark-to-                     These standards are necessary for
market accounting. This scrutiny is based on the belief that the current market                 investors, creditors, and others to rely
is priced for a “fire sale,” and not an “orderly transaction” between “informed                 on the accuracy, transparency, timeli-
parties.”188 As a result, Section 133 of EESA mandated that the Securities and                  ness, and comparability of financial
Exchange Commission (“SEC”) conduct a study on mark-to-market account-                          statements.190
ing standards and whether it should be a governing accounting standard. On
84            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     December 30, 2008, the SEC provided a study resulting in recommendations
                                                     for improvement in mark-to-market rules relating to the application of fair
                                                     value measures in illiquid or inactive markets.191
                                                         There are arguments for and against mark-to-market accounting for legacy
                                                     assets. According to the Chairman of FASB, the mark-to-market accounting
                                                     is seen in the current environment by financial institutions and their trade
                                                     groups as “overstating the extent of losses and capital erosion and as a fac-
                                                     tor exacerbating the crisis.”192 On the other side of the argument, investors,
                                                     financial analysts, and other users of financial reporting “have urged [FASB]
                                                     not to suspend or weaken the current requirements, fearing that would enable
                                                     institutions to improperly avoid or delay the recognition of economic losses
                                                     and depleted capital.”193
     Financial Accounting Standard 157-4                 On April 9, 2009, FASB issued Financial Accounting Standard 157-4
     (“FAS157-4”): On April 9, 2009, FASB            (“FAS157-4”) to “establish a consistent definition of fair value”194 and provide
     issued FAS157-4 to offer more clarity           a framework for valuing assets in differing market conditions.195 FAS157-4
     on valuing and accounting for assets            offers further clarification on which type of assets (i.e., company stock) should
     in an inactive market when pricing              rely on market price and which assets (i.e., ABS) can use other valuation
     represents distressed conditions.               methods when the markets are not orderly. This clarification directly affects
                                                     the legacy assets being purchased by the PPIFs. FAS157-4 may allow banks
     Legacy Loans: Underperforming real
                                                     to hold assets on their balance sheets at a higher value than the previous rule.
     estate-related loans held by a bank
                                                     With the legacy assets now valued higher on their balance sheets, institutions
     that it wishes to sell, but recent market
                                                     may be less willing to sell their assets to PPIFs because they would have to
     disruptions have made difficult to price.
                                                     recognize as a loss (and a reduction in their capital), the difference between
     Legacy Securities: Troubled real                the value at which they held the asset on their books and the price at which
     estate-related securities (residential          they sold it.
     mortgage-backed securities, commer-
     cial mortgage-backed securities, and            Program Details
     asset-backed securities) lingering on           In response to the economic crisis and the problems with legacy assets,
     institutions’ balance sheets because            Treasury has announced programs intended to help remove the troubled as-
     their value could not be determined.            sets from the balance sheets of banks and to restart illiquid markets. PPIP, as
                                                     originally announced, would provide between $500 billion and $1 trillion of
                                                     capital for the purchase of legacy assets through the following programs:

                                                     • Legacy Loans Program: PPIFs purchase legacy loans with TARP funds
                                                       and private-equity capital combined with FDIC-guaranteed debt.
                                                     • Legacy Securities Program: PPIFs purchase legacy securities using
                                                       TARP funds and private investment capital combined with TARP-issued
                                                       debt and/or optional leveraging from the expanded TALF for TALF-eligible
                                                       securities.
                                                     • Expanded TALF: The Federal Reserve has expanded eligible ABS to
                                                       include CMBS and is considering expansion to RMBS.
                                                                                   QUARTERLY REPORT TO CONGRESS I JULY 21, 2009         85




Legacy Loans Program
As announced, the Legacy Loans Program was designed to purchase hard-to-
value real estate-related loans from financial institutions.196 In the Legacy Loans
Program, Treasury would form PPIFs with private investors and would match the
private investment dollar-for-dollar (i.e., for every $1 invested by the private inves-
tor, Treasury would also invest $1). FDIC would provide a debt guarantee of up to
a 6-to-1 leverage ratio (i.e., debt-to-equity ratio) on the pool of loans. The allowed
amount of leverage would be predetermined by FDIC after an independent, third-
party analysis of the loans.
                                                                                             For more information on the Legacy Loans
    On June 3, 2009, FDIC announced that, although it is continuing to develop               Program, see Section 2: “TARP Overview”
the Legacy Loans Program, the program would be postponed indefinitely. It cited              in SIGTARP’s April Quarterly Report.
recent successful capital-raising efforts by financial institutions as reflecting
“renewed investor confidence in our banking system.”197 SIGTARP will provide
updates when more information on the Legacy Loans Program is available.

Legacy Securities Program
According to Treasury, “the Legacy Securities Program is intended to restart the
market for legacy securities, allowing banks and other financial institutions to
free up capital and stimulate the extension of new credit.”198 Legacy securities are
ABS supported by a pool of real estate-related loans, and for the purposes of PPIP,
issued before January 1, 2009.199 Private investors and Treasury will co-invest to
purchase these assets from banks, insurance companies, mutual funds, pension
funds, and any other eligible institutions.200
    In the Legacy Securities Program, Treasury will invest equity alongside pri-
vate investors in a PPIF. In addition to the equity investment, Treasury will also
offer debt financing equal to or double the amount of the private investment.
Furthermore, Treasury and the Federal Reserve will allow the PPIFs to obtain ad-
ditional financing, up to certain limits, from the Federal Reserve’s TALF program
for those assets that are eligible for TALF (currently only CMBS).201

Expanded TALF
The Federal Reserve, as described in the previous “Term Asset-Backed Securities
Loan Facility” discussion in this report, has expanded its eligible asset classes to
include legacy CMBS. This expansion allows, but does not require, participants in
PPIP’s Legacy Securities Program to also participate in TALF, subject to applicable
haircuts. According to OFS, “haircuts will be increased so that the combination
of Treasury- and TALF-supplied debt will not exceed the total amount of TALF
debt that would be available leveraging the PPIF equity alone.”202 See the previous
“Term Asset-Backed Securities Loan Facility” discussion in this section for more
information on the mechanics and the eligible collateral of TALF. Treasury and
the Federal Reserve are continuing to assess whether to expand TALF to new and
legacy RMBS, but, as of June 30, 2009, no final decision has been made.
86               SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     FIGURE 2.12

     PPIP ASSET/CASH FLOW                                               Legacy Securities Program Process
                                                                        The following steps detail the process for participation in the Legacy Securities
                                                                        Program and Figure 2.12 details the flow of cash and assets:
       OWNERSHIP/                           LENDERS
        INVESTORS
                                                                        1. Fund managers apply to Treasury to participate in the program.
           Treasury                           Treasury
        Fund Manager                    Third Party (TALF)              2. Approved fund managers must raise necessary private capital for the PPIF.
      Private Investors                                                 3. Treasury matches the capital raised, dollar-for-dollar (up to a predetermined
                                                                           maximum amount, currently $1.1 billion).
      EQUITY                                       DEBT
                                                                           – Treasury also receives warrants so it can further participate if profits are
                             PPIP                                            earned by the PPIF.
                                                                        4. Fund managers can borrow additional money from Treasury.
                      MBS           CASH                                   – Managers can borrow 50-100% of the total equity investment (currently
                                                                             $1.1 billion or up to $2.2 billion).
                       SELLER BANK
                                                                           – If managers take no more than 50% financing from Treasury, PPIF may re-
                                                                             ceive TALF loans for TALF-eligible assets (subject to leverage limits) or other
     Sources: OFS, “Legacy Securities Public-Private Investment              third-party debt.
     Partnership Summary of Indicative Terms and Conditions,”
     received from SIGTARP 7/1/2009; OFS, “Public-Private               5. Fund manager purchases and manages the legacy securities and provides
     Investment Program: White Paper,” 3/23/2009, www.treas.gov,
     accessed 6/15/2009.                                                   monthly reports to Treasury.

                                                                            There are many participants in the operation and oversight of PPIP. Treasury,
                                                                        in particular, has many roles. Table 2.23 describes the participants and their
                                                                        respective roles.




     TABLE 2.23

      PPIP PARTICIPANTS AND ROLES
      Role                  Participant              Description
                            Private Investor         Invests in a PPIF to purchase legacy assets

                            Treasury                 Provides an equity investment matching the contributions made by the private investors and fund manager
      Investor
                                                     Required to invest at least $20 million in the PPIF — limited to 9.9% ownership of the total capital provided by
                            Fund Manager
                                                     private investors
                            Treasury                 Lends PPIF either 50% or 100% of the value of the total equity investment
      Lender
                            Third Party              Lends to PPIF — can be private lender or FRBNY via TALF — subject to leverage caps
      PPIF Manager          Fund Manager             Will make investment decisions and manage the operation of the PPIF — paid management fees
                            Custodian                Provides reports on the PPIF and provides asset test on the purchased securities
      Administrator
                            Valuation Agent          Values assets purchased by the PPIF
                            SIGTARP
      Oversight             Treasury-OFS             Allows access to all personnel and records involved in the activities of the PPIF
                            GAO

      Source: Treasury, “Letter of Intent and Term Sheet,” 7/8/2009, www.financialstability.gov/docs/S-PPIP_LOI_Term-Sheets.pdf, accessed 7/8/2009.
                                                                                  QUARTERLY REPORT TO CONGRESS I JULY 21, 2009   87




PPIF Manager Selection
According to Treasury officials, fund manager selection was a multistep process
that began with the initial applications; followed by minimum criteria review; then
final committee review, interviews, and comparison; and culminated in the selec-
tion of fund managers. All of the applicants were reportedly evaluated by a commit-
tee of five voting members and two non-voting members.203
    Treasury reported that it initially received 141 applications and narrowed them
down to 104 applicants based on incomplete or duplicative applications and other
eligibility criteria. The 104 applicants were then compared against the minimum
criteria. Failure to meet any two of the five criteria reportedly disqualified an ap-
plicant. According to Treasury officials, these criteria included, but were not limited
to:204

• a demonstrated ability to raise $500 million of private capital
• a demonstrated experience investing in eligible assets
• having $10 billion in eligible assets under management
• a demonstrated capacity to manage the fund consistent with Treasury’s goals for
  the program
• being headquartered in the United States

    After eliminating the non-conforming applicants and dropouts, the committee
narrowed the possible fund managers to 11 for further review, interviews, and rank-
ing.205 Upon completion, Treasury announced the following fund managers:206

• AllianceBernstein, L.P. and its sub-advisors Greenfield Partners, LLC, and
  Rialto Capital Management, LLC
• Angelo, Gordon & Co., L.P., and GE Capital Real Estate
• BlackRock, Inc.
• Invesco Ltd.
• Marathon Asset Management, L.P.
• Oaktree Capital Management, L.P.
• RLJ Western Asset Management, L.P.
• The TCW Group, Inc.
• Wellington Management Company, L.L.P.

    In addition to the 9 announced fund managers, 10 leading small-, veteran-, mi-
nority-, and women-owned businesses will provide “meaningful” partnership roles
to the PPIFs.207 These roles include, but are not limited to, asset management,
capital raising, broker-dealer, investment sourcing, research, advisory, cash manage-
ment, and fund administration.208
88            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     Terms Agreed to by Fund Managers
                                                     On July 8, 2009, Treasury announced the terms of its equity and debt term sheets
                                                     with the newly selected PPIF managers that will work to “generate attractive
                                                     returns” through “long-term opportunistic investments.”209 The debt term sheet set
                                                     forth three financing options with respective leverage limits for the PPIF. The PPIF
                                                     will purchase originally AAA-rated CMBS and non-agency RMBS issued prior to
                                                     2009 and other approved temporary investments.210 The three financing options
                                                     are:

                                                     1. equity matching, 100% debt financing as a percentage of total equity, and no
                                                        additional debt financing is allowed
                                                     2. equity matching, 50% debt financing as a percentage of total equity, and a lever-
                                                        age cap for borrowing from a third party at 5:1
                                                     3. equity matching, 50% debt financing as a percentage of total equity, and lever-
                                                        age from the Federal Reserve through TALF at an amount in combination with
                                                        Treasury that will “not exceed the total amount of TALF debt that would be
                                                        available leveraging the PPIF equity alone”211
     Temporary Investments: For the pur-
     poses of PPIP, they are cash, Treasur-              A fund manager has several options to leverage PPIF funds, depending on
     ies, money market mutual funds, and             whether it seeks to purchase TALF-eligible securities. For example, if a fund man-
     interest rate hedges.                           ager raises $50 in equity and receives a matching $50 Treasury equity investment,
                                                     it has three different options to seek Government leverage to buy MBS:

                                                     1. The fund manager can borrow 100% of equity ($100) from Treasury as a non-
                                                        recourse loan and buy a total of $200 worth of MBS. Under this option, the
                                                        fund manager may not borrow from TALF.
                                                     2. The fund manager can borrow nothing from Treasury and apply the full $100
                                                        of equity to TALF as a haircut. If a particular MBS has a 20% haircut, the fund
                                                        manager could obtain a maximum non-recourse loan from FRBNY of $400 and
                                                        purchase $500 of MBS.
                                                     3. The fund manager can borrow 50% of the total equity ($50) from Treasury un-
                                                        der PPIP and seek additional funding from TALF to purchase MBS. However,
                                                        because of the prohibition of leverage-on-leverage in the interaction between
                                                        PPIP and TALF, the total leverage for the PPIF (using both Treasury and TALF
                                                        debt) is based on the original equity. In this example, because the equity is
                                                        $100, the maximum leverage at a 20% TALF haircut is $400. Because the PPIF
                                                        fund manager has already received a $50 loan from Treasury through PPIP, the
                                                        maximum additional leverage that it can receive from TALF is an additional
                                                        $350, giving the fund manager the ability to purchase $500 worth of MBS. As
                                                        the program was originally designed, the PPIF would have been able to apply
                                                        both the PPIP debt and equity ($150 total) to TALF as the haircut, and in this
                                                                                   QUARTERLY REPORT TO CONGRESS I JULY 21, 2009             89




   example, would have been able to receive a $600 loan under TALF and thus
   able to purchase $750 worth of MBS.

     If a PPIF is going to use third-party debt, the PPIF must form a subsidiary to
finance, acquire, and hold the assets. Any recourse from the third-party debt is
restricted to the subsidiary, and no further actions can be taken against the PPIF or
its investors.
     As the PPIFs begin to have normal operations, the fund managers will be
required to submit an audited annual report, unaudited quarterly reports, monthly
reports, and in some cases, weekly reports on behalf of the PPIFs. In the monthly
reports the PPIF is required to report on the following:                                        CUSIP: Unique identifying number
                                                                                                assigned to all registered securities in
• PPIF holdings (including CUSIP or ISIN, security description, par value, cost,                the United States and Canada.
  fair market value, and accrued income)
                                                                                                International Securities Identification
• purchases and sales
                                                                                                Number (“ISIN”): Unique identifying
• capital activity including contributions and withdrawals of securities and cash
                                                                                                number assigned to all internationally
• a summary of the change in the fair market value of the PPIF’s investments
                                                                                                traded securities.
• performance data (including 1-month, 3-month, year-to-date, latest 12-months,
  since inception [cumulative] and since inception [annualized])                                Solvency: A company’s ability to pay its
• management discussion and analysis of the partnership’s investment activities                 debts with available cash.
• an analysis of current market conditions
                                                                                                Asset Coverage Test: For the purposes
     All PPIFs are required to have continuous testing of their solvency and liquid-            of PPIP, a requirement that the total as-
ity. These tests include an asset coverage test, and, for PPIFs that choose debt                sets of a PPIF be proportionally larger
financing, a leverage ratio test. The asset coverage test requires total assets to              than total debt. The asset coverage
be proportionally larger than total debt, and the leverage ratio test, if applicable,           ratio is calculated as: ([market value
requires the total debt to be proportionally larger than the total equity. Based on the         of PPIF assets] + [market value of any
                                                                                                assets held by a subsidiary] – [any
requirements, a PPIF choosing 50% leverage must have an asset coverage ratio of
                                                                                                debt associated with those subsidiary
at least 225% (i.e., if the PPIF has $100 in debt, then the asset value of its portfolio
                                                                                                assets]) / total debt.
must be at least $225). On the other hand, if the PPIF chooses 100% debt financ-
ing, then it must have an asset coverage ratio of at least 150% (i.e., if the PPIF has
                                                                                                Leverage Ratio Test: For the purposes
$100 debt, then the asset value must be at least $150). Those PPIFs that do not                 of PPIP, the application of the leverage
comply with the standards set by the asset coverage test or the leverage test cannot            cap to determine if a PPIF exceeds its
purchase any more assets until the PPIF is in compliance and must submit weekly                 debt limit. Calculated as: total debt /
reports until the PPIF is in compliance. To determine the value of the assets,                  net assets.
Treasury will employ a valuation agent that will report to Treasury its estimate of
the value of the assets in the funds.                                                           Net Assets: The value of all of the
                                                                                                assets minus any debt associated with
PPIP Safeguards and Conflict Mitigation                                                         those assets.
As SIGTARP noted in its April Quarterly Report, there are numerous potential
opportunities for fraud, waste, and abuse in PPIP. On July 8, 2009, Treasury issued
90            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     updated guidance on safeguards put in place to protect the taxpayer against losses.
                                                     Table 2.24 describes some of the safeguards included in the PPIP debt and equity
                                                     agreements. In addition, Treasury announced specific conflict standards for PPIF
                                                     managers. Table 2.25 describes these conflicts and the possible mitigating efforts
     For more information on PPIP vulner-
                                                     put in place by Treasury to protect its investment in the PPIFs.
     abilities and SIGTARP’s recommenda-
     tions, see Section 4: “Looking Forward:
     SIGTARP’s Recommendations to Treasury”
     in SIGTARP’s April Quarterly Report.            TABLE 2.24

                                                      PPIP SAFEGUARDS
                                                                                                       PPIF must set aside three months of expected interest pay-
                                                      Interest Reserve
                                                                                                       ments to Treasury.
                                                                                                       Investors cannot withdraw investment. The PPIF is sup-
                                                      Investor Withdrawal Prevention
                                                                                                       posed to be a long-term investment.
                                                                                                       Fund managers must have at least $20 million invested
                                                      Fund Manager Investment                          so they have some “skin in the game.” Investment cannot
                                                                                                       exceed 9.9% of the total private investment.
                                                                                                       A valuation agent is responsible for calculation of market
                                                                                                       value of eligible assets and temporary investments on a
                                                      Independent Valuation
                                                                                                       monthly basis. The same valuation agent will be used for all
                                                                                                       of the PPIFs.
                                                      Leverage Cap                                     There is a limit to the amount of debt a PPIF can take on.
                                                                                                       When distributions are made, there is a defined order to
                                                      Distribution Waterfall                           ensure repayment of Treasury debt prior to distributions to
                                                                                                       private investors.
                                                                                                       Fund managers are required to develop, implement, and
                                                      Ethics
                                                                                                       monitor an ethics standard.
                                                                                                       Fund managers are required to develop, implement, and
                                                      Conflict Standards
                                                                                                       monitor a conflicts standard.
                                                                                                       In addition to the PPIF transactions, the fund manager and
                                                      Eligible Asset Watch List                        its affiliates must disclose information on all transactions
                                                                                                       with eligible assets outside of the PPIF.
     Leverage Cap: For the purposes of                Source: Treasury, “Letter of Intent and Term Sheet,” 7/8/2009, www.financialstability.gov/docs/S-PPIP_LOI_Term-Sheets.pdf,
     PPIP, a limit to the amount of debt a            accessed 7/8/2009.

     PPIF can assume based on its equity.
     Calculated as: total debt / net assets.
                                                                                                QUARTERLY REPORT TO CONGRESS I JULY 21, 2009               91




TABLE 2.25

 PPIP CONFLICTS OF INTEREST AND MITIGATING EFFORTS
              PPIF manager may have proprietary interest and/or interest for other clients in eligible collateral which could lead
 Conflict:
              to a more favorable treatment of non-PPIF clients over PPIF investors and Treasury.

                                                 Shall comply with act, including, but not limited to: anti-fraud provisions, rules regarding record
              Investment Advisors Act of
                                                 keeping, contracts, advertising, custody of client funds and assets, disclosure and transpar-
              1940
                                                 ency.
                                                 Shall adopt a fair trade allocation policy that requires a pro rata or comparably equitable allo-
              Allocation and Valuation Pricing
                                                 cation of trades and investment opportunities between the PPIF and non-PPIF funds that invest
              Policy
                                                 in eligible assets.
              Co-investment                      Required to invest a minimum of $20 million.

                                                 Acknowledge that it owes Treasury and the private investors fiduciary duties of loyalty and
              Fiduciary Duty
                                                 care when performing services for the PPIF.

              Record Access                      Treasury and SIGTARP have access to books and records of the PPIF.
                                                 Treasury and SIGTARP can conduct an annual or ad hoc review of compliance with these poli-
 Mitigating   Reviews
                                                 cies.
 Efforts:
                                                 Will establish a list of securities in which the PPIF manager, its clients, and/or its named affili-
              Eligible Assets Watch List
                                                 ates hold positions, or they are analyzing for current investment.
                                                 Shall disclose to Treasury all actual and potential conflicts of interest and who within the PPIF
              Disclosure of Conflicts
                                                 manager’s firm will have access to PPIF investment and strategy decisions.
              Disclosure of Beneficial Owner-
                                                 Will disclose to Treasury all information regarding the beneficial owners of equity in a PPIF.
              ship Interest
              Disclosure of Top 10 PPIF
                                                 Will report to Treasury and SIGTARP quarterly on the 10 largest positions of the PPIF.
              Positions
                                                 Will comply with “Know Your Customer” regulations, Office of Foreign Asset Control statutes
              Investor Diligence
                                                 and regulations, and all relevant Federal securities screening laws.
                                                 Internal controls will be audited annually, with reports submitted to Treasury and SIGTARP. Valu-
              Independent Oversight
                                                 ation and return calculations and methodology will also be independently verified.
 Conflict:    PPIF manager may have conflicts with named affiliates holding or servicing eligible assets. The PPIF manager
              could have control over the affiliate’s decisions, or the affiliate could have control over the PPIF manager’s
              decisions.
              All controls from above.
                                                 May not acquire or sell eligible assets to:
                                                 (1) fund manager
              Transaction Restrictions           (2) sub-advisors of the fund manager
                                                 (3) any named affiliates of the fund manager
 Mitigating                                      (4) any other PPIF
 Efforts:
              Disclosure regarding asset         Cannot inform PPIF investors or any other fund managed by the PPIF manager of potential
              acquisition                        acquisitions except to the extent necessary to facilitate a transaction for the PPIP
                                                 Disclose quarterly when any affiliates:
              Quarterly Disclosure               (1) service eligible assets
                                                 (2) invest in any of the same categories of securities
              PPIF manager may have conflicts with fund raisers and broker-dealer relationships. These relationships could have
 Conflict:
              revenue-sharing relationships which could improperly influence the decisions of the PPIF manager.
              All controls from above.
 Mitigating                                      (1) no trades for PPIF allowed by broker-dealer affiliates
 Efforts:     Relationship Restrictions          (2) must disclose any such relationships and the terms of the relationship
                                                 (3) compliance department to put controls in place to prohibit, monitor, and test for such transactions
                                                                                                                             Continued on next page.
92               SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      PPIP CONFLICTS OF INTEREST AND MITIGATING EFFORTS                                      (CONTINUED)

      Conflict:             PPIF managers may have personal conflicts of interest.
      Mitigating
                            Personal Conflicts Policies                All related parties, employees, and the like subject to conflict rules and code of ethics
      Effort:
      Conflict:             The PPIF manager may engage in asset crossing, flipping, or round tripping.
                            All controls from above

      Mitigating                                                       (1) best price and/or best execution to be achieved
      Efforts:                                                         (2) no crossing trades
                            Transaction Restrictions
                                                                       (3) no purchases with the intent of selling within one week
                                                                       (4) no resale of assets within limited window of time of purchase
      Conflict:             PPIF manager could be involved in other recovery-related programs.
      Mitigating                                                       Must disclose to Treasury activities such as asset acquisition, disposition, or management
                            Disclosure Requirement
      Efforts:                                                         services to the Federal Reserve or FDIC
      Conflict:             PPIF manager may improperly represent its relationship with Treasury.
      Mitigating
                            Marketing Restrictions                     Cannot advertise its relationship with Treasury except for its participation in PPIP
      Efforts:

      Source: Treasury, response to SIGTARP draft report, 7/13/2009.




                                                                            Asset Crossing: Buying or selling                     Round Tripping: Buying an asset
                                                                            assets from affiliates, either directly               from an entity and reselling the
                                                                            or through third parties.                             asset back to the entity or its
                                                                                                                                  affiliates.
                                                                            Asset Flipping: buying assets with
                                                                            the intention of reselling these
                                                                            assets in the short term.




                                                                       Unlocking Credit for Small Businesses
     7(a) Program: SBA loan program
     guaranteeing a percentage of loans for                            On March 16, 2009, Treasury initiated the Unlocking Credit for Small Businesses
     small businesses that cannot otherwise                            (“UCSB”) program to encourage banks to extend more credit to small busi-
     obtain conventional loans at reasonable                           nesses.212 Under the UCSB program, Treasury announced that it would purchase
     terms.                                                            up to $15 billion in securities backed by pools of Small Business Administration
                                                                       (“SBA”) loans from two SBA participating programs: the 7(a) Program and the
     504 Community Development Loan                                    504 Community Development Loan Program. According to Treasury, the UCSB
     Program: SBA program combining                                    program was designed to provide banks the liquidity necessary to start writing new
     Government-guaranteed loans with                                  small-business loans again.213 As of June 30, 2009, Treasury had not expended any
     private-sector mortgage loans to
                                                                       funds under the UCSB program.
     provide loans of up to $10 million for
     community development.
                                                                                                                                   QUARTERLY REPORT TO CONGRESS I JULY 21, 2009   93




AUTOMOTIVE INDUSTRY SUPPORT PROGRAMS
For the U.S. automotive industry, the quarter ending June 30, 2009, was domi-
nated by the bankruptcy filings of Chrysler and General Motors (“GM”). TARP is
playing a key role in the financing of these companies as they undergo and emerge
from bankruptcy, as well as in the support of critical related industries.
    Through TARP, Treasury has initiated three distinct programs to support
the automotive industry: the Automotive Industry Financing Program (“AIFP”)
to assist automakers and their financing arms,214 the Auto Supplier Support
Program (“ASSP”) to assist the firms that supply them,215 and the Auto Warranty
Commitment Program (“AWCP”) to support consumer confidence in these compa-
nies.216 Investments in these three programs are summarized in Table 2.26.


TABLE 2.26

 TARP AUTOMOTIVE PROGRAMS FUNDING COMMITTED
 AS OF 6/30/2009 ($ BILLIONS)
                                    Bankrupt Entities                   Non-Bankrupt Entities
                                                                        Chrysler
                                  Chrysler                 GM           Financial              GMAC                                Total
Pre-Bankruptcy:
 AIFP                                  $4.5a            $19.4                  $1.5             $13.4                          $38.8
 ASSP                                    1.5b              3.5c                     –                 –                             5.0
 AWCP                                    0.3               0.4                      –                 –                             0.6
                                       $6.3            $23.3                  $1.5             $13.4                          $44.4
In-Bankruptcy
(DIP Financing):
 AIFP                                  $3.8d           $30.1                        –                 –                       $33.9
Post-Bankruptcy
(Working Capital):
 AIFP                                  $6.6e                 –                      –                 –                            $6.6
Subtotals by
Program:
 AIFP                                                                                                                          $79.3
 ASSP                                                                                                                               5.0
 AWCP                                                                                                                               0.6
Total                                $16.7             $53.4                  $1.5             $13.4                          $85.0

Notes: Numbers affected by rounding. Data as of 6/30/2009.
a
  $500 million of this commitment was never funded.
b
  Commitment was decreased to $1 billion on 7/8/2009.
c
  Commitment was decreased to $2.5 billion on 7/8/2009.
d
  $1.9 billion of this commitment was never funded.
e
  Approximately $4.7 billion of this commitment was provided in working capital; approximately $2 billion was used to pay senior
  secured lenders.

Sources: Treasury, Transactions Report, 7/2/2009; Treasury, Transactions Report, 7/10/2009; Treasury, response to SIGTARP draft,
7/13/2009.
94            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     TABLE 2.27

                                                      AIFP FUNDING COMMITTED TO AUTO COMPANIES
                                                      AS OF 6/30/2009 ($ BILLIONS)
                                                     Institution                                                                        Total
                                                     Chrysler                                                                          $14.9
                                                     GM                                                                                  49.5
                                                     Chrysler Financial                                                                    1.5a
                                                     GMAC                                                                                13.4
                                                     Total                                                                             $79.3

                                                     Notes: Does not include funds invested under ASSP or AWCP. Numbers affected by
                                                     rounding. Data as of 6/30/2009.
                                                     a
                                                       As of 6/30/2009, $130.8 million of principal payments related to the Chrysler Financial
                                                     loan had been repaid.

                                                     Sources: Treasury, Transactions Report, 7/2/2009; Treasury, response to SIGTARP data
                                                     call, 7/8/2009.




                                                     Automotive Industry Financing Program
     For more information regarding the              The Automotive Industry Finance Program (“AIFP”), under which Treasury invests
     background of AIFP, refer to the AIFP           in automakers and their financial arms, was created on December 19, 2008, with
     discussions in SIGTARP’s Initial Report         the stated goal of preventing a significant disruption to the American automotive
     and SIGTARP’s April Quarterly Report.
                                                     industry that would pose a systemic risk to financial market stability and have a
                                                     negative effect on the U.S. economy.217

                                                     Status of Funds
                                                     As of June 30, 2009, Treasury had committed, through AIFP, $79.3 billion to two
                                                     automakers and their two financial affiliates of which, $130.8 million has been
                                                     repaid.218 Treasury has received $160 million in dividends and $202 million in
                                                     interest payments from its AIFP investments.219 Table 2.27 summarizes Treasury’s
                                                     committments under AIFP.

                                                     Auto Supplier Support Program
                                                     Because of the rapid decline in auto sales, many auto parts suppliers are struggling
                                                     to access credit, and they face uncertainty regarding the future of their businesses.
                                                     In a typical sales cycle, auto suppliers ship parts to manufacturers 45 to 60 days
                                                     before receiving payment. The suppliers typically fund operations by borrowing
                                                     from banks, using their receivables as collateral while payments are outstand-
                                                     ing. However, the current credit crisis has made it very difficult for suppliers to
                                                     get loans from banks. According to Treasury, the Auto Supplier Support Program
                                                     (“ASSP”) will provide select suppliers with access to Government-backed protec-
                                                     tion that guarantees money owed to them will be paid.220
                                                                                              QUARTERLY REPORT TO CONGRESS I JULY 21, 2009             95




Program Goals
On March 19, 2009, Treasury announced the formation of ASSP to provide up to
$5 billion in financing to suppliers to the U.S. auto manufacturing industry. The
program was designed to give suppliers confidence to continue shipping parts, pay-
ing employees, and maintaining operations.221 Although all domestic auto compa-
nies were eligible to participate, Chrysler and General Motors are the only two that
decided to take advantage of the program. However, any domestic supplier that
ships parts to Chrysler or General Motors is also eligible, as well as any receivables
for goods shipped after March 19, 2009, purchased on qualifying terms between
an eligible manufacturer and an eligible supplier. The auto companies can select
the suppliers and specific receivable accounts that will be included in the program.
Selected suppliers sell their receivable accounts into the program at a small dis-
count, as a fee for participation.222

Status of Funds
On April 9, 2009, Treasury executed agreements to fund $5 billion under ASSP.
Both Chrysler and General Motors created special purpose vehicles (“SPVs”) to                              Special Purpose Vehicle (“SPV”): An
receive these funds. Chrysler Receivables SPV, LLC received a commitment for                               off-balance sheet legal entity that holds
$1.5 billion and GM Supplier Receivables, LLC received a commitment for $3.5                               the transferred assets presumptively
billion.223 Table 2.28 summarizes the ASSP funds that were committed as of                                 beyond the reach of the entities provid-
June 30, 2009.                                                                                             ing the assets (e.g., legally isolated).
     Because most suppliers have been paid during the course of the companies’
bankruptcies, a diminished amount of activity is expected under the program going
forward. Under the original loan agreements for each SPV, the Treasury commit-
ments could be decreased if the outstanding amounts did not exceed the commit-
ments made on June 30, 2009. At the request of Chrysler and GM, on
July 8, 2009, the original commitments were reduced to $1.0 billion and
$2.5 billion respectively.224

TABLE 2.28

 ASSP FUNDING COMMITTED AS OF 6/30/2009                                      ($ BILLIONS)
                                                                             Original
Institution                                                               Commitment
Chrysler Receivables SPV, LLC                                                         $1.5
GM Supplier Receivables, LLC                                                            3.5
Total                                                                                $5.0

Notes: Numbers affected by rounding. Data as of 6/30/2009. Data does not include reductions
that took place on 7/8/2009.

Source: Treasury, Transactions Report, 7/2/2009.
96   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Auto Warranty Commitment Program
                                            How to maintain consumer confidence during their respective restructuring
                                            periods was a major issue for both Chrysler and GM. With the long-term futures
                                            of Chrysler and GM in doubt, there were concerns that some consumers would
                                            be reluctant to purchase vehicles because the manufacturers might not be able to
                                            honor the warranties. The Auto Warranty Commitment Program (“AWCP”) was
                                            created to alleviate these concerns and encourage consumers to continue buying
                                            Chrysler and GM vehicles.

                                            Program Goals
                                            On March 30, 2009, Treasury announced the creation of AWCP to give retail
                                            consumers confidence that their automobile warranties would be honored. The
                                            program covers all warranties on new vehicles purchased during the participating
                                            manufacturers’ restructuring period. Any retail consumer who purchases a new
                                            vehicle during this time will be automatically eligible for the program. According to
                                            Treasury, the program is designed to encourage the continued viability of restruc-
                                            turing auto companies by mitigating consumer uncertainty and increasing vehicle
                                            sales.225

                                            Status of Funds
                                            Prior to Chrysler’s bankruptcy filing on April 30, 2009, Treasury made $280 mil-
                                            lion available through an SPV to backstop warranties on new car sales. Similarly,
                                            Treasury made $361 million available to GM prior to its bankruptcy.226 Table 2.29
                                            summarizes the funds that have been invested under AWCP.
                                                As of June 30, 2009, the AWCP remains operational but Treasury has stated
                                            that the funds are not expected to be used by the manufacturers. Both companies
                                            are continuing to honor consumer warranties while in bankruptcy. Treasury expects
                                            that after Chrysler and GM emerge from bankruptcy, their respective SPVs will
                                            refund the committed funds back to Treasury.227



                                            TABLE 2.29

                                             AWCP FUNDING COMMITTED AS OF 6/30/2009 ($ MILLIONS)
                                                                                                         Investment
                                            Institution                                                     Amount
                                            Chrysler Warranty SPV LLC                                         $280
                                            GM Warranty LLC                                                    361
                                            Total                                                             $641

                                            Notes: Numbers affected by rounding. Data as of 6/30/2009.

                                            Source: Treasury, Transactions Report, 7/2/2009.
                                                                                             QUARTERLY REPORT TO CONGRESS I JULY 21, 2009            97




TARP TUTORIAL: BANKRUPTCY

As reported in SIGTARP’s April Quarterly Report, Chrysler and GM were given 30- and 60-
day extensions, respectively, to submit revised restructuring plans to the President’s Auto
Task Force. After the April Quarterly Report, both manufacturers were unable to obtain
the voluntary stakeholder concessions needed to implement restructuring plans that
would achieve long-term viability; each company thus filed for bankruptcy as a means
to bring those plans to fruition. A basic tutorial on the bankruptcy process is provided
below.
    For more information on the President’s Auto Task Force see Section 2: “TARP
Overview” in SIGTARP’s April Quarterly Report.


Alternatives Available to a Financially Troubled Business                                                 Insolvent: A company’s total liabilities
When a company’s total liabilities are greater than its assets, it is considered insolvent                (debts) are greater than its total
                                                                                                          assets.
and it has several options:


• pursuit of operational solutions such as merging with another company, refinancing
   business loans, or cutting costs
• dissolution of the company
• negotiations or some form of out-of-court arrangement with its creditors to pay off
   debts
• bankruptcy


Dissolution
Among the alternatives available to financially troubled businesses (i.e., businesses that
                                                                                                          Liquidation: The sale of a company’s
are or may become insolvent) is dissolution. Dissolution is the orderly liquidation of a
                                                                                                          assets in order to pay off outstanding
company’s operations under state law and involves the liquidation of the company’s
                                                                                                          debts with the remaining amount being
assets to pay, or partially pay, debts. Depending upon the nature of the business (e.g.,                  distributed to shareholders. Once this
partnership, limited partnership, limited liability company, corporation, etc.), dissolution              process is complete, the company
may not fully release the business from its liability for debts not paid in full.                         goes out of business.

                                                                                                          Creditor: A person or entity that is
Negotiations with Creditors
                                                                                                          owed money by another person or
If a business is in financial trouble but wishes to continue operations, it may first request             entity.
a meeting with creditors, the people or entities to whom it owes money, to try to come
to an agreement (i.e., workout) regarding on how the business can pay back or settle
outstanding debt. During these negotiations, the business discusses the reasons for the
failure and tries to convince the creditors that working out an agreement would benefit all
98            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     parties because creditors would receive more money through a workout than if the busi-
     Moratorium: An authorized period to             ness was forced to go into bankruptcy. A workout usually involves “an extension of time
     delay the payment of a debt obligation.         (a moratorium), a pro rata settlement (composition), or a combination of the two.”228 The
                                                     objective of a workout is similar to a formal reorganization bankruptcy proceeding in that
     Composition: A settlement reached be-
                                                     the company is attempting to resolve its obligations to creditors and continue in business;
     tween a debtor and a creditor prior to
     bankruptcy. The settlement discharges           however, it is generally much faster, less expensive, and more flexible than bankruptcy.
     the debt owed to the creditor for an
     amount less than the original amount            Bankruptcy
     owed.                                           If a business fails to reach an agreement with its creditors to restructure obligations in
                                                     order to achieve more manageable payment terms, it may have to file for bankruptcy re-
                                                     lief. The principal purpose of the United States Bankruptcy Code (the “Code”) is to grant a
                                                     “fresh start” to the “honest but unfortunate debtor.”229 In this context, a fresh start signifies
                                                     “a new opportunity in life and a clear field for future effort, unhampered by the pressure
                                                     and discouragement of preexisting debt.”230
     Discharge: A court action that releases             The discharge of debts in bankruptcy is a “permanent order prohibiting the creditors of
     a debtor from liability for certain types       the debtor from taking any form of collection action” against the discharged debts.231 It is
     of debts.
                                                     important to note that not all debts are discharged in a bankruptcy proceeding; but rather
                                                     each form of bankruptcy (discussed in detail below) identifies the various categories of
                                                     debts that are granted a discharge.
                                                         The Code is a series of Federal statutes codified under Title 11 of the United States
                                                     Code and is the “uniform federal law that governs all bankruptcy cases.”232 Within Title 11,
                                                     several subsections define the different types of bankruptcy proceedings (e.g., Chapter 7,
                                                     Chapter 9, Chapter 11, Chapter 12, etc.) available to individuals, businesses, and other
                                                     entities.

                                                     What Happens in Bankruptcy
                                                     Two common forms of bankruptcy available to businesses are liquidation and reorganization.


                                                     Liquidation
                                                     Chapter 7 of the Code relates to liquidation in bankruptcy, which is the most common
                                                     form of bankruptcy filed by businesses in the United States.233 According to a press
                                                     release from the U.S. Courts, Chapter 7 – Liquidation “is used only when the corporation
                                                     sees no hope of being able to operate successfully or to obtain the necessary creditor
                                                     agreement.”234
                                                         The process of liquidation refers to the sale of a company’s assets for the satisfac-
                                                     tion of creditors and the subsequent dissolution of the business. Under Chapter 7, a
                                                                                           QUARTERLY REPORT TO CONGRESS I JULY 21, 2009          99




bankruptcy trustee gathers and sells a bankrupt company’s nonexempt assets and uses
the proceeds of such assets to pay creditors in accordance with the priority of creditors               Trustee: A person who holds property
established by the Code. See the “Hierarchy of Claims, by Priority” discussion later in this            on behalf of a beneficiary.

section for information on priority payments.
                                                                                                        Nonexempt Assets: Property that
                                                                                                        belongs to a debtor which can be
Reorganization                                                                                          liquidated to satisfy creditor claims.
Reorganization in bankruptcy falls under Chapter 11 of the Code and is the second-most                  Examples include motor vehicles, real
common form of bankruptcy filed by businesses in the United States.235 Chapter 11 busi-                 estate, factories, etc.

ness reorganization “can be used as the means of working out an arrangement with credi-
tors where the debtor is allowed to continue in business …[or] can be used for a complete
reorganization of the corporation.”236
    Under Chapter 11, the company files a “plan of reorganization,” which is prepared in
cooperation with its creditors, and details the necessary steps the company must take in
order to emerge from bankruptcy as a viable entity. The plan of reorganization may call
for any number of actions the business and its advisors deem necessary for a successful
reorganization of the business, including, for example, the sale of non-essential business
units to third parties or the reworking of labor contracts.237 The “plan of reorganization”
must be reasonable in its attempt to restructure the business because it must obtain                    Creditors’ Committee: A group
approval from the creditors’ committee and the bankruptcy court. Since the plan of                      representing several entities that
                                                                                                        have claims against a business in a
reorganization generally includes concessions from all interested parties, showing favor
                                                                                                        bankruptcy proceeding.
to any particular group of creditors will likely cause the plan to be rejected by competing
creditors whose interests are impacted more severely by the bankruptcy. Further, as it
ordinarily occurs, if a creditor or class of creditors rejects a plan of reorganization, then
the bankruptcy court may confirm or approve the plan over such objection — but only
upon a demonstration that the creditor or creditor class would have fared no better had
the bankruptcy been processed under Chapter 7 – Liquidation.


Prepackaged Reorganization
A prepackaged bankruptcy is similar to a workout and refers to a proceeding in which
the business filing for protection has met with its creditors to negotiate their expected re-
coveries prior to the actual filing of a petition under the Code. The goal of a prepackaged
bankruptcy is to shorten the bankruptcy process to save fees a company would typically
pay to bankruptcy advisors. A prepackaged bankruptcy also minimizes the amount of time
spent in bankruptcy restructuring a business and, consequently, can return an operating
entity to its core business and generating revenue much sooner than if it had participated
in a standard reorganization.
100            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




 FIGURE 2.13

 BANKRUPTCY DECISION FLOW
                                                             Section 363 Sale

            CAN THE BUSINESS                                 It may become apparent that a company cannot reorganize and maintain its current owner-
           MEET ITS OBLIGATIONS
                                                             ship structure and therefore must pursue a sale of most, if not all, of its assets under
              TO CREDITORS?
                                                             Section 363 of the Code. In this scenario, the company does not emerge from bankruptcy
                YES        NO
                                                             but, instead, comes under new ownership — as in the cases of the Chrysler and GM
                                                             bankruptcies.
       Continue            Attempt Workout
       Operations           with Creditors                       Regardless of the nature of the reorganization, many companies face the same deci-
                                                             sions in the process leading up to declaring bankruptcy. These decisions are described in
                                Settlement                   Figure 2.13.
                                Reached?


                             YES                             Who Is Involved in Bankruptcy?
                                      NO
                                                             Creditors
                                 File for
                                Bankruptcy                   When a business enters into a bankruptcy proceeding, a variety of individuals or organiza-
                                                             tions may have claims — employees may be owed wages, banks may be owed loans,
                             Can Debts Be
                             Restructured?                   and other financial institutions may have unfulfilled contracts with the business. These
                                                             individuals or companies are all referred to as creditors because the business owes
                             YES        NO
                                                             them something. At the point of bankruptcy, the likelihood of any of these creditors being
                                                             repaid depends on whether the company has enough assets to repay its debts. The Code
                Chapter 11                   Chapter 7
               Reorganization                Liquidation     provides for circumstances in which a business does not have enough assets to satisfy all
                                                             of its debts by establishing a hierarchy of priority among creditors.
                  Plan of
               Reorganization                                    In some cases, the creditors and the business may have already negotiated terms
                 Approved?
                                       Sell Assets for the
                                                             of repayment and developed a restructuring or liquidation plan in advance of filing. Such
                        NO              Satisfaction of
                                            Creditors
                                                             arrangements can improve the speed and efficiency of a restructuring or even liquidation.
                YES                                          However, this is often not the case and, as experienced by Chrysler, certain creditors may
               New Company                   Dissolve
                 Emerges                     Company
                                                             take issue with the plan and try to block or stall the bankruptcy plan until they are satisfied
                                                             or until their objections have been overruled by the court.
                                                                 Claimants to the assets of a company are categorized as either secured creditors or
                                                             unsecured creditors. A secured creditor must present proof of its claim to the bankruptcy
      Secured Creditor: A creditor that holds
                                                             court for the claim to be honored. Secured claims are then paid directly from forfeiture of
      a special assurance of debt payment,
      through holding collateral or possess-                 the company’s collateral or proceeds from the sale of its collateral. If the collateral is insuf-
      ing a lien on the same.                                ficient to pay the claim in full, the balance becomes an unsecured claim and enters into the
                                                             queue of other unsecured creditors. As the name implies, unsecured creditors do not have
      Collateral: Tangible assets pledged
                                                             any tangible assets pledged against the debts owed to them by the business.
      against debts owed.
                                                                                                                     QUARTERLY REPORT TO CONGRESS I JULY 21, 2009   101




TABLE 2.30

PRIORITIES, PER THE U.S. BANKRUPTCY CODE
Priority Claim
First        Allowed unsecured claims:
             • Domestic support obligations (debts to spouse or children for court-ordered support)
             • Administrative expenses of the bankruptcy (lawyers, trustees, etc.)
             • “Gap” claims (unsecured, post-petition claims in an involuntary bankruptcy case arising
                 after initiation of case but before appointment of trustee, relating to ordinary business or
                 finances)
             • Wages, commissions (claims of employees/independent salespersons up to $10,000
                 per claim)
             • Employee benefit plans (contributions of up to $10,000 per employee)
             • Specific claims of farmers and fishermen against bankrupt storage or processing facilities
             • “Layaway” claims (individuals did not receive the goods/services for which they made
                 deposits)
             • Government taxes (recent income, sales, employment, or gross receipts taxes)
             • Regulatory obligations (to FDIC or equivalent to maintain capital of insured depository
                 institution)
             • Vehicle-related personal injury or death (if debtor used vehicle/vessel under the influence
                 of drugs/alcohol)
Second       Other claims, filed on time, that do not fall into “First,” “Third,” or “Fourth” category below
Third        Allowed unsecured tardy or late claims
             Allowed secured or unsecured claims for any fines, penalties, damages from before the
Fourth
             bankruptcy which are not compensation for actual pecuniary loss suffered by the claimant
Fifth        Interest accrued, at legal rate, from the date of the filing to payment of allowed claims
Sixth        To the debtor

Source: Mini Code Special Redlined Edition, United States Bankruptcy Code, 2006 Edition, Texas: AWHFY, L.P., 2005.

Hierarchy of Claims, by Priority
The term “priority” refers to the order in which unsecured claims in a bankruptcy case are
paid from the money available in the bankruptcy estate. Claims in the higher priority are
paid in full before claims in a lower priority receive anything. Once a company pays all of
its debts, any remaining assets are returned to its shareholders.
        Section 726 of the Code lists six classes of unsecured creditors in a bankruptcy, in
order of priority.238 Table 2.30 provides a summary outline of those classes. Note the first
grouping of claims is defined by Section 507 of the Code and is further broken down into
a sub-hierarchy.

Trustee
The role of the trustee varies greatly, based on the chapter under which a company files. A
Chapter 7 trustee is broadly responsible for managing the financial aspects of a bankrupt
business undergoing liquidation. The trustee can be an individual or a team of professionals
who, among other things:
• account for property received
• investigate the financial affairs of the debtor
102   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             • review proofs of claim
                                             • oppose the debtor’s discharge, if appropriate
                                             • furnish information to interested parties
                                             • report on the administration of the case


                                                 The trustee is paid out of the proceeds of the liquidation and is second in order among
                                             the first class of unsecured creditors.
                                                 A Chapter 11 trustee serves more in an administrative capacity, focusing more directly
                                             on the reporting requirements associated with the bankruptcy case and fee applications
                                             for compensation that are submitted by professionals and advisors rendering bankruptcy-
                                             related services to the company. The trustee receives a quarterly fee from the business as
                                             compensation.


                                             Bankruptcy Court
                                             Bankruptcies, both personal and corporate, are administered by U.S. Federal courts; bank-
                                             ruptcy cases cannot be filed in state court. The Federal court system is composed of 94
                                             districts, all of which handle bankruptcy matters, and substantially all of which have a court
                                             specifically designated for bankruptcy.239


                                             Example of Chapter 11 Bankruptcy Process
                                             This section provides a simplified step-by-step example of a Chapter 11 bankruptcy pro-
                                             cess for a hypothetical business, “Sample Company,” walking through the key steps from
                                             the initial realization that it cannot repay its creditors to the new company emerging from
                                             the process. A bankruptcy process can be lengthy, especially if the negotiation with credi-
                                             tors is difficult — all it takes is one creditor to delay the approval of a restructuring plan (or
                                             a pre-bankruptcy restructuring agreement). The process detailed below and illustrated in
                                             Figure 2.14 for Sample Company is a simplified version, focused on the key steps of the
                                             process.
                                             A. Sample Company is operating in a difficult market environment. Its revenues have
                                                shrunk, but its obligations have not. It discovers that it no longer can afford to pay its
                                                debts to its creditors without cutting back on its variable costs. It cancels all non-
                                                essential purchases, suspends dividend payments to its shareholders, but still this
                                                does not generate enough cash to pay its obligations. Sample Company begins to
                                                lay off employees to shrink its payroll and closes unprofitable plants to cut operating
                                                costs, but still cannot bring its expenditures in line with its new, lower revenues.
                                                                                                  QUARTERLY REPORT TO CONGRESS I JULY 21, 2009       103




FIGURE 2.14

BANKRUPTCY PROCESS

    A               B             C             D              E             F               G             H       I           J                 K
  A: Unable to pay creditors


            B: Attempts to negotiate out-of-court settlement


                   C: Company declares Chapter 11, receives “Automatic Stay”


                          D: Creditors’ Committee forms, Trustee reviews creditors’ claims


                                  E: Company develops restructuring plan


                                         F: Court reviews, approves restructuring plan


                                                 G: Company seeks, obtains “DIP” financing


                                                         H: Company executes restructuring plan


                                                                I: Company seeks, obtains exit financing


                                                                        J: Court approves exit from bankruptcy


                                                                                 K: “New” company emerges from bankruptcy




B. Sample Company owes a lot of money; it is saddled with expensive debts to creditors
   incurred when it borrowed heavily to grow a few years earlier. These creditors range
   from banks that provided loans, to bondholders whose bonds were issued at high rates
   because the company’s debt was not highly rated, to obligations for employees’ benefit
   plans (such as pensions). Seeing that it cannot continue to meet all these obligations,
   Sample Company seeks to renegotiate some or all of its debts to a more manageable
   level.
C. Some of Sample Company’s creditors agree to reduce the debt that they are owed,
   thinking that a voluntary restructuring is preferable to a court-administrated bankruptcy
   or liquidation where it is uncertain what they would receive for their claims. However,
   certain creditors are uncompromising, thinking that the company’s offers understate
   what they think the company can actually afford to repay them. They refuse the offer of
104           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                        a voluntary restructuring, which forces Sample Company to file a petition for Chapter
                                                        11 bankruptcy with the U.S. court in its district. With its filing, Sample Company
                                                        receives an “Automatic Stay” meaning that creditors are temporarily prohibited from
                                                        enforcing their claims outside of the bankruptcy forum.
                                                     D. With the filing of the bankruptcy petition, Sample Company becomes what is known as
      Debtor in Possession (“DIP”): A com-              the debtor in possession (“DIP”). DIPs retain possession of the operations and assets
      pany which is operating under Chapter
                                                        of the business until otherwise ordered by the court (which could be the case if the
      11 bankruptcy protection, which still
      technically owns its assets but is                court ultimately decides Chapter 7 – Liquidation is the best option and appoints a
      operating them to maximize the benefit            trustee to manage the company through that process). Sample Company also provides
      to its creditors.                                 to the court a range of documents certifying its assets and liabilities, income and ex-
                                                        penditures, contracts and unexpired leases, and a statement certifying its financial af-
                                                        fairs. Meanwhile, the U.S. Trustee, appointed by the court to monitor Sample Company
                                                        during its bankruptcy, works with creditors to assemble a Creditors’ Committee. The
                                                        Creditors’ Committee hires an attorney to advocate for the creditors’ claims with the
                                                        court. Any creditors whose claims are not listed on the schedules provided to the court
                                                        by Sample Company must provide a proof of claim to be included in the case.
                                                     E. As DIP, Sample Company assumes all of the fiduciary responsibilities of a trustee,
                                                        aside from the investigative role, and uses this authority to hire a team of lawyers,
                                                        accountants, consultants, appraisers, and auctioneers — whose compensation
                                                        represents unsecured claims with priority over all other unsecured claims except
                                                        “super-priorities” — to help it throughout the restructuring process. Sample Company
                                                        works with this team to develop a restructuring plan that both shrinks the company and
                                                        its debts. Ideally, Sample Company will emerge as a leaner, profitable company with
                                                        more manageable debts. The plan that Sample Company develops includes closing
                                                        down additional unprofitable plants, selling certain business lines, and converting some
                                                        of its debt holders into equity holders by exchanging their bonds or loans for shares
                                                        of stock, making them partial owners in the new company. In addition to selling just
                                                        portions of a business, a company’s restructuring plan can include an arrangement
                                                        whereby the entire business is sold to another company (a Section 363 sale). An
                                                        example of a Section 363 sale can be found in the recent restructuring of Chrysler,
                                                        where the operating business was sold to a new group of owners.
                                                     F. Once Sample Company has developed its restructuring plan, it must seek the consent
                                                        of its creditors to approve the plan. In order to receive that consent, Sample Company
                                                        files a disclosure providing creditors with information about its plan and Sample
                                                                                           QUARTERLY REPORT TO CONGRESS I JULY 21, 2009     105




   Company’s affairs so that they can make an informed decision about the proposed
   plan. The court then holds a hearing. In Sample Company’s case, the creditors approve
   its plan, which is confirmed in a court hearing as being feasible, in good faith, and com-
   pliant with the Code, allowing it to begin implementation of the restructuring process.
   Additionally, the confirmation of the plan effectively discharges Sample Company from
   its dischargeable pre-filing debts (i.e., debts not part of the bankruptcy claims), and
   replaces them with the agreed-upon obligations contained in the plan.240
G. Since Sample Company has taken on additional expenses such as lawyers and
   consultants, its plan provides for operating capital to help it complete the restructuring
   process. It obtains this financing, called “DIP financing,” from a bank which receives               DIP Financing: A credit line used
   court-appointed “super-priority” in claims — placing it above all other unsecured credi-             during Chapter 11 proceedings to
   tors in the priority list.                                                                           maintain the value of a company’s
                                                                                                        asset base.
H. After the confirmation of the restructuring plan, Sample Company operates as a func-
   tioning company; it is now obligated to begin making any payments it promised in the
   plan, and is bound by all commitments contained in the provisions of the plan (which
   supersede its pre-bankruptcy contracts). Sample Company’s restructuring process is
   relatively straightforward, and it achieves the key objectives rapidly. It sells several non-
   core units, and converts the debt to its bondholders to an equity stake as determined
   in the plan. Further, it converts some of the unpaid obligations to employees’ benefit
   plans into equity stakes. Throughout this process Sample Company reports regularly
   to the court and the Creditors’ Committee on the progress made since confirmation of
   the plan.
I. As Sample Company nears the completion of its restructuring and recapitalization
   process, it seeks exit financing — actually a key component of its restructuring plan. It
   negotiates an exit financing facility from a major lender, which it uses to pay off certain
   creditors’ claims and to fund its ongoing operations after bankruptcy. This exit financ-
   ing will enable the new company to emerge from bankruptcy in a strong, competitive
   state.
J. Once Sample Company completes its restructuring plan, it returns to court and applies
   for a “final decree” which certifies consummation of the plan. This enables the newly
   restructured, recapitalized Sample Company to emerge from bankruptcy.
K. The “new” Sample Company begins operating, and uses its new financial health to
   operate more competitively in its market.
106               SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                     Chrysler
                                                                     Chrysler filed for Chapter 11 bankruptcy on April 30, 2009, and the transaction
                                                                     in which substantially all of its assets were sold to the newly formed entity (“New
      New Chrysler: The entity that pur-                             Chrysler”) closed on June 10, 2009. Chrysler has received $16.7 billion in com-
      chased substantially all of Chrysler’s                         mitments from Treasury through AIFP, ASSP, and AWCP, $10.4 billion of which
      assets during bankruptcy.
                                                                     was provided through DIP or working capital funding after Chrysler’s bankruptcy
                                                                     filing.241 Figure 2.15 shows a timeline of Treasury’s investments in Chrysler as well
                                                                     as important milestones regarding Chrysler’s bankruptcy.




      FIGURE 2.15

      CHRYSLER TIMELINE


      JANUARY 2009                    FEBRUARY 2009                MARCH 2009                        APRIL 2009                   MAY 2009               JUNE 2009



        JANUARY 2                     FEBRUARY 17                                    MARCH 30                APRIL 9              MAY 1                       JUNE 10
        Treasury commits to         Chrysler submits                     Obama Administration                Treasury commits     Treasury provides           Substantially all of
        invest $4 billion in            restructuring                   lays out framework for               to invest $1.5       Chrysler with a             Chrysler’s assets are
        Chrysler.                     plan to Obama                       Chrysler to work with              billion in an SPV    $3 billion                  sold to New Chrysler
                                     Administration.                    Fiat to achieve viability.           for the Auto         DIP loan.                   pursuant to Section
                                                                                                             Supplier Support                                 363 of the
                                                                                                             Program.a                      MAY 20            Bankruptcy Code and
                                                                                                                                  Treasury amends             Treasury commits to
                                                                                                                     APRIL 29              initial DIP        fund an additional
                                                                                                       Treasury amends initial        investment in           $6.6 billion.
                                                                                                        investment in Chrysler           Chrysler by
                                                                                                             by committing an           investing an
                                                                                                      additional $500 million.b            additional
                                                                                                                                     $757 million.c
                                                                                                                     APRIL 29
                                                                                                       Treasury invests $280
                                                                                                      million in an SPV for the
                                                                                                                 Auto Warranty
                                                                                                      Commitment Program.

                                                                                                                    APRIL 30
                                                                                                             Chrysler files for
                                                                                                     bankruptcy under Section
                                                                                                        363 of the Bankruptcy
                                                                                                                         Code.



      Notes:
      a
        Commitment was decreased to $1 billion on 7/8/2009.
      b
        This $500 million commitment was never funded.
      c
        $1.9 billion of the total $3.8 billion DIP financing was never funded.

      Sources: Treasury, Transactions Report, 7/2/2009; Treasury, “Obama Administration Auto Restructuring Initiative: Chrysler-Fiat Alliance,” 4/30/2009,
      www.financialstability.gov, accessed 6/9/2009; Treasury, “Obama Administration New Path to Viability for GM & Chrysler,” 3/30/2009,
      www.financialstability.gov, accessed 6/9/2009; Treasury, responses to SIGTARP drafts, 7/9/2009 and 7/13/2009.
                                                                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 21, 2009                                  107




Chrysler-Fiat Alliance
                                                                                                                                                    Pro Forma: In finance, refers to the
On March 30, 2009, the President’s Auto Task Force determined that Chrysler’s
                                                                                                                                                    presentation of hypothetical financial
restructuring plan was not likely to lead to viability on a stand-alone basis as it was                                                             information assuming that certain
structured at the time. The Government stated that Chrysler could only achieve                                                                      assumptions will happen. For example,
viability by forming a partnership with Fiat.242 On April 30, 2009, Chrysler filed                                                                  Table 2.31 sets forth the ownership
for bankruptcy under Chapter 11 of the United States Bankruptcy Code. As noted                                                                      interests in New Chrysler based on the
above, New Chrysler emerged from bankruptcy on June 10, 2009, with a new                                                                            assumption that Fiat will meet its per-
ownership structure including Fiat. See Table 2.31 for a list of the actions taken by                                                               formance goals and obtain an addition-
each stakeholder and their respective equity stakes in New Chrysler.243                                                                             al 15% of equity from the other equity
                                                                                                                                                    holders. If the new equity stakes were
                                                                                                                                                    not reported pro forma, the equity
                                                                                                                                                    interest of the other equity participants
                                                                                                                                                    would be higher to account for Fiat’s
                                                                                                                                                    additional 15%.

TABLE 2.31

 CHRYSLER-FIAT ALLIANCE STAKEHOLDERS ACTIONS AND EQUITY STAKE
Stakeholders             Action                                                                                                  Equity Stakes with New Chrysler-Fiat Alliancea
                                                                                                                                 • 20% equity in New Chrysler
                         •    Contribute billions of dollars in technology and intellectual property
Fiat                                                                                                                             • 15% additional equity based on performance metricsb
                         •    Offer access to global distribution network
                                                                                                                                 • Selection of three directors
Secured Lenders •             Exchange $6.9 billion secured claim                                                                •   Receive $2 billion cash
                                                                                                                                 •   55% equity in New Chrysler, pro forma for Fiat
UAW (VEBA)               •    Make concessions on wages, benefits, and retiree health care                                           additional equity
                                                                                                                                 •   Selection of one director
                         • Waive repayment of $1.9 billion DIP financing provided during bankruptcyc
United States            • Provide $4.7 billion in working capitald                                  •                               8% equity in New Chrysler, pro forma
Treasury                 • Waive $3.5 billion of the $4 billion pre-bankruptcy loan, with the        •                               Selection of four directors
                           remaining $500 million carried over to the new financinge
Canadian                                                                                                                         •   2% equity in New Chrysler, pro forma
                         •    Lend money alongside the U.S. Treasury based on a 3:1 formula
Government                                                                                                                       •   Selection of one director
                         •    Waive its share of Chrysler’s $2 billion second-lien debt
Daimler                  •    Waive 19% equity in Chrysler’s parent                                                              •   None
                         •    Pay $600 million to Chrysler’s Pension Plan to settle PBGC obligation
                         •    Waive its share of Chrysler’s $2 billion second-lien debt
                         •    Forfeit its entire equity stake in Chrysler
Cerberus                 •    Transfer ownership of old Chrysler headquarters building to the New                                •   None
                              Chrysler-Fiat alliance
                         •    Contribute to a claim against Daimler to help settle with PBGC
PBGC                     •    Settle claim with Daimler                                                                          •   None

Notes: Numbers affected by rounding.
a
  The listed ownership percentages are based on the assumption that Fiat will achieve all three performance metrics.
b
  Fiat can earn this 15% equity by achieving certain performance metrics. It would receive 5% for meeting each of three performance goals: produce a vehicle at a Chrysler factory in the United States that
  performs at 40 mpg or better; provide Chrysler with a distribution network in numerous foreign jurisdictions; manufacture state-of-the-art, next generation engines at a U.S. Chrysler facility.
c
  $3.8 billion DIP financing was originally committed but $1.9 billion of that commitment was never funded.
d
  A total of $6.6 billion is committed; $2 billion is used to pay senior secured lenders.
e
  $4.5 billion was originally committed, but $500 million of that commitment was never funded.

Sources: Treasury, “Obama Administration Auto Restructuring Initiative: Chrysler-Fiat Alliance,” 4/30/2009, www.financialstability.gov/docs/AIFP/Chrysler-restructuring-factsheet_043009.pdf, accessed
6/9/2009; Treasury, responses to SIGTARP draft reports, 7/9/2009 and 7/13/2009.
108                SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                            TARP Support for Chrysler
                                                                            As shown in Table 2.26, Treasury is using a number of different TARP investment
                                                                            vehicles to support Chrysler. Treasury has stated that its intention is to maximize
                                                                            taxpayer return, while at the same time maximizing the likelihood of the New
                                                                            Chrysler succeeding.244 Prior to Chrysler’s bankruptcy, Treasury increased its initial
                                                                            $4.5 billion loan by $280.1 million, which was set aside for the Auto Warranty
                                                                            Commitment Program (“AWCP”) and which will be returned to Treasury. While
                                                                            Chrysler was in bankruptcy, Treasury committed to provide a loan of $3.8 billion
                                                                            in DIP financing. On June 10, 2009, Treasury committed $6.6 billion in new debt
                                                                            obligations. Treasury does not expect to receive repayment for its DIP investments
                                                                            but expects repayment of $6.6 billion in loans and has received an 8% pro forma
                                                                            equity share in New Chrysler.245 Treasury will also select four of the initial inde-
                                                                            pendent directors, but has claimed that it will play no other role in management
                                                                            or governance of the company.246 Treasury anticipates having quarterly meetings
                                                                            with Chrysler leadership that focus solely on financial reporting and key operating
                                                                            metrics.

                                                                            Financing
                                                                            Chrysler entered into an agreement with GMAC, pursuant to which GMAC agreed
                                                                            to provide certain dealer and retail financing. GMAC will have financing agree-
                                                                            ments with both Chrysler and GM post-bankruptcy. Treasury has provided GMAC
                                                                            with additional capital to support its anticipated growth in Chrysler dealer and
                                                                            retail loans.247

                                                                                                                        FIGURE 2.16

      TABLE 2.32                                                                                                         GM TIMELINE
       IMPACT OF THE CHRYSLER-FIAT ALLIANCE ON STAKEHOLDERS
      Stakeholders             Impact                                                                                   DECEMBER 2008                    FEBRUARY 2009
                               •    Chrysler’s insurers will continue to pay workers compensation
                                    claims.
      Employees
                               •    Pension plan and VEBA funding will be transferred to the pur-
                                    chaser.                                                                                        DECEMBER 29           FEBRUARY 17
                                                                                                                                        Treasury            GM submits
                               •    Chrysler will continue to pay suppliers.                                                      commits to loan          restructuring
      Suppliers
                               •    Auto Supplier Support Program will continue to operate.                                       GM $884 billion.       plan to Obama
                               •    Chrysler will continue to honor customer warranties.                                                                 Administration.
                               •    Chrysler will continue to honor dealer incentives for those
      Dealers                                                                                                                        DECEMBER 31
                                    dealers that will remain operational.                                                           Treasury invests
                               •    Chrysler has identified certain dealers to terminate.                                         $13.4 billion in GM.
                               •    Modified labor agreement between UAW and Chrysler will be
      UAW                                                                                                                 Note:
                                    operative.                                                                            a
                                                                                                                            Commitment was decreased to $2.5 billion on 7/8/2009.
      Creditors                •    Majority of senior secured lenders support the transactions.
                                                                                                                          Sources: Treasury, Transactions Report, 7/2/2009; Treasury,
                                                                                                                          “Obama Administration Auto Restructuring Initiative: General
      Source: Treasury, “Obama Administration Auto Restructuring Initiative: Chrysler-Fiat Alliance,” 4/30/2009, www.
      financialstability.gov/docs/AIFP/Chrysler-restructuring-factsheet_043009.pdf, accessed 6/9/2009.
                                                                                                                          Motors Restructuring,” 6/1/2009, www.financialstability.gov,
                                                                                                                          accessed 6/9/2009; Treasury, “Obama Administration New
                                                                                                                          Path to Viability for GM & Chrysler,” 3/30/2009,
                                                                                                                          www.financialstability.gov, accessed 6/9/2009; Treasury,
                                                                                                                          responses to SIGTARP draft, 7/9/2009 and 7/13/2009.
                                                                                                                   QUARTERLY REPORT TO CONGRESS I JULY 21, 2009           109




 Execution of the Chrysler-Fiat Alliance
 Chrysler entered bankruptcy on April 30, 2009, and substantially all of its assets
 were sold to New Chrysler on June 10, 2009, with a new alliance with Fiat.248 The                                              New GM: The entity that purchased
 impact of the alliance on the specific stakeholders is listed in Table 2.32.                                                   substantially all of GM’s assets during
                                                                                                                                bankruptcy.
 General Motors
 General Motors (“GM”) filed for Chapter 11 bankruptcy on June 1, 2009, and the
 transaction in which substantially all of its assets were sold to the newly formed
 entity (“New GM”) closed on July 10, 2009. Treasury has committed $53.4 billion
 to GM, of which $30.1 billion is DIP financing.249 Figure 2.16 shows a timeline
 of Treasury’s investments in GM as well as important milestones regarding GM’s
 bankruptcy.

 Restructured General Motors
 In accordance with the March 31, 2009, deadline, the Obama Administration
 determined that GM’s restructuring plan was not likely to lead to viability on a
 stand-alone basis. The Government laid out the framework for GM to achieve vi-
 ability through a substantially more aggressive restructuring plan.250 On June 1, 2009,
 GM filed for bankruptcy under Chapter 11 of the United States Bankruptcy Code.
 Under its reorganization plan, New GM will purchase from GM the assets needed
 to implement the plan for viability. In exchange for this purchase, Treasury will
 waive the majority of its loans to GM and obtain a controlling equity stake in the
 new company. See Table 2.33 for a list of the actions taken by each stakeholder and
 their respective role with New GM.251




MARCH 2009                    APRIL 2009                    MAY 2009                        JUNE 2009                   JULY 2009



               MARCH 30                 APRIL 9                         MAY 20                JUNE 3                            JULY 10
    Obama Administration                Treasury            Treasury amends                   Treasury commits to a             Substantially all of
   lays out framework for               commits to invest earlier investment in               $30.1 billion DIP loan.           GM’s assets are sold
    GM to restructure and               $3.5 billion in an GM by investing an                                                   to New GM pursuant
         achieve viability.             SPV for the Auto additional $4 billion.                                                 to Section 363 of
                                        Supplier Support                                                                        the Bankruptcy
                                        Program.a                               MAY 27      JUNE 1                              Code.
                                                                Treasury places $361        GM files for bankruptcy
                                                                   million in an SPV for    under Section 363 of the
                                          APRIL 22                   the Auto Warranty      Bankruptcy Code.
                                Treasury amends                Commitment Program.
                              earlier investment in
                               GM by investing an                                 MAY 29
                              additional $2 billion.             Treasury exchanges its
                                                                $884 million loan to GM
                                                                    for a portion of GM’s
                                                                equity interest in GMAC.
110   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             TARP Support for GM
                                             As shown in Table 2.26, Treasury has made a number of investments in GM. In
                                             December 2008, Treasury made two initial investments in GM: one that provided
                                             $884 million and one that committed to provide GM an additional $13.4 billion in
                                             financing. Treasury made three amendments to the $13.4 billion loan bringing the
                                             total of that loan, as of May 27, 2009, to $19.8 billion, which includes $361 mil-
                                             lion used to capitalize an SPV for the Auto Warranty Commitment Program.252
                                                 On May 29, 2009, Treasury exchanged its $884 million loan in GM for a por-
                                             tion of GM’s common equity in GMAC. This transaction raised Treasury’s owner-
                                             ship of GMAC’s common equity to 35.4%.253
                                                 GM filed for bankruptcy on June 1, 2009. On June 3, 2009, Treasury commit-
                                             ted to loan GM $30.1 billion, under the terms of the DIP financing agreement.254
                                                 According to Treasury, the Government is taking steps to limit its involvement
                                             in the day-to-day management of GM. The Obama Administration has published
                                             four core principles to guide the Government’s management of ownership interests




                                             TABLE 2.33

                                             NEW GM STAKEHOLDERS ACTIONS AND ROLES
                                             Stakeholders               Restructuring Actions                          Role with New GM
                                                                                                                       •    17.5% equity share of New GM
                                                                        •    Make concessions on
                                                                                                                       •    Warrants to purchase an additional 2.5%
                                             UAW (VEBA)                      compensation and retiree
                                                                                                                            share of New GM
                                                                             health care
                                                                                                                       •    Select one initial director
                                                                                                                       •    10% equity share of New GM
                                                                        •    Give up $27.1 billion of
                                             Bondholders                                                               •    Warrants to purchase an additional 15%
                                                                             unsecured debt
                                                                                                                            share of New GM
                                             GM Pension Plans           •    None                                      •    Transferred to New GM
                                                                        •    Provide $30.1 billion in DIP
                                                                                                                       •    $7.1 billion in debt assumed by New GM
                                                                             financing to support GM
                                             United States                                                             •    $2.1 billion of preferred stock in New GM
                                                                             through bankruptcy
                                             Treasury                                                                  •    61% equity share of New GM
                                                                        •    Contribute the $19.4 billion
                                                                                                                       •    Select 10 initial directors
                                                                             pre-bankruptcy loan
                                                                                                                       •    $1.7 billion in debt and preferred stock in
                                             Governments of
                                                                                                                            New GM
                                             Canada and                 •    Lend $9.5 billion
                                                                                                                       •    12% equity share of the New GM
                                             Ontario
                                                                                                                       •    Select one initial director

                                             Notes: Numbers affected by rounding. Treasury did not publish pro forma data on equity ownership.

                                             Sources: Treasury, “Obama Administration Auto Restructuring Initiative: General Motors Restructuring,” 6/1/2009, www.financialstabil-
                                             ity.gov/latest/05312009_gm-factsheet.html, accessed 6/10/2009; Treasury, responses to SIGTARP draft reports, 7/9/2009 and
                                             7/13/2009.
                                                                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 21, 2009   111




in private firms such as GM. According to Treasury, the Government will attempt
to do the following:255

• seek to dispose of its ownership interest as soon as practicable
• reserve the right to set upfront conditions to protect taxpayers, promote finan-
  cial stability, and encourage growth
• protect the taxpayers’ investment by managing its ownership stake in a hands-
  off, commercial manner
• vote on core governance issues, including the selection of a company’s board of
  directors and major corporate events or transactions

     OFS has not publicly released the details of its exit strategy for GM.

Execution of the GM Restructuring
GM entered bankruptcy on June 1, 2009. The impact of the restructuring on the
specific stakeholders is described in Table 2.34.




TABLE 2.34

 EXECUTION IMPACT OF THE GENERAL MOTORS RESTRUCTURING ON
 STAKEHOLDERS
Stakeholders                      Impact
Employees                         •    Pension Plan and VEBA funding will be transferred to New GM
                                  •    GM will continue to pay suppliers
Suppliers
                                  •    Auto Supplier Support Program will continue to operate
                                  •    GM will continue to honor customer warranties
                                  •    GM will attempt to honor dealer incentives for those dealers that will
Dealers
                                       remain operational
                                  •    GM will identify certain dealers to terminate
UAW                               •    Modified labor agreement between UAW and GM will be operative

Source: Treasury, “Obama Administration Auto Restructuring Initiative: General Motors Restructuring,” 6/1/2009, www.financialstability.
gov/latest/05312009_gm-factsheet.html, accessed 6/10/2009.
112   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             GMAC
                                             The majority of automobile purchases in the United States are financed, including
                                             an estimated 80% – 90% of consumer purchases and substantially all dealer inven-
                                             tory purchases.256 In fall 2008, credit began to tighten and it became increasingly
                                             difficult for both dealers and customers to obtain credit for automobile purchases.
                                             It has been estimated that 2 million to 2.5 million vehicle sales were lost because
                                             either dealers or customers could not obtain credit.257 Treasury has stated that it
                                             believes its investment in GMAC will help provide a reliable source of financing
                                             to both auto dealers and customers seeking to buy cars, and that a recapitalized
                                             GMAC will offer strong credit opportunities, help stabilize the auto financing mar-
                                             ket, and contribute to the overall economic recovery.258 Under AIFP, Treasury has
                                             invested $13.4 billion in GMAC.259
                                                 GMAC has entered a master financing agreement with Chrysler to provide
                                             certain dealer and retail financing.260

                                             Status of Funding
                                             On December 29, 2008, Treasury invested $5 billion in GMAC. At the time of this
                                             investment, GMAC reorganized into a bank holding company and thus became
                                             eligible to receive TARP funds and participate in other Government support
                                             programs.261 On May 21, 2009, Treasury purchased an additional $7.5 billion of
                                             mandatorily convertible preferred equity in GMAC.262 Of this $7.5 billion invest-
                                             ment, $4 billion will support GMAC’s anticipated growth in Chrysler dealer and
                                             retail loans.263 The additional $3.5 billion will help GMAC address its capital needs
                                             as identified through the SCAP stress test completed with the Federal Reserve.264
                                                 At the time of the initial Treasury investment, the Federal Reserve required
                                             GMAC to raise $2 billion of new equity. GMAC raised $1.1 billion through private
                                             investments, and Treasury loaned GM the remaining $884 million to purchase
                                             GMAC equity.265 On May 29, 2009, Treasury exchanged this $884 million loan to
                                             GM for a portion of GM’s common equity interests in GMAC. As a result of that
                                             exchange, Treasury now holds 35.4% of GMAC’s common shares.266 Treasury’s
                                             mandatorily convertible preferred shares may be converted to common shares at
                                             GMAC’s option with the approval of the Federal Reserve, though any conversion by
                                             GMAC must not result in Treasury owning in excess of 49% of GMAC’s common
                                             shares except under the following circumstances:267

                                             • with the prior written consent of Treasury
                                             • pursuant to GMAC’s capital plan, as agreed upon by the Federal Reserve
                                             • pursuant to an order of the Federal Reserve compelling such a conversion
                                                                                  QUARTERLY REPORT TO CONGRESS I JULY 21, 2009         113




Supervisory Capital Assessment Program (“SCAP”)                                                  For more information on the
As detailed in the “Capital Assessment Program” discussion earlier in this section,              Supervisory Capital Assessment
U.S. bank supervisors recently created SCAP to determine if BHCs have a suf-                     Program, see “Financial Institution
ficient capital buffer to operate in worse-than-expected future economic condi-                  Support Programs” earlier in this
tions.268 As a result of the stress test, GMAC is required to raise a SCAP buffer of             section.

$11.5 billion. As noted previously, $3.5 billion of Treasury’s recent investment will
be applied to meet this capital shortfall.269

Chrysler Financial
In January 2009, Treasury loaned $1.5 billion to a bankruptcy-remote SPV to sup-
port Chrysler Financial retail loan originations. Treasury’s loan forms the senior
portion of the capital structure of the SPV, with Chrysler Financial providing the
junior capital. Treasury’s loan is collateralized by retail auto loans with stronger
credit characteristics (higher credit scores, lower loan-to-value, shorter maturity)
than Chrysler Financial’s broader retail loan portfolio.270
    Chrysler Financial has essentially ceased ordinary operations and is winding
down its business.271 Due to the nature of the collateral, Treasury expects to recover
fully the $1.5 billion loan to Chrysler Financial.
114            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      HOMEOWNER SUPPORT PROGRAMS
                                                      Making Home Affordable Program
                                                      The Making Home Affordable (“MHA”) program was introduced by the
                                                      Administration on February 18, 2009, and was intended to assist homeowners who
      Servicer: Administrative party that col-        are facing foreclosure or struggling to make their monthly mortgage payments.
      lects payments and generates reports            Two weeks later, on March 4, 2009, Treasury released detailed program guidelines,
      regarding mortgage payments.                    which allowed mortgage servicers to begin to refinance and issue modifications.272
                                                      MHA comprises three major initiatives: a loan modification program, a loan refi-
      Private-Label Mortgages: Loans that             nancing program, and additional support to lower mortgage interest rates. Only the
      are not owned or guaranteed by Fannie           loan modification program, known as the Home Affordable Modification Program
      Mae, Freddie Mac, or another Federal
                                                      (“HAMP”) currently involves TARP funds.273
      agency.
                                                          According to Treasury, HAMP is a $75 billion program that will lower monthly
                                                      mortgage payments for homeowners facing foreclosure by providing loan modifica-
      Government-Sponsored Enterprises
                                                      tions and incentive payments for the loan servicers, loan holders, and homeowners.
      (“GSEs”): Private corporations created
      by the Government to reduce borrow-             Under HAMP, $50 billion from TARP will be used to modify private-label mortgag-
      ing costs. They are chartered by the            es. An additional $25 billion, funded under the Housing and Economic Recovery
      U.S. Government but are not consid-             Act of 2008 (“HERA”), will be used to modify mortgages that are owned or guar-
      ered to be direct obligations.                  anteed before January 1, 2009, by Government-sponsored enterprises (“GSEs”),
                                                      particularly Fannie Mae and Freddie Mac.274
                                                          HAMP has several key components:275

      For more information regarding HAMP             • The lender will reduce monthly payments so that the borrower’s monthly mort-
      eligibility, modifications, and incen-            gage is no greater than 38% of the borrower’s monthly income.
      tive payments, see SIGTARP’s April              • Treasury and the lender will split the cost of reducing the monthly payments
      Quarterly Report, Section 2: “TARP                from 38% to 31% of the borrower’s monthly income.
      Overview.”
                                                      • The borrower will enter a 90-day trial period of reduced payments before enter-
                                                        ing program; if successful (i.e., borrower makes payments), the borrower will
                                                        maintain new, lower mortgage payments for five years.
                                                      • Treasury will make incentive payments to servicers, lenders/investors, and (to
                                                        servicers) on behalf of borrowers.

                                                      Status of Funds
                                                      As of June 30, 2009, Treasury had signed agreements with loan servicers allocating
                                                      up to $18 billion under HAMP.276
                                                         Countrywide Home Loans Servicing, LLP, will receive up to $5.2 billion —
                                                      the largest allocation under the program. The average allocation to each servicer
                                                                                                                         QUARTERLY REPORT TO CONGRESS I JULY 21, 2009   115




through HAMP is $781.8 million. These funds can be used to modify both first
and second lien mortgages.277 Table 2.35 provides a detailed list of allocations made
under the HAMP program as of June 30, 2009.

TABLE 2.35

HOME AFFORDABLE MODIFICATION PROGRAM FUNDING
                                                                                                                   Adjusted
Date of                                                                                                           Cap as of
Initial                                                                                                         6/30/2009
Transaction Institution                                          Ultimate Parent Company                             ($ Millions)

4/13/2009        Select Portfolio Servicing                      Credit Suisse Group AG                              $660.59
4/13/2009        CitiMortgage, Inc.                              Citigroup, Inc.                                    1,079.42
4/13/2009        Wells Fargo Bank, NA                            Wells Fargo & Company                              2,410.01
4/13/2009        GMAC Mortgage, Inc.                             GMAC                                               1,017.65
4/13/2009        Saxon Mortgage Services, Inc.                   Morgan Stanley                                        632.04
4/13/2009        Chase Home Finance, LLC                         JPMorgan Chase & Co.                                 3,552.0
4/16/2009        Ocwen Financial Corporation, Inc.               N/A                                                   553.38
4/17/2009        Bank of America, N.A.                           Bank of America Corporation                           804.44
                 Countrywide Home Loans
4/17/2009        Servicing, LP                                   Bank of America Corporation                        5,182.84
4/20/2009        Home Loan Services, Inc.                        Bank of America Corporation                           447.30
4/20/2009        Wilshire Credit Corporation                     Bank of America Corporation                           453.13
4/24/2009        Green Tree Servicing, LLC                       N/A                                                     91.01
4/27/2009        Carrington Mortgage Services, LLC               N/A                                                   131.02
5/1/2009         Aurora Loan Services, LLC                       Lehman Brothers Holding, Inc.                         459.55
5/28/2009        Nationstar Mortgage LLC                         N/A                                                   117.14
6/12/2009        Residential Credit Solutions                    Residential Credit Holdings, LLC                        19.40
6/17/2009        CCO Mortgage                                    The Royal Bank of Scotland, PLC                         16.52
6/17/2009        RG Mortgage Corporation                         R&G Financial Corporation                               57.00
6/19/2009        First Federal Savings and Loan                  N/A                                                      0.77
6/19/2009        Wescom Central Credit Union                     N/A                                                      0.54
                 Citizens First Wholesale Mortgage
6/26/2009        Company                                         N/A                                                      0.03
6/26/2009        Technology Credit Union                         N/A                                                      0.07
6/26/2009        National City Bank                              PNC Financial Services Group, Inc.                    294.98
Total                                                                                                           $17,980.83

Notes: Numbers may be affected by rounding. Data as of 6/30/2009.

Sources: Treasury, Transactions Report, 7/2/2009; Factiva website, http://fce.factiva.com/pcs/default.aspx, accessed 6/24/2009;
“CMS, Loan Servicing,” https://myloan.carringtonms.com, accessed 6/24/2009; “Nationstar Mortgage, About Us,” https://www.
nationstarmtg.com, accessed 6/24/2009; “RCS, Corporate Information,” https://www.residentialcredit.com, accessed 6/24/2009;
“About CCO Mortgage,” https://www.ccomortgage.com, accessed 6/24/2009; “First Federal, About Us,” http://www.ourfirstfed.com,
accessed 6/24/2009; GMAC Investor FAQ, www.gmacfs.com, accessed 6/24/2009.
116            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      Second Lien Program
                                                      On April 28, 2009, Treasury released guidelines regarding the Second Lien
                                                      Program within HAMP. A significant portion of delinquent borrowers carry both
                                                      senior- and second-lien debt and therefore may need assistance with both loans to
                                                      remain in their homes. In other cases, homeowners may be able to pay their first
                                                      mortgage, but the second mortgage increases the monthly payments to a level that
                                                      is no longer affordable. According to Treasury, the Second Lien Program was de-
                                                      signed to create substantially affordable mortgage payments for homeowners who
                                                      qualify for a first-mortgage modification but still struggle to make their monthly
      Second-Lien Debt: Debt that is ranked           payments because of a second mortgage. According to Treasury, the Second Lien
      lower than senior debt in the event of a
                                                      Program could potentially reduce payments for 1 million–1.5 million homeowners,
      liquidation or bankruptcy restructuring.
                                                      which could account for up to half of all HAMP participants.278
                                                          Second-lien debt is subordinate to a senior claim. Both claims use the same
      Loan-to-Value (“LTV”) Ratio: In real
                                                      asset as collateral. For example, in addition to a mortgage on a home, borrowers
      estate lending, the outstanding
      principal amount of the loan divided            may take out a second mortgage or a home-equity loan to pay for higher education.
      by the appraised value of the property          Homeowners can use their house as collateral for both loans. The home mortgage
      underlying the loan.                            is considered to be senior to the second loan. In the event of a first-lien foreclosure,
                                                      personal bankruptcy, or liquidation, the second-lien investor only gets paid after the
      Back-End Debt-to-Income (“DTI”) Ratio:          initial mortgage holder has been paid in full.279
      Indicates the percentage of an income
      that is used to pay debts.                      Reducing Second Mortgage Payments
                                                      To reduce the number of foreclosures initiated by second-lien holders, Treasury
      Back-End DTI Ratio = Total Monthly              will make an offer to the second mortgage holder that Treasury will share in both
      Debt Expense / Gross Monthly Income
                                                      the write-down of the mortgage and the refinancing of the loan. Treasury will also
                                                      deliver “Pay for Success” incentive payments to servicers, lenders/investors, and
      Unpaid Principal Balance (“UPB”):
                                                      (to servicers) on behalf of borrowers. Since the bank holding the second mortgage
      Amount of a loan that is unpaid. This
      does not include additional charges,
                                                      may not receive any money if the borrower defaults on the loan, it is incentivized to
      such as interest.                               work with the Government to refinance the second mortgage and recoup at least
                                                      part of its investment.280
                                                          Lenders may decide that rather than modify a loan, they would like to termi-
      For more information regarding Loan-            nate the loan in exchange for a one-time payment from the borrower. This is called
      to-Value ratios and Debt-to-Income              extinguishing a loan. The one-time payment is determined through a set payment
      ratios, see SIGTARP’s April Quarterly           schedule based on four factors: the loan-to-value (“LTV”) ratio, the back-end debt-
      Report, Section 2: “TARP Overview.”             to-income (“DTI”) ratio, the unpaid principal balance (“UPB”), and the duration of
                                                      the delinquency (the length of time the loan has been overdue).281
                                                                               QUARTERLY REPORT TO CONGRESS I JULY 21, 2009   117




Second Lien Guidelines
According to Treasury, prior to the MHA program, mortgage servicers often re-
frained from completing loan modifications due to a lack of common standards. In
addition to the guidelines in the original modification program, on April 28, 2009,
Treasury issued guidelines on second-lien modifications. These guidelines include
the following:282

• The second lien is automatically modified when a first lien is modified.
• The second-lien modification may not delay first-lien modification.
• Borrower, servicer, and lender incentives have been aligned to complete modifi-
  cations at an affordable and sustainable level.
• Payments are designed under the principle of “pay for success,” which aligns
  incentives to reduce payments in a way that is most cost-effective for taxpayers.
118               SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                        EXECUTIVE COMPENSATION
                                                                        As discussed in SIGTARP’s previous reports, the executive compensation restric-
                                                                        tions set forth in EESA have been changed over time by regulations, amendments,
                                                                        and notices. On February 17, 2009, Section 111 of EESA was amended by Section
                                                                        7001 of the American Recovery and Reinvestment Act of 2009 (“ARRA”), which
                                                                        further required that Treasury promulgate regulations to implement ARRA amend-
                                                                        ments.283 On June 10, 2009, Treasury released its Interim Final Rule on TARP
                                                                        Standards for Compensation and Corporate Governance (the “Rule”), which imple-
                                                                        ments EESA as amended by ARRA. The Rule is an “Interim Final Rule” — mean-
                                                                        ing it took effect upon its publication in the Federal Register on June 15, 2009, but
                                                                        there is a 60-day public comment period after which it may be changed. The Rule
                                                                        “implement[s] ARRA provisions, consolidates all of the executive-compensation-
                                                                        related provisions that are specifically directed at TARP recipients into a single rule
                                                                        (superseding all prior rules and guidance), and utilizes the discretion granted to the
                                                                        [Treasury] Secretary under ARRA to adopt additional standards, some of which are
                                                                        adapted from principles set forth” in guidance previously provided by Treasury in
                                                                        February 2009.284 Figure 2.17 describes the changes in executive compensation re-
                                                                        strictions set forth by Congress and included in Treasury regulations over time. For
                                                                        more information on the guidelines in the figure, see Section 2: “TARP Overview”
                                                                        in SIGTARP’s April Quarterly Report.

      FIGURE 2.17

      EXECUTIVE COMPENSATION RESTRICTIONS TIMELINE


         OCTOBER 2008                                        JANUARY 2009                     FEBRUARY 2009                                 JUNE 2009



           OCTOBER 3                                       JANUARY 16                            FEBRUARY 4                                          JUNE 10
           EESA                                    NOTICE 2008-PSSFI                             ADMINISTRATION                                      INTERIM FINAL RULE “TARP
           EESA is enacted to include         Mandated a more stringent                          ANNOUNCEMENT ON                                     STANDARDS FOR
           executive compensation                 rule regarding golden                          EXECUTIVE COMPENSATION                              COMPENSATION AND
           restrictions for any                             parachutes.                          New guidance on executive                           CORPORATE GOVERNANCE”
           institution that was to sell                                                          compensation separating                             Implements executive
           troubled assets to the                                                                companies receiving TARP                            compensation standards
           Government under TARP.                                                                funding into two categories:                        under EESA, as amended by
                                                                                                 Exceptional Assistance and                          ARRA. Consolidates and
                       OCTOBER 14                                                                Generally Available Programs.                       supersedes all prior
                       TREASURY REGULATION                                                                                                           executive compensation
                       31 CFR PART 30                                                                            FEBRUARY 17                         rules and guidance.
                       Implemented Section 111                                                                   AMERICAN RECOVERY AND
                       of EESA to institutions                                                                   REINVESTMENT ACT,
                       that received financial                                                                   (“ARRA”) SECTION 7001
                       assistance from                                                                           Section 7001 of ARRA is
                       Treasury.                                                                                 enacted, amending and replacing
                                                                                                                 Section 111 of EESA.


      Sources: EESA, P.L. 110-343, 10/3/2008; Treasury, “Treasury Regulation 31 CFR Part 30,” 10/14/2008; Treasury, “Notice 2008 – PSSFI,” 1/16/2009, www.treas.gov, accessed
      1/19/2009; Treasury, “Treasury Announces New Restrictions on Executive Compensation,” 2/4/2009, www.treas.gov, accessed 3/20/2009; ARRA, P.L 111-5, 2/17/2009;
      Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.financialstability.gov, accessed 6/10/2009.
                                                                                                                         QUARTERLY REPORT TO CONGRESS I JULY 21, 2009   119




    The Rule applies to all TARP recipients, defined in the Rule to include “any
entity that has received or holds a commitment to receive financial assistance” pro-
vided under TARP or any entity that owns 50% or more, or is 50% or more owned
by such an entity.285 In general, the executive compensation restrictions in the
Rule apply only so long as the TARP recipient has an “obligation” to Treasury; an
“obligation” does not include Treasury holding warrants to purchase common stock
of the TARP recipient.286
    In general, the Rule defines financial assistance as “any funds or fund com-
mitment provided through the purchase of troubled assets” by Treasury through
a direct financial transaction between Treasury and the TARP participant.287 For
example, CPP participants that directly sell preferred stock to Treasury generally
have received financial assistance under the Rule. However, those institutions that
post collateral to and receive loans from TALF are considered to have not “received
financial assistance provided under TARP” and therefore are not subject to the
Rule.288 Table 2.36 shows a breakdown of how the compensation and governance
standards set forth in the Rule apply to all TARP programs.

TABLE 2.36

INTERIM RULE EXECUTIVE COMPENSATION RESTRICTIONS AS THEY APPLY TO
TARP PROGRAMS
TARP
Program         Applicable       Notes
                                 All participating institutions are subject to the executive compensation
CPP                     X
                                 restrictions.
                                 All participating institutions are subject to the executive compensation
CAP                     X
                                 restrictions.
SSFI                    X        Restrictions apply to AIG.
TIP                     X        Restrictions apply to Citigroup and Bank of America.
AGP                     X        Restrictions apply to Citigroup.
AIFP                    X        Restrictions apply to GM, GMAC, Chrysler, Chrysler Financial.
                                 Executive compensation restrictions apply only to auto companies, not the
ASSP                    X
                                 suppliers.
                                 Executive compensation restrictions apply only to auto companies, not
AWCP                    X
                                 automobile purchasers.
TALF                             Program is not applicable to TALF participants.
                                 Would apply only if there was a majority owner of the Public-Private Invest-
                                 ment Fund (“PPIF”). Since PPIF will be structured so that no entity can invest
PPIP                             in more than 9.9% of the fund, executive compensation restrictions will
                                 not apply. According to OFS, the luxury expenditure policy will apply to the
                                 recipient.a
MHA                              Program is exempted by statute.b
UCSB                    X        Restrictions apply only to the institution selling the eligible assets to Treasury.

Notes:
a Treasury, response to SIGTARP draft report, 7/9/2009.
b The Making Home Affordable program is exempted by statute from the executive compensation and corporate governance standards

  set forth in the ARRA amendments. See Section 7002 of the American Recovery and Reinvestment Act of 2009, P.L. 111-5,
  2/13/2009.

Source: Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.financialstability.gov, accessed
6/10/2009.
120             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                       Compensation Limits
                                                       The Rule establishes certain compensation requirements by which all TARP recipi-
      Senior Executive Officers (“SEOs”): A            ents must abide. The number of employees to whom the requirements apply varies;
      “named executive officer” of a TARP              in general, however, the compensation limitations in the Rule apply to the TARP
      recipient as defined under Federal               recipient’s senior executive officers (SEOs) and most highly compensated employ-
      securities law, which generally includes         ees, determined by reference to annual compensation. The Rule defines annual
      the principal executive officer (“PEO”),         compensation as the dollar value for total compensation as determined pursuant to
      principal financial officer (“PFO”), and
                                                       applicable Federal securities laws.289
      the next three most highly compen-
                                                           Different types of compensation are addressed differently in the Rule. For
      sated employees.
                                                       example, the number of employees for whom bonus payments are limited is based
                                                       upon the amount of TARP funding received by the institution.290 The Rule did not
      Most Highly Compensated Employee:
      The employee of a TARP recipient                 include the annual compensation limit of $500,000 that had been set forth in the
      whose total annual compensation is               February 2009 Administration guidance.291 Table 2.37 shows how bonus payments
      determined to be the highest among all           are applied to each TARP recipient based on funding levels. The specific compen-
      employees, where “annual compensa-               sation requirements set forth in the Rule, and how each requirement applies to
      tion” includes the dollar value for total        TARP recipients, are detailed in Table 2.38.
      compensation as determined pursuant
      to Federal securities laws reduced by
      the amount required by the employee’s
      defined benefit and pension plans.
                                                       TABLE 2.37

                                                       EMPLOYEES SUBJECT TO BONUS LIMITATIONS, BY AMOUNT OF TARP FUNDING
                                                       Amount of TARP Funding                                  Applicable Employees
                                                       < $25,000,000                                           most highly compensated employee
                                                       >$25,000,000 < $250,000,000                             at least the 5 most highly compensated employees
                                                       >$250,000,000 < $500,000,000                            SEOs and 10 next most highly compensated employees
                                                       >$500,000,000                                           SEOs and 20 next most highly compensated employees

                                                       Note: The ARRA amendments provide that, with respect to financial institutions that have received greater than $25,000,000 in TARP
                                                       assistance, the Secretary may apply the bonus limitations to a higher number of employees as the Secretary may determine is in the
                                                       public interest.

                                                       Source: Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.financialstability.gov, accessed
                                                       6/10/2009.
                                                                                                                        QUARTERLY REPORT TO CONGRESS I JULY 21, 2009                   121




TABLE 2.38

COMPENSATION LIMIT REQUIREMENTS
Requirement             Definition                                             How Requirement Is Applied                                  To Whom the Requirement Applies
Bonus Payments          Bonus, retention award, or incentive                   Bonus payments are prohibited — except                      Employees identified in Table 2.37 (based
                        compensation                                           for payments made in the form of restricted                 on the level of TARP assistance)
                                                                               stock (which cannot have a value greater than
                                                                               1/3 of the employee’s total compensation
                                                                               and must be forfeitable if the employee does
                                                                               not continue providing services for the TARP
                                                                               recipient for at least two years from the date
                                                                               of grant).
Commissions             Payment earned by an employee                          Commissions meeting the definition in the Rule              Employees identified in Table 2.37 (based
                        consistent with a program in existence                 are exempt from the limitations on bonuses,                 on the level of TARP assistance)
                        for that type of employee as of February               retention awards, and incentive compensation;
                        17, 2009, if a substantial portion of                  however, fees earned in connection with a
                        the services provided by the employee                  specified transaction (e.g., an initial public
                        consists of the direct sale of a product or            offering) are not commissions for purposes of
                        service to an unrelated customer                       the Rule.
Excessive Risk          Unnecessary risk taking encouraged by                  Review of employee compensation plans by                    All TARP recipients
                        employee compensation plans                            the compensation committee, a narrative
                                                                               explanation of the committee’s analysis with
                                                                               respect to risk, and certification that the
                                                                               compensation committee has completed the
                                                                               review.
Clawback                Recovery by the company of amounts                     All bonuses, retention awards, and incentive                SEOs and the next 20 most highly
                        paid to an employee based on materially                compensation must be subject to clawback                    compensated employees
                        inaccurate performance criteria                        if the payments were based on materially
                                                                               inaccurate performance criteria; the TARP
                                                                               recipient must actually exercise its clawback
                                                                               rights unless it can demonstrate that it would
                                                                               be unreasonable to do so.
Golden Parachute Any payment to an employee for                                Prohibits any and all golden parachute                      SEOs and the next 5 most highly
                 departure for any reason, or any payment                      payments to the applicable employees made                   compensated employees
                 due to a change in control                                    at the time of departure or upon a change in
                                                                               control.
Perquisite              Personal benefit, including a privilege                Must disclose the amount, nature, and                       Employees identified in Table 2.37 (based
                        or profit incidental to regular salary or              justification for the perquisite whose value                on the level of TARP assistance)
                        wages                                                  exceeds $25,000.

Source: Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.financialstability.gov, accessed 6/10/2009.
122   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Office of the Special Master for TARP Executive
                                             Compensation
                                             Under the Rule, Treasury has created a new Office of the Special Master for
                                             TARP Executive Compensation (“Special Master”) which will be responsible for
                                             the review and analysis of executive compensation at TARP recipients.292 Treasury
                                             has appointed Kenneth R. Feinberg, a “highly respected mediator widely praised
                                             for his leadership of the September 11th Victim Compensation Fund,” as Special
                                             Master, and he will report to the Assistant Secretary of the Treasury for Financial
                                             Stability.293 The Special Master’s scope is limited to executive compensation and
                                             corporate governance issues under the Rule for TARP recipients. The Special
                                             Master has the authority to accomplish these objectives:294
                                             • review compensation payments and plans at TARP recipients that have received
                                               “exceptional assistance” (for the SEOs and 20 next most highly compensated
                                               employees) and compensation structures (for the 100 most highly compensated
                                               employees and any executive officers)
                                             • review bonuses, retention awards, and other compensation paid before
                                               February 17, 2009, by TARP recipients and, where appropriate, negotiate
                                               reimbursements
                                             • provide advisory opinions with respect to the application of the Rule and
                                               whether compensation payments and plans are consistent with EESA, TARP,
                                               and the public interest

                                                 The Rule requires that the Special Master use specific principles when review-
                                             ing compensation payments and plans at TARP recipients:295

                                             • Risk — The compensation structure should avoid incentives for employees to
                                               take unnecessary or excessive risks that could threaten the value of the TARP
                                               recipient, including incentives that reward employees for short-term or tempo-
                                               rary increases in value, performance, or similar measures that may not ultimate-
                                               ly be reflected by an increase in the long-term value of the TARP recipient.
                                             • Taxpayer Return — The compensation structure, and amount payable where
                                               applicable, should reflect the need for the TARP recipient to remain a competi-
                                               tive enterprise, to retain and recruit talented employees who will contribute to
                                               the TARP recipient’s future success, and ultimately to be able to repay TARP
                                               obligations.
                                             • Appropriate Allocation — The compensation structure should appropriately
                                               allocate the components of compensation (e.g., salary, executive pensions,
                                               bonus payments, and incentives). The appropriate allocation may be different
                                               for different positions and for different employees, but generally, in the case of
                                               an executive or other senior-level position, a significant portion of the overall
                                               compensation should be long-term compensation that aligns the interest of the
                                               employee with the interests of shareholders and taxpayers.
                                                                                  QUARTERLY REPORT TO CONGRESS I JULY 21, 2009            123




• Performance-Based Compensation — An appropriate portion of the com-
  pensation should be performance-based over a relevant performance period.
  Performance-based compensation should be determined through tailored
  metrics that encompass individual performance and/or the performance of the
  TARP recipient or a relevant business unit, taking into consideration specific
  business objectives.
• Comparable Structures and Payments — The compensation structure
  and pay should be consistent with pay for those in similar positions at similar
  entities.
• Employee Contribution to TARP Recipient Value — The compensation
  structure should reflect the current or prospective contributions of an employee
  to the value of the TARP recipient, taking into account multiple factors.

Exceptional Assistance Authority
Under the Rule, the Special Master has specific duties regarding payments and
compensation plans for executives of TARP recipients that have received exception-             Exceptional Assistance: Companies
al assistance. For companies receiving exceptional assistance, the Special Master              receiving assistance under the pro-
will review compensation payments for the SEOs and the 20 most highly compen-                  grams for SSFI, TIP, AGP, AIFP, and any
sated employees at each institution. In addition, he will be reviewing compensa-               future Treasury program designated by
tion plans for SEOs and the 100 most highly compensated employees (and the                     the Treasury Secretary as providing ex-
executive officers) of a TARP recipient receiving exceptional assistance. According            ceptional assistance. Currently includes
to Treasury, this is to ensure that compensation is fair and structured, to protect            AIG, Citigroup, Bank of America, GM,
                                                                                               GMAC, Chrysler, and Chrysler Financial.
taxpayer interests and to promote long-term shareholder value.296

“Look-Back” Authority
The Special Master will also be conducting a “look-back” review of certain pay-
ments at all TARP recipients made prior to February 17, 2009 (i.e., the date of
ARRA’s enactment). The review will cover all bonuses, retention awards, and other
compensation paid to the 5 SEOs and the next 20 most highly paid employees.297
This review will encompass approximately 436 institutions and 10,900 individu-
als.298 Should the Special Master determine that payments were made inappropri-
ately or contrary to the public interest, he will have responsibility for negotiations
with the TARP recipient and the applicable employee for appropriate reimburse-
ment to the Federal Government.299
124            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      The American Recovery and Reinvestment Act of 2009 —
                                                      Expanded Provisions
                                                      The Rule expanded upon three provisions set forth in ARRA. They include review
                                                      by the Board Compensation Committee of all employee compensation plans, the
                                                      “Say on Pay” requirement, and enhanced luxury expenditure requirements.300

                                                      Board Compensation Committee
                                                      Under the Rule, each TARP recipient must establish a Board Compensation
                                                      Committee (the “Committee”). The Committee must include independent direc-
                                                      tors from the company’s board and will convene for the purpose of reviewing all
                                                      employee compensation plans. An exception to this requirement is made for TARP
                                                      recipients that are not registered under the Securities Exchange Act of 1934 and
                                                      have received $25 million or less in TARP assistance. These institutions may
                                                      have their boards of directors carry out the duties of the Board Compensation
                                                      Committee.301
                                                          The Committee is required to meet at least semiannually to review with senior
                                                      risk officers the proposed compensation plans of all employees and ensure that the
                                                      TARP recipient is not unnecessarily exposed to risks. In addition, the Committee
                                                      will evaluate SEO compensation plans to ensure that the plans do not encourage
                                                      SEOs to take unnecessary and excessive risks that could threaten the value of the
                                                      TARP recipient. The Rule requires that the Committee submit an annual report to
                                                      Treasury providing a narrative description of how it limited any features of compen-
                                                      sation plans that would encourage SEOs to take unnecessary and excessive risks
                                                      and any features of compensation plans that could encourage the manipulation of
                                                      reported earnings to enhance the compensation of an employee.302

                                                      “Say on Pay”
      Say on Pay: A non-binding vote by               The Rule provides a provision for a non-binding vote by shareholders on executive
      shareholders with respect to the                compensation, sometimes referred to as “Say on Pay.” This provision requires all
      company’s executive compensation, as            TARP recipients to permit an annual non-binding vote by shareholders on execu-
      disclosed pursuant to SEC regulations.          tive compensation as required by SEC regulations.303

                                                      Luxury Expenditures
                                                      The Rule also addresses corporate luxury expenses; the Rule states that the board
                                                      of directors of any institution receiving TARP funds must have a company-wide
                                                      policy to define and prevent excessive expenditure on entertainment or events, of-
                                                      fice and facility renovations, aviation or other transportation services, and other ac-
                                                      tivities or events that are not reasonable expenditures for the following activities:304
                                                      • staff development
                                                      • reasonable performance incentives
                                                      • other activities conducted in the normal course of business operations
                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 21, 2009     125




    The company must file this policy with Treasury and post it to the company
website no later than (i) 90 days after the closing of the transaction between
Treasury and the TARP recipient or (ii) 90 days following publication of the
Rule.305 The Rule also requires that the PEO and PFO of each institution provide
certification that any expenditures needing approval by a senior executive or the
board of directors have been properly approved.306

Additional Compensation and Governance Standards
According to Treasury, the Rule provides additional requirements that will further
protect shareholder value and increase transparency by all TARP recipients.
In addition to the compensation and corporate governance standards explicitly
required by Congress, the Rule includes three additional requirements: a prohibi-
tion on tax gross-ups, a requirement that TARP recipients provide additional dis-
closure of perquisites, and a requirement that TARP recipients provide disclosure
with respect to compensation consultants.307

Tax Gross-Up
A tax gross-up is typically a specific payment to cover taxes due on certain
compensation. According to Treasury, studies have shown that these payments
cost the companies that provide them far more than the benefits the payments
                                                                                              Tax Gross-Up: A reimbursement
provide to executives. The Rule prohibits TARP recipients from providing any tax
                                                                                              of taxes owed with respect to any
gross-up payments to senior executives and to the next 20 highest-compensated
                                                                                              compensation.
employees.308

Perquisites
In addition to disclosure requirements applicable to perquisites that are already
enforced by the SEC, the Rule subjects TARP recipients to more stringent
requirements. SEC rules require disclosure of perquisites given to the top five
executive officers. The Rule expands this requirement to include perquisites over
$25,000 given to any employees of TARP recipients subject to the bonus limita-
tions described in Table 2.37. Additionally, firms must provide a narrative descrip-
tion and justification for these benefits.309

Compensation Consultants
Many firms hire compensation consultants to determine appropriate pay levels
for top executives. According to Treasury, these consultants may have influence
over the setting of compensation, and it may be helpful for shareholders to know
whether TARP recipients have hired an outside consultant. More specifically, the
Rule requires all TARP recipients to provide a narrative description of the services
provided by such consultants and a description of any benchmarking analysis
performed by the consultants.310
126                SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                        Certifications
                                                                        As recommended by SIGTARP, the Rule provides certification and reporting
                                                                        requirements on the compensation and corporate governance guidelines that apply
                                                                        to TARP recipients. All certifications provided by TARP recipients must name the
                                                                        SEOs and the 20 most highly compensated employees for the current fiscal year.
                                                                        Under the Rule, this determination is based on their prior fiscal year’s total annual
                                                                        compensation. Each certification must also provide a statement by the officer certi-
                                                                        fying that they “understand that a knowing and willful false or fraudulent statement
                                                                        made in connection with the certification may be punished by fine, imprisonment,
                                                                        or both.”311 Table 2.39 describes the reporting and certification requirements and
                                                                        the frequency with which the institution must provide the certifications.
                                                                            In addition to the requirements in Table 2.39, those TARP recipients classified
                                                                        as receiving exceptional assistance must certify to Treasury that they have had their
                                                                        compensation payments and structures approved by the Special Master as required
                                                                        by the Rule.312




      TABLE 2.39

      EXECUTIVE COMPENSATION REPORTING AND CERTIFICATION REQUIREMENTS
      Compliance Category Action Requiring Certification                                                                             Certification Frequency
      Board Compensation              TARP recipient has created a Board Compensation Committee that meets                           • Later of 90 days after the closing of the transac-
      Committee                       the requirements of the Rule.                                                                    tion or 90 days after publication of the Rule
      Compensation Plans              The Committee has evaluated SEO compensation plans and has identified                          • Evaluate every 6 months
      Excessive Risk                  and limited features of plans that could lead to unnecessary risks. The                        • 90 days after the end of each fiscal year — must
                                      committee has also reviewed employee compensation plans for features                             submit narrative description and certification
                                      that could encourage the manipulation of reported earnings.
      Bonus Payments                  TARP recipient has limited bonus payments to applicable employees                              • 90 days after the end of each fiscal year
                                      in accordance with Section 111 of EESA and guidance thereunder.
      Luxury                          TARP recipient has established an excessive or luxury expenditures policy, • Later of 90 days after the closing of the transac-
      Expenditures                    and has posted it to the company website, and its employees have com-        tion or 90 days after publication of the Rule
                                      plied with the policy.                                                     • 90 days after the end of each fiscal year
      Say on Pay                      TARP recipient has permitted a non-binding shareholder resolution on ex-  • 90 days after the end of each fiscal year
                                      ecutive compensation (publicly traded TARP recipients only) in accordance
                                      with applicable SEC regulations.
      Compensation                    TARP recipient has disclosed whether an executive compensation consul-                         • 90 days after the end of each fiscal year
      Consultants                     tant was hired and a description of services provided.
      Perquisite                      TARP recipient has disclosed the amount, nature, and justification for                         • 90 days after the end of each fiscal year
                                      offering any perquisites greater than $25,000 to each of its employees
                                      subject to bonus limitations (as identified in Table 2.37).
      Clawback                        TARP recipient has required that all bonus payments are subject to re-                         • 90 days after the end of each fiscal year
                                      covery if the payments were based on materially inaccurate performance
                                      metrics.

      Source: Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.financialstability.gov, accessed 6/10/2009.
             TARP IN CONTEXT:
SECT ION 3   FINANCIAL INSTITUTION
             SUPPORT AND POLICIES
             OUTSIDE OF TARP
128   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 21, 2009   129




This section provides some background on the Federal agencies and financial res-
cue initiatives that have been implemented as part of the Government’s response to
the financial crisis. TARP programs must work in concert with these other agencies
and their initiatives — either as a direct partner, as in the case of the Term Asset-
Backed Securities Loan Facility (“TALF”), or as a potentially overlapping business
alternative for banks requiring funds. Though a huge sum in its own right, the
$700 billion in TARP funding represents only a portion of a much larger sum —
estimated to be as large as $23.7 trillion — of potential Federal Government
support to the financial system. This support is spread among numerous Federal
agencies, with the Federal Reserve System (“Federal Reserve”), providing one of
the largest support packages ($6.8 trillion if each initiative were implemented to its
maximum authorized level).
    In an effort to provide context to the environment within which the TARP
programs are operating, this section provides an overview of the Federal Reserve
System and a description of the multiple financial-crisis-response programs
throughout the Federal Government. This section is intended to provide perspec-
tive for understanding TARP. SIGTARP has no oversight responsibility for any of
the programs set forth in this section that do not involve TARP funds. Additionally,
throughout this section, SIGTARP uses the term “potential support” to represent
the maximum amount of support a Government agency has specified that it could
provide under a specific program. In those cases in which there are no specified
maximum thresholds, SIGTARP has used the high-water mark of the program
(the maximum amount actually expended or guaranteed) through June 30, 2009.
Further, some of the programs have been discontinued or even, in some cases, not
utilized. As such, these total potential support figures do not represent a current
total, but the sum total of all support programs announced since the onset of the
financial crisis in 2007.
130   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                           TARP TUTORIAL: THE FEDERAL RESERVE SYSTEM

                                              The Federal Reserve System is the central bank of the United States and is structured as
                                              a collection of quasi-governmental financial entities. It comprises a Board of Governors,
                                              12 Federal Reserve District Banks, a Federal Open Market Committee, and a number of
                                              advisory councils. Established by the Federal Reserve Act of 1913, the Federal Reserve
                                              oversees monetary policy, supervises and regulates various banking institutions, contains
                                              systemic risk in financial markets, and provides banking services to depository institu-
                                              tions. For an outline of the Federal Reserve System organization, see Figure 3.1.
                                                                   FIGURE 3.1

                                                                   THE FEDERAL RESERVE SYSTEM ORGANIZATION

                                                                                   BOARD OF GOVERNORS
                                                                     7 members --- appointed by the President and confirmed
                                                                           by the Senate (currently two vacancies)

                                                                   Members                                               Advises

                                                                                          Broad oversight
                                                    FEDERAL OPEN MARKET                  and appointment of        3 ADVISORY COUNCILS
                                                     COMMITTEE (“FOMC”)                 3 board members to
                                                                                        each Federal Reserve
                                                   7 members from the Board of                                    Federal Advisory Council
                                                                                           Bank board of
                                                   Governors
                                                                                              directors
                                                                                                                  Consumer Advisory Council
                                                   5 (out of 12) Federal Reserve
                                                   Bank presidents                                                Thrift Institutions Advisory
                                                                                                                  Council
                                                   President of FRBNY is a
                                                   permanent member



                                                                   Appoints                                                   Appoints


                                                                                   FEDERAL RESERVE BANKS
                                                                                   12 banks and 25 branches

                                                                                   Each bank has a 9-member
                                                                                   board of directors



                                                                              Contribute capital & elect 6 board members
                                                                                     to each Federal Reserve Bank
                                                                                           board of directors


                                                                                         MEMBER BANKS
                                                                                    Approximately 3,000 members
                                                                                    (38% of all commercial banks)

                                                                                    Each bank holds stock in its
                                                                                    regional Federal Reserve Bank
                                                                                    (3% of the member bank’s
                                                                                    capital)

                                                Source: Federal Reserve, “FED 101,” no date,
                                                www.federalreserveeducation.org/FED101%5HTML/structure/, accessed 7/8/2009.
                                                                                          QUARTERLY REPORT TO CONGRESS I JULY 21, 2009          131




The Federal Reserve System: Structure and Key Individuals
The Chairman and Board of Governors
The Board of Governors of the Federal Reserve is a group of seven Members
(“Governors”), nominated by the President and confirmed by the Senate. The Banking
Act of 1935 states that the Board of Governors should have a “fair representation of the
financial, agricultural, industrial, and commercial interests and geographical divisions of the
country,” and no two Governors may come from the same Federal Reserve District.313 Each
Governor’s term is 14 years, and those who have served full terms cannot be reappointed;
however, those appointed to complete an unexpired term may be appointed for the follow-
ing full term. Appointments are staggered so that one term expires on January 31 of each
even-numbered year.314 Currently, there are two vacant seats on the Board of Governors.
    The Chairman of the Board is chosen by the President and must be confirmed by the
Senate. The Chairman serves terms of four years and may be reappointed as Chairman
until his or her terms as a Governor expire. Currently, the Chairman of the Board of
Governors is Ben Bernanke. Sworn in as Chairman on February 1, 2006, his term on the
Board of Governors will expire in 2020,315 although his term as Chairman will expire on
January 31, 2010, unless reappointed.

Federal Open Market Committee
The Federal Open Market Committee (“FOMC”) is the other primary policymaking body of
the Federal Reserve System, responsible for Open Market Operations (“OMOs”). These
OMOs are the principal tool of monetary policy, comprising purchases and sales of U.S.
Government and Federal agency securities that are used to affect bank reserves and,
in turn, the cost and availability of money and credit in the U.S. economy. The FOMC
specifies a short-term objective for the OMOs. These policy targets change from time to
time, but the current objective of the FOMC is to stabilize the federal funds rate around a
target interest rate. The FOMC instructs the Federal Reserve Bank of New York (“FRBNY”)
to engage in OMOs as appropriate to keep the federal funds rate near the target. Such                  Federal Funds Rate: The rate at
activity either contracts or expands the supply of bank reserves until the federal funds rate          which depository institutions lend to
                                                                                                       each other overnight to fill immediate
nears the target, directly affecting interest rates. Of the Federal Reserve banks, FRBNY
                                                                                                       shortages.
has a preeminent role in executing monetary policy, particularly in its role as the executing
institution of FOMC directives.
    Traditionally, monetary policy has been conducted by changing the target federal funds
rate. Lower interest rates tend to stimulate the economy, while higher interest rates tend
to temper growth and inflationary pressures.
132   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                           TARP TUTORIAL: THE FEDERAL RESERVE SYSTEM
                                              TABLE 3.1

                                              2009 FOMC MEMBERS
                                              Member                                           Title(s)
                                              Ben S. Bernanke                                  Chairman, Board of Governors
                                                                                               Vice Chairman, Board of Governors; President, Federal
                                              William C. Dudley
                                                                                               Reserve Bank of New York
                                              Elizabeth A. Duke                                Member, Board of Governors
                                              Charles L. Evans                                 President, Federal Reserve Bank of Chicago
                                              Donald L. Kohn                                   Member, Board of Governors
                                              Jeffrey M. Lacker                                President, Federal Reserve Bank of Richmond
                                              Dennis P. Lockhart                               President, Federal Reserve Bank of Atlanta
                                              Daniel K Tarullo                                 Member, Board of Governors
                                              Kevin M. Warsh                                   Member, Board of Governors
                                              Janet L. Yellen                                  President, Federal Reserve Bank of San Francisco
                                              Note: As of 6/30/2009 two board member positions are currently vacant.

                                              Source: Board of Governors of the Federal Reserve System, www.federalreserve.gov/monetarypolicy/fomc.htm, accessed
                                              6/29/2009.




                                                  The FOMC comprises 12 voting members: the 7 members of the Board of Governors,
                                             the president of FRBNY, and 4 of the other 11 Federal Reserve Bank presidents, who
                                             serve one-year terms on a rotating basis. Table 3.1 details the current members of the
                                             FOMC.
                                                  FOMC meetings are held at regular intervals of five to eight weeks. The staff prepares
                                             policy papers for discussion and committee members discuss options in detail. Decisions
                                             may only be implemented, however, after reaching consensus. FOMC policy directives are
                                             then referred to FRBNY for execution.

                                             Federal Reserve Banks
                                             There are 12 Federal Reserve Banks, one in every Federal Reserve District, each of which
                                             is headed by a President. For a map detailing the 12 Federal districts and the location of
                                             the Federal Reserve Banks, see Figure 3.2. For a listing of the current Presidents of the
                                             Federal Reserve Banks, see Table 3.2.
                                                  The individual Federal Reserve Banks are “owned” by the private, commercial banks in
                                             their districts. This ownership is, however, very different from the private-sector concept
                                             of stock ownership; the shareholders cannot sell their stock, they cannot vote, and they
                                             cannot receive dividends.
                                                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 21, 2009                             133




      FIGURE 3.2
      MAP OF FEDERAL RESERVE BANKS AND THEIR DISTRICT BOUNDARIES




                                                              9 Minneapolis
                                                                                                                         1 Boston

                                                                                                                     2 New York
                                                                              7 Chicago                           3 Philadelphia
        12 San Francisco
                                                                                                  4 Cleveland
                                                           10 Kansas City           8 St. Louis
                                                                                                         5 Richmond




                                                                                             6 Atlanta
                                                             11 Dallas




      Note: Alaska and Hawaii are part of the San Francisco District.

      Source: Federal Reserve, www.federalreserve.gov/otherfrb.htm, accessed 6/30/2009.
                                                                                                                            TABLE 3.2

                                                                                                                           FEDERAL RESERVE BANKS AND THEIR
                                                                                                                           LEADERSHIP
Independence of the Federal Reserve System                                                                                 District                                 President
The Federal Reserve Board of Governors is an independent agency of the Federal                                             1st District — Boston                    Eric S. Rosengren
Government. The individual Federal Reserve banks are not agencies of the Federal                                           2nd District — New York                  William C. Dudley
Government.     316
                      Congressional oversight requires that the Chairman of the Board of                                   3rd District — Philadelphia              Charles I. Plosser

Governors of the Federal Reserve appear twice before Congress each year to testify on                                      4th District — Cleveland                 Sandra Pianalto
                                                                                                                           5th District — Richmond                  Jeffrey M. Lacker
the subject of the Federal Reserve’s monetary policy. Congress may also enact changes
                                                                                                                           6th District — Atlanta                   Dennis P. Lockhart
in the Federal Reserve Act to affect long-term Federal Reserve policies and priorities. The
                                                                                                                           7th District — Chicago                   Charles L. Evans
Federal Reserve is a hybrid entity with characteristics of both public and private organiza-
                                                                                                                           8th District — St. Louis                 James B. Bullard
tions. Its independence is an important feature, designed to protect the monetary base                                     9th District — Minneapolis               Gary H. Stern
and the financial system oversight from “politicization.”                                                                  10th District — Kansas City              Thomas M. Hoenig
                                                                                                                           11th District — Dallas                   Richard W. Fisher
Taxpayer Exposure to the Federal Reserve
                                                                                                                           12th District — San Francisco Janet L. Yellen
As the Federal Reserve has been providing liquidity to financial institutions during the
                                                                                                                           Source: Federal Reserve, “Federal Reserve Presidents,” www.federal-
current crisis, it has increased its exposure to potential for losses, such as if the value of                             reserve.gov, accessed 6/30/2009.
134   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             the collateral posted for non-recourse loans were to fall below the loan amount. Although
                                             taxpayers are not directly liable to make up any losses of the Federal Reserve, in practice,
                                             the American public is exposed in many ways to the effects of Federal Reserve actions.
                                                 To a certain extent, losses can be absorbed by the Federal Reserve in the course of
                                             its ongoing business. The Federal Reserve derives revenues from interest on outstanding
                                             loans to banks and from fees for services. In 2008, the Federal Reserve had a surplus of
                                             $35 billion, which it remitted to Treasury.317 If Federal Reserve losses exceeded a certain
                                             level — for example, the amount of the Federal Reserve’s annual revenues — further
                                             funds would be required to meet those losses.
                                                 As a central bank, however, the Federal Reserve has other options that are not open
                                             to the typical private-sector business. Losses up to a point can be covered by such means
                                             as assessments on member banks, increases in interest rates on Federal Reserve loans,
                                             or fee increases. These efforts would indirectly affect taxpayers, however, because the
                                             banks could increase consumer fees or interest rates to compensate for the Federal
                                             Reserve assessments.
                                                 A major financial shortfall at the Federal Reserve could lead to either an appropriation
                                             by Congress of taxpayer funds for a bailout or an expansion of the money supply (“running
                                             the printing press”) to cover Federal Reserve losses, which could lead to inflation.


                                             The Federal Reserve’s Role in Addressing the Current
                                             Financial Crisis
                                             In the current financial crisis, the Federal Reserve has initiated a number of programs
                                             to provide liquidity to the financial system, including engaging in large-scale asset pur-
                                             chases, which has resulted, since January 2007, in a $1.2 trillion expansion of its balance
                                             sheet and a number of regulatory changes intended to reduce stress on the financial
                                             system.318 The Federal Reserve has also created new standby credit facilities and loan
                                             guarantees, and has engaged in “quantitative easing” (lowering interest rates to provide
                                             banks with additional profits through larger spreads). The role of the Federal Reserve in
                                             the Government’s response to the financial crisis is covered in more detail in the “TARP in
                                             Context: Other Government Programs To Assist the Financial Sector” discussion following
                                             this section of the report.
                                                                                         QUARTERLY REPORT TO CONGRESS I JULY 21, 2009             135




Oversight and Authority
The legal authority to undertake efforts to stabilize the economy was provided by                     Exact Language of Section 13(3) of
Congress in the Federal Reserve Act of 1913. A certain level of balance sheet activity                the Federal Reserve Act:

will always be occurring during the Federal Reserve’s normal operations, but the activity             13(3) Discounts for Individuals,
in 2008 was extraordinary by any measure. Congress receives regular reports from the                  Partnerships, and Corporations
Federal Reserve and has occasionally enacted legislation designed to accomplish certain               In unusual and exigent circumstances,
                                                                                                      the Board of Governors of the Federal
economic and financial policy goals.
                                                                                                      Reserve System, by the affirmative
   Section 13 of the Federal Reserve Act (“Section 13”) details the powers of the Federal             vote of not less than five members,
Reserve Banks. In 1932, the Emergency Relief and Construction Act added paragraph 3                   may authorize any Federal reserve
to Section 13, opening the Federal Reserve’s discount window to nonbanks “in unusual                  bank, during such periods as the
                                                                                                      said board may determine, at rates
and exigent circumstances.”319 Section 13(3) of the Federal Reserve Act is an “emergency
                                                                                                      established in accordance with the
clause,” which provides the Federal Reserve with broad powers to take actions necessary               provisions of section 14, subdivision
to protect the U.S. financial system. Portions of Section 13 were used during the Great               (d), of this Act, to discount for any in-
Depression and for almost 20 years thereafter to provide credit from the Federal Reserve              dividual, partnership, or corporation,
to nonbanking businesses. In 1991, Section 13(3) was invoked to provide a $25 billion                 notes, drafts, and bills of exchange
                                                                                                      when such notes, drafts, and bills of
direct loan from the Federal Reserve to the FDIC’s Bank Insurance Fund as a response
                                                                                                      exchange are endorsed or otherwise
to the Savings and Loan Crisis of the 1980s and 1990s. Section 13(3) was amended                      secured to the satisfaction of the
in 1991, allowing the Federal Reserve to lend directly to securities firms during financial           Federal Reserve bank: Provided,
emergencies. Between 1991 and 2008 Section 13(3) was not invoked.320 Since 2008, the                  that before discounting any such
                                                                                                      note, draft, or bill of exchange for an
Federal Reserve’s lending under Section 13(3) includes: loans to JPMorgan Chase & Co.
                                                                                                      individual, partnership, or corporation
(“JPMorgan”) to facilitate the acquisition of Bear Stearns Companies Inc. (“Bear Stearns”);           the Federal reserve bank shall obtain
a loan to American International Group, Inc. (“AIG”), a diversified financial company, which          evidence that such individual, partner-
is not normally under the Federal Reserve’s discount window authority; and the creation               ship, or corporation is unable to
                                                                                                      secure adequate credit accommoda-
of the TALF. For a complete list of recent, known Section 13(3)-related Federal Reserve
                                                                                                      tions from other banking institutions.
lending, see Table 3.3.                                                                               All such discounts for individuals,
                                                                                                      partnerships, or corporations shall be
                                                                                                      subject to such limitations, restric-
                                                                                                      tions, and regulations as the Board
                                                                                                      of Governors of the Federal Reserve
                                                                                                      System may prescribe.

                                                                                                      Discount Window: Federal Reserve
                                                                                                      facility that lends short-term money
                                                                                                      directly to eligible institutions.
136            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      TABLE 3.3

      RECENT KNOWN AUTHORIZATIONS UNDER SECTION 13(3) ($ BILLIONS)
                                                                  Authorized
      Date                       Program                          Upper Limit*              End Date                  Comments
      3/11/2008                  TSLF                                      $250.0           2/1/2010                  Subsequently modified to include TSLF TOP (Options Program)
      3/14/2008                  Bear Stearns Bridge                           12.9         Repaid
                                 Loan                                                       3/17/2008
      3/16/2008                  PDCF                                      ≥147.7           2/1/2010                  Covers primary dealers — in September 2008, extended to include
                                                                                                                      broker/dealer subsidiaries of the primary dealers
      3/16/2008                  Maiden Lane LLC                               29.8                                   To facilitate purchase by JPMorgan of Bear Stearns
                                 (Bear Stearns Acquisi-
                                 tion Loan)
      9/16/2008                  AIG Revolving Credit                          85.0                                   For: AIG; reduced to $60 billion in November 2008
                                 Facility
      9/19/2008                  AMLF/Non-depository                       ≥145.9           2/1/2010                  13(3) was needed to bring non-depository institutions into program
                                 Institutions
      10/7/2008                  CPFF                                     1,800.0           2/1/2010
      10/8/2008                  AIG Securities Lending                        37.8         12/12/2008                For: AIG. Paid off and terminated on 12/12/2008
                                 Program
      10/21/2008                 MMIFF                                       600.0          10/30/2009                Eligibility expanded in January 2009 — unused, as of 6/30/2009
      11/10/2008                 Maiden Lane II                                22.5                                   For: AIG
      11/10/2008                 Maiden Lane III                               30.0                                   For: AIG
      11/23/2008                 Residual Financing for                      220.4                                    For Citigroup: “Ring-Fence”
                                 Citigroup Designated
                                 Asset Pool
      11/24/2008                 TALF                                     1,000.0           12/31/2009                There have been several expansions
      1/15/2009      a
                                 Residual Financing for                                                               For: Bank of America “Ring-Fence”
                                 Bank of America Des-
                                 ignated Asset Pool b
      3/2/2009 c                 AIG Securitization of                           8.5d                                 For: AIG, loans secured by life
                                 Life Insurance Cash                                                                  insurance cash flows
                                 Flows (“SLICF”)
      Total                                                             $4,390.5

      Notes: Numbers affected by rounding. In certain occasions, Section 13(3) was invoked multiple times for a single program.
      *Authorized limits do not account for any collateral pledged; “≥” reflects programs that did not specify upper limit — in such cases high-water mark of program is used.
      a
        Based on Citigroup Master Agreement date of 1/15/2009.
      b
        The residual financing arrangement for Bank of America has not been executed as of 6/30/2009.
      c
        Based on press release date of 3/2/2009.
      d
        The authority for this facility was invoked separately from the revolving credit facility for AIG.
      Sources: Federal Reserve Report to Congress, www.federalreserve.gov, 6/26/2009, accessed 7/1/2009; TSLF– Congressional Budget Office, “The Budget and Economic Outlook: Fiscal Years
      2009-2019,” p. 37, www.cbo.gov/doc.cfm?index=9957&type=3, accessed 7/9/2009; PDCF–Technically unlimited potential, although usage peaked on 10/1/2008 at $147.7 billion; St. Louis Federal
      Reserve Bank, “Factors Affecting Reserve Balances,” www.research.stlouisfed.org/fred2/categories/32215/downloaddata, accessed 7/9/2009; Bear Stearns Bridge Loan–Initial outlay of 3/14/2008–
      3/16/2008 repaid on 3/17/2009; Federal Reserve, “Report Pursuant to Section 129 of the Emergency Economic Stabilization Act of 2008: Bridge Loan to The Bear Stearns Companies Inc. Through
      JPMorgan Chase Bank,” no date, www.federalreserve.gov/monetarypolicy/files/129bearstearnsbridgeloan.pdf, accessed 6/11/2009; Maiden Lane– Initial outlay peaked on 7/2/2008 at $29.8 billion;
      St. Louis Federal Reserve Bank, ”Factors Affecting Reserve Balances,” www.research.stlouisfed.org/fred2/categories/32215/downloaddata, accessed 7/9/2009; AIG Revolving Credit/AIG Securi-
      ties–Prior to restructuring of assistance, Federal Reserve assistance to AIG peaked at $122.5 billion between two programs, an $85 billion credit facility and a $37.5 billion securities lending facility;
      AMLF–Week ending 10/8/2008; St. Louis Federal Reserve, ”Factors Affecting Reserve Balances,” research.stlouisfed.org/fred2/data/WABCMMF.txt, accessed 7/9/2009; AMLF second source–FDIC,
      Supervisory Insights, Summer 2009, www.fdic.gov/regulations/examinations/supervisory/insights/sisum09/si_sum09.pdf, accessed 7/9/2009, p. 4; MMIFF/SPV–Federal Reserve, “Credit and Liquidity
      Programs and the Balance Sheet,” www.federalreserve.gov, accessed 7/1/2009; MMIFF second source — Congressional Budget Office, “The Budget and Economic Outlook: Fiscal Years 2009-2019,”
      p. 36, www.cbo.gov/doc.cfm?index=9957&type=3, accessed 7/9/2009; MMIFF third source–FDIC, Supervisory Insights, Summer 2009, p. 4, www.fdic.gov/regulations/examinations/supervisory/
      insights/sisum09/si_sum09.pdf, accessed 7/9/2009; CPFF– FDIC, Supervisory Insights, Summer 2009, p. 4, www.fdic.gov/regulations/examinations/supervisory/insights/sisum09/si_sum09.pdf,, ac-
      cessed 7/9/2009; AGP Credit–Citigroup Master Agreement, 1/15/2009; AGP Credit second source–Federal Reserve, response to SIGTARP draft report, 1/29/2009. Source for invocation date–Federal
      Reserve, “Periodic Report Pursuant to Section 129(b) of the Emergency Economic Stabilization Act of 2008: Update on Outstanding Lending Facilities Authorized by the Board Under Section 13(3) of
      the Federal Reserve Act, 6/26/2009, www.federalreserve.gov/monetarypolicy/files/129periodicupdate06262009.pdf, accessed 7/9/2009; Maiden Lane III–Federal Reserve, “H.4.1 Release – Factors
      Affecting Reserve Balances,” 6/26/2009, www.federalreserve.gov, accessed 7/1/2009; Federal Reserve Board, Monetary Report to Congress, Appendix A, 2/24/2009, www.federalreserve.gov/
      monetarypolicy/mpr_20090225_appendixa.htm, accessed 5/14/2009; TALF–“Credit and Liquidity Programs and the Balance Sheet,” www.federalreserve.gov, accessed 7/1/2009;Treasury, “Financial
      Stability Plan Fact Sheet,” www.treas.gov, accessed 1/16/2009; Maiden Lane II, Federal Reserve Board, Monetary Report to Congress, Appendix A, 2/24/2009, www.federalreserve.gov/monetary-
      policy/mpr_20090225_appendixa.htm, accessed 5/14/2009; AIG SLICF–Federal Reserve Press Release, ” U.S. Treasury and Federal Reserve Board Announce Participation in AIG Restructuring Plan,”
      3/2/2009, www.federalreserve.gov, accessed 7/1/2009.
                                                                                   QUARTERLY REPORT TO CONGRESS I JULY 21, 2009            137




TARP IN CONTEXT: OTHER GOVERNMENT
PROGRAMS TO ASSIST THE FINANCIAL SECTOR
By itself, the Troubled Asset Relief Program (“TARP”) is a huge program at $700
billion. As discussed in SIGTARP’s April Quarterly Report, the total financial
exposure of TARP and TARP-related programs may reach approximately $3 trillion.
Although large in its own right, TARP is only a part of the combined efforts of the
Federal Government to address the financial crisis. Approximately 50 initiatives
or programs have been created by various Federal agencies since 2007 to provide
potential support totaling more than $23.7 trillion.
     The Federal Reserve has been one of the lead agencies responding to the finan-
cial crisis — increasing its balance sheet to more than $2 trillion to implement a
wide range of programs designed to stimulate liquidity in financial markets, as well
                                                                                                The Federal Reserve balance sheet
as several institution-specific interventions.321 The Federal Reserve’s $2 trillion bal-
                                                                                                represents the assets that the Federal
ance sheet (which grew from approximately $900 billion prior to the financial crisis
                                                                                                Reserve has acquired as it has put
to a peak of nearly $2.3 trillion in December 2008),322 however, does not reflect the
                                                                                                resources into the financial sector. The
true potential amount of support the Federal Reserve has provided to those pro-                 assets on the Federal Reserve’s bal-
grams, which is estimated to be at least $6.8 trillion. This is because many of the             ance sheet are the tools it employs to
programs involve guarantees that, although not listed on the balance sheet, expose              manage liquidity in the economy.
the Federal Reserve to significant losses if the assets they are backing deteriorate in
value.
     Other players in the Government’s efforts include the Federal Deposit
Insurance Corporation (“FDIC”), which has contributed more than $2 trillion in
new gross potential support. The newly created Federal Housing Finance Agency
(“FHFA”) — under whose auspices fall the Government-Sponsored Enterprises
(“GSEs”) such as Fannie Mae, Freddie Mac, and Federal Home Loan Banks
(“FHLBs”) — has effectively provided more than $6 trillion in gross potential
support. Meanwhile, Treasury itself has programs outside of those authorized
under the Emergency Economic Stabilization Act (“EESA”), and has supplied
potential support beyond TARP of approximately $4.4 trillion. An overview of the
Government’s new potential support relating to the financial crisis is listed by
Federal agency in Table 3.4.
     Of this $23.7 trillion in assistance to financial institutions, participants in
non-TARP programs are not subject to TARP’s restrictions and conditions, such as
executive compensation, nor do they necessarily require specific Congressional ap-
proval. Although SIGTARP’s oversight responsibility is for the operations of TARP
and directly related programs (such as TALF and the Public-Private Investment
Program (“PPIP”)), it is necessary to understand the larger context in which
TARP operates, the linkages between TARP and the trillions of dollars of other
Government initiatives. As noted earlier, SIGTARP has no authority over any of the
non-TARP activities of the agencies discussed below.
138   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             TABLE 3.4

                                             INCREMENTAL FINANCIAL SYSTEM SUPPORT, BY FEDERAL AGENCY
                                             SINCE 2007 ($ TRILLIONS)
                                                                                                                                     Maximum                 Total Potential
                                                                                                        Current                   Balance as of                     Support
                                                                                                        Balance                    6/30/2009               Related to Crisis
                                             Federal Reserve                                                  $1.4                            $3.1                           $6.8
                                             FDIC                                                               0.3                             0.3                            2.3
                                             Treasury — TARP (including
                                             Federal Reserve, FDIC                                              0.6                             0.6                            3.0
                                             components)
                                             Treasury — Non-TARP                                                0.3                             0.3                            4.4
                                             Other: FHFA, NCUA, GNMA, FHA, VA                                   0.3                             0.3                            7.2
                                             Total                                                           $3.0                             $4.7                         $23.7

                                             Notes: Numbers affected by rounding. Amounts may include overlapping agency liabilities, “implied” guarantees, and unfunded
                                             initiatives. Total Potential Support does not account for collateral pledged. See the “Methodology for Estimating Government Financial
                                             Exposure” discussion in this section for details on the methodology of this chart. Other agencies include: FHFA, National Credit Union
                                             Administration (“NCUA”), Government National Mortgage Association (“GNMA”), Federal Housing Administration (“FHA”), and U.S.
                                             Department of Veterans Affairs (“VA”).
                                             Source: See respective source notes in the agency-specific tables later in this section.




                                             Methodology for Estimating Government Financial Exposure
                                             No official financial statements have been prepared for the combined efforts of
                                             the Federal Government in its response to the financial crisis. The estimates in
                                             this section are designed to suggest the scale and scope of those efforts and not to
                                             provide a firm financial statement. These numbers may have some overlap, and
                                             have not been evaluated to provide an estimate of likely net costs to the taxpayer.
                                             Available data has been broken down into the following categories:

                                             • Current Balance — the amount that has been expended on bank rescue efforts
                                               and that is currently outstanding.
                                             • Maximum Balance to Date — the highest balance a program has reached in
                                               its history to date. Many programs reached their peak in December 2008 and
                                               are now declining. Comparing the maximum balance to the current balance
                                               provides a sense of how far past the high-water mark a program might be. The
                                               sum for each Federal agency reflects the sum of the individual high-water marks
                                               for each program under its supervision.
                                             • Total Potential Support — quantifies the gross, not net, exposure that an agency
                                               would face should all eligible program applicants request assistance at once to
                                               the maximum permitted under the program guidelines. Note that many of these
                                               programs are collateralized or have not been drawn down to their full authorized
                                               levels, and as such, the actual potential for losses is likely to be lower. In certain
                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 21, 2009   139




   cases, programs included have been canceled or repaid; however, they are still
   included in this table (SIGTARP’s intent is to represent all support programs
   created).

    The program listings in this section are not comprehensive — there are dozens
of smaller programs, regulations, statutes, and procedures of individual agen-
cies that are not captured in the following tables. Also, there is potential for some
double-counting of exposure in instances where different Federal agencies provide
guarantees for the same financial institutions (such as the overlapping exposure by
Treasury, the Federal Reserve, and FHFA to the GSEs).

Other Federal Responses: Beyond TARP
The Federal Government has undertaken dozens of initiatives, some of them
involving specific programs with specific spending limits and others without any
specific, quantifiable measurement appearing in the books of the responsible
agency. Examples of the latter include the increase in deposit insurance instituted
by FDIC, or the action by the Federal Reserve to pay interest on reserves held by
banks at the Reserve Banks.323 To the extent possible, SIGTARP has quantified
the total exposure of these programs using publicly available information from the
Federal agencies responsible for the programs or initiatives. Following each table
are brief descriptions of key programs implemented by the agencies. The descrip-
tions reflect the agencies’ own descriptions of their programs. Note that the TARP-
related programs, such as TALF and PPIP, are not included as they are addressed
in other sections of this report.

Federal Reserve System
As the central bank of the United States, the Federal Reserve has exceptional
responsibilities and powers to deal with systemic financial crises. See the previous
discussion “TARP Tutorial: The Federal Reserve System” in this report. The Federal
Reserve has created 18 financial support programs outside of its TARP-related
programs, as listed in Table 3.5.
140              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




 TABLE 3.5

 NON-TARP GOVERNMENT SUPPORT OF THE FINANCIAL SECTOR — FEDERAL RESERVE SYSTEM                                                                                     ($ BILLIONS)

                                                                                                                                                                  Maximum
                                                                                                                                                                    Balance                  Total Potential
                                                                                                                                              Current                  as of               Support Related
  Program                                                                                         Coverage                                    Balance            6/30/2009                        to Crisis*
  Term Auction Facility (“TAF”)                                                                   Banks                                        $282.8                 $493.1a                          $900.0b
  Primary Credit (“Discount Program Modification”)                                                Banks                                           39.1                  111.9c                        ≥ 111.9
  Tri-Party Repurchase Agreements                                                                 Banks                                               —                 124.6   d
                                                                                                                                                                                                      ≥ 124.6

  Commercial Paper Funding Facility (“CPFF”)***                                                   Corporate Debt Markets                         128.1                  349.9e                        1,800.0f

  Money Market Investor Funding Facility (“MMIFF”)                                                Money Market Mutual                                 —                      —                           600.0g
                                                                                                  Funds
  Asset-Backed Commercial Paper Money Market Mutual Fund Liquidity                                Money Market Mutual                             16.7                  145.9h                        ≥ 145.9
  Facility (“AMLF”)***                                                                            Funds
  Term Securities Lending Facility (“TSLF”), TSLF Options Program                                 Primary Dealers                                   8.0                 233.6i                           250.0j
  (“TOP”)**
  Expansion of System Open Market Account (“SOMA”) Securities                                     Primary Dealers                                 14.7l                   25.9m                            32.0n
  Lendingk
  Primary Dealer Credit Facility (“PDCF”), credit to other primary                                Primary Dealers                                     —                 147.7o                        ≥ 147.7
  dealers***
  Purchase of Direct Obligations of GSEs                                                          GSEs                                            92.1                    92.1p                          200.0q

  Purchase of GSE Guaranteed Mortgage-Backed Securitiesr                                          GSEs                                           467.1                  467.1s                        1,250.0t

  Foreign Central Bank Currency Liquidity Swaps                                                   U.S. Markets                                   121.6                  582.8u                           755.0v

  Treasuries Purchase Program                                                                     Private Credit Markets                         174.5                  174.5w                           300.0x
  Credit to AIG                                                                                   Specific Institution                            42.6                    89.5y                          122.8z
  Maiden Lane LLC (Bear Stearns)***                                                               Specific Institution                            25.9                    29.8aa                           29.8
  Maiden Lane II LLC (AIG)***                                                                     Specific Institution                            16.0                    20.1  bb
                                                                                                                                                                                                           22.5cc
  Maiden Lane III LLC (AIG)***                                                                    Specific Institution                            20.1                    28.1dd                           30.0ee
  Other Credit Extensions (JPMorgan, Bear Stearns bridge loan)**                                  Specific Institution                                —                   12.9  ff
                                                                                                                                                                                                           12.9
  Total                                                                                                                                    $1,449.3                $3,129.5                       ≥$6,835.1

  Notes: Numbers affected by rounding; if only one source is given for “Current Balance” and “Maximum Balance,” it is the same source for both.
  *Total Potential Support does not account for any collateral pledged; “≥” reflects programs that did not specify upper limit — in such cases high-water mark of program is used as total potential support.
  **Denotes program that has been canceled or completed
  ***Current and maximum balances for CPFF, AMLF, PDCF, and Maiden Lane LLCs are derived from value of collateral held, which is approximately the loan amounts outstanding.


                                                                                                                                                                                     (Sources on next page)
                                                                                                                                    QUARTERLY REPORT TO CONGRESS I JULY 21, 2009                                    141




Sources:
a
   Week ending 3/11/2009: St. Louis Fed, www.research.stlouisfed.org/fred2/series/WTERAUC?rid=20.
b
    Federal Reserve Press Release, 10/6/2008, www.federalreserve.gov/newsevents/press/monetary/20081006a.htm, accessed 6/8/2009.
c
   Week ending 10/29/2008: St. Louis Fed, www.research.stlouisfed.org/fred2/series/WPC?rid=20, accessed 6/8/2009.
d
    Week ending 6/18/2008: St. Louis Fed, www.research.stlouisfed.org/fred2/series/WREPO, accessed 6/30/2009.
e
   Week ending 1/21/2009: St. Louis Fed, www.research.stlouisfed.org/fred2/data/WCPFF.txt, accessed 6/30/2009.
f
   FDIC, Supervisory Insights, Summer 2009, p. 4.
g
   Congressional Budget Office, “The Budget and Economic Outlook: Fiscal Years 2009-2019, p. 36; FDIC, Supervisory Insights, Summer 2009, p. 4.
h
   Week ending 10/8/2008: St. Louis Fed, www.research.stlouisfed.org/fred2/data/WABCMMF.txt; FDIC, Supervisory Insights, Summer 2009, p. 4.
i
   Week ending 10/1/2008: St. Louis Fed, www.research.stlouisfed.org/fred2/series/WTERFAC?rid=20, accessed 6/30/2009.
j
   Congressional Budget Office, “The Budget and Economic Outlook: Fiscal Years 2009-2019, p. 37.
k
   Maximum $5 billion per primary dealer; Fed’s primary dealer list shows 16 dealers (www.newyorkfed.org/markets/pridealers_current.html). Limit was increased from $3 billion to $5 billion per dealer in
   2008 (www.newyorkfed.org/markets/sec_announcements.html), increasing maximum amount to $80 billion from $48 billion.
l
   Federal Reserve, Statistical Release H.4.1, 6/4/2009, www.federalreserve.gov/releases/h41/current/h41.htm#h41tab9, accessed 6/7/2009.
m
   Maximum amount is net SOMA securities lending allowed (new maximum minus old maximum). Federal Reserve, Federal Reserve Statistical Release H.4.1, 6/4/2009, www.federalreserve.gov/releases/
   h41/current/h41.htm#h41tab9, accessed 6/8/2009; historical data, www.federalreserve.gov/releases/h41/hist/h41hist1.pdf, accessed 6/11/2009.
n
   SOMA figures for “total exposure” are net of pre-existing exposure. To estimate a total exposure of $32 billion, the increased facility of $2 billion per firm was multiplied by the 16 firms in the industry;
   historical data, www.federalreserve.gov/releases/h41/hist/h41hist1.pdf, accessed 6/11/2009.
o
   Technically unlimited potential; though usage peaked on 10/1/2008 at $147.7 billion. St. Louis Fed, www.research.stlouisfed.org/fred2/categories/32215/downloaddata, accessed 6/30/2009.
p
   Week ending 6/3/2009: St. Louis Fed, www.research.stlouisfed.org/fred2/categories/32215/downloaddata; additional data on total of purchases of GSE debt from 9/19/2009 through 5/14/2009,
   source: Federal Reserve Bank of New York Agency OMO program, www.newyorkfed.org/markets/pomo/display/index.cfm, accessed 6/28/2009.
q
   Federal Reserve Board Press Release, 3/18/2009, federalreserve.gov/newsevents/press/monetary/20090318a.htm, accessed 5/15/2009.
r
   Federal Reserve Bank of New York, “FAQ’s: MBS Purchase Program,” www.newyorkfed.org/markets/mbs_faq.html, accessed 5/18/2009.
s
   Week ending 5/27/2009: St. Louis Fed, www.research.stlouisfed.org/fred2/categories/32215/downloaddata; additional data on total of gross purchases of Agency MBS, through 5/13/2009, source:
   Federal Reserve Bank of New York, Agency Mortgage-Backed Securities Purchase Program, www.newyorkfed.org/markets/mbs/, accessed 6/28/2009.
t
   Federal Reserve Board Press Release, 3/18/2009, federalreserve.gov/newsevents/press/monetary/20090318a.htm, accessed 5/15/2009.
u
   Week ending 12/10/2008: St. Louis Fed, www.research.stlouisfed.org/fred2/categories/32215/downloaddata, accessed 7/8/2009.
v
   Federal Reserve Press Releases: 10/29/2008, www.federalreserve.gov/newsevents/press/monetary/20081029b.htm, accessed 6/9/2009; 10/28/2008, www.federalreserve.gov/newsevents/press/
   monetary/20081028a.htm, accessed 6/9/2009; 10/28/2008, www.federalreserve.gov/newsevents/press/monetary/20081028a.htm, accessed 6/9/2009; 9/29/2008, www.federalreserve.gov/
   newsevents/press/monetary/20080929a.htm, accessed 6/9/2009.
w
   Data derived from taking the increase of U.S. Treasury securities held from 3/18/2009 (date of program announcement) to 6/3/2009 to data source: St. Louis Fed, www.research.stlouisfed.org/fred2/
   categories/32215/downloaddata, accessed 6/11/2009.
x
   Federal Reserve, FOMC statement, 3/18/2009, www.federalreserve.gov/newsevents/press/monetary/20090318a.htm, accessed 6/8/2009.
y
   Week ending 10/29/2008: St. Louis Fed, www.research.stlouisfed.org/fred2/categories/32215/downloaddata, accessed 6/26/2009.
z
   Prior to restructuring of assistance, Fed assistance to AIG peaked at $122.8 billion between two programs — an $85 billion credit facility and a $37.8 billion securities lending facility. Federal Reserve
   Board, Monetary Report to Congress, Appendix A, 2/24/2009, www.federalreserve.gov/monetarypolicy/mpr_20090225_appendixa.htm, accessed 5/14/2009.
aa
   Initial outlay peaked on 7/2/2008 at $29.8 billion. St. Louis Fed, www.research.stlouisfed.org/fred2/categories/32215/downloaddata, accessed 6/26/2009.
bb
   Week ending 1/7/2009: St. Louis Fed, www.research.stlouisfed.org/fred2/categories/32215/downloaddata, accessed 6/26/2009.
cc
   Federal Reserve Board, Monetary Report to Congress, Appendix A, 2/24/2009, www.federalreserve.gov/monetarypolicy/mpr_20090225_appendixa.htm, accessed 5/14/2009.
dd
   Week ending 12/24/2008: St. Louis Fed, www.research.stlouisfed.org/fred2/categories/32215/downloaddata.
ee
   Federal Reserve Board, Monetary Report to Congress, Appendix A, 2/24/2009, www.federalreserve.gov/monetarypolicy/mpr_20090225_appendixa.htm, accessed 5/14/2009.
ff
   Initial outlay of March 14–16, 2008; repaid on March 17, 2009; source: Federal Reserve, Report Pursuant to Section 129 of the Emergency Economic Stabilization Act of 2008: Bridge Loan to The Bear
   Stearns Companies Inc. Through JPMorgan Chase Bank, N.A., www.federalreserve.gov/monetarypolicy/files/129bearstearnsbridgeloan.pdf, accessed 6/11/2009.




Term Auction Facility (“TAF”) — Total Potential Support: Approximately
$900 Billion
The Term Auction Facility (“TAF”) allows banks to borrow funds simply by putting
up collateral. It is an alternative to the Federal Reserve’s discount window, which is
the means by which banks have historically raised funds in an emergency. Because
of its association with emergencies, borrowing at the discount window in the past
has carried a certain stigma. TAF, by contrast, is an ordinary lending program, and
its use is perceived less as a sign of weakness.
    TAF was created in December 2007 by the Federal Reserve Board of Governors
to meet the short-term liquidity needs of banks. The Federal Reserve claimed that
“by increasing the access of depository institutions to funding, the TAF has sup-
ported the ability of such institutions to meet the credit needs of their customers.”
    Technically, the funds are borrowed by banks in an auction that sets the inter-
est rate. The bank must be in “generally sound financial condition,” and it must
post collateral — such as high-quality notes — that are subject to certain haircuts.
Thus, a bank may borrow, for example, $0.92 after posting $1.00 worth of securi-
ties. The minimum interest rate a bank may bid is the interest rate paid by the
Federal Reserve on excess reserve balances. Typically, the Federal Reserve conducts
142                SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




 FIGURE 3.3
                                                                    regular auctions of 28- and 84-day funds for $150 billion at a time.324 Banks
 BANKS HAVE BORROWED FROM                                           may not necessarily have been using the funds they have borrowed from TAF to
 THE FEDERAL RESERVE — AND
                                                                    make new loans to consumers. According to the Federal Reserve’s weekly statisti-
 INCREASED THEIR RESERVES AT
 THE SAME TIME                                                      cal releases (Table Z.1 - Flow of Funds Accounts), the banks have, in aggregate,
 $ Billions                                                         been adding the cash to their reserves at the Federal Reserve. See Figure 3.3 for a
                                                                    comparison of bank borrowings from the Federal Reserve (which are predominantly
$1000                                                               through TAF), versus the cash that the banks have placed as reserves at the Federal
                                                                    Reserve.
  800


  600                                                               Primary Credit Program (the “Discount Program Modification”) — Total Potential
                                                                    Support: At Least $111.9 Billion
  400                                                               Primary credit loans are taken by banks at the Federal Reserve’s discount window
                                                                    when they require short-term funds to meet the needs of their customers and credi-
  200
                                                                    tors. Normally, the Federal Reserve lends at a fixed rate and the bank must post
     0                                                              suitable collateral, subject to a haircut. In August 2007, the Federal Reserve set the
          Q4        Q1       Q2        Q3        Q4        Q1
                                                                    term at 30 days and approved a 50-basis-point reduction in the primary credit rate
         2007                     2008                    2009
                                                                    to narrow the spread to 50 basis points, or 0.5%, in response to the liquidity crisis
           Federal Reserve Borrowing
           Bank Reserves                                            in the banking system. Accessibility was broadened in March 2008, as the interest
                                                                    rate was lowered to 25 basis points over the FOMC target federal funds rate, and
 Source: Federal Reserve Board, Statistical Release Z.1, “Flow of
 Funds Accounts of the United States,” Table L.108, 6/11/2009.
                                                                    the term has been lengthened from 30 to 90 days, renewable by the borrower.325

                                                                    Tri-Party Repurchase Agreements (“Repo’s”) — Total Potential Support:
                                                                    At Least $124.6 Billion
                                                                    According to the Federal Reserve, “repurchase agreements reflect some of the
                                                                    Federal Reserve’s temporary OMOs. Repurchase agreements are transactions in
                                                                    which securities are purchased from a primary dealer under an agreement to sell
                                                                    them back to the dealer on a specified date in the future. The difference between
                                                                    the purchase price and the repurchase price reflects an interest payment. The
                                                                    Federal Reserve may enter into repurchase agreements for up to 65 business days,
                                                                    but the typical maturity is between one and 14 days. Federal Reserve repurchase
                                                                    agreements supply reserve balances to the banking system for the length of the
                                                                    agreement. The Federal Reserve employs a naming convention for these transac-
                                                                    tions based on the perspective of the primary dealers: the dealers receive cash while
                                                                    the Federal Reserve receives the collateral.”326 In an effort to mitigate problems in
                                                                    certain Repo markets, on September 14, 2008, the Federal Reserve Board an-
                                                                    nounced that it would provide a “temporary exception to the limitations in section
                                                                    23A of the Federal Reserve Act” (which limits a bank’s credit exposure to its affili-
                                                                    ates).327 This exception “allows all insured depository institutions to provide liquid-
                                                                    ity to their affiliates for assets typically funded in the tri-party repo market.”328
                                                                                  QUARTERLY REPORT TO CONGRESS I JULY 21, 2009   143




Commercial Paper Funding Facility (“CPFF”) — Total Potential Support:
$1.8 Trillion
The Commercial Paper Funding Facility (“CPFF”) was created in October 2008
to provide an emergency source of funds (in the Federal Reserve’s terms, a “liquid-
ity backstop”)329 to U.S. corporations that borrow short-term funds by issuing
Commercial Paper (“CP”). CP is a short-term debt security used by corporations
to raise funds in what has historically been a liquid market. This market ceased to
function well in the fall of 2008, and the CPFF has played a role in assuring issuers
and investors in CP that they have a “buyer of last resort.” The CPFF, according
to the Federal Reserve Board’s February 24, 2009, Monetary Report to Congress,
“is intended to improve liquidity in short-term funding markets and thereby
increase the availability of credit for businesses and households.”330 Under CPFF,
the Federal Reserve Bank of New York (“FRBNY”) is committed to lending funds
as needed to a special purpose vehicle (“SPV”) that buys eligible CP from eligible
issuers. Eligible CP is U.S.-dollar-denominated CP or asset-backed CP rated at
least A-1/P-1/F1 (these are the top ratings of the different rating agencies). Eligible
issuers are U.S. corporations, including those with a foreign parent company. For
any given issuer, the SPV is limited to the maximum amount of CP that issuer had
outstanding between January 1 and August 31, 2008. Issuers must pay a fee to
FRBNY of 0.1% of the maximum amount of its CP the SPV could own. The CPFF
is scheduled to expire on February 1, 2010.331

Money Market Investor Funding Facility (“MMIFF”) — Total Potential Support:
$600 Billion
Money market funds are large investment funds that buy high-quality, short-term
debt instruments such as Treasury securities and high-quality bank and corporate
notes. Investors in money market funds want absolute safety for their principal and
fast access to funds. In turn, banks and other financial intermediaries depend on
the money market as a source of funds for their business and household customers.
In 2008, this market experienced the same liquidity problems as other markets —
that is, investors could not find buyers for securities they were seeking to sell when
needed.
    To meet this liquidity need, the Federal Reserve created the Money Market
Investor Funding Facility (“MMIFF”) on October 21, 2008. According to the
Federal Reserve Board’s Monetary Report to Congress, “the Federal Reserve Bank
of New York will provide senior secured funding to a series of SPVs to facilitate an
industry-supported private-sector initiative to finance the purchase of eligible assets
from eligible investors. Eligible assets include U.S. dollar-denominated certificates
of deposit and commercial paper issued by highly rated financial institutions and
having remaining maturities of 90 days or less.”332 The SPVs for the MMIFF are
similar to the SPV for CPFF in that they purchase eligible money market paper
144   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             using funds from MMIFF and asset-backed CP. FRBNY is committed to lending the
                                             SPVs 90% of the purchase price of eligible assets; sellers of assets to the SPV will
                                             receive that much in cash and the remaining 10% in asset-backed securities from the
                                             SPV.333 The MMIFF has not yet funded any purchases of money market instruments.
                                             Even without having advanced funds to the market, the program may be considered
                                             by the market to be working merely by its existence; investors are given the comfort
                                             that if they need it, it is available. The MMIFF SPVs are authorized through
                                             October 30, 2009.334

                                             Asset-Backed Commercial Paper Money Market Mutual Fund Liquidity Facility
                                             (“AMLF”) — Total Potential Support: At Least $145.9 Billion
                                             The Asset-Backed Commercial Paper Money Market Mutual Fund Liquidity Facility
                                             (“AMLF”) is designed to assist money market funds that hold asset-backed commer-
                                             cial paper (“ABCP”). Through the facility, the Federal Reserve provides non-recourse
                                             loans at the primary credit rate to U.S. depository institutions and bank holding
                                             companies to finance their purchases of high-quality ABCP from money market
                                             mutual funds. According to the Federal Reserve, AMLF is intended “to assist money
                                             funds that hold such paper in meeting demands for redemptions by investors and
                                             to foster liquidity in the ABCP markets and broader money markets.”335 The AMLF
                                             was initially authorized on September 19, 2008, and although originally scheduled to
                                             terminate in January 2009, has been subsequently extended by the Federal Reserve
                                             Board to February 1, 2010.336

                                             Term Securities Lending Facility (“TSLF”), and Term Securities Lending Facility
                                             Options Program (“TOP”) — Total Potential Support: $250 Billion
                                             In the securities markets, primary dealers are a group of securities broker-dealers who
                                             specialize in Treasury and Federal agency debt, and who have the right to trade di-
                                             rectly with the Federal Reserve System. They also participate directly in U.S. Treasury
                                             auctions. They are an important conduit for financial interactions between the
                                             Federal Government and the private markets. In early 2008, this dealer system was
                                             under increasing liquidity pressure, which the Federal Reserve addressed on March
                                             11, 2008, with the establishment of a Term Securities Lending Facility (“TSLF”).
                                             According to the Federal Reserve Board’s February, 2009 Monetary Report to
                                             Congress, “Under the TSLF, the Federal Reserve lends up to $200 billion of Treasury
                                             securities to primary dealers for a term of 28 days (rather than overnight, as in the
                                             regular securities lending program); the lending is secured by a pledge of other securi-
                                             ties.”337 The other securities that must be posted as collateral were broadened from
                                             the traditional eligible assets — Treasury and Federal agency securities, and AAA-
                                             rated private-label residential mortgage-backed securities (“RMBS”) — to include all
                                             investment-grade debt securities. TSLF makes securities available in weekly auctions.
                                             The program is scheduled to end on February 1, 2010.338
                                                                                  QUARTERLY REPORT TO CONGRESS I JULY 21, 2009   145




    An extension of the TSLF is the TSLF Options Program (“TOP”), described by
FRBNY as a program intended to “enhance the effectiveness of TSLF by offer-
ing added liquidity over periods of heightened collateral market pressures, such
as quarter-end dates.”339 The program “offers options on a short-term fixed rate
of [TSLF] bond-for-bond loan of general Treasury collateral against a pledge of
eligible collateral.”340 FRBNY’s Open Market Trading Desk will offer a total of
$50 billion in options for each targeted period.341 As of June 25, 2009, the TOP has
been suspended, although the Federal Reserve states that it is prepared to resume
TOP auctions “if warranted by evolving market conditions.”342

Expansion of System Open Market Account (“SOMA”) Securities Lending — Total
Potential Support: $32 Billion Increase in Funding
The System Open Market Account (“SOMA”) was started in 1969, and is man-
aged by FRBNY. The account contains dollar-denominated assets purchased in
open market operations,343 and is a “store of liquidity in the event an emergency
need for liquidity arises.”344 Borrowing is permitted “for the purpose of covering an
expected fail to receive on the part of a dealer. In order to prevent lending activity
from affecting reserves, Treasury securities, rather than cash, are posted with the
Federal Reserve as collateral.”345 In response to market pressures, the program was
expanded on September 23, 2008, to raise the current dealer aggregate limit from
$3 billion to $4 billion346 and raised again on October 8, 2008, to $5 billion per
dealer.347

Primary Dealer Credit Facility (“PDCF”) — Total Potential Support: At Least
$148 Billion
The Federal Reserve Board’s February 2009 Monetary Report to Congress states
that “to bolster market liquidity and promote orderly market functioning, on March
16, 2008, the Federal Reserve Board voted unanimously to authorize the Federal
Reserve Bank of New York to create a lending facility — the Primary Dealer Credit
Facility [“PDCF”] — to improve the ability of primary dealers to provide financing
to participants in securitization markets.”348 Loans are made to primary dealers,
against which they must post eligible collateral — the definition of which has been
expanded from all investment-grade securities to now include “all collateral eligible
for pledge in tri-party funding arrangements through the major clearing banks.
The interest rate charged on such credit is the same as the primary credit rate
at the Federal Reserve Bank of New York.”349 The first participants in the PDCF
were Merrill Lynch, Goldman Sachs, and Morgan Stanley; it was later expanded to
include other primary dealers. The program is scheduled to terminate on
February 1, 2010.350
146   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Purchases of Direct Obligations of GSEs — Total Potential Support: $200 Billion
                                             Government-Sponsored Enterprises (“GSEs”) are private corporations created by
                                             Congress to fulfill certain financial policy goals, primarily in the housing finance
                                             markets. The most prominent of these are Fannie Mae, Freddie Mac, and the
                                             FHLBs. As Fannie Mae and Freddie Mac in particular encountered difficulty rais-
                                             ing funds in 2008, their problems affected the housing markets in general, where
                                             these two agencies alone accounted for more than half of all financing.
                                                 To promote market functioning, the availability of credit, and support for the
                                             housing and mortgage markets, the Federal Reserve, on September 19, 2008, an-
                                             nounced that it would commence purchasing debt and other instruments of the
                                             GSEs though its Open Market Trading Desk; these purchases are made in com-
                                             petitive auctions through primary dealers.
                                                 On November 25, 2008, the Federal Reserve announced a program to purchase
                                             up to $100 billion in the GSEs’ direct obligations. Note that GSEs raise funds for
                                             mortgage lending in two ways — by direct borrowing or by guaranteeing third-party
                                             mortgage-backed securities (“MBS”). On March 18, 2009, the Federal Reserve’s
                                             FOMC increased the size of these lines to a total of $200 billion for direct
                                             obligations.351Although the direct borrowing line has been focused on fixed-rate,
                                             non-callable, senior benchmark securities of the GSEs, the Federal Reserve has
                                             stated that it may change the scope of its purchases in the future.

                                             Purchases of GSE-Guaranteed MBS — Total Potential Support: $1.25 Trillion
                                             In addition to purchasing the direct obligations of GSEs, the Federal Reserve is
                                             further supporting the mortgage markets by committing to purchase up to
                                             $1.25 trillion of MBS that have been guaranteed by the GSEs. This purchase line
                                             was originally announced on November 25, 2008, with a maximum purchase limit
                                             of $500 billion, but this amount was raised by $750 billion to $1.25 trillion on
                                             March 18, 2009.352

                                             Foreign Central Bank Currency Liquidity Swaps — Total Potential Support:
                                             $755 Billion
                                             On December 12, 2007, the FOMC announced that it had authorized dollar
                                             liquidity swap lines with the European Central Bank and the Swiss National Bank
                                             in order to “provide liquidity in U.S. dollars to overseas markets.”353 Since then, the
                                             program has expanded to include additional central banks.
                                                 The Federal Reserve describes the transactions as follows: “These swaps involve
                                             two transactions. When a foreign central bank draws on its swap line with the
                                             Federal Reserve, the foreign central bank sells a specified amount of its currency
                                             to the Federal Reserve in exchange for dollars at the prevailing market exchange
                                             rate. The Federal Reserve holds the foreign currency in an account at the foreign
                                             central bank. The dollars that the Federal Reserve provides are deposited in an
                                                                                   QUARTERLY REPORT TO CONGRESS I JULY 21, 2009   147




account that the foreign central bank maintains at the Federal Reserve Bank of
New York. At the same time, the Federal Reserve and the foreign central bank enter
into a binding agreement for a second transaction that obligates the foreign central
bank to buy back its currency on a specified future date at the same exchange rate.
The second transaction unwinds the first. At the conclusion of the second transac-
tion, the foreign central bank pays interest, at a market-based rate, to the Federal
Reserve.
     “When the foreign central bank lends the dollars it obtained by drawing on
its swap line to institutions in its jurisdiction, the dollars are transferred from the
foreign central bank’s account at the Federal Reserve to the account of the bank
that the borrowing institution uses to clear its dollar transactions. The foreign cen-
tral bank remains obligated to return the dollars to the Federal Reserve under the
terms of the agreement, and the Federal Reserve is not a counterparty to the loan
extended by the foreign central bank. The foreign central bank bears the credit risk
associated with the loans it makes to institutions in its jurisdiction.”354

Treasuries Purchase Program (“TPP”) — Total Potential Support: $300 Billion
On March 18, 2009, the FOMC announced that “to help improve conditions in
private credit markets, the [FOMC] Committee decided to purchase up to $300
billion of longer-term Treasury Securities over the next six months.”355 The Federal
Reserve states that the goal of TPP is “to provide support to mortgage and hous-
ing markets and to foster improved conditions in financial markets more generally”
by cheapening the yields of the longer-term Government securities which are the
benchmarks against which the rates of long-term loans, such as mortgages, are
set.356

Credit to American International Group, Inc. — Total Potential Support:
$122.5 Billion
The Federal Reserve Board’s Monetary Report to Congress states that “In early
September, the condition of American International Group, Inc. (“AIG”), a large,
complex financial institution, deteriorated rapidly. In view of the likely systemic
implications and the potential for significant adverse effects on the economy of a
disorderly failure of AIG, on September 16, the Federal Reserve Board, with the
support of Treasury, authorized the Federal Reserve Bank of New York to lend up
to $85 billion to the firm to assist it in meeting its obligations and to facilitate the
orderly sale of some of its businesses. This facility had a 24-month term, with inter-
est accruing on the outstanding balance at a rate of 3-month Libor plus 850 basis
points, and was collateralized by all of the assets of AIG and its primary non-regu-
lated subsidiaries. On October 8, the Federal Reserve announced an additional pro-
gram under which it would lend up to $37.8 billion to finance investment-grade,
fixed-income securities held by AIG. These securities had previously been lent by
148   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             AIG’s insurance company subsidiaries to third parties.”357 This facility was repaid
                                             in full and terminated on December 12, 2008.358 Subsequently, in November 2008,
                                             “Treasury, through TARP, purchased $40 billion of newly issued AIG preferred
                                             shares under the Systemically Significant Failing Institutions (“SSFI”) program.
                                             The $40 billion took some of the pressure off the first Federal Reserve line of
                                             credit, allowing the Federal Reserve to reduce from $85 billion to $60 billion the
                                             total amount available under the credit facility.”359 In addition to reducing the size
                                             of the line of credit, the Federal Reserve reduced the interest rate on the facility
                                             and extended the term of the facility from two years to five years.360 On
                                             March 2, 2009, the Federal Reserve announced authorization for new loans of up
                                             to an aggregate amount of approximately $8.5 billion to special purpose vehicles
                                             established by domestic life insurance subsidiaries of AIG that would be repaid by
                                             the net cash flows from designated blocks of life insurance policies held by the par-
                                             ent insurance companies.361

                                             Maiden Lane LLC (Bear Stearns) — Total Potential Support: $29.8 Billion
                                             In mid-March of 2008, Bear Stearns, a major investment bank and primary dealer,
                                             was in imminent danger of failure. According to the Federal Reserve Board’s
                                             February 2009 Monetary Report to Congress, “A bankruptcy filing would have
                                             forced the secured creditors and counterparties of Bear Stearns to liquidate un-
                                             derlying collateral, and given the illiquidity of markets, those creditors and coun-
                                             terparties might well have sustained substantial losses. If they had responded to
                                             losses or the unexpected illiquidity of their holdings by pulling back from providing
                                             secured financing to other firms and by dumping large volumes of illiquid assets
                                             on the market, a much broader financial crisis likely would have ensued. Thus,
                                             the Federal Reserve judged that a disorderly failure of Bear Stearns would have
                                             threatened overall financial stability and would most likely have had significant
                                             adverse implications for the U.S. economy.”362 To prevent a complete collapse of
                                             Bear Stearns, therefore, the Federal Reserve invoked its emergency authorities
                                             under Section 13(3) of the Federal Reserve Act to authorize a loan of $30 billion,
                                             secured by $30 billion in Bear Stearns’ assets, to be used by JPMorgan to purchase
                                             Bear Stearns and to assume the company’s financial obligations. A limited liability
                                             company, Maiden Lane LLC was formed to facilitate these arrangements, particu-
                                             larly to hold and manage certain assets. On June 26, 2008, JPMorgan completed
                                             the acquisition. Maiden Lane LLC purchased approximately $30 billion in Bear
                                             Stearns assets on that date with approximately $29 billion of funding from the
                                             Federal Reserve to Maiden Lane LLC and a subordinated loan of approximately $1
                                             billion from JPMorgan.363 Today, the Federal Reserve is managing the disposition of
                                             Bear Stearns’ assets.
                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 21, 2009   149




Maiden Lane II LLC and Maiden Lane III LLC (American International Group, Inc.)
— Total Potential Support: $22.5 Billion and $30.0 Billion, Respectively
The Federal Reserve Board’s April 2009 Monetary Report to Congress states that
“In November 2008, the Federal Reserve also announced plans to restructure its
lending related to AIG by extending credit to two newly formed limited liability
companies. The first, Maiden Lane II LLC, received a $22.5 billion loan from
the Federal Reserve and a $1 billion subordinated loan from AIG and purchased
residential mortgage-backed securities from AIG. As a result of these actions, the
securities lending facility established on October 8 was subsequently repaid and
terminated. The second new company, Maiden Lane III LLC, received a $30 bil-
lion loan from the Federal Reserve and a $5 billion subordinated loan from AIG
and purchased multi-sector collateralized debt obligations on which AIG ha[d] writ-
ten credit default swap contracts.”364 The Federal Reserve’s first quarterly report on
its credit and liquidity programs shows a decline in fair value on the assets held in
the AIG-related Maiden Lane facilities — a decline in fair value of $2.5 billion and
$6.4 billion, respectively, for Maiden Lanes II and III.365

Bridge Loan to JPMorgan Chase & Bear Stearns — Total Potential Support:
$12.9 Billion
According to the Federal Reserve, on March 14, 2008, FRBNY made an overnight
discount window loan of $12.9 billion to JPMorgan to facilitate its purchase of
Bear Stearns; this was done simultaneously, in a back-to-back transaction, to pro-
vide secured financing to Bear Stearns.366 The loan was repaid in full the following
Monday, March 17, 2008, “with interest of nearly $4 million.” The Federal Reserve
Board describes this decision to extend credit as “designed to provide funding to
Bear Stearns to meet its immediate liquidity needs for that day and to give the com-
pany and policymakers additional time to develop a more permanent solution to
the company’s severe liquidity pressures that threatened to cause its sudden default
and bankruptcy.”367

Federal Deposit Insurance Corporation
FDIC supports banks by insuring depositors against loss. Once depositors need not
worry about the financial health of any particular bank, the entire banking system
can avoid the destabilizing and dangerous potential for “runs on the bank” or other
precipitous withdrawals of funds. Historically a standby guarantor of deposits, the
current banking crisis has drawn FDIC into the business of direct guarantees of
debt instruments, investment funds, and asset values — businesses increasingly
150   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             distant from its core. Table 3.6 provides a summary of the key FDIC initiatives
                                             related to the financial crisis. As with the Federal Reserve, any of FDIC’s TARP-
                                             related programs such as its involvement in PPIP and the Asset Guarantee Program
                                             (“AGP”), are omitted from this discussion because they are already mentioned in
                                             Section 2: “TARP Overview” of this report.

                                             Enhanced FDIC Deposit Insurance — Total Potential Support: $700 Billion
                                             Since the 1980s, FDIC has insured deposits up to a maximum of $100,000 per
                                             depositor. In late 2008, in response to the liquidity crisis and uncertain solvency
                                             in the banking industry, FDIC received statutory authority to increase its coverage
                                             to $250,000 for individual accounts.368 FDIC states, “If a depositor’s accounts at
                                             one FDIC-insured bank or savings association total $250,000 or less, the deposits
                                             are fully insured. A depositor can have more than $250,000 at one insured bank
                                             or savings association and still be fully insured provided the accounts meet certain
                                             requirements.”369 According to FDIC, “the standard insurance amount of $250,000
                                             per depositor is in effect through December 31, 2013. On January 1, 2014, the
                                             standard insurance amount will return to $100,000 per depositor for all account


                                             TABLE 3.6

                                              NON-TARP GOVERNMENT SUPPORT OF THE FINANCIAL SECTOR
                                              FEDERAL DEPOSIT INSURANCE CORPORATION ($ BILLIONS)
                                                                                                                                                                        Total
                                                                                                                                                                    Potential
                                                                                                                                           Maximum                   Support
                                                                                                                          Current            Balance               Related to
                                              Program                                         Coverage                    Balance         6/30/2009                   Crisis*
                                              Enhanced Deposit Insurance
                                                                                              Depositors                         $—               $—                   $700.0b
                                              (to $250K/account)a
                                              Temporary Liquidity Guarantee
                                              Program - Debt Guarantees                       Banks                           345.8          345.8c                      940.0d
                                              (“TLGP - DGP”)
                                              Temporary Liquidity Guarantee
                                              Program - Transaction Account                   Depositors                          0.4            0.4e                    684.0f
                                              Guarantee Program (“TLGP - TAG”)
                                              Total                                                                        $346.2           $346.2                  $2,324.0

                                              Notes: Numbers affected by rounding.
                                              * Total Potential Support does not account for any collateral pledged.
                                              a
                                                As of 3/31/2009, the Deposit Insurance Fund (DIF) remained solvent and FDIC had yet to draw on any of the additional borrowing
                                              authority granted by Congress. FDIC, Chief Financial Officer’s Report to the Board, First Quarter 2009, www.fdic.gov/about/strate-
                                              gic/corporate/cfo_report_1stqtr_09/exec_summary.html, accessed 7/10/2009.
                                              b
                                                Estimate as of 12/31/2008. Congressional Budget Office, “The Budget and Economic Outlook: Fiscal Years 2009-2019, p. 41.
                                              c
                                                Federal Deposit Insurance Corporation, Monthly Reports on Debt Issuance Under the Temporary Liquidity Guarantee Program,
                                              5/31/2009, www.fdic.gov/regulations/resources/tlgp/reports.html, accessed 6/23/2009.
                                              d
                                                FDIC, Chief Financial Officer’s Report to the Board, Q4 2008, www.fdic.gov/about/strategic/corporate/cfo_report_4qtr_08/
                                              sum_trends_results.html, accessed 6/30/2009.
                                              e
                                                As of 3/31/2009, during 2008 FDIC paid out $70 million in guaranteed claims of depositors. FDIC, Chief Financial Officer’s
                                              Report to the Board, Q4 2008, www.fdic.gov/about/strategic/corporate/cfo_report_4qtr_08/sum_trends_results.html, accessed
                                              6/30/2009. During Q1 2009, FDIC paid out $323 million, www.fdic.gov/about/strategic/corporate/cfo_report_1stqtr_09/corp_
                                              fund_fin_statement.html, accessed 6/30/2009.
                                              f
                                                FDIC, Supervisory Insights, Summer 2009, p. 4, FDIC, Supervisory Insights, Summer 2009, p. 4, www.fdic.gov/regulations/
                                              examinations/supervisory/insights/sisum09/si_sum09.pdf, accessed 7/9/2009.
                                                                                   QUARTERLY REPORT TO CONGRESS I JULY 21, 2009   151




categories except IRAs and other certain retirement accounts, which will remain at
$250,000 per depositor.”370
   The Congressional Budget Office (“CBO”), in its “Budget and Economic
Outlook: Fiscal Years 2009 to 2019,” estimates that the temporary increase in the
limit of deposit insurance will “increase the amount of insured deposits by about
$700 billion, or 15 percent.”371 Claims on deposit insurance are paid by the Deposit
Insurance Fund (“DIF”), which is financed by fees levied on insured banks. In the
event that the funds available in the DIF should be insufficient to cover claims,
FDIC can borrow from Treasury (historically up to $30 billion, but recently in-
creased to $100 billion with a temporary authority up to $500 billion).372 As of the
end of March, 2009, FDIC had not borrowed from Treasury to cover any losses to
DIF.373

Temporary Liquidity Guarantee Program (Debt Guarantee Program) — Total
Potential Support: $940 Billion
The Temporary Liquidity Guarantee Program (“TLGP”) was established in October
2008 to address “disruptions in the credit market, particularly the interbank lend-
ing market, which reduced banks’ liquidity and impaired their ability to lend. The
goal of the TLGP is to decrease the cost of bank funding so that bank lending to
consumers and businesses will normalize.”374 The program “does not rely on the
taxpayer or the deposit insurance fund to achieve its goals;”375 rather, it is “entirely
funded by industry fees.”376 TLGP has two components, the debt guarantee pro-
gram (“DGP”) discussed in this paragraph and the Transaction Account Guarantee
(“TAG”) program described in the following paragraph. DGP provides an FDIC
guarantee of newly issued senior unsecured debt of depository institutions. The
goal of the DGP is to “create significant investor demand, and dramatically reduce
funding costs for eligible banks and bank holding companies.”377 FDIC-insured
institutions were automatically included in the program, but given the option not to
participate. Participating institutions may issue debt under the DGP until October
31, 2009, with the debt being guaranteed until “the earliest of the opt-out date,
the maturity of the debt, the mandatory conversion date for mandatory convertible
debt, or December 31, 2012.”378

Temporary Liquidity Guarantee Program (Transaction Account Guarantee
Program) — Total Potential Support: $684 Billion
On October 14, 2008, FDIC announced the temporary Transaction Account
Guarantee (“TAG”) program, which is the second component of the TLGP. It
provides depositors with “unlimited coverage for non-interest-bearing transac-
tion accounts if their bank is a participant in FDIC’s TLGP. Non-interest-bearing
checking accounts include Demand Deposit Accounts (“DDAs”) and any transac-
tion account that has unlimited withdrawals and that cannot earn interest. Also
152   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                           included are low-interest NOW [“Negotiable Order of Withdrawal”] accounts
                                                           that cannot earn more than 0.5% interest.”379 The program is scheduled to end on
                                                           December 31, 2009. On June 23, 2009, FDIC voted to seek comment on whether
                                                           to extend the TAG until June 30, 2010.380 As with the debt guarantee component,
                                                           FDIC-insured institutions were given the option not to participate in the TAG
                                                           program.

                                                           U.S. Department of the Treasury
                                                           Outside of TARP, Treasury is using its non-EESA resources and authorities to sup-
                                                           port a number of other programs for the benefit of the financial industry. EESA,
                                                           the legislation that created TARP, was not the first financial rescue act of Congress
                                                           in 2008. Prior to EESA, Congress passed the Housing and Economic Recovery
                                                           Act of 2008 (“HERA”) in July 2008. As such, many of Treasury’s earlier efforts at
                                                           restoring stability to the financial sector arose out of provisions in this law. Table
                                                           3.7 provides a summary of the key Treasury initiatives related to the financial crisis.

           TABLE 3.7

           NON-TARP GOVERNMENT SUPPORT OF THE FINANCIAL SECTOR — U.S. TREASURY                                                                      ($ BILLIONS)
                                                                                                                                                Maximum                Total Potential
                                                                                                                        Current              Balance as of           Support Related
           Program                                              Coverage                                                Balance               6/30/2009                     to Crisis*
           Money Market Mutual Fund (“MMMF”)
                                                                Money Market Mutual Funds                                      $—                           $—                  $3,355.3a
           Program
           GSE Preferred Stock Purchase
                                                                Fannie/Freddie; Housing Markets                              59.8                        59.8b                       400.0c
           Agreements (“PSPA”)
           GSE MBS Purchase Program                             Fannie/Freddie; Housing Markets                            145.7                        145.7d                       314.0e
           GSE Credit Facility Program                          Fannie/Freddie; Housing Markets                                 —                             —                        25.0f
           Other HERA/Treasury
                                                                Homeowners, Communities                                      19.0                         19.0                         19.0g
           (Tax Benefits and CDBG)
           Student Loan Purchases, and Asset-
                                                                Higher Education                                             32.6                         32.6h                      195.0i
           Backed Commercial Paper Conduitsc
           Potential International Fund Liabilities             International Agencies                                          —                             —                      100.0j
           Total                                                                                                         $257.1                       $257.1                    $4,408.3

           Notes: Numbers affected by rounding.
           *Total potential support does not account for any collateral pledged.
           a
              Per Treasury, the MMMF provided coverage to all participating money market mutual funds as of 9/19/2008. Treasury Press Release, “Treasury Announces Extension of Temporary
           Guarantee Program for Money Market Funds,” 3/31/2009, www.ustreas.gov/press/releases/tg76.htm, accessed 6/24/2009. The amount, $3.355 trillion, represents the total money
           market mutual funds outstanding at the end of Q3, 2008. Federal Reserve Board Statistical Release Z.1, Flow of Funds Accounts of the United States, 6/11/2009, Table L.206.
           b
             Data as of 4/16/2009. White House, FY 2010 Budget, www.whitehouse.gov/omb/budget/fy2010/assets/gov.pdf, accessed 6/25/2009.
           c
             Data as of 4/16/2009. White House, FY 2010 Budget, www.whitehouse.gov/omb/budget/fy2010/assets/gov.pdf, accessed 6/25/2009.
           d
             Treasury, Monthly Treasury Statement, May 2009, www.fms.treas.gov/mts/mts0509.pdf, accessed 6/25/2009.
           e
              Treasury, “Budget in Brief FY 2010,” www.ustreas.gov/offices/management/budget/budgetinbrief/fy2010/BIB-HousingGSE.pdf, accessed 6/25/2009; represents the sum of Trea-
           sury’s estimates for FY 2008, FY 2009, and FY 2010.
           f
             House Financial Services Committee, Summary of Key Provisions in HR 3221, Housing and Economic Recovery Act of 2008, www.financialservices.house.gov/FHA.html, accessed
           6/25/2009.
           g
             House Financial Services Committee, Summary of Key Provisions in HR 3221, Housing and Economic Recovery Act of 2008, www.financialservices.house.gov/FHA.html, accessed
           6/25/2009.
           h
             As of May 31, 2009. Treasury, Monthly Treasury Statement, May 2009, www.fms.treas.gov/mts/mts0509.pdf, accessed 7/2/2009.
           I
             Federal Register, “Vol. 74, No. 10, 1/15/2009, Notices; Department of Education Federal Family Education Loan Program,” http://federalstudentaid.ed.gov/ffelp/library/EA43FedReg.
           pdf, accessed 6/28/2009.
           j
             Treasury, “Fact Sheet: IMF Reforms and New Arrangements to Borrow,” 5/18/2009, www.treas.gov/press/releases/tg136.htm, accessed 6/25/2009.
                                                                                QUARTERLY REPORT TO CONGRESS I JULY 21, 2009   153




Money Market Mutual Fund (“MMMF”) Program — Total Potential Support:
$3.4 Trillion
Treasury initiated the temporary Money Market Mutual Fund (“MMMF”) guaran-
tee program on September 29, 2008. The stated intent was to address temporary
dislocations in credit markets by guaranteeing “the share price of any publicly
offered eligible money market mutual fund — both retail and institutional — that
applies for and pays a fee to participate in the program.”381 According to Treasury,
the program provided “coverage to shareholders for amounts that they held in par-
ticipating money market funds as of the close of business on September 19, 2008.
The guarantee will be triggered if a participating fund’s net asset value falls below
$0.995, commonly referred to as breaking the buck.”382
     Originally designed to last for three months, the program has been renewed and
extended by the Treasury Secretary to run until the close of business on September
18, 2009.383 Funding for the program was drawn not from TARP funds, but from
the Exchange Stabilization Fund, which was established by the Gold Reserve Act of
1934.384 The Exchange Stabilization Fund has assets of approximately $50 million,
and the total exposure of the MMMF program is theoretically approximately $3.4
trillion — the total amount of money market mutual funds outstanding as of the
third quarter of 2008, when the program was created.385

GSE Preferred Stock Purchase Agreements (“PSPA”) — Total Potential Support:
$400 Billion
HERA provided temporary authority for Treasury to purchase obligations of the
housing GSEs. In September 2008 FHFA, established under HERA to oversee
the housing GSEs, put Fannie Mae under Federal conservatorship, and Treasury
entered into a Preferred Stock Purchase Agreement (“PSPA”) with Fannie Mae
to make investments of up to $100 billion in senior preferred stock as required to
maintain positive equity.386 According to the White House’s FY 2010 budget docu-
ment, “On February 18, 2009, Treasury announced that the funding commitments
for the PSPA would be increased to $200 billion. As of April 16, 2009, Fannie Mae
has received $15.2 billion under the PSPA.”387 Similarly, in September 2008, FHFA
put Freddie Mac under Federal conservatorship and Treasury entered into a PSPA
with Freddie Mac to make investments of up to $100 billion in senior preferred
stock as required to maintain positive equity. On February 18, 2009, Treasury
announced that the funding commitments for the Freddie Mac PSPA would be
increased to $200 billion, the same as Fannie Mae’s commitment. As of April 16,
2009, Freddie Mac has received $44.6 billion under the PSPA.388According to
Treasury’s FY 2010 budget, “the function of the PSPAs is to instill confidence in
investors that Fannie Mae and Freddie Mac will remain viable entities critical to
the functioning of the housing and mortgage markets.”389
154   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             GSE MBS Purchase Program — Total Potential Support: $314 Billion
                                             HERA also gave Treasury the authority to purchase GSE MBS in the open mar-
                                             ket, and Treasury announced the program on September 7, 2008.390 According to
                                             Treasury’s FY 2010 budget, “The function of the GSE MBS Purchase Program is to
                                             help improve the availability of mortgage credit to American homebuyers and miti-
                                             gate pressures on mortgage rates. To promote the stability of the mortgage market,
                                             Treasury has purchased GSE MBS in the secondary market. By purchasing these
                                             guaranteed securities, Treasury sought to broaden access to mortgage funding for
                                             current and prospective homeowners as well as to promote market stability.”391

                                             GSE Credit Facility Program — Total Potential Support: $25 Billion
                                             The third Treasury program conducted under HERA relating to the GSEs is a
                                             program designed to “ensure credit availability to the housing GSEs by providing
                                             secured funding on an as-needed basis.”392 All of the GSEs (Fannie Mae, Freddie
                                             Mac, and the FHLBs) would be able to borrow under the program if needed until
                                             December 31, 2009. Treasury’s FY 2010 budget describes the program as one of
                                             short-term loans — less than one month but greater than one week — collateral-
                                             ized by MBS issued by Fannie Mae and Freddie Mac and advances made by the
                                             FHLBs; no loan can have a maturity date later than December 31, 2009.393

                                             Other HERA 2008 Programs — Total Potential Support: $19 Billion
                                             HERA focused on the early centers of the financial crisis — the home mortgage
                                             markets and the housing-related GSEs. Beyond the GSE programs, the other
                                             components pertaining to Treasury include measures to support home prices in
                                             general, and to support families and communities harmed by the mortgage market
                                             problems. Specifically, the act introduced $15 billion in homebuyer tax credits,
                                             extension of the property tax deduction to non-itemizing filers, as well as $4 billion
                                             in emergency assistance for neighborhood real estate market stabilization.394

                                             Joint Treasury/Department of Education Student Loan Programs —
                                             Total Potential Support: $195 Billion
                                             Treasury and the Department of Education have jointly announced four pro-
                                             grams to support the student loan markets, which have been affected by the
                                             credit crisis. The authority for these new programs is addressed in the Ensuring
                                             Continued Access to Student Loans Act of 2008. The first of these programs is
                                             the Participation Program, under which the Government will buy participations
                                             in pools of student loans. The second is the Purchase Program, through which
                                             the Government will purchase individual loans from lenders so that the lender’s
                                             balance sheets can be freed up to make new student loans. The third is the Short
                                             Term Purchase Program (“STPP”), which is a time extension of the Purchase
                                             Program. The fourth new program is the Asset-Backed Conduit Program (“ABCP”),
                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 21, 2009   155




under which the Government will issue forward commitments to purchase Federal
Family Educational Loan Program (“FFELP”) loans from qualified ABS issuers.395

Commitments to International Fund — Total Potential Support: $100 Billion
On April 2, 2009, President Obama secured an agreement to increase the
International Monetary Fund (“IMF”) New Arrangements to Borrow (“NAB”)
by up to $500 billion, of which the United States committed up to $100 billion.
According to Treasury, “expanding the NAB will ensure the IMF has adequate
resources to play its central role in resolving and preventing the spread of interna-
tional economic and financial crises. Large and urgent financing needs projected
for emerging markets and developing countries cannot be met from pre-crisis IMF
lending resources.”396

Other Federal Agencies Supporting Financial Markets
In addition to the Federal Reserve, Treasury, and FDIC, the Federal Government
operates a number of financial agencies, many of which are running their own
financial rescue programs as outlined in Table 3.8.

Federal Home Finance Agency (“FHFA”) — Fannie Mae and Freddie Mac —
Total Potential Support: $5.5 Trillion
FHFA was created on July 30, 2008, as part of HERA. The agency is an indepen-
dent regulator of certain housing-related GSEs.397 These institutions are Fannie
Mae, Freddie Mac, and the FHLBs. The financial markets have historically viewed
the GSEs as quasi-governmental, and awarded them high ratings and low borrow-
ing costs in the anticipation that the U.S. Government would bail them out if they
were ever in trouble.
    In August and September of 2008, Fannie and Freddie lost market confidence
as their losses grew and their financial situations became uncertain, and both had
difficulty raising funds. Instead of shutting down the companies, FHFA brought
them into Federal conservatorship and worked with Treasury and the Federal
Reserve to institute the various purchase and credit programs mentioned above.
By bailing out Fannie Mae and Freddie Mac, FHFA has reinforced the market’s
assumptions that the obligations of the GSEs are implied liabilities of the U.S.
Government.398 Outstanding debt obligations and MBS guarantees of those two
firms alone exceed $5.5 trillion.399

FHFA — Federal Home Loan Banks (“FHLBs”) — Total Potential Support:
$1.3 Trillion
The Federal Home Loan Banks (“FHLBs”) are a system of 12 regional banks from
which local lending institutions borrow funds to finance housing and other lending.
The FHLBs are organized as member-owned cooperatives, focused on providing
156   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             TABLE 3.8

                                             NON-TARP GOVERNMENT SUPPORT OF THE FINANCIAL SECTOR
                                             OTHER FEDERAL HOUSING AND FINANCIAL SYSTEM SUPPORT ($ BILLIONS)
                                                                                                                                                                           Total
                                                                                                                                                                       Potential
                                                                                                                                                 Maximum                Support
                                                                                                                              Current         Balance as of           Related to
                                            Agency / Program                                   Coverage                       Balance          6/30/2009                 Crisis*
                                            FHFA —
                                                                                               Fannie Mae and
                                            Fannie Mae / Freddie                                                                     $—                      $—        $5,500.0b
                                                                                               Freddie Mac
                                            Mac Conservatorshipa
                                            FHFA — Implied Guarantee                           Federal Home
                                                                                                                                       —                       —         1,300.0b
                                            of FHLB liabilitiesa                               Loan Banks
                                            National Credit Union Administration
                                            (“NCUA”)
                                            Temporary Corporate Credit Union     Credit Unions                                      15.2                   15.2d              15.2
                                            Liquidity Guarantee Program
                                            (“TCCULGP”)c
                                            NCUA Homeowners Affordability
                                            Relief Program (“HARP”) and Credit
                                                                                               Credit Unions                         8.4                    8.4e              41.0f
                                            Union System Investment Program
                                            (“CU SIP”)
                                            Increase in Guarantees by Govern-
                                                                                               Mortgage
                                            ment National Mortgage Assoc.                                                         149.2                   149.2             149.2h
                                                                                               Lenders
                                            (“GNMA”)g
                                            Increase in Guarantees by Federal                  Mortgage
                                                                                                                                  134.5                   134.5             134.5i
                                            Housing Authority (“FHA”)g                         Lenders
                                            Increase in Guarantees by Dept. of                 Mortgage
                                                                                                                                    10.6                    10.6              10.6j
                                            Veterans Affairs (“VA”)g                           Lenders
                                            Total                                                                              $317.9                  $317.9         $7,150.5
                                            Notes: Numbers affected by rounding.
                                            *Total potential support does not account for any collateral pledged.
                                            a
                                               These obligations have been viewed as enjoying an “implied” guarantee because of historical U.S. Government involvement and sup-
                                            port. In 2001, the CBO stated: “CBO attributes the greater liquidity of GSE securities over those of other financial firms to the implicit
                                            guarantee, much as the Government guarantee of Treasury securities is often cited as the reason for their liquidity.” Congressional
                                            Budget Office, “Federal Subsidies and the Housing GSEs, Appendix A: Responses to Analyses of the Congressional Budget Office’s 1996
                                            Subsidy Estimates,” 5/2001, www.cbo.gov/doc.cfm?index=2841&type=0&sequence=7, accessed 7/1/2009.
                                            b
                                              Federal Housing Finance Agency (FHFA), “The Housing GSE’s”, Presentation by James Lockhart, Executive Director, 12/10/2008,
                                            www.fhfa.gov/webfiles/216/WHF121008webversion.pdf, accessed 6/28/2009.
                                            c
                                              Does not include impact of deposit insurance increase to $250,000.
                                            d
                                              NCUA, Preliminary NCUA Financial Highlights, 3/31/2009, www.ncua.gov/Resources/Reports/ncusif/2009/Mar09PRELIMNETREPORT.
                                            pdf, accessed 6/28/2009.
                                            e
                                              NCUA, “Statement of Michael E. Fryzel, Chairman, National Credit Union Administration, on ‘HR 2351, The Credit Union Share Insurance
                                            Stabilization Act,” 5/20/2009, www.house.gov/apps/list/hearing/financialsvcs_dem/fryzel_testimony.pdf, accessed 7/14/2009.
                                            f
                                              Congressional Budget Office, “The Budget and Economic Outlook – Fiscal Years 2009 and 2010,”January 2009.
                                            g
                                              Represents increase in 2008 over 2007.
                                            h
                                              GNMA, Report to Congress, Fiscal Year 2008, 11/7/2008, www.ginniemae.gov/reporttocongress/, accessed 6/28/2009.
                                            i
                                              Federal Housing Administration, “Message from the Chief Financial Officer,” p. 323, 11/17/2008, fhasecure.gov/offices/cfo/reports/
                                            section3.pdf, accessed 6/28/2009.
                                            j
                                              White House, Budget FY 2009 – Department of Veterans Affairs, www.whitehouse.gov/omb/budget/fy2009/veterans.html, accessed
                                            6/28/2009.
                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 21, 2009   157




low-cost funding for their members. According to the Council of Federal Home
Loan Banks, the FHLBs provide financing to approximately 80% of U.S. lending
institutions.400
    It is true that FHFA, and by extension Treasury, do not have full legal liability
for all of Fannie Mae’s and Freddie Mac’s losses, but it has created a very strong
implied guarantee by taking responsibility for the entities and increasing their
participation in the financial markets, instead of closing them. By bailing out
Fannie Mae and Freddie Mac, the FHFA creates an assumption in the market that
it would do the same for the FHLBs. The FHLBs have total liabilities of approxi-
mately $1.3 trillion.401

NCUA — Temporary Corporate Credit Union Liquidity Guarantee Program
(“TCCULGP”) — Total Potential Support: $15.2 Billion
The National Credit Union Administration (“NCUA”) essentially acts as the FDIC
of the nation’s credit unions. The independent agency charters and supervises cred-
it unions, as well as insures their depositors (technically, “shareholders”) against
loss through the National Credit Union Share Insurance Fund (“NCUSIF”).402 As
of March 31, 2009, NCUA insured approximately $612 billion of deposits.403
    NCUA has initiated several programs to address financial system difficulties,
in addition to its normal deposit insurance programs. The first is the Temporary
Corporate Credit Union Liquidity Guarantee Program (“TCCULGP”), under
which NCUA insures the senior unsecured debt of member institutions experi-
encing temporary liquidity difficulties.404 On May 21, 2009, the TCCULGP was
extended to June 30, 2010, for new issuances, with the debt being guaranteed until
June 30, 2017. Further, the guaranteed debt limit was revised to “the greater of:
1) 100% of maximum unsecured debt obligations outstanding from September 30,
2007, to September 30, 2008, limited to no more than $10 billion, 2) amount ap-
proved by the Office of Corporate Credit Unions not to exceed the greater of $100
million or 5% of liabilities and shares.”405 As of April 21, 2009, there were
23 corporate credit unions participating in the program.406

NCUA Homeowners Affordability Relief Program (“HARP”) and Credit Union
System Investment Program (“CU SIP”) — Total Potential Support: $41 Billion
The other major financial rescue programs initiated by NCUA were the
Homeowners Affordability Relief Program (“HARP”)407 and the Credit Union
System Investment Program (“CU SIP”).408 These programs intend to help mem-
bers avoid delinquency and default (HARP) and increase the liquidity in the credit
union system (CU SIP).
158   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Government National Mortgage Association (“GNMA”) — Total Potential Support:
                                             $149.2 Billion
                                             GNMA guarantees investors the timely payment of principal and interest on MBS
                                             backed by Federally insured or guaranteed loans, thus helping to provide liquid-
                                             ity to the housing markets. The largest housing agency that supplies mortgages
                                             to GNMA-backed MBS is the Federal Housing Administration (“FHA”). Other
                                             Federal mortgage programs participating in GNMA’s programs include those of the
                                             Veteran’s Administration.409 The guarantees are thus redundant, in the sense that
                                             another Federal program is already insuring much of the principal amount, but
                                             the ultimate potential losses to the Federal Government depend on the particulars
                                             of the individual losses. Outstanding single-family guarantees in September 2008
                                             were $537.3 billion, and outstanding multi-family guarantees were $39.4 billion.
                                             Collectively, those amounts were up $149.2 billion in 2008 as the private financial
                                             sector lost its ability to absorb them.410

                                             Federal Housing Administration (“FHA”) — Total Potential Support: $134.5 Billion
                                             FHA provides home mortgage insurance to lenders; if the borrower should fail to
                                             make payments and goes into foreclosure, FHA will insure the lender against most
                                             of its losses. FHA is the oldest of the Federal housing agencies. In 2008, it had
                                             outstanding liabilities of more than $576.4 billion in single-family and multi-family
                                             mortgage programs, an increase of $134.5 billion from the previous year.411

                                             Department of Veterans Affairs (“VA”) Home Loan Guarantee Program —
                                             Total Potential Support: $10.6 Billion
                                             The Department of Veterans Affairs (“VA”) runs a mortgage guarantee program
                                             similar to FHA’s, but limited to veterans of the U.S. military. VA’s programs pro-
                                             vide 100% financing (that is, there is no down payment required).412 There were
                                             estimated to be nearly $35 billion in VA loans outstanding in 2008, an increase of
                                             nearly $11 billion (44%) over the previous year.413
              TARP OPERATIONS AND
S ECT ION 4
              ADMINISTRATION
160   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                                                    QUARTERLY REPORT TO CONGRESS I JULY 21, 2009   161




Under the Emergency Economic Stabilization Act of 2008 (“EESA”), Congress
authorized the Treasury Secretary to take such actions as necessary to build
the operational and administrative infrastructure to support the Troubled Asset
Relief Program (“TARP”) activities. EESA authorized the establishment of an
Office of Financial Stability (“OFS”) within the U.S. Department of the Treasury
(“Treasury”) to be responsible for the administration of TARP. 414 Treasury has the
authority to establish program vehicles, issue regulations, directly hire or appoint
employees, enter into contracts, and designate financial institutions as financial
agents of the Federal Government.415 In addition to using permanent and interim
staff, OFS relies on contractors and financial agents in legal, investment consult-
ing, accounting, and other key service areas.416



TARP ADMINISTRATIVE AND PROGRAM
EXPENDITURES
Treasury stated that it had incurred $27.5 million in TARP-related administrative
expenditures through June 30, 2009.417 Table 4.1 summarizes these expenditures,
as well as additional obligations through June 30, 2009. The majority of these costs
are allocated to Personnel Services and Non-Personnel Other Services.

TABLE 4.1

TARP ADMINISTRATIVE EXPENDITURES AND OBLIGATIONS ($MILLIONS)
                                                        Obligations for Period   Expenditures for Period
Budget Object Class Title                                 Ending 6/30/2009           Ending 6/30/2009
Personnel Services
Personnel Compensation & Services                                 $7,897,655                 $7,186,531
Total Personnel Services                                         $7,897,655                 $7,186,531


Non-Personnel Services
Travel & Transportation of Persons                                  $107,630                    $75,975
Transportation of Things                                               24,105                       105
Rents, Communications, Utilities & Misc.
                                                                       80,659                    30,435
Charges
Printing & Reproduction                                                   395                       395
Other Services                                                    54,516,949                 19,953,191
Supplies & Materials                                                   81,783                    81,783
Equipment                                                            222,966                    217,857
Land & Structures                                                          —                         —
Total Non-Personnel Services                                    $55,034,487                $20,359,741


Grand Total                                                     $62,932,142                $27,546,272

Note: Numbers affected by rounding.

Source: Treasury, response to SIGTARP data call, 7/8/2009.
162   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                 Additionally, Treasury has released details of programmatic expenditures. These
                                             expenditures include costs to hire financial agents and legal firms associated with
                                             TARP operations. Treasury shows the allocation of these programmatic costs at
                                             $64 million as of June 30, 2009.418
                                                 TARP operations are projected to cost approximately $175 million for fis-
                                             cal year 2009.419 These costs are not reflected in determining any gains or losses
                                             on the TARP-related transactions and are not included in the $699 billion limit
                                             on asset purchases. Therefore, these expenditures will add to the Federal budget
                                             deficit regardless of whether the TARP transactions result in a gain or a loss for the
                                             Government.420



                                             CURRENT CONTRACTORS AND FINANCIAL
                                             AGENTS
                                             As of June 30, 2009, Treasury had retained 45 outside contractors, including 4
                                             asset managers, to provide a range of services to assist in administering TARP. As
                                             permitted in EESA, Treasury has used streamlined solicitation procedures and has
                                             structured several agreements and contracts to allow for flexibility in obtaining
                                             the required services expeditiously. Table 4.2 lists outside vendors as of June 30,
                                             2009.421
                                                As required by EESA, SIGTARP must report the biographical information for
                                             each person or entity hired to manage the troubled assets associated with TARP.422
                                             Since the publication of SIGTARP’s April Quarterly Report, there have been four
                                             important staff- or contractor- related developments at OFS:

                                             •   confirmation of a new Assistant Secretary of the Treasury for Financial Stability
                                             •   appointment of a Special Master for TARP Executive Compensation
                                             •   creation of a Treasury position for restructuring/exit strategy
                                             •   appointment of three asset managers

                                             Assistant Secretary
                                             On June 19, 2009, Herbert Allison was confirmed by the U.S. Senate to be the
                                             Assistant Secretary of the Treasury for Financial Stability, replacing Neel Kashkari,
                                             who served on an interim basis.423 In this role, Mr. Allison is responsible for “de-
                                             veloping and coordinating Treasury’s policies on legislative and regulatory issues
                                             affecting financial stability, including overseeing the Troubled Asset Relief Program
                                             (TARP).”424 He will also have the title of Counselor to the Secretary.

                                             Special Master for TARP Executive Compensation
                                             On June 10, 2009, the President announced plans to appoint Kenneth Feinberg as
                                             the Special Master for TARP Executive Compensation, to “ensure compensation
                                                                         QUARTERLY REPORT TO CONGRESS I JULY 21, 2009   163




TABLE 4.2

OUTSIDE VENDORS
Date         Vendor                                        Purpose                            Type of Transaction*
10/10/2008   Simpson, Thacher & Bartlett                   Legal Services                     BPA
10/11/2008   EnnisKnupp                                    Investment and Advisory Services   BPA
10/14/2008   Bank of New York Mellon                       Custodian and Cash Management      Financial Agent
10/16/2008   PricewaterhouseCoopers                        Internal Control Services          BPA
10/18/2008   Ernst & Young                                 Accounting Services                BPA
10/23/2008   GSA – Turner Consulting**                     Archiving Services                 IAA
10/29/2008   Hughes Hubbard & Reed                         Legal Services                     BPA
10/29/2008   Squire Sanders & Dempsey                      Legal Services                     BPA
10/31/2008   Lindholm & Associates**                       Human Resources Services           Contract
11/7/2008    Thacher Proffitt & Wood***                    Legal Services                     BPA
11/14/2008   Securities and Exchange Commission            Detailees                          IAA
11/14/2008   CSC Systems and Solutions                     IT Services                        Procurement
12/3/2008    Trade and Tax Bureau – Treasury               IT Services                        IAA
12/5/2008    Department of Housing and Urban Development   Detailees                          IAA
12/5/2008    Washington Post                               Vacancy Announcement               Procurement
12/10/2008   Thacher Proffitt & Wood***                    Legal Services                     BPA
12/12/2008   Pension Benefit Guaranty Corporation          Legal Services                     IAA
12/15/2008   Office of Thrift Supervision                  Detailees                          IAA
12/24/2008   Cushman and Wakefield of VA, Inc.             Painting                           Procurement
1/6/2009     Office of the Comptroller of the Currency     Detailees                          IAA
1/7/2009     Colonial Parking                              Parking                            Procurement
1/9/2009     Internal Revenue Service                      Detailees                          IAA
1/27/2009    Cadwalader Wickersham & Taft, LLP             Legal Services                     BPA
1/27/2009    Whitaker Brothers Bus. Machines               Office Machines                    Procurement
2/2/2009     Government Accountability Office              Oversight                          IAA
2/9/2009     Pat Taylor and Associates, Inc.**             Temporary Employee Services        Contract
2/12/2009    Locke Lord Bissell & Lidell LLP               Legal Services                     Contract
2/18/2009    Freddie Mac                                   Homeownership Program              Financial Agent
2/18/2009    Fannie Mae                                    Homeownership Program              Financial Agent
2/20/2009    Congressional Oversight Panel                 Oversight                          IAA
2/20/2009    Simpson, Thacher & Bartlett                   Legal Services                     Contract
2/22/2009    Venable LLP                                   Legal Services                     Contract
3/6/2009     Boston Consulting Group                       Management Consulting Support      Contract
3/16/2009    EARNEST Partners                              Asset Management Services          Financial Agent
3/23/2009    Heery International Inc.                      Architects                         Procurement
3/30/2009    McKee Nelson, LLP                             Legal Services                     Contract
3/30/2009    Sonnenschein Nath & Rosenthal                 Legal Services                     Contract
3/30/2009    Cadwalader Wickersham & Taft, LLP             Legal Services                     Contract
3/30/2009    Haynes and Boone LLP                          Legal Services                     Contract
3/31/2009    FI Consulting**                               Modeling and Analysis              BPA
                                                                                              Continued on next page.
164    SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      OUTSIDE VENDORS (CONTINUED)
      Date                  Vendor                                                          Purpose                     Type of Transaction*
      4/3/2009              American Furniture Rentals**                                    Office Furniture            Procurement
      4/17/2009             Herman Miller                                                   Office Furniture            Procurement
      4/17/2009             Bureau of Printing and Engraving                                Detailee                    IAA
      4/21/2009             AllianceBernstein                                               Asset Management Services   Financial Agent
      4/21/2009             FSI Group                                                       Asset Management Services   Financial Agent
      4/21/2009             Piedmont Investment Advisors                                    Asset Management Services   Financial Agent
      5/14/2009             Phacil Inc.**                                                   FOIA Services               Contract
      5/26/2009             Anderson, McCoy & Orta, LLP**                                   Legal Services              Contract
      5/26/2009             Simpson, Thacher & Bartlett                                     Legal Services              Contract
      6/8/2009              Department of Interior                                          IT Services                 IAA
      6/29/2009             Department of Interior                                          Website Testing             IAA

      Notes:
      *IAA = Inter-Agency Agreement, BPA = Blanket Purchase Agreement.
      **Small or Women/Minority-Owned Small Business.
      ***Contract responsibilities assumed by Sonnenschein Nath & Rosenthal via novation.

      Source: Treasury, response to SIGTARP data call, 7/8/2009.




                                                              plans are consistent with the public interest.”425 As mentioned previously in
                                                              the “Executive Compensation” discussion in Section 2: “TARP Overview,” Mr.
                                                              Feinberg, whose mediation experience includes acting as the Special Master of the
                                                              September 11th Victim Compensation Fund, “will review payments and compen-
                                                              sation plans for the executives and the 100 most highly compensated employees
                                                              of TARP recipients that have received exceptional assistance to ensure that com-
                                                              pensation is structured in a way that gives those employees incentives to maximize
                                                              long-term shareholder value and protect taxpayer interests.”426 Companies receiv-
                                                              ing exceptional financial assistance include those receiving assistance under the
                                                              Systemically Significant Failing Institutions (“SSFI”), the Targeted Investment
                                                              Program (“TIP”), and the Automotive Industry Financing Program (“AIFP”), and
                                                              currently include the American International Group (“AIG”), Citigroup, Bank of
                                                              America, Chrysler, General Motors (“GM”), GMAC and Chrysler Financial.

                                                              Restructuring/Exit Strategy
                                                              On May 18, 2009, Treasury announced the hiring of Jim Millstein as its Chief
                                                              Restructuring Officer, within OFS. Mr. Millstein, whose restructuring experience
                                                              included 28 years of advisory work as a lawyer and as an investment banker, has
                                                              taken the lead in managing Treasury’s investment in AIG and other significant
                                                              investments and in developing exit strategies for Treasury from these investments
                                                              over time.

                                                              Asset Managers
                                                              On April 22, 2009, Treasury announced the selection of three firms to manage its
                                                              portfolio of assets issued by banks and other institutions participating in the Capital
                                                              Purchase Program (“CPP”) and other TARP programs. The assets to be managed
                                                              include senior preferred shares, senior debt, equity warrants, and other equity and
                                                                                     QUARTERLY REPORT TO CONGRESS I JULY 21, 2009   165




debt obligations. Following a review of more than 200 submissions from interested
firms, Treasury selected AllianceBernstein L.P., FSI Group, LLC, and Piedmont
Investment Advisors, LLC for agreements valid until April 20, 2014.427 According
to OFS, AllianceBernstein is a leading global investment management firm that
offers “high-quality research and diversified investment services to institutional
clients, individuals and private clients in major markets around the world.”428 The
firm is, headquartered in New York City and employs more than 500 investment
professionals with expertise in growth equities, value equities, fixed-income securi-
ties, blend strategies and alternative investments.429
    According to OFS, FSI Group operates a “multi-strategy investment platform
focused on opportunities in the financial services sector.”430 The firm is based in
Cincinnati and specializes in financing and investing in banks, thrifts, insurance
companies, Real Estate Investment Trusts (“REITs”), real estate operating compa-
nies and other financial services firms.
    According to OFS, Piedmont Investment Advisors, LLC is a money manage-
ment firm specializing in “core equity and fixed-income management.”431 The firm
was founded in August 2000 and is based in Durham, North Carolina.

Responsibilities
The three asset management firms have each been assigned a representative
cross-section of Treasury holdings, weighted towards the specialty of each firm.
AllianceBernstein has been allocated assets relating to 390 of the 644 financial in-
stitutions in OFS’s portfolio, a broad mix of holdings diversified along institutional
size and geographic lines.432 FSI Group was allocated 184 institutions, weighted
towards small, publicly held, local institutions.433 Piedmont was allocated 70 insti-
tutions, weighted towards the larger institutions, given their specialty in macro-level
analysis.434
     The firms will all employ a “buy-and-hold” management approach, focusing on
the policy goal of market stability over the typical asset manager goals of diver-
sification and return on investment.435 The asset managers will conduct analysis
and ongoing valuation of the Treasury holdings in their portfolios on behalf of
Treasury and the taxpayers, and advise Treasury on management of the accounts
and “strategy and optimal timing to execute warrants or monetize preferred shares
and other equity securities or debt obligations, consistent with both the duty to the
taxpayer and the goal of market stability,” as well as strategies relating to corporate
actions (i.e., proxies, disclosures, mergers/acquisitions, de-listings, etc.).436 However,
the managers will not execute any transactions unless specifically instructed by
OFS.437 Should OFS request a trade or transaction, the asset managers will advise
Treasury on its disposition strategy and negotiate with broker/dealers to achieve
166            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      results “consistent with best execution at the most favorable prices reasonably
                                                      obtainable.”438
      Index Fund: Portfolio that tracks an                Given their buy-and-hold strategy, OFS intends to compensate the asset manag-
      established index, and thus requires            ers with fees consistent with an index fund manager. OFS will pay a fee of approxi-
      minimal research on the part of the             mately 3 basis points (0.03%) of the asset manager’s portfolio per quarter.439
      asset manager — typically providing a
      lower management fee structure.
                                                      Key Deliverables and Compliance Roles
                                                      Each of the asset managers will provide several deliverables as well as regular com-
                                                      pliance information to OFS, including:440
                                                      • monthly valuations of preferred shares and warrants for the financial institu-
                                                          tions assigned to the asset manager
                                                      • detailed cash flow projections for each security held
                                                      • monthly yield and maturity probability matrices
                                                      • IT security report
                                                      • annual certification
                                                      • annual SAS 70
                                                      • quarterly disclosure on organizational conflicts of interest
                                                      • quarterly disclosure on personal conflicts of interest
                                                      • certification of communications with Treasury employees
                                                      • quarterly confidentiality certification
                                                      • quarterly compliance reports
                                                      • quarterly disclosure of revenue-sharing agreements

                                                      Conflict Mitigation
                                                      Treasury has identified several potential conflicts of interest on the part of the asset
                                                      managers, ranging from the potential of TARP institutions being clients of the as-
                                                      set manager to the individual fund managers potentially owning shares of stock in
                                                      institutions that have received TARP funds, among others, and has adopted mitiga-
                                                      tion plans that address these conflicts. Treasury recognizes that its decisions to sell
                                                      off portions of its portfolio represent material non-public information that cannot
                                                      be shared by the particular individuals working on the Treasury portfolios with
                                                      other members of the asset management firm. To address these concerns, Treasury
                                                      has required each asset manager to “wall off” or segregate the employees who
                                                      receive this information.441 These ethical walls are intended to keep Treasury’s sell
                                                      or warrant execution decisions confidential so that other parts of the firm are not
                                                      made aware of, and therefore cannot profit from, this potentially market-moving
                                                      information. To further segregate the TARP-related information, OFS has required
                                                      an IT barrier that will prevent this confidential information from being electroni-
                                                      cally accessed by others in the firm.442
                                                                                  QUARTERLY REPORT TO CONGRESS I JULY 21, 2009           167




Valuation Methodology
The asset managers will provide monthly valuation reports to OFS regarding
their view of the fair market value of the assets in their respective portfolios. OFS          Fair Market Value: The price that a
                                                                                               knowledgeable buyer and a knowledge-
will also prepare audited annual financial statements that will use a net present
                                                                                               able seller would be able to agree upon
value (“NPV”) valuation of the assets, as is required for annual statements for
                                                                                               in the open market, provided that both
Government agencies under the Federal Credit Reform Act of 1990.443 The asset
                                                                                               have access to sufficient information.
managers are working with Treasury and each other to develop a uniform template
in order for the valuations provided by each asset manager to be consistent and to             Net Present Value (“NPV”): The present
minimize any difference in approaches among the firms.444                                      value of the estimated future cash
                                                                                               inflows minus the present value of the
                                                                                               cash outflows.
CONFLICTS OF INTEREST
Within the framework of TARP procurement and contracting, actual or potential
conflicts of interest (“COIs”) can exist at the organizational level or pertain to an
individual employee. EESA provides the Treasury Secretary the authority to issue
regulations or guidelines necessary to address and manage, or to prohibit, COI that
can arise in connection with the administration and execution of TARP.445
    TARP-related COI may occur due to a variety of situations, such as when
retained entities perform similar work for Treasury and other clients. In these situa-
tions, contracted entities may find that their duty to certain clients may impair their
objectivity when advising Treasury or may affect their judgment about the proper
use of nonpublic information. Conflicts may also arise from the personal inter-
ests of individuals employed by retained entities. Accordingly, Treasury has issued
interim guidelines to address potential COI.446
    These interim COI rules require interested contractors to provide sufficient
information to evaluate the potential for organizational COI and plans to mitigate
them.447 The mitigation plan then becomes a binding term of the contract ar-
rangement. On potential personal COI, the provisions require that managers and
employees of a hired entity disclose any financial holdings or personal and familial
relationships that could impair their objectivity.448
    Financial agents and contractors have identified potential COI, and these
parties have proposed solutions to mitigate the identified conflicts. In response to
recommendations made to Treasury by the Comptroller General,449 Treasury has
taken steps to formalize its oversight and monitoring of potential COI.450
168   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
S ECT I O N 5   SIGTARP RECOMMENDATIONS
170   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                                QUARTERLY REPORT TO CONGRESS I JULY 21, 2009   171




One of the responsibilities of the Office of the Special Inspector General for the
Troubled Asset Relief Program (“SIGTARP”) is to provide recommendations to
the U.S. Department of the Treasury (“Treasury”) so that Troubled Asset Relief
Program (“TARP”) initiatives can be designed or modified to facilitate transparency
and effective oversight and prevent fraud, waste, and abuse. SIGTARP has made
such recommendations in both its Initial Report to Congress, dated February 6,
2009 (the “Initial Report”), and its April Quarterly Report to Congress, dated April
21, 2009 (the “April Quarterly Report”). This section sets forth SIGTARP’s new or
ongoing recommendations and summarizes Treasury’s responses to prior recom-
mendations. Appendix G sets forth Treasury’s written responses to prior SIGTARP
recommendations.


RECOMMENDATIONS RELATING TO THE
PUBLIC-PRIVATE INVESTMENT PROGRAM
The Public-Private Investment Program (“PPIP”) is a program in which
Government funds will be invested side-by-side with private investor equity to
purchase legacy assets, including the “toxic” assets widely believed to be one of the
root causes of the current financial crisis. The aspect of PPIP that has proceeded
the furthest toward implementation thus far is the Treasury-led Legacy Securities
Program. As discussed more fully in Section 2 of this report, under the Legacy
Securities Program, Treasury, through an application process, has pre-qualified
fund managers to manage Public-Private Investment Funds (“PPIFs”). The fund
managers will raise private capital for equity participation in the PPIF that will be
matched, dollar-for-dollar, with TARP funds. The PPIF will then be able either to
obtain non-recourse financing in TARP funds of up to 100% of the amount of total
equity or access even greater non-recourse financing from the Federal Reserve
through the Term Asset-Backed Securities Loan Facility (“TALF”) for purchase of
TALF-eligible assets. The fund manager, who earns a fee both from Treasury and
from the private investors, will then use the money to purchase and manage legacy
mortgage-backed securities (“MBS”).

April Quarterly Report Recommendations
In the April Quarterly Report, SIGTARP observed that many aspects of PPIP could
make it inherently vulnerable to fraud, waste, and abuse, identifying four areas of
particular vulnerability:

• Conflicts of Interest: PPIF managers might have a powerful incentive to make
  investment decisions that benefit themselves at the expense of the taxpayer. By
  their nature and design, including the availability of significant leverage, the
  PPIF transactions in these frozen markets will have a significant impact on how
172   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                               any particular asset is priced in the market. As a result, the increase in the price
                                               of such an asset will greatly benefit anyone who already owns or manages the
                                               same asset, potentially including the PPIF manager who is making the invest-
                                               ment decisions.
                                             • Collusion: A closely related vulnerability is that PPIF managers might be
                                               persuaded, through kickbacks, quid pro quo transactions, or other collusive ar-
                                               rangements, to manage the PPIFs not for the benefit of the PPIF (and taxpay-
                                               ers), but rather for the benefit of themselves and their collusive partners. The
                                               significant non-recourse, Government-financed leverage presents a great incen-
                                               tive for collusion between the buyer and seller of the asset, or the buyer and
                                               other buyers, whereby the taxpayer may be exposed to a significant loss while
                                               others profit.
                                             • Money Laundering: Because of the significant leverage available and the inher-
                                               ent imprimatur of legitimacy associated with PPIP and TALF, these programs
                                               present an ideal opportunity to money-laundering organizations, which are
                                               continually looking for opportunities to make their illicit proceeds appear to be
                                               legitimate, thereby “laundering” those proceeds.
                                             • Interaction with TALF: In announcing the details of PPIP, Treasury has indi-
                                               cated that PPIFs under the Legacy Securities Program could, in turn, use the
                                               leveraged PPIF funds to purchase legacy MBS through TALF, thereby greatly
                                               increasing Government exposure to losses with no corresponding increase of
                                               potential profits. This leverage upon leverage would magnify the incentives for
                                               conflicts of interest and collusion and could severely undermine the validity of
                                               the methodology that the Federal Reserve has used to build the haircut percent-
                                               ages in TALF.

                                                 To address these vulnerabilities, SIGTARP made a series of recommendations
                                             in the April Quarterly Report. In summary form, SIGTARP recommended the
                                             following:

                                             • Treasury should impose strict conflicts-of-interest rules upon PPIF managers
                                               that specifically address whether and to what extent the managers can (i) invest
                                               PPIF funds in legacy assets that they hold or manage on behalf of themselves or
                                               their clients or (ii) conduct PPIF transactions with entities in which they have
                                               invested on behalf of themselves or others.
                                             • Treasury should mandate transparency with respect to the participation and
                                               management of PPIFs, including disclosure to Treasury of the beneficial owners
                                               of all of the private equity stakes in the PPIFs, public disclosure of all transac-
                                               tions undertaken in them, and reporting to Treasury on any and all holdings and
                                               transactions in the same types of legacy assets on their own behalf or on behalf
                                               of their clients.
                                                                               QUARTERLY REPORT TO CONGRESS I JULY 21, 2009            173




• Treasury should require PPIF managers to provide PPIF equity stakeholders
  (including TARP) “most-favored-nations clauses,” requiring that the fund man-             “Most-Favored-Nations Clause”: A
  agers treat the PPIFs on at least as favorable terms as given to all other parties        clause in an agreement granting to one
  with whom they deal and acknowledge that they owe the PPIF investors — both               entity the same terms as are then or
  the private investors and TARP — a fiduciary duty with respect to the manage-             may thereafter be granted to any other
  ment of the PPIFs.                                                                        entity.
• Treasury should require that all PPIF managers have stringent investor-screen-
                                                                                            “Know Your Customer” Requirements:
  ing procedures, including comprehensive “Know Your Customer” requirements
                                                                                            A money-laundering and terrorist-
  at least as rigorous as that of a commercial bank or retail brokerage operation,
                                                                                            financing prevention measure requir-
  and require that the identities of all of the beneficial owners of the private in-
                                                                                            ing institutions to obtain customer
  terests in the fund be disclosed to Treasury so that Treasury can do appropriate
                                                                                            information beyond basic identification
  diligence to ensure that investors in the funds are legitimate.                           information.
• Treasury should not allow Legacy Securities PPIFs to invest in TALF unless
  significant mitigating measures are included to address the increased dangers
  presented by the interaction, such as prohibiting TARP lending if the PPIF in-
  vests through TALF or proportionately increasing haircuts for PPIFs that do so.

Developments in the Design of the Legacy Securities
Program
Since the April Quarterly Report, Treasury has consulted with SIGTARP, consistent
with Treasury’s obligations under Section 402 of the Helping Families Save Their            Section 402 of Helping Families Save
Homes Act of 2009 (the “Ensign-Boxer Amendment”), as it developed the details               Their Homes Act of 2009 (“Ensign-
of the Legacy Securities Program. Among other things, Treasury conducted these              Boxer Amendment”): Amendment to
activities:                                                                                 Helping Families Save Their Homes Act
• met with SIGTARP representatives to discuss the design of the Legacy                      of 2009 that calls for increased PPIP
  Securities Program on several occasions                                                   oversight and allocates an additional
                                                                                            $15 million to SIGTARP with the direc-
• invited SIGTARP to observe its interviews with potential PPIF manager
                                                                                            tion that these funds be prioritized for
  applicants
                                                                                            performance audits and investigations
• at SIGTARP’s suggestion, met and had multiple conversations with staff at the
                                                                                            of recipients of non-recourse loans
  Federal Reserve Board (the “Federal Reserve”) and the Federal Reserve Bank
                                                                                            under any EESA-funded program. See
  of New York (“FRBNY”) who manage Federal Reserve programs involving asset                 Section 1 of this report for a detailed
  managers in similar contexts                                                              description of the amendment.
• provided SIGTARP with drafts of the PPIP term sheets and ethical standards
  and conflicts-of-interest rules

    As a result of these consultations, SIGTARP provided Treasury with both oral
feedback and written recommendations, suggestions, and comments, as reflected
in two letters dated June 10, 2009, and June 19, 2009 (collectively, the “SIGTARP
Letters”).
    In the SIGTARP Letters, which are included in Appendix G, SIGTARP
made dozens of comments, ranging from recommendations concerning issues
174            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      fundamental to the design of PPIP to potential contract terms and other drafting
                                                      comments. As reflected in Treasury’s response to SIGTARP’s PPIP recom-
                                                      mendations, also included in Appendix G, Treasury has incorporated many of
                                                      the recommendations into the design of PPIP, and, as a result, the program has a
                                                      significantly improved compliance and fraud-prevention regime than that initially
                                                      proposed. The following are some of SIGTARP’s recommendations implemented
                                                      by Treasury:

                                                      • All of the PPIF managers will be required to be registered Investment Advisors
      Fiduciary Duty: A duty obligating a
      fiduciary (an individual or business in a         with the Securities and Exchange Commission (“SEC”) pursuant to the
      position of authority who acts on behalf          Investment Advisors Act of 1940. The fund managers therefore are subject to
      of another individual — an agent or               provisions relating to fiduciary duty; certain antifraud protections; rules relating
      trustee) to act with loyalty and honesty          to record keeping, advertising, custody of client funds and assets; and disclosure.
      and in a manner consistent with the             • Treasury is requiring PPIF managers to have and implement a range of policies
      best interests of the other individual.           and procedures on ethics and conflicts of interest, including policies relating to
                                                        valuation, trading allocation, arm’s-length transactions, and personal trading.
                                                      • Treasury is requiring the PPIF managers to report to Treasury a list of all eligible
                                                        assets held or under consideration for purchase by a manager in both PPIF and
                                                        non-PPIF funds, including positions and valuations in all eligible assets across
                                                        the manager firm. Treasury will thus be able to analyze and compare holdings,
                                                        transactions, and valuations not only across all of the PPIFs but also across
                                                        all of the non-PPIF funds managed by PPIF firms. If implemented well, this
                                                        information could be a powerful tool to detect instances of conflicts of interest,
                                                        collusion, and improper asset valuation across the Legacy Securities Program.
                                                      • As recommended in the April Quarterly Report, Treasury has taken into ac-
                                                        count the leverage-on-leverage issues implicated by allowing PPIFs to access
                                                        TALF lending. Although Treasury and the Federal Reserve are permitting PPIFs
      Leverage on Leverage: Refers to the               to access TALF, the haircuts for TALF will be proportionally increased so that
      original design of PPIP in which a pri-           the combination of Treasury- and TALF-supplied debt will not exceed the total
      vate investor could borrow Government             amount of TALF debt that would be available to leverage the PPIP equity alone.
      debt through PPIP and then leverage               This significant concession by Treasury adopts SIGTARP’s recommendation and
      its equity and the Government debt                effectively ameliorates the leverage-on-leverage and “skin-in-the-game” issues
      with more Government debt through                 that were raised in the April Quarterly Report.
      TALF.
                                                          Although Treasury has implemented most of SIGTARP’s suggestions, SIGTARP
      Skin in the Game: Equity stake in an            believes that there remain some significant areas in which Treasury’s plan for PPIP
      investment; down payment; the maxi-
                                                      falls short. As discussed below, SIGTARP has ongoing recommendations about
      mum amount an investor can lose.
                                                      PPIP, including areas that could threaten the credibility of the program. To sum
                                                      up the substantial back-and-forth between Treasury and SIGTARP concerning the
                                                      design of the PPIP compliance and anti-fraud regime since the April Quarterly
                                                                                QUARTERLY REPORT TO CONGRESS I JULY 21, 2009   175




Report, the following can be stated:
1. Treasury has fulfilled its statutory obligation to consult with SIGTARP with
   respect to the design of the PPIP Legacy Securities Program and has engaged
   repeatedly with SIGTARP (and the Federal Reserve and FRBNY, for that mat-
   ter) on the design of the compliance and anti-fraud provisions of PPIP.
2. Treasury has adopted a majority of SIGTARP’s recommendations, and the
   design of the PPIP Legacy Securities Program has been vastly improved from a
   compliance and anti-fraud perspective as compared to when the program was
   initially described to SIGTARP.
3. However, disagreements remain, and SIGTARP believes that there remain
   several fundamental vulnerabilities in the program on issues relating to conflicts
   of interest and collusion, transparency, performance measures, and anti-money
   laundering.

Ongoing Recommendations
Although Treasury has already identified the nine PPIF managers and released
term sheets detailing the basic framework of the PPIFs, final agreements have yet
to be drafted, and Treasury still has the opportunity to improve the program before
it is finally implemented. To that end, SIGTARP makes the following ongoing
and as yet unadopted recommendations regarding the design of the PPIP Legacy
Securities Program.

• PPIP Recommendation #1 — Strict Walls: SIGTARP continues to recom-
  mend that Treasury require the imposition of strict information barriers or
  “walls” between the PPIF managers making investment decisions on behalf of
  the PPIF and those employees of the fund management company who man-
  age non-PPIF funds. Treasury’s failure to do so thus far constitutes a material
  deficiency in the program.

    Treasury’s stated goal for PPIP is to “restart” the substantially frozen legacy
securities markets. By its design, PPIP will provide the PPIF managers significant
power to set prices for the legacy securities that they purchase in what Treasury has
described as an illiquid market. Under these circumstances, the trading decisions
of PPIF managers — using investment vehicles that are 75% funded by taxpayer
money — constitute valuable, proprietary, market-moving information. This price-
setting power and access to information that is unavailable to other participants in
the market (i.e., knowing what the PPIF will buy and at what price) could create
opportunities for several kinds of abuses by PPIF managers, including the incentive
to overpay for securities already held in the manager’s non-PPIP funds or to use
information about upcoming trading in PPIP to benefit its non-PPIF funds to the
176   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             detriment of the PPIF or to those participants in the market that were not selected
                                             by Treasury to manage PPIF funds.
                                                 A common method of dealing with this situation in which proprietary informa-
                                             tion in one part of a business could lead to improper advantages in another part
                                             of the business is the imposition of strict information barriers or walls wherein
                                             the market-moving information is insulated, or walled off, from the rest of the
                                             firm through separation of employees, facilities, or technology and/or policies and
                                             procedures limiting dissemination of the information. Here, SIGTARP believes that
                                             the best practice would be to impose a wall similar to those imposed by FRBNY in
                                             several of its financial crisis-related programs that would separate those individuals
                                             making investment decisions for the PPIF from pertinent information concerning
                                             non-PPIF funds, and vice-versa, but allowing fund managers to access the more
                                             general expertise of the firm, such as market research. Such a wall should also
                                             include information technology barriers, strict policies forbidding the dissemination
                                             of PPIF information within the firm, and a rigorous compliance regime to ensure
                                             enforcement of those policies. Thus, it would prohibit individuals making invest-
                                             ment decisions for the PPIF from managing other funds involving eligible assets.
                                                 Treasury has refused to require walls in PPIP despite the fact that such walls
                                             have been imposed upon asset managers in similar contexts in other Government
                                             bailout-related programs, including by Treasury itself in other TARP-related activi-
                                             ties. For example, walls between the asset managers working for the Government
                                             and the rest of their firms are required in at least the following programs:

                                             • FRBNY’s Agency MBS Purchase Program (involving Goldman Sachs, PIMCO,
                                               BlackRock, Wellington)
                                             • FRBNY’s Commercial Paper Funding Facility (PIMCO)
                                             • FRBNY’s management of the Maiden Lane I, II, and III portfolios (BlackRock)
                                             • In TALF, ethical walls are required for the collateral monitor that is tasked
                                               with providing advice to FRBNY on MBS valuations, and primary dealers have
                                               submitted conflict remediation plans that confirm that they have imposed walls
                                               isolating their business units that interact with TALF
                                             • Treasury’s management of assets obtained in TARP generally through financial
                                               agents (AllianceBernstein, FSI, Piedmont)
                                             • TARP’s Unlocking Credit for Small Businesses Program (“UCSB”) (Earnest
                                               Partners)

                                                 Indeed, of the nine asset managers selected by Treasury to manage PPIFs, one-
                                             third of them (BlackRock, Wellington, and AllianceBernstein) are already required
                                             to operate walls in connection with other Government programs.
                                                 Notwithstanding the fact that walls are common when a firm has access to
                                             information that it could use to the unfair advantage of others (i) in the industry
                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 21, 2009   177




generally, (ii) in other Government bailout program contexts, (iii) in other TARP-
related programs, and (iv) with respect to at least some of the very firms that were
selected as PPIF managers, Treasury has “concluded that such an arrangement is
simply not practical in the context of PPIP.” In supporting this statement, Treasury
has explained its positions, which SIGTARP summarizes below:

1. Treasury first suggests that “[r]equiring a segregated investment team would be
   likely to reduce investment performance of the PPIF,” arguing in particular that
   a segregation would preclude the PPIF from gaining the expertise of a manager’s
   “A Team” (the most experienced and talented managers at a company) and
   would hinder “team-oriented” investment processes.

    In this argument, Treasury seems to be suggesting that it can obtain either
talented managers or managers without inherent conflicts, but not both. Although
SIGTARP noted in the April Quarterly Report that there may be difficulty selecting
an experienced manager that is also non-conflicted, SIGTARP believes that such a
dichotomy offers a false choice. In light of the amount of taxpayer money being in-
vested in the PPIFs, Treasury should have the negotiating power to obtain compe-
tent and unconflicted management for the PPIFs. If a particular fund management
company cannot accommodate that basic requirement, then Treasury should reject
that company and retain one that can. Moreover, even if the dichotomy were as
Treasury describes, in light of the substantial risks that a non-segregated manager
presents to the taxpayer, to the PPIF private equity investors, and to the market as a
whole, SIGTARP submits that the program may very well be better served by com-
petent, non-conflicted personnel even if they do not fit into Treasury’s definition of
what would constitute an “A Team.”

2. Treasury next suggests that requiring segregated investment teams would actu-
   ally increase risk “by limiting fund manager participation in the PPIP,” arguing
   in particular that: many fund managers have indicated that they would withdraw
   if required to use a segregated investment team and thus Treasury would have
   to concentrate its investments in the hands of a few fund managers; requiring
   segregation would “undermine protections against fund manager misconduct,”
   because the team approach provides “checks and balances within the organi-
   zation;” and implementing a wall would be time consuming, costly, and not
   feasible for many firms.

    To the extent that Treasury suggests that segregation would decrease participa-
tion and thus lead to increased reliance on a few managers, it is not convincing that
Treasury cannot find sufficient numbers of non-conflicted management compa-
nies to do the job. Again, Treasury, which has the power to adjust its eligibility
178   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             requirements for fund managers, should have sufficient bargaining power to
                                             mandate appropriate segregation in a sufficient number of firms (more than one
                                             hundred companies initially applied), particularly in light of the fact that three
                                             of its nine PPIF managers already abide by such walls in connection with other
                                             Government programs. In any event, even if segregation would lead to using fewer
                                             or different kinds of firms, in light of the seriousness of the risks associated with
                                             non-segregation of managers, it may well be that the program would be better
                                             served by a substantially different mix of non-conflicted firms rather than the cur-
                                             rent group of firms that are apparently unwilling to mitigate fully their conflicts.
                                                 To the extent that this argument suggests that a wall would somehow increase
                                             the risk of misconduct by limiting detection opportunities among the “team,”
                                             SIGTARP believes that such argument is without merit. Walls limit information
                                             flow between investment decision makers on one side of the wall and investment
                                             decision makers on the other; nothing about the institution of a wall minimizes
                                             compliance scrutiny or general supervision. To accept Treasury’s argument might
                                             suggest that Treasury and FRBNY are increasing the risk of misconduct in a whole
                                             series of Government programs in which they require walls, including TARP-
                                             related programs, a contention that SIGTARP squarely rejects. At their core, walls
                                             or information barriers are designed to prevent an unfair benefit to the firm as a
                                             whole; it is simply not persuasive to argue that wider dissemination of such confi-
                                             dential, market-moving information would somehow reduce, rather than increase,
                                             that risk.

                                             3. Treasury suggests that requiring segregated investment teams is not neces-
                                                sary, arguing in particular that (i) the PPIF managers “will not have material
                                                non-public information from Treasury,” that Treasury is nothing but a passive
                                                investor that will not be sharing its market views, and that the most analogous
                                                FRBNY program is TALF, which does not involve similar segregation for TALF
                                                borrowers; (ii) that the other mitigation procedures are sufficient; and (iii) that a
                                                wall will not completely eliminate the risks of misconduct.

                                                 The first part of this argument does not address the core risks associated with
                                             the market power being conveyed upon the individual fund managers. Although
                                             there may be differences between the mechanics of some of the Government pro-
                                             grams in which walls are required, they are distinctions without a difference. PPIP
                                             is structured in such a way that its managers have the ability — through massive
                                             amounts of taxpayer funds — to move, indeed, to set, prices in illiquid markets,
                                             an ability they would not have absent the Government funds with which they are
                                             being entrusted. That, in turn, makes information about PPIP transactions (what
                                             securities will be bought, and for how much) extremely valuable, irrespective of
                                             whether the decisions are being made by the PPIF manager or by Treasury, and
                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 21, 2009        179




irrespective of whether the investment decision is based on the fund manager’s
analysis, proprietary Treasury information, or for that matter, by random chance.
Recently, a Treasury official, in explaining Treasury’s decision to require a wall for
those asset managers working for Treasury in connection with the CPP program,
stated that walls are commonly used when a party has access to “market-moving,”
proprietary information, such as Treasury’s decision to sell certain assets. In PPIP,
there can be no reasonable dispute that a PPIF manager’s decision to buy a par-
ticular MBS at a particular price with hundreds of millions of dollars of taxpayer
funds is market-moving, proprietary information. Moreover, Treasury’s argument
that the walls in other Government programs are designed to prevent the sharing
of the Government’s market views fails to address the strict walls that are required
by FRBNY for BlackRock in the Maiden Lane portfolios in which BlackRock has
discretion over the trading activities, much like the PPIF managers. Indeed, it is
worth noting that Treasury’s PPIP ethical standards recognize the value of this
information by imposing a rule that individual PPIF managers may not share their
purchase decisions with investors or other fund managers (even though the PPIF
managers themselves are permitted to manage other funds while having access to
this same information). The most straightforward and comprehensive protection
against the improper use of market-moving information is an effective wall.
     Treasury’s citation to the fact that TALF borrowers need not establish walls is
also not persuasive. Individual TALF borrowers do not have the price-setting power
that PPIF managers will have, and TALF, unlike PPIF, was not designed so that any
single market participant would have the ability to set prices in an illiquid market.
A better comparison within TALF is the relationship with the new collateral moni-
tor (which provides certain valuation services to FRBNY), which is required to
maintain appropriate walls.
     SIGTARP believes that Treasury’s next point — that the alternative mitigation
provisions in the program are sufficient — both underestimates the efficacy of walls
and overestimates the ability to predict the ways that a fund manager can devise
to take advantage of proprietary information. As noted above, Treasury is imposing
some significant provisions to mitigate the absence of a wall; the allocation policy,
for example, if properly implemented, should diminish the risk of “front running,”
i.e., using the PPIF trading information to buy securities at a relatively cheap price
before the PPIF purchases move the market in those securities. Similarly, requiring
the fund manager to have its own “skin in the game” will also help align its interests
with the taxpayers’ to a certain degree. These alone, however, are not sufficient.
Imagine a PPIF manager who is deciding which of 10 similar residential mortgage-              Front Running: Entering into a trade
backed securities (“RMBS”) the PPIF will purchase. The fund manager knows                     while taking advantage of advance
that the PPIF purchase will significantly increase the market price of whichever              knowledge of pending orders from
security is selected. With a wall in place, the manager should have every incentive           other investors.
to purchase the best securities at the lowest prices. Without a wall, the manager
180   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             may already be managing a fund with a substantial position in one of those 10
                                             RMBS, and thus the manager would have every incentive to buy only that security,
                                             irrespective of quality, and at a price as high as possible in order to drive up the
                                             non-PPIF fund performance and thus the manager’s own personal compensation.
                                             There are currently no mitigation procedures to address this issue, and indeed,
                                             there is nothing in place that would prevent a pre-approved manager from using
                                             the time period between his selection and the launch of the program from building
                                             a position in a security in non-PPIF funds with the intent of later using taxpayer
                                             funds to drive up the price of the security (and therefore his personal compensa-
                                             tion). Only by imposing a wall, and fully aligning the manager’s compensation with
                                             the PPIF’s performance, can this danger be averted.
                                                 Even more fundamentally, a wall may provide some protection against the
                                             myriad other ways in which information on one side of the wall or the other could
                                             be used to generate illicit gains in non-PPIF funds. Can a creative manager make
                                             a profit by trading in the equity of an institution from which a PPIF is purchasing
                                             MBS? If a manager knows that the PPIF will be investing heavily in a particular
                                             MBS, can that manager participate in a derivative transaction involving that same
                                             security and thereby reap profits? Is there a member of the firm on the non-PPIF
                                             side of the wall who is willing to sell proprietary PPIF trading information to an-
                                             other firm? No one can answer these questions definitively, but one thing is certain:
                                             a wall will likely decrease the risks of these and similar unpredictable bad scenarios.
                                                 If nothing else, the reputational risk that Treasury and the program face if a
                                             PPIF manager generates massive profits in its non-PPIF funds as a result of an un-
                                             fair informational advantage justifies the imposition of a wall. If this occurs, failure
                                             to impose a wall, on the other hand, will leave Treasury vulnerable to an accusation
                                             that has already been leveled against it by members of Congress and the media —
                                             that Treasury is using TARP to pick winners and losers and that, by granting certain
                                             firms the PPIF manager status, Treasury is benefiting a chosen few at the expense
                                             of the dozens of firms that were rejected, the market as a whole, and the American
                                             taxpayer. This reputational risk is not one that can be readily measured in dollars
                                             and cents, but is a risk that could jeopardize what is left of the fragile trust the
                                             American people have in TARP and, by extension, their Government. As FRBNY
                                             has learned through developing its own programs, imposition of a wall is a small
                                             price to pay to guard against such risk.

                                             • PPIP Recommendation #2 — Disclosure of Trading Activities in the
                                               PPIFs: SIGTARP recommends that Treasury periodically disclose PPIF trading
                                               activity and require PPIF managers to disclose to SIGTARP, within seven days
                                               of the close of the quarter, all trading activity, holdings, and valuations so that
                                               SIGTARP may disclose such information, subject to reasonable protections, in
                                               its quarterly reports.
                                                                                   QUARTERLY REPORT TO CONGRESS I JULY 21, 2009   181




    As a matter of basic transparency, in light of the billions of dollars of taxpayer
equity and loans that provide the majority of funding for the PPIFs, the public
should be permitted to know, to the greatest extent possible, the activity and
holdings in the PPIFs. Such transparency not only dissuades misconduct and
promotes sound management, but also promotes a better public understanding
of PPIP and thus enhances the credibility of PPIP and TARP more broadly. Even
more importantly, the most significant investors in each PPIF, the American tax-
payers, have a right to know the status of their investments. The lack of transpar-
ency as to what use TARP funds were put by recipients in other TARP programs,
in SIGTARP’s view, has damaged the credibility of TARP and therefore may have
threatened its viability; Treasury should not repeat that apparent error with PPIP.
Moreover, disclosure of the PPIF transactions, and in particular the price at which
such transactions occur, would appear to be required to bring about the “price
discovery” that Treasury has claimed as one of the core purposes of PPIP. Failure
to provide transparency on trading prices and valuations creates a “tree falling in
the woods problem:” without such transparency, the market (other than the PPIF
managers themselves) is far less likely to “discover” market prices in a way that will
facilitate re-starting trading outside of Government-supported efforts.
    Unfortunately, Treasury has stated that it will not require such disclosure “as
this would [do] harm to the fund’s operation by revealing competitive and propri-
etary information regarding the fund’s investment positions and strategy.” Instead,
Treasury intends to disclose no more than the bare minimum required by stat-
ute — disclosure of only the 10 largest positions held in each PPIF. SIGTARP is
cognizant of the fact that certain trading information may have, for a time, signifi-
cant proprietary value and is not advocating unreasonably premature disclosure.
However, Treasury’s default position should be in favor of disclosure in a manner
designed to promote price discovery in the legacy securities markets and to pro-
mote transparency. SIGTARP has expressed its willingness to work with Treasury
to find the right balance among the proprietary interests of the PPIF managers,
the public’s interests in transparency, and the broader market’s interests in price
discovery.
    In light of Treasury’s refusal to publish this information, to meet a basic level
of transparency, and to meet SIGTARP’s statutory obligation to report to Congress
for the preceding quarter “all purchases” of troubled assets, “[a] list of the troubled
assets purchased,” and “the profit or loss incurred on each sale” of such assets,
SIGTARP intends to include in its quarterly report the identity of the securities
purchased, the purchase price, the amounts held, the sale prices, and the value
of the taxpayer’s positions, redacted as appropriate to avoid the dissemination of
any confidential information that could harm the PPIF investment.451 Although
Treasury has designed PPIP so that the troubled assets are technically its interests
182   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             in the PPIFs, and not the actual toxic assets they purchase, SIGTARP does not
                                             believe that this absolves it from complying with the spirit, if not the letter, of its
                                             EESA requirements. These categories of information are no different than that
                                             typically disclosed on a periodic basis by mutual funds, for example, in SEC Forms
                                             N-Q and N-CSR. To fulfill this role, and in order to keep constant SIGTARP’s
                                             Quarterly Report production schedule of providing transparency with the shortest
                                             delay possible, SIGTARP would need such data, along with any claims of confi-
                                             dentiality, within seven days of the end of a quarter; Treasury has indicated that
                                             delivery within 15 days would be “reasonable and consistent with industry prac-
                                             tice.” Such a 15-day delivery would force SIGTARP to alter its scheduled issuance
                                             of Quarterly Reports by more than a week. Unless delivery within seven days proves
                                             impossible, “industry practice” should not interfere with timely transparency.

                                             • PPIP Recommendation #3 — Performance Metrics and Removal of the
                                               Manager: SIGTARP recommends that appropriate metrics be defined and an
                                               evaluation system be put in place to monitor the effectiveness of the PPIF man-
                                               agers, both to ensure that they are fulfilling the terms of their agreements and
                                               to measure their performance. The conditions that would give Treasury “cause”
                                               to remove a manager should be expanded to include a manager’s performance
                                               below a certain standard benchmark, or if Treasury concludes that the manager
                                               has materially violated compliance or ethical rules.

                                                 Treasury has indicated that it is in the process of developing appropriate
                                             measurement metrics, and SIGTARP will monitor the progress on this issue. As
                                             drafted, however, the provision in the term sheet relating to the removal of the
                                             PPIF manager may significantly limit Treasury’s ability to remove a manager for
                                             poor performance or even for other significant malfeasance. As drafted, for ex-
                                             ample, Treasury may, in essence, only remove a manager with the consent of a
                                             majority of the private equity interests or for “cause.” Cause includes a breach of
                                             the capital contribution requirement or a formal (i.e., judicial) finding of fraud,
                                             gross, negligence, bad faith or willful misconduct, securities law violation, or a con-
                                             viction or guilty plea of a felony.452 To use an extreme example, if a fund manager is
                                             arrested for stealing from Treasury’s equity portion of the PPIF for the benefit of its
                                             private investors, Treasury could not remove that manager until the manager was
                                             convicted (which could take years) unless a majority of the private equity investors
                                             (who, in this example, are the beneficiaries of the crime) consent. In light of the
                                             very significant role of TARP funds in the PPIFs, Treasury should obtain the ability
                                             to remove managers unilaterally under appropriate circumstances.

                                             • PPIP Recommendation #4 — Disclosure of Holdings and Transactions in
                                               Related Assets: SIGTARP recommends that Treasury require fund managers to
                                                                                  QUARTERLY REPORT TO CONGRESS I JULY 21, 2009   183




   disclose to Treasury, as part of the Watch List process outlined in the PPIP term
   sheet, not only information about holdings in eligible assets but also holdings in
   related assets or exposures to related liabilities.

    As discussed previously in this section, at SIGTARP’s suggestion, Treasury is
requiring PPIF managers to disclose to Treasury information about holdings in
eligible assets not only in the PPIF but also in the managers’ non-PPIF funds. This
is a very substantial step in the right direction and will be, if implemented properly,
a powerful tool to detect issues arising from conflicts of interest, collusion, and im-
proper valuation. Treasury, however, has so far refused to require reporting beyond
eligible assets, and SIGTARP views this as a significant limitation. There are many
asset types or liability exposures that could be held in a manager’s non-PPIF fund
whose value is predictably tied to eligible assets and thus should be disclosed. For
example, credit default swaps or other derivative products could change in value
based upon a manager’s PPIF investment decisions. Treasury should require disclo-
sure about any such assets or potential liabilities.

• PPIP Recommendation #5 — Beneficial Ownership Issues: Treasury should
  require PPIF managers to obtain and maintain information about the beneficial
  ownership of all of the private equity interests, and Treasury should have the
  unilateral ability to prohibit participation of private equity investors.

    To its credit, Treasury has adopted many of the anti-money laundering and
“Know Your Customer” suggestions made by SIGTARP. However, two significant
issues remain. First, although PPIF managers must provide Treasury with all infor-
mation in their possession with respect to beneficial ownership of the private equity
interests, those rights are meaningless unless managers are required to obtain and
maintain such information in the first instance. Treasury should make that obliga-
tion explicit. Moreover, Treasury should insist upon the unilateral right to prohibit
participation of certain private investors. The resources to screen investors that
are available to the managers simply do not match the resources of Treasury. If the
Government finds that a potential investor is the subject of a criminal investigation,
for example, that fact might not be discoverable by the manager or discloseable by
Treasury. The terrible toll on the program resulting from participation by organized
crime, terrorists, or fraudsters mandates that Treasury have unilateral authority to
prohibit participation without explanation.
184   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             CONTINUED USE OF RATINGS AGENCIES IN TALF
                                             SIGTARP made a series of recommendations to Treasury with respect to its par-
                                             ticipation in the implementation of TALF in both its Initial Report and its April
                                             Quarterly Report. Because the recommendations impact the Federal Reserve and
                                             FRBNY as the primary implementers of TALF, since January, SIGTARP has been
                                             in regular contact with the Federal Reserve and FRBNY to discuss those recom-
                                             mendations and the TALF compliance and anti-fraud regime more generally. The
                                             Federal Reserve and FRBNY have engaged constructively in those discussions,
                                             have adopted many of the recommendations, and have independently developed
                                             additional protections. As a result, TALF’s design is far better, from a compliance
                                             and anti-fraud perspective, than it was when the program was first announced.
                                             The status of the implementation of SIGTARP’s recommendations is set forth
                                             in Table 5.1 later in this section, and two letters from the Federal Reserve to the
                                             Special Inspector General describing plans for bolstering the protections in con-
                                             nection with the expansion of TALF to commerical mortgage-backed securities
                                             (“CMBS”), dated May 5, 2009, and May 22, 2009, are included in Appendix G:
                                             “Correspondance Regarding SIGTARP Recommendations.”
                                                  In the April Quarterly Report, one of SIGTARP’s recommendations was that,
                                             with respect to the potential expansion of TALF to legacy RMBS, rating agency
                                             determinations should be dispensed with and a security-by-security screening for
                                             each legacy RMBS be implemented instead. Although the decision of whether
                                             RMBS will be permitted to be used as collateral in TALF is still under consider-
                                             ation, the Federal Reserve and FRBNY have informed SIGTARP that, in designing
                                             the TALF provisions relating to CMBS, they have taken several steps to reduce the
                                             importance of ratings from the credit rating agencies in determining the eligibility
                                             of CMBS. For example, FRBNY has engaged a collateral monitor that will assist
                                             it in excluding high-risk CMBS regardless of its rating. Although these measures
                                             represent a significant improvement of TALF, ratings from credit rating agencies
                                             remain an important, although not exclusive, asset-eligibility prerequisite in TALF:
                                             newly issued ABS must receive a AAA rating from two of three credit rating agen-
                                             cies (Standard & Poor’s, Moody’s Investors Service, and Fitch Ratings) and not
                                             have a rating of less than AAA from the third agency. For newly issued CMBS, a
                                             AAA rating is required from two of five eligible agencies (adding DBRS Inc. and
                                             Realpoint LLC) and, again, no lower rating from the other three can exist.
                                                  Since SIGTARP’s April Quarterly Report, there have been several developments
                                             that raise additional concerns about TALF’s use of ratings agencies. Most ratings
                                             agencies, by the nature of their business model, have inherent conflicts of interest
                                             — they are paid by the issuers of the very securities that they are rating. As a result,
                                             the agency has an incentive to issue a high rating to attract future business from
                                             that issuer. As one commentator recently characterized the conflict, it would be as
                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 21, 2009   185




if Hollywood studios paid movie critics to review their films: any individual critic
would have a strong incentive to give a particular film a good review, even if it was
terrible, out of fear that the studio would not give the critic future business. This
inherent conflict played out with disastrous consequences in the recent credit crisis
in which AAA ratings for many MBS, in particular certain classes of RMBS, had
little or no relation to the creditworthiness of the securities.
     Over the last quarter, there has been reporting that these conflicts may be
impacting TALF. For example, Moody’s Investors Services (“Moody’s”), one of the
major agencies that has been qualified to rate all TALF securities, has complained
of a “race to the bottom,” in which issuers are selecting other agencies to rate TALF
securities because they are employing lower standards and therefore are more likely
to give a potential TALF security the necessary AAA rating. Although SIGTARP has
not yet undertaken any independent review of Moody’s claims, its complaints fur-
ther highlight the dangers of relying on these inherently conflicted institutions. The
expansion from three to five of the number of rating agencies from which the issuer
may obtain ratings with respect to newly issued CMBS (albeit with one, Realpoint,
that does not receive payment from issuers), without an increase in the number of
AAA ratings required, has the potential of giving issuers more incentives and oppor-
tunities to take advantage of the conflicts inherent in the ratings process.

Recommendation
• SIGTARP recommends that Treasury and FRBNY examine Moody’s assertions
  and develop mechanisms to ensure that acceptance of collateral in TALF is
  not unduly influenced by the improper incentives to overrate that exist among
  the rating agencies. This may include further limiting the importance of credit
  ratings in TALF eligibility decisions, continuing to develop alternative methods
  of evaluating the creditworthiness of TALF collateral, and/or proportionally
  increasing the number of required AAA ratings from credit agencies whenever
  there is an increase in the number of eligible agencies.

   In response to this recommendation, the Federal Reserve has indicated that it
has discussed these concerns with the rating agencies and will continue to develop
and enhance its risk management tools and processes as it refines the design of the
expanded TALF.
186   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             REQUIRING RECIPIENTS TO ACCOUNT FOR USE
                                             OF TARP FUNDS
                                             From its inception, SIGTARP has advocated that, as a matter of fundamental
                                             transparency, Treasury should require TARP recipients to disclose what they have
                                             been able to do with TARP funds, and SIGTARP has made formal recommenda-
                                             tions along these lines in both its Initial Report and its April Quarterly Report.
                                             With the exception of mandating such reporting in a few of the extraordinary as-
                                             sistance agreements — most notably the Citigroup and Bank of America Targeted
                                             Investment Program (“TIP”) agreements and Treasury’s recent agreement with
                                             American International Group, Inc. (“AIG”) — Treasury has refused to adopt this
                                             recommendation, arguing that the fungible nature of money would make such
                                             reports not “meaningful.” Treasury instead decided to track the effects of the TARP
                                             funds by measuring institutions’ lending over time.
                                                 As a result of Treasury’s refusal to require reporting more broadly on actual
                                             TARP fund use, SIGTARP decided to undertake the task itself by conducting a
                                             survey of more than 360 institutions that had received TARP funds through the
                                             end of January 2009. The results of the survey demonstrate that, despite the inher-
                                             ent fungibility of money, financial institutions are capable of providing at least basic
                                             narrative descriptions of how they used TARP funds. Although most banks reported
                                             that they did not segregate or track TARP fund usage on a dollar-for-dollar basis,
                                             they were able to provide insights into their actual or planned use of TARP funds;
                                             indeed, more than 98% of survey recipients reported their actual uses of TARP
                                             funds. Moreover, the results show that institutions commonly have used TARP
                                             funds in ways that will not immediately or directly register on a bank’s lending re-
                                             port. In addition to activities that would directly lead to lending, for example, banks
                                             reported that TARP funds have been used in these ways:

                                             • to increase capital cushions to absorb unexpected losses
                                             • to purchase mortgage-backed securities, thus not resulting in lending by the
                                               bank itself, but supporting lending by other institutions in the MBS pipeline
                                             • to pay down debt, thus de-leveraging the bank’s balance sheet and improving its
                                               ability to withstand further economic downturn
                                             • to acquire other banks

                                                 All of these activities could be, depending on the circumstances, considered
                                             commercially reasonable, yet would not necessarily be captured by Treasury’s lend-
                                             ing surveys.

                                                 Treasury’s reasons for refusing to adopt this recommendation have been
                                                                               QUARTERLY REPORT TO CONGRESS I JULY 21, 2009   187




squarely refuted by SIGTARP’s audit results and are belied by Treasury’s own
inclusion of use of funds provisions in its agreements with AIG, Bank of America,
and Citigroup. Further, the claim that the information provided by banks would be
“unreliable” is contradicted both by the threat of criminal penalty should a bank
be untruthful to Treasury, and Treasury’s reliance on self-reporting throughout its
compliance regime. Imposition of a condition designed to foster basic transparency
should not be used as a punitive measure required of only those institutions that
are compelled to seek extraordinary assistance, but rather should be an integral
feature of TARP as a whole.

Ongoing Recommendation
• To improve transparency over the use of funds, SIGTARP continues to recom-
  mend that the Treasury Secretary require TARP recipients to submit periodic
  reports to Treasury on their use of funds, including what they were able to do
  with their TARP funds, such as lending, investments, acquisitions, and other
  activities that they could not have conducted without TARP funding. SIGTARP
  also recommends that the Treasury Secretary require TARP recipients to retain
  all supporting documentation in conjunction with any reporting requirement
  that Treasury may impose.



TRACKING THE IMPLEMENTATION OF
RECOMMENDATIONS IN PREVIOUS REPORTS
SIGTARP has now made dozens of individual recommendations, and updating
compliance of each one in narrative form is quickly becoming impractical. The
following table, Table 5.1, summarizes SIGTARP’s prior recommendations, gives an
indication of SIGTARP’s view of the level of implementation to date, and provides
a brief explanation for that view where necessary. For more details on the recom-
mendations, readers are directed to the Initial Report and April Quarterly Report.
Treasury’s views on the level of implementation of the recommendations are set
forth in a letter to the Special Inspector General dated July 2, 2009, which is in-
cluded in Appendix G: “Correspondence Regarding SIGTARP Recommendations.”
TABLE 5.1

SIGTARP RECOMMENDATIONS TABLE                                                                                                                                                        188
                                                                                      Partially                    Not
     Recommendation                                                     Implemented Implemented   In Process   Implemented   TBD   Comments

     Treasury should include language in the automobile industry
     transaction term sheet acknowledging SIGTARP’s oversight
1
     role and expressly giving SIGTARP access to relevant docu-
     ments and personnel.
                                                                            X
     Treasury should include language in new TARP agreements
     to facilitate compliance and oversight. Specifically, SIGTARP
     recommends that each program participant should (1) ac-
     knowledge explicitly the jurisdiction and authority of SIGTARP
     and other oversight bodies, as relevant, to oversee compli-                                                                   Although Treasury has made substantial ef-
     ance of the conditions contained in the agreement in question,                                                                forts to comply with this recommendation in
2    (2) establish internal controls with respect to that condition,                                                               many of its agreements, there are exceptions,
     (3) report periodically to the Compliance department of the                                                                   including in its agreements with servicers in
     Office of Financial Stability (“OFS-Compliance”) regarding the                                                                MHA.
     implementation of those controls and its compliance with
     the condition, and (4) provide a signed certification from an
     appropriate senior official to OFS-Compliance that such report
     is accurate.                                                                        X
                                                                                                                                   Treasury agreed to do so in late January, but
                                                                                                                                   as of the drafting of this report, it has still
                                                                                                                                                                                     SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     All existing TARP agreements, as well as those governing new                                                                  not posted 220 CPP agreements as well as
3    transactions, should be posted on the Treasury website as                                                                     contracts with Bank of America (TIP) and TALF
     soon as possible.                                                                                                             on its website listing of contracts. Treasury
                                                                                                                                   has stated that it will have all agreements on
                                                                                         X                                         its website by August 15, 2009.
     Treasury requires all TARP recipients to report on the actual
4                                                                                                                                  See discussion in this section.
     use of TARP funds.                                                                  X
     Treasury quickly determines its going-forward valuation meth-
5
     odology.                                                                                         X
     Treasury begins to develop an overall investment strategy to
6    address its portfolio of stocks and decide whether it intends to
     exercise warrants of common stock.                                                               X
                                                                                                                                   Although Treasury and the Federal Reserve
     In formulating the structure of TALF, Treasury should consider
                                                                                                                                   have not adopted minimum underwriting
     requiring, before committing TARP funds to the program, that
                                                                                                                                   standards in TALF, they have adopted other
7    certain minimum underwriting standards and/or other fraud
                                                                                                                                   significant fraud prevention and credit protec-
     prevention mechanisms be put in place with respect to the
                                                                                                                                   tion measures. SIGTARP will continue to moni-
     ABS and/or the assets underlying the ABS used for collateral.
                                                                                         X                                         tor the effectiveness of these measures.
     Agreements with TALF participants should include an acknowl-
     edgement that: (1) they are subject to the oversight of OFS-
     Compliance and SIGTARP, (2) with respect to any condition im-
8    posed as part of TALF, that the party on which the condition is
     imposed is required to establish internal controls with respect
     to each condition, report periodically on such compliance, and
     provide a certification with respect to such compliance.                                                       X
                                                                                                                                                         Continued on next page.
SIGTARP RECOMMENDATIONS TABLE (CONTINUED)
                                                                                       Partially                    Not
     Recommendation                                                      Implemented Implemented   In Process   Implemented   TBD   Comments
     Treasury should give careful consideration before agreeing to                                                                  Implementation is in process with respect to
     the expansion of TALF to include MBS without a full review of                                                                  CMBS, as discussed earlier in this section,
9
     risks that may be involved and without considering certain mini-                                                               but remains to be determined with regard to
     mum fraud protections.                                                                                                    X    RMBS.
     Treasury should oppose any expansion of TALF to legacy MBS                                                                     Although expansion of TALF to legacy CMBS
10   without significant modifications to the program to ensure a full                                                              is in process, no decision has been made with
     assessment of risks associated with such an expansion.                                                                    X    respect to including legacy RMBS.
                                                                                                                                    Although Treasury is in the process of
                                                                                                                                    developing a valuation strategy, it has not
                                                                                                                                    committed to making its estimate of the value
     Treasury should formalize its valuation strategy and begin
11                                                                                                                                  of its investments public on more than the
     providing values of the TARP investments to the public.
                                                                                                                                    minimum required by statute — annually —
                                                                                                                                    even though it is receiving monthly valuation
                                                                                                                               X    summaries from its asset managers.
                                                                                                                                    The Federal Reserve and Treasury continue to
     Treasury and the Federal Reserve should provide to SIGTARP,                                                                    oppose this basic aspect of transparency in
12   for public disclosure, the identity of the borrowers who sur-                                                                  the TALF program. SIGTARP intends to revisit
     render collateral in TALF.                                                                                                     this issue with the Federal Reserve once a
                                                                                                                     X              collateral surrender takes place.
13   In TALF, Treasury should dispense with rating agency deter-
     minations and require a security-by-security screening for
     each legacy RMBS. Treasury should refuse to participate if
     the program is not designed so that RMBS, whether new or
                                                                                                                                    No decision has yet been made with respect
     legacy, will be rejected as collateral if the loans backing par-
                                                                                                                                    to expanding TALF to include RMBS.
     ticular RMBS do not meet certain baseline underwriting criteria
     or are in categories that have been proven to be riddled with
     fraud, including certain undocumented subprime residential
     mortgages.                                                                                                                X
14   In TALF, Treasury should require significantly higher haircuts                                                                 Implementation is in process with respect to
     for all MBS, with particularly high haircuts for legacy RMBS, or                                                               CMBS, as discussed earlier in this section,
     other equally effective mitigation efforts.                                                                                    but remains to be determined with regard to
                                                                                                                               X    RMBS.
15   Treasury should require additional anti-fraud and credit protec-                                                               Implementation is in process with respect to
     tion provisions, specific to all MBS, before participating in an                                                               CMBS, as discussed earlier in this section,
     expanded TALF, including minimum underwriting standards and                                                                    but remains to be determined with regard to
     other fraud prevention measures.                                                                                          X    RMBS.
16   Treasury should design a robust compliance protocol with
     complete access rights to all TALF transaction participants for
     itself, SIGTARP, and other relevant oversight bodies.                                                           X
17   Treasury should not allow Legacy Securities PPIFs to invest                                                                    Term sheets indicate that Treasury will adopt
     in TALF unless significant mitigating measures are included to                                                                 this recommendation through mitigating
     address these dangers.                                                                                                         measures that address the concerns raised
                                                                             X                                                      by this recommendation.
18   All TALF modeling and decisions, whether on haircuts or any
                                                                                                                                                                                    QUARTERLY REPORT TO CONGRESS I JULY 21, 2009




     other credit or fraud loss mechanisms, should account for po-
     tential losses to Government interests broadly, including TARP
     funds, and not just potential losses to the Federal Reserve.            X
                                                                                                                                                          Continued on next page.
                                                                                                                                                                                    189
SIGTARP RECOMMENDATIONS TABLE (CONTINUED)                                                                                                                                              190
                                                                                        Partially                    Not
     Recommendation                                                       Implemented Implemented   In Process   Implemented   TBD   Comments
19   Treasury should address the confusion and uncertainty on
                                                                                                                                     Although not immediate or final, Treasury did
     executive compensation by immediately issuing the required
                                                                                                                                     issue regulations on June 15, 2009.
     regulations.                                                             X
20   Treasury should significantly increase the staffing levels of
     OFS-Compliance and ensure the timely development and imple-
     mentation of an integrated risk management and compliance
     program.                                                                                           X
21   Treasury should require CAP participants to (1) establish an
     internal control to monitor their actual use of TARP funds, (2)
     provide periodic reporting on their actual use of TARP funds,
     (3) certify to OFS-Compliance, under the penalty of criminal                                                                    Treasury has reported that in its draft docu-
     sanction, that the report is accurate, that the same criteria of                                                                ments it is including “most of the suggestions
     internal controls and regular certified reports should be applied                                                               of SIGTARP,” but is refusing to adopt a use of
     to all conditions imposed on CAP participants, and (4) acknowl-                                                                 funds reporting requirement.
     edge explicitly the jurisdiction and authority of SIGTARP and
     other oversight bodies, as appropriate, to oversee conditions
     contained in the agreement.                                                                                                X
22   Treasury should impose strict conflicts-of-interest rules upon
     PPIF managers across all programs that specifically address
     whether and to what extent the managers can (i) invest PPIF
                                                                                                                                                                                       SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     funds in legacy assets that they hold or manage on behalf of                                                                    See discussion in this section.
     themselves or their clients or (ii) conduct PPIF transactions
     with entities in which they have invested on behalf of them-
     selves or others.                                                                                                          X
23   Treasury should require that all PPIF fund managers (1) have
     stringent investor-screening procedures, including comprehen-
     sive “Know Your Customer” requirements at least as rigorous
     as that of a commercial bank or retail brokerage operation to
     prevent money laundering and the participation of actors prone                                                                  See discussion in this section.
     to abusing the system, and (2) be required to provide Treasury
     with the identities of all of the beneficial owners of the private
     interests in the fund so that Treasury can do appropriate dili-
     gence to ensure that investors in the funds are legitimate.                                                                X
24   Treasury should require most-favored-nation clauses, PPIF
     managers to acknowledge that they owe Treasury a fiduciary                                                                      Term sheets indicate that Treasury will adopt
     duty, and that each manager adopt a robust ethics policy and                                                                    this recommendation.
     compliance apparatus.                                                    X
25   Treasury should require servicers in MHA to submit third-party                                                                  Treasury is requiring servicers to obtain and
     verified evidence that the applicant is residing in the subject                                                                 retain such information, which is a significant
     property before funding a mortgage modification.                                                                                improvement, but is not requiring submission
                                                                                                                                     of such evidence prior to authorizing funding
                                                                                                                                     to the servicers. It is, however, considering
                                                                                                                                     protocols whereby an agent will obtain third-
                                                                                                                                     party verification of residence during the loan
                                                                              X                                                      review process.
                                                                                                                                                           Continued on next page.
SIGTARP RECOMMENDATIONS TABLE (CONTINUED)
                                                                                       Partially                    Not
     Recommendation                                                      Implemented Implemented   In Process   Implemented   TBD   Comments
26   In MHA, Treasury should require a closing-like procedure be
     conducted that would include (1) a closing warning sheet that
     would warn the applicant of the consequences of fraud; (2)
     the notarized signature and thumbprint of each participant;                                                                    Treasury is not adopting a closing-like
     (3) mandatory collection, copying, and retention of copies of                                                                  procedure or addressing many aspects of
     identification documents of all participants in the transaction;                                                               this recommendation. It is, however, requiring
     (4) verbal and written warnings regarding hidden fees and                                                                      certain written requirements: (1) a fraud
     payments so that applicants are made fully aware of them; (5)                                                                  warning sheet to each applicant, (2) warnings
     the benefits to which they are entitled under the program (to                                                                  about fees, (3) requiring servicers to maintain
     prevent a corrupt servicer from collecting payments from the                                                                   records of payment allocation.
     Government and not passing the full amount of the subsidies
     to the homeowners); and (6) the fact that no fee should be
     charged for the modification.                                                        X
27   Additional anti-fraud protections should be adopted in MHA to
     verify the identity of the participants in the transaction and to
                                                                                                                                    Treasury has stated that it will take steps to
     address the potential for servicers to steal from individuals
                                                                                                                                    address this recommendation.
     receiving Government subsidies without applying them for the
     benefit of the homeowner.                                                                                                 X
28   In MHA, Treasury should require the servicer to compare the                                                                    After refusing to adopt this recommendation,
     income reported on a mortgage modification application with                                                                    Treasury has adopted an alternative method
     the income reported on the original loan application.                                                                          of income verification at SIGTARP’s
                                                                                                                     X              recommendation.
29   In MHA, Treasury should require that verifiable, third-party in-
     formation be obtained to confirm an applicant’s income before
     any modification payments are made.                                     X
30   In MHA, Treasury should defer payment of the $1,000 incen-                                                                     Treasury has not addressed the deficiency
     tive to the servicer until after the homeowner has verifiably                                                                  identified in SIGTARP’s April Quarterly Report.
     made a minimum number of payments under the mortgage                                                                           It continues to rely on servicer representa-
     modification program.                                                                                                          tions that the homeowner has made three trial
                                                                                                                                    payments before entering the program, but
                                                                                                                                    does not require any minimum payments after
                                                                                                                     X              a mortgage enters the program.
31   In MHA, Treasury should proactively educate homeowners
     about the nature of the program, warn them about modification
     rescue fraudsters, and publicize that no fee is necessary to
     participate in the program.                                             X
32   In MHA, Treasury should require its agents to keep track of the                                                                Treasury has refused to adopt this significant
     names and identifying information for each participant in each                                                                 anti-fraud measure designed to detect insid-
     mortgage modification transaction and to maintain a database                                                                   ers who are committing large-scale fraud.
     of such information.                                                                                                           This represents a material deficiency in the
                                                                                                                     X              MHA anti-fraud regime.
                                                                                                                                                           Continued on next page.
                                                                                                                                                                                      QUARTERLY REPORT TO CONGRESS I JULY 21, 2009
                                                                                                                                                                                      191
192   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                                                                                                              QUARTERLY REPORT TO CONGRESS I JULY 21, 2009                                                      193



ENDNOTES
1.     Treasury, response to SIGTARP data call, 7/8/2009.
2.     Treasury, Transactions Report, 7/2/2009, http://www.financialstability.gov/docs/transaction-reports/transactions-report_070209.pdf, accessed 7/8/2009.
3.     Congress, “S. 896 As Amended; Helping Families Save Their Homes Act of 2009,” 5/6/2009, http://www.congress.org/congressorg/issues/votes/?votenum=185&chamber=S&congress=1111, accessed 6/29/2009.
4.     Helping Families Save Their Homes Act of 2009, P.L. 111-22, 5/20/2009.
5.     Congressional Budget Office, “The Troubled Asset Relief Program: Report on Transactions Through June 17, 2009,” 6/2009, http://www.cbo.gov/ftpdocs/100xx/doc10056/TARP.pdf, accessed 6/29/2009.
6.     Helping Families Save Their Homes Act of 2009, P.L. 111-22, 5/20/2009.
7.     As of 6/30/2009, CPP repayments total $70.1 billion and AIFP loan repayments (Chrysler Financial) total $130.8 million.
8.     Treasury, response to SIGTARP data call, 7/8/2009.
9.     Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
10.    Treasury, response to SIGTARP data call, 7/8/2009.
11.    Treasury, “Factsheet on Capital Purchase Program,” 3/17/2009, http://www.financialstability.gov/roadtostability/CPPfactsheet.htm, accessed 6/8/2009.
12.    Source for funds invested and funds repaid is: Treasury, Transactions Report, 7/2/2009, http://www.financialstability.gov/docs/transaction-reports/transactions-report_070209.pdf, accessed 7/8/2009. Source for projected funding total is: Treasury,
       Office of Financial Stability, Chief of Compliance and CFO, SIGTARP interview, 3/30/2009.
13.    Treasury, “Treasury White Paper: The Capital Assistance Program and Its Role in the Financial Stability Plan,” no date, http://www.treas.gov/press/releases/reports/tg40_capwhitepaper.pdf, accessed 6/8/2009.
14.    Treasury, “Treasury White Paper: The Capital Assistance Program and Its Role in the Financial Stability Plan,” no date, http://www.treas.gov/press/releases/reports/tg40_capwhitepaper.pdf, accessed 6/8/2009.
15.    Federal Reserve, “The Supervisory Capital Assessment Program: Overview of Results,” 5/7/2009, http://www.financialstability.gov/docs/SCAPresults.pdf, accessed 6/15/2009.
16.    Treasury, “Programs,” 5/7/2009, http://www.financialstability.gov/roadtostability/programs.htm, accessed 6/8/2009.
17.    The $40 billion Series D cumulative preferred shares were effectively converted to $41.6 billion Series D non-cumulative preferred without any cash outlay by Treasury.
18.    Treasury, Transactions Report, 7/2/2009, http://www.financialstability.gov/docs/transaction-reports/transactions-report_070209.pdf, accessed 7/8/2009.
19.    Treasury, response to SIGTARP draft report, 7/9/2009.
20.    Treasury, “Targeted Investment Program,” 3/26/2009, http://www.financialstability.gov/roadtostability/targetedinvestmentprogram.html, accessed 6/8/2009.
21.    Treasury, Transactions Report, 7/2/2009, http://www.financialstability.gov/docs/transaction-reports/transactions-report_070209.pdf, accessed 7/8/2009.
22.    Treasury, Section 102 Report, 12/31/2008, http://www.treas.gov/press/releases/reports/0010208%20sect%20102.pdf, accessed 6/8/2009.
23.    Treasury Press Release, “U.S. Government Finalizes Terms of Citi Guarantee Announced in November,” 1/16/2009, http://www.financialstability.gov/latest/hp1358.html, accessed 6/8/2009.
24.    Treasury, Transactions Report, 7/2/2009, http://www.financialstability.gov/docs/transaction-reports/transactions-report_070209.pdf, accessed 7/8/2009.
25.    Treasury, SIGTARP meeting on Bank of America, 6/25/2009.
26.    Treasury, response to SIGTARP draft report, 7/9/2009.
27.    Treasury, response to SIGTARP data call, 7/8/2009.
28.    Federal Reserve Board, response to SIGTARP draft report, 7/9/2009.
29.    This number was calculated by summing the March, April, May, and June TALF loan subscriptions. Federal Reserve Bank of New York, “Term Asset-Backed Securities Loan Facility,” no date, http://www.newyorkfed.org/markets/talf_operations.
       html, accessed 6/15/2009.
30.    Treasury, “Public-Private Investment Program,” 4/6/2009, http://www.financialstability.gov/roadtostability/publicprivatefund.html, accessed 6/30/2009.
31.    FDIC Press Release, “FDIC Statement on the Status of the Legacy Loan Program,” 6/3/2009, http://www.fdic.gov/news/news/press/2009/pr09084.html, accessed 6/29/2009.
32.    Treasury, “Public-Private Investment Program,” 4/6/2009, http://www.financialstability.gov/roadtostability/publicprivatefund.html, accessed 6/9/2009.
33.    Treasury, “Unlocking Credit for Small Businesses Fact Sheet,” 3/17/2009, http://www.financialstability.gov/roadtostability/unlockingCreditforSmallBusinesses.html, accessed 6/10/2009.
34.    Treasury, “Guidelines for Automotive Industry Financing Program,” no date, http://www.financialstability.gov/docs/AIFP/AIFP_guidelines.pdf, accessed 6/8/2009.
35.    Treasury, Transactions Report, 7/2/2009, http://www.financialstability.gov/docs/transaction-reports/transactions-report_070209.pdf, accessed 7/8/2009.
36.    Treasury, “Auto Supplier Support Program: Stabilizing the Auto Industry at a Time of Crisis, no date, http://www.treas.gov/press/releases/docs/supplier_support_program_3_18.pdf, accessed 6/15/2009.
37.    Treasury, Transactions Report, 7/2/2009, http://www.financialstability.gov/docs/transaction-reports/transactions-report_070209.pdf, accessed 7/8/2009.
38.    Treasury, Transactions Report, 7/2/2009, http://www.financialstability.gov/docs/transaction-reports/transactions-report_070209.pdf, accessed 7/8/2009.
39.    Treasury, Office of Financial Stability, Auto Team, GAO interview, 6/5/2009.
40.    Treasury Press Release, “Relief for Responsible Homeowners One Step Closer Under New Treasury Guidelines,” 3/4/2009, http://www.financialstability.gov/latest/tg48.html, accessed 6/10/2009.
41.    Treasury, “Making Home Affordable: Updated Detailed Program Description,” 3/4/2009, http://www.treas.gov/press/releases/reports/housing_fact_sheet.pdf, accessed 6/10/2009.
42.    Treasury, “Making Home Affordable: Updated Detailed Program Description,” 3/4/2009, http://www.treas.gov/press/releases/reports/housing_fact_sheet.pdf, accessed 6/10/2009.
43.    Treasury, Transactions Report, 7/2/2009, http://www.financialstability.gov/docs/transaction-reports/transactions-report_070209.pdf, accessed 7/8/2009.
44.    Treasury, “Interim Assistant Secretary for Financial Stability Neel Kashkari Review of the Financial Market Crisis and the Troubled Asset Relief Program,” 1/13/2009, www.treas.gov, accessed 3/16/2009.
45.    Treasury, “Treasury Releases Capital Purchase Program Term Sheets for Mutual Holding Companies,” 4/7/2009, www.financialstability.gov/latest/tg-04072009.html, accessed 6/1/2009.
46.    Treasury, “Treasury Releases Capital Purchase Program Term Sheets for Mutual Banks,” 4/14/2009, www.financialstability.gov/latest/tg88.html, accessed 6/5/2009.
47.    Treasury, Tranche Report, 6/3/2009, www.financialstability.gov/docs/TrancheReports/7th_Tranche-Report-Appendix.pdf, accessed 6/5/2009.
48.    Treasury, “Treasury Releases Capital Purchase Program Term Sheets for Mutual Holding Companies,” 4/7/2009, www.financialstability.gov/latest/tg-04072009.html, accessed 6/1/2009.
49.    Treasury, “Treasury Releases Capital Purchase Program Term Sheets for Mutual Holding Companies,” 4/7/2009, www.financialstability.gov/latest/tg-04072009.html, accessed 6/1/2009.
50.    Treasury, “Treasury Releases Capital Purchase Program Term Sheets for Mutual Banks,” 4/14/2009, www.financialstability.gov/latest/tg88.html, accessed 6/5/2009.
51.    Treasury, “Remarks by Secretary Geithner before the Independent Community Bankers of America Annual Washington Policy Summit,” 5/13/2009, www.financialstability.gov/latest/tg127.html, accessed 6/1/2009.
52.    Treasury, Transactions Report, 7/2/2009, http://www.financialstability.gov/docs/transactions-reports/transactions-report-0702.pdf, accessed 7/2/2009.
53.    American Recovery and Reinvestment Act of 2009, P.L. 111-5, 2/17/2009.
54.    Treasury, “The Treasury Capital Assistance Program and the Supervisory Capital Assessment Program,” 5/6/2009, http://www.financialstability.gov/latest/tg91.html, accessed 5/8/2009.
55.    Federal Reserve, “Federal Reserve outlines criteria it will use to evaluate applications to redeem U.S. Treasury capital,” 6/1/2009, www.federalreserve.gov, accessed 6/2/2009.
56.    Treasury, Transactions Report, 7/2/2009, http://www.financialstability.gov/docs/transactions-reports/transactions-report-0702.pdf, accessed 7/2/2009.
57.    Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
58.    Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, http://www.financialstability.gov/latest/tg_06262009.html, accessed 6/26/2009.
59.    Treasury, CPP Securities Purchase Agreements, various dates; www.financialstability.gov, accessed 7/4/2009.
60.    American Recovery and Reinvestment Act of 2009, P.L. 111-5, 2/17/2009.
61.    Helping Families Save Their Homes Act of 2009, P.L.111-22, 5/20/2009.
62.    Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.financialstability.gov/latest/tg_06262009.html, accessed 6/26/2009.
63.    Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.financialstability.gov/latest/tg_06262009.html, accessed 6/26/2009.
64.    Treasury, CPP Securities Purchase Agreements, various dates; www.financialstability.gov, accessed 7/4/2009.
65.    Treasury, CPP Securities Purchase Agreements, various dates; www.financialstability.gov, accessed 7/4/2009.
66.    Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.financialstability.gov/latest/tg_06262009.html, accessed 6/26/2009.
67.    Treasury, CPP Securities Purchase Agreements, various dates; www.financialstability.gov, accessed 7/4/2009.
68.    Congressional Oversight Panel, “July Oversight Report: TARP Repayments, Including the Repurchase of Stock Warrants,” 7/10/2009, http://cop.senate.gov/documents/cop-071009-report.pdf, accessed 7/13/2009.
69.    Treasury, CPP Securities Purchase Agreements, various dates; www.financialstability.gov, accessed 7/4/2009.
70.    Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.financialstability.gov/latest/tg_06262009.html, accessed 6/26/2009.
71.    Congressional Oversight Panel, “July Oversight Report: TARP Repayments, Including the Repurchase of Stock Warrants,” 7/10/2009, http://cop.senate.gov/documents/cop-071009-report.pdf, accessed 7/13/2009.
72.    Treasury, CPP Securities Purchase Agreements, various dates; www.financialstability.gov, accessed 7/4/2009.
73.    Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.financialstability.gov/latest/tg_06262009.html, accessed 6/26/2009.
74.    Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.financialstability.gov/latest/tg_06262009.html, accessed 6/26/2009.
75.    Treasury, CPP Securities Purchase Agreements, various dates; www.financialstability.gov, accessed 7/4/2009.
76.    This does not include the $60 million warrant repurchase by State Street Corporation as of the drafting of this report.
77.    Treasury, Transactions Report, 7/2/2009, http://www.financialstability.gov/docs/transactions-reports/transactions-report-0702.pdf, accessed 7/2/2009.
78.    Treasury, Tranche Report, 6/3/2009, www.financialstability.gov/docs/TrancheReports/7th_Tranche-Report-Appendix.pdf, accessed 6/5/2009.
79.    Treasury, “Treasury Releases First Monthly Bank Lending Survey,” 2/17/2009, www.treas.gov, accessed 3/19/2009.
80.    Treasury, response to SIGTARP data call, 3/31/2009.
81.    Treasury, “Treasury Releases April Monthly Bank Lending Survey,” 6/15/2009, www.financialstability.gov/latest/06152009_banksurvey.html, accessed 6/16/2009.
82.    Treasury, “Financial Stability Plan,” 2/10/2009, www.financialstability.gov/latest/tg21.html, accessed 6/5/2009.
83.    Treasury, “Capital Assistance Program,” 3/3/2009, www.financialstability.gov/roadtostability/capitalassistance.html, accessed 6/5/2009.
84.    Treasury, “Treasury White Paper: The Capital Assistance Program and Its Role in the Financial Stability Plan,” no date, www.treas.gov, accessed 3/25/2009.
85.    Federal Reserve, “The Supervisory Capital Assessment Program: Overview of Results,” 5/7/2009, http://www.federalreserve.gov/newsevents/press/bcreg/bcreg20090507a1.pdf, accessed 7/2/2009.
86.    Treasury, “Statement from Treasury Secretary Tim Geithner Regarding the Treasury Capital Assistance Program and the Supervisory Capital Assessment Program,” 5/7/2009, www.fianncialstability.gov, accessed 5/7/2009.
87.    Federal Reserve, “The Supervisory Capital Assessment Program: Design and Implementation,” 4/24/2009, http://www.federalreserve.gov/newsevents/press/bcreg/bcreg20090424a1.pdf, 7/3/2009.
88.    Federal Reserve, “The Supervisory Capital Assessment Program: Design and Implementation,” 4/24/2009, http://www.federalreserve.gov/newsevents/press/bcreg/bcreg20090424a1.pdf, 7/3/2009.
89.    Treasury, Transactions Report, http://www.financialstability.gov/docs/transactions-reports/transactionreport-070209.pdf, accessed 7/8/2009.
90.    Treasury, Stress Test Briefing, 5/8/2009.
91.    Tier One Common is a regulatory standard while TCE is a commonly used market term; both terms refer to similar types of capital.
92.    Federal Reserve, response to SIGTARP draft report, 7/10/2009.
93.    Federal Reserve, “The Supervisory Capital Assessment Program: Design and Implementation,” 4/24/2009, http://www.federalreserve.gov/newsevents/press/bcreg/bcreg20090424a1.pdf, 7/3/2009.
94.    Department of Labor, “The Employment Situation: May 2009,” 6/5/2009, www.bls.gov, accessed 6/30/2009.
95.    Federal Reserve, “The Supervisory Capital Assessment Program: Design and Implementation,” 4/24/2009, http://www.federalreserve.gov/newsevents/press/bcreg/bcreg20090424a1.pdf, 7/3/2009.
96.    Treasury, Stress Test Briefing, 5/8/2009.
97.    Federal Reserve Press Release, “Banking organizations have submitted capital plans to bolster their capital,” 6/8/2009, www.federalreserve.gov/newsevents/press/bcreg/20090608b.htm, accessed 6/8/2009.
98.    Federal Reserve Press Release, “Banking organizations have submitted capital plans to bolster their capital,” 6/8/2009, www.federalreserve.gov/newsevents/press/bcreg/20090608b.htm, accessed 6/8/2009.
99.    Treasury, “The Treasury Capital Assistance Program and the Supervisory Capital Assessment Program,” 5/6/2009, www.financialstability.gov/latest/tg91.html, accessed 5/19/2009.
100.   Treasury, Stress Test Briefing, 5/8/2009.
101.   Treasury, Stress Test Briefing, 5/8/2009.
102.   Treasury, “Programs,” 5/7/2009, www.financialstability.gov/roadtostability/programs.htm, accessed 6/9/2009.
103.   Treasury Press Release, “Treasury to Invest in AIG Restructuring Under the Emergency Economic Stabilization Act,” 11/10/2008, www.financialstability.gov/latest/hp1261.html, accessed 6/9/2009.
104.   Treasury Press Release, “U.S. Treasury and Federal Reserve Board Announce Participation in AIG Restructuring Plan,” 3/2/2009, www.financialstability.gov/latest/tg44.html, accessed 6/9/2009.
105.   Treasury, “Securities Exchange Agreement dated as of April 17, 2009, between American International Group, Inc. and United States Department of the Treasury,” 4/17/2009, www.financialstability.gov/docs/agreements/Series.E.Securities.
194                 SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



             Exchange.Agreement.pdf, accessed 6/8/2009.
      106.   Treasury Press Release, “U.S. Treasury and Federal Reserve Board Announce Participation in AIG Restructuring Plan,” 3/2/2009, www.financialstability.gov/latest/tg44.html, accessed 6/9/2009.
      107.   American International Group, Inc., 10-Q, “Quarterly Report Pursuant to Section 13 or 15(d) of the Securities Exchange Act of 1934,” 3/31/2009, www.sec.gov/Archives/edgar/data/5272/000095012309008272/y76976e10vq.htm, accessed
             6/15/2009.
      108.   American International Group, Inc., 10-Q, “Quarterly Report Pursuant to Section 13 or 15(d) of the Securities Exchange Act of 1934,” 3/31/2009, www.sec.gov/Archives/edgar/data/5272/000095012309008272/y76976e10vq.htm, accessed
             6/15/2009.
      109.   Treasury, “Securities Exchange Agreement dated as of April 17, 2009, between American International Group, Inc. and United States Department of the Treasury,” 4/17/2009, www.financialstability.gov/docs/agreements/Series.E.Securities.
             Exchange.Agreement.pdf, accessed 6/8/2009.
      110.   Treasury, American International Group, Inc. “Term Sheet,” 3/2/2009, www.treas.gov/press/releases/reports/030209_aig_term_sheet.pdf, accessed 6/9/2009.
      111.   Treasury, “Securities Exchange Agreement dated as of April 17, 2009, between American International Group, Inc. and United States Department of the Treasury,” 4/17/2009, www.financialstability.gov/docs/agreements/Series.E.Securities.
             Exchange.Agreement.pdf, accessed 6/8/2009.
      112.   Treasury, American International Group, Inc. “Replacement Capital Covenant,” 4/17/2009, www.financialstability.gov/docs/agreements/Replacement%20Capital%20Covenant.pdf, accessed 6/9/2009.
      113.   American International Group, Inc., 10-Q, “Quarterly Report Pursuant to Section 13 or 15(d) of the Securities Exchange Act of 1934,” 3/31/2009, www.sec.gov/Archives/edgar/data/5272/000095012309008272/y76976e10vq.htm, accessed
             6/15/2009.
      114.   Treasury, “Securities Purchase Agreement dated as of April 17, 2009, between American International Group, Inc. and United States Department of the Treasury,” 4/17/2009, www.financialstability.gov/docs/agreements/Series.F.Securities.
             Purchase.Agreement.pdf, accessed 6/8/2009.
      115.   Treasury, “Securities Purchase Agreement dated as of April 17, 2009 between American International Group, Inc. and United States Department of the Treasury,” 4/17/2009, www.financialstability.gov/docs/agreements/Series.F.Securities.
             Purchase.Agreement.pdf, accessed 6/8/2009.
      116.   Treasury, “Securities Purchase Agreement dated as of April 17, 2009, between American International Group, Inc. and United States Department of the Treasury,” 4/17/2009, www.financialstability.gov/docs/agreements/Series.F.Securities.
             Purchase.Agreement.pdf, accessed 6/8/2009.
      117.   Treasury, “Securities Purchase Agreement dated as of April 17, 2009, between American International Group, Inc. and United States Department of the Treasury,” 4/17/2009, www.financialstability.gov/docs/agreements/Series.F.Securities.
             Purchase.Agreement.pdf, accessed 6/8/2009.
      118.   Treasury, “Securities Purchase Agreement dated as of April 17, 2009, between American International Group, Inc. and United States Department of the Treasury,” 4/17/2009, www.financialstability.gov/docs/agreements/Series.F.Securities.
             Purchase.Agreement.pdf, accessed 6/8/2009.
      119.   Treasury, response to SIGTARP draft report, 7/9/2009.
      120.   Treasury, “Securities Purchase Agreement dated as of April 17, 2009, between American International Group, Inc. and United States Department of the Treasury,” 4/17/2009, www.financialstability.gov/docs/agreements/Series.F.Securities.
             Purchase.Agreement.pdf, accessed 6/8/2009.
      121.   Treasury, “Securities Purchase Agreement dated as of April 17, 2009, between American International Group, Inc. and United States Department of the Treasury,” 4/17/2009, www.financialstability.gov/docs/agreements/Series.F.Securities.
             Purchase.Agreement.pdf, accessed 6/8/2009.
      122.   Treasury, “Securities Purchase Agreement dated as of April 17, 2009, between American International Group, Inc. and United States Department of the Treasury,” 4/17/2009, www.financialstability.gov/docs/agreements/Series.F.Securities.
             Purchase.Agreement.pdf, accessed 6/8/2009.
      123.   American International Group, Inc. Press Release, “AIG Positioning AIA and ALICO as Independent Operations; Federal Reserve Bank of New York to Own Preferred Interests in AIA and ALICO SPVs; Upon Closing, Debt Owed by AIG to
             FRBNY To Be Reduced by $25 Billion,” 6/25/2009.
      124.   Treasury Press Release, “U.S. Treasury and Federal Reserve Board Announce Participation in AIG Restructuring Plan,” 3/2/2009, www.financialstability.gov/latest/tg44.html, accessed 6/9/2009.
      125.   Treasury Press Release, “U.S. Treasury and Federal Reserve Board Announce Participation in AIG Restructuring Plan,” 3/2/2009, www.financialstability.gov/latest/tg44.html, accessed 6/9/2009.
      126.   American International Group, Inc., 10-Q, “Quarterly Report Pursuant to Section 13 or 15(d) of the Securities Exchange Act of 1934,” 3/31/2009, www.sec.gov/Archives/edgar/data/5272/000095012309008272/y76976e10vq.htm, accessed
             6/8/2009.
      127.   American International Group, Inc., 10-Q, “Quarterly Report Pursuant to Section 13 or 15(d) of the Securities Exchange Act of 1934,” 3/31/2009, www.sec.gov/Archives/edgar/data/5272/000095012309008272/y76976e10vq.htm, accessed
             6/8/2009.
      128.   Treasury, “Treasury Releases Guidelines for Targeted Investment Program,” 1/2/2009, www.treas.gov, accessed 1/9/2009.
      129.   Treasury, “Asset Guarantee Program,” 3/2/2009, www.financialstability.gov/roadtostability/assetguaranteeprogram.htm, accessed 6/5/2009.
      130.   Treasury, “U.S. Government Finalizes Terms of Citi Guarantee Announced in November,” 1/16/2009, www.financialstability.gov/latest/hp1358.html, accessed 6/5/2009.
      131.   Citigroup, “Citi Announces Public Share Exchange Launch, Finalizes Definitive Agreement with U.S. Government,” 6/10/2009, www.citigroup.com/citi/press/2009/090610a.htm, accessed 6/10/2009.
      132.   Treasury Press Release, “Treasury Announces Participation in Citigroup’s Exchange Offering,” 2/27/2009, http://www.financialstability.gov/latest/tg41.html, accessed 7/21/2009.
      133.   Citigroup, “Citi Announces Public Share Exchange Launch, Finalizes Definitive Agreement with U.S. Government,” 6/10/2009, www.citigroup.com/citi/press/2009/090610a.htm, accessed 6/10/2009.
      134.   Citigroup, 8-K, 6/9/2009, http://sec.gov/Archives/edgar/data/831001/000095010309001394/dp13784_8k.htm, accessed 6/10/2009.
      135.   Federal Reserve, “The Supervisory Capital Assessment Program: Overview of Results,” 5/7/2009, http://www.federalreserve.gov/newsevents/press/bcreg/bcreg20090507a1.pdf, accessed 7/2/2009.
      136.   Citigroup, “Citi Announces Public Share Exchange Launch, Finalizes Definitive Agreement with U.S. Government,” 6/10/2009, www.citigroup.com/citi/press/2009/090610a.htm, accessed 6/10/2009.
      137.   Citigroup, Exchange Agreement, 6/9/2009, http://sec.gov/Archives/edgar/data/831001/000119312509128765/dex103.htm, accessed 6/10/2009.
      138.   Citigroup, 8-K, 6/9/2009, http://sec.gov/Archives/edgar/data/831001/000095010309001394/dp13784_8k.htm, accessed 6/10/2009.
      139.   Citigroup, Exchange Agreement, 6/9/2009, http://sec.gov/Archives/edgar/data/831001/000119312509128765/dex103.htm, accessed 6/10/2009.
      140.   Treasury Press Release, “Treasury Announces Participation in Citigroup’s Exchange Offering,” 2/27/2009, http://www.financialstability.gov/latest/tg41.html, accessed 6/28/2009.
      141.   Citigroup, 8-K, 6/9/2009, http://sec.gov/Archives/edgar/data/831001/000095010309001394/dp13784_8k.htm, accessed 6/10/2009.
      142.   Citigroup, Exchange Agreement, 6/9/2009, http://sec.gov/Archives/edgar/data/831001/000119312509128765/dex103.htm, accessed 6/10/2009.
      143.   Citigroup, “Citi Announces Public Share Exchange Launch, Finalizes Definitive Agreement with U.S. Government,” 6/10/2009, www.citigroup.com/citi/press/2009/090610a.htm, accessed 6/10/2009.
      144.   Citigroup, 8-K, 6/9/2009, http://sec.gov/Archives/edgar/data/831001/000095010309001394/dp13784_8k.htm, accessed 6/10/2009.
      145.   Bank of America Press Release “Stress Test: Bank of America would need $33.9 Billion more in Tier 1 common,” 5/7/2009, http://investor.bankofamerica.com/phoenix.zhtml?c=71595&p=irol-newsArticle&ID=1286200&highlight=, accessed
             7/14/2009.
      146.   Citigroup, “Securities Purchase Agreement,” 12/31/2008.
      147.   Citigroup, “What Citi is Doing to Expand the Flow of Credit, Support Homeowners and Help the U.S. Economy, TARP Progress Report for First Quarter 2009,” 5/12/2009, www.citigroup.com, accessed 6/1/2009.
      148.   Citigroup, “What Citi is Doing to Expand the Flow of Credit, Support Homeowners and Help the U.S. Economy, TARP Progress Report for First Quarter 2009,” 5/12/2009, www.citigroup.com, accessed 6/1/2009.
      149.   Citigroup, “What Citi is Doing to Expand the Flow of Credit, Support Homeowners and Help the U.S. Economy, TARP Progress Report for First Quarter 2009,” 5/12/2009, www.citigroup.com, accessed 6/1/2009.
      150.   Citigroup, “What Citi is Doing to Expand the Flow of Credit, Support Homeowners and Help the U.S. Economy, TARP Progress Report for First Quarter 2009,” 5/12/2009, www.citigroup.com, accessed 6/1/2009.
      151.   Citigroup, “What Citi is Doing to Expand the Flow of Credit, Support Homeowners and Help the U.S. Economy, TARP Progress Report for First Quarter 2009,” 5/12/2009, www.citigroup.com, accessed 6/1/2009.
      152.   Bank of America, “Quarterly Certifications as to Reports on Internal Controls,” 5/11/2009, received from SIGTARP 7/1/2009.
      153.   Bank of America, “Quarterly Certifications as to Reports on Internal Controls,” 5/11/2009, received from SIGTARP 7/1/2009.
      154.   Bank of America, “Quarterly Certifications as to Reports on Internal Controls,” 5/11/2009, received from SIGTARP 7/1/2009.
      155.   Federal Reserve, response to SIGTARP draft report, 7/9/2009.
      156.   Federal Reserve Press Release, “Expansion of TALF,” 5/1/2009, www.federalreserve.gov/newsevents/press/monetary/20090501a.htm, accessed 6/1/2009.
      157.   FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 3/19/2009, www.newyorkfed.org, accessed 3/27/2009.
      158.   CPP, TALF, and PPIP: Treasury, Office of Financial Stability, Chief of Compliance and CFO, SIGTARP interview, 3/30/2009.
      159.   Lanman, Scott, Bloomberg, “Fed Gets No Requests for TALF Loans to Purchase CMBS,” www.bloomberg.com/apps/news?pid=newsarchive&sid=ajo5OhBgsgz8, 6/16/2009.
      160.   Federal Reserve Press Release, “Expansion of TALF,” 5/1/2009, www.federalreserve.gov/newsevents/press/monetary/20090501a.htm, accessed 6/1/2009.
      161.   Federal Reserve Press Release, “Expansion of TALF,” 5/19/2009, www.federalreserve.gov/monetarypolicy/20090519b.htm, accessed 6/1/2009.
      162.   Federal Reserve Press Release, “Expansion of TALF,” 5/1/2009, www.federalreserve.gov/newsevents/press/monetary/20090501a.htm, accessed 6/1/2009.
      163.   For newly issued CMBS is: FRBNY, “Changes from June 23 CMBS Terms and Conditions,” 7/2/2009, http://www.newyorkfed.org/markets/Terms_Blackline_090702.pdf, accessed 7/2/2009. For legacy CMBS the source is: FRBNY, “Changes
             from June 23 Legacy CMBS Terms and Conditions,” 7/2/2009, www. ny.frb.org/markets/Legacy_CMBS_Terms_090702_Blackline.pdf, accessed 7/2/2009.
      164.   FRBNY, “Changes from June 23 CMBS Terms and Conditions,” 7/2/2009, http://www.newyorkfed.org/markets/Terms_Blackline_090702.pdf, accessed 7/2/2009.
      165.   FRBNY, “Changes from June 23 Legacy CMBS Terms and Conditions,” 7/2/2009, www. ny.frb.org/markets/Legacy_CMBS_Terms_090702_Blackline.pdf, accessed 7/2/2009.
      166.   Board of Governors of the Federal Reserve System, “Letter to Neil Barofsky dated May 22, 2009,” 6/2/2009.
      167.   Federal Reserve Press Release, “Expansion of TALF,” 5/19/2009, www.federalreserve.gov/newsevents/press/monetary/20090519b.htm, accessed 6/1/2009.
      168.   FRBNY, “Changes from June 23 (Legacy CMBS) FAQs,” 7/2/2009, www.ny.frb.org/markets/Legacy_FAQ_090623_blacklined.pdf, accessed 7/2/2009. www.federalreserve.gov/newsevents/press/monetary/20090519b.htm, accessed 6/1/2009.
      169.   Prabha Natarajan and Anusha Shrivastava, Dow Jones Newswires, “Commercial Mortgage Bonds Weaken As S&P Flags Downgrade Risk,” 5/26/2009, www.nasdaq.com/aspx/stock-market-news-story.aspx?storyid=200905261610dowjonesdjonlin-
             e000471&title=commercial-mortgage-bonds-weaken-as-s&p-flags-downgrade-risk, accessed 5/27/2009.
      170.   Prabha Natarajan and Anusha Shrivastava, Dow Jones Newswires, “Commercial Mortgage Bonds Weaken As S&P Flags Downgrade Risk,” 5/26/2009, www.nasdaq.com/aspx/stock-market-news-story.aspx?storyid=200905261610dowjonesdjonlin-
             e000471&title=commercial-mortgage-bonds-weaken-as-s&p-flags-downgrade-risk, accessed 5/27/2009.
      171.   Standard & Poor’s, “U.S. CMBS Ratings On CreditWatch Negative or Affirmed Following June 26, 2009, Criteria Update,” 6/26/2009, www2.standardandpoors.com/portal/site/sp/en/us/page.alert/alert_ratings/2,3,4,0,0,0,0,0,0,0,0,0,0,0,0,0.
             html?artid=730220, accessed 7/2/2009.
      172.   FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 5/19/2009, www.newyorkfed.org/markets/talf_terms.html, accessed 5/19/2009.
      173.   Board of Governors of the Federal Reserve System, “Letter to Neil Barofsky dated May 22, 2009,” 6/2/2009.
      174.   FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions, Revised as of May 19, 2009,” 5/19/2009, www.newyorkfed.org/markets/FAQ_050109_blacklined.pdf, accessed 6/2/2009.
      175.   Board of Governors of the Federal Reserve System, “Letter to Neil Barofsky dated May 22, 2009,” 6/2/2009.
      176.   FRBNY, “Changes from May 19 Legacy CMBS Terms and Conditions,” 6/23/2009, www.ny.frb.org/markets/Legacy_CMBS_Terms_090519_Blackline.pdf, accessed 6/30/2009.
      177.   FRBNY, “Term Asset-Backed Securities Loan Facility: (Legacy CMBS) Terms and Conditions,” 5/19/2009, www.newyorkfed.org/markets/talf_cmbs_terms.html, accessed 5/19/2009.
      178.   Board of Governors of the Federal Reserve System, “Letter to Neil Barofsky dated May 22, 2009,” 6/2/2009.
      179.   Board of Governors of the Federal Reserve System, “Letter to Neil Barofsky dated May 22, 2009,” 6/2/2009.
      180.   FRBNY, “A Preliminary Assessment of the TALF”, 6/4/2009, www.newyorkfed.org/newsevents/speeches/2009/dud090604.html, accessed 6/9/2009.
      181.   FRBNY, “A Preliminary Assessment of the TALF”, 6/4/2009, www.newyorkfed.org/newsevents/speeches/2009/dud090604.html, accessed 6/9/2009.
      182.   Treasury, “Public-Private Investment Program,” 4/6/2009, www.financialstability.gov/roadtostability/publicprivatefund.html, accessed 6/15/2009.
      183.   FDIC, “FDIC Chairman Sheila C. Bair Statement on Legacy Loans Program,” 3/23/2009, www.fdic.gov/llp/chairman.html, accessed 6/15/2009.
      184.   FDIC, “The Remarks of FDIC Chairman Sheila C. Bair to the American Bankers Association Government Relations Summit, Washington DC,” 4/1/2009, www.fdic.gov/news/news/speeches/chairman/spapr0109.html, accessed 7/9/2009.
      185.   Treasury, “Public-Private Investment Program,” 4/6/2009, www.financialstability.gov/roadtostability/publicprivatefund.html, accessed 6/15/2009.
      186.   Treasury Press Release, 7/8/2009, www.financialstability.gov/latest/tg_07082009.html, accessed 7/8/2009.
      187.   House of Representatives, “Testimony of William M. Isaac Chairman, the Secura Group of LECG Former Chairman, Federal Deposit Insurance Corporation before the Subcommittee on Capital Markets, Insurance, and Government Sponsored
             Enterprises,” 3/12/2009, www.house.gov/apps/list/hearing/financialsvcs_dem/isaac031209.pdf, accessed 6/15/2009.
      188.   House of Representatives, “Testimony of Robert H. Herz, Chairman Financial Accounting Standards Board before the U.S. House of Representatives Financial Services Subcommittee On Capital Markets, Insurance, and Government Sponsored
             Entities,” 3/12/2009, www.fasb.org/testimony/03-12-09_prepared_statement.pdf, accessed 6/15/2009.
      189.   FASB Press Release, Fasb.org/news accessed 6/15/2009.
      190.   FASB Press Release, Fasb.org/news accessed 6/15/2009.
      191.   House of Representatives, “Testimony of Robert H. Herz, Chairman Financial Accounting Standards Board before the U.S. House of Representatives Financial Services Subcommittee On Capital Markets, Insurance, and Government Sponsored
             Entities,” 3/12/2009, www.fasb.org/testimony/03-12-09_prepared_statement.pdf, accessed 6/15/2009.
      192.   House of Representatives, “Testimony of Robert H. Herz, Chairman Financial Accounting Standards Board before the U.S. House of Representatives Financial Services Subcommittee On Capital Markets, Insurance, and Government Sponsored
             Entities,” 3/12/2009, www.fasb.org/testimony/03-12-09_prepared_statement.pdf, accessed 6/15/2009.
                                                                                                                                                      QUARTERLY REPORT TO CONGRESS I JULY 21, 2009                                                    195


193.   House of Representatives, “Testimony of Robert H. Herz, Chairman Financial Accounting Standards Board before the U.S. House of Representatives Financial Services Subcommittee On Capital Markets, Insurance, and Government Sponsored
       Entities,“ 3/12/2009, www.fasb.org/testimony/03-12-09_prepared_statement.pdf, accessed 6/15/2009.
194.   House of Representatives, “Testimony of Robert H. Herz, Chairman Financial Accounting Standards Board before the U.S. House of Representatives Financial Services Subcommittee On Capital Markets, Insurance, and Government Sponsored
       Entities,“ 3/12/2009, www.fasb.org/testimony/03-12-09_prepared_statement.pdf, accessed 6/15/2009.
195.   House of Representatives, “Testimony of Robert H. Herz, Chairman Financial Accounting Standards Board before the U.S. House of Representatives Financial Services Subcommittee On Capital Markets, Insurance, and Government Sponsored
       Entities,“ 3/12/2009, www.fasb.org/testimony/03-12-09_prepared_statement.pdf, accessed 6/15/2009.
196.   Treasury, “Public-Private Investment Program: Fact Sheet,” 3/23/2009, www.treas.gov, accessed 6/15/2009.
197.   FDIC Press Release, 6/3/2009, www.fdic.gov/news/news/press/2009/pr09084.html, accessed 6/3/2009.
198.   Treasury, “Public-Private Investment Program: Fact Sheet,” 3/23/2009, www.treas.gov, accessed 6/15/2009.
199.   Treasury, “Public-Private Investment Program: Fact Sheet,” 3/23/2009, www.treas.gov, accessed 6/15/2009.
200.   Treasury, “Public-Private Investment Program: White Paper,” 3/23/2009, www.treas.gov, accessed 6/15/2009.
201.   Treasury, “Public-Private Investment Program: White Paper,” 3/23/2009, www.treas.gov, accessed 6/15/2009.
202.   Treasury, “Legacy Securities Public-Private Investment Program Compliance and Risk Management,” 7/2/2009.
203.   Treasury, “Meeting Notes on PPIP Manager Selection,” 4/21/2009.
204.   Treasury, “Application for Treasury Investment in a Legacy Securities Public-Private Investment Fund,” no date, www.treas.gov/press/releases/reports/legacy_securities_ppif_app.pdf, accessed 6/15/2009.
205.   Meeting with SIGTARP, 6/15/2009.
206.   Treasury, Press Release, 7/8/2009, www.financialstability.gov/latest/tg_07082009.html, accessed 7/8/2009.
207.   Treasury, Press Release, 7/8/2009, www.financialstability.gov/latest/tg_07082009.html, accessed 7/8/2009
208.   Treasury, Press Release, 7/8/2009, www.financialstability.gov/latest/tg_07082009.html, accessed 7/8/2009
209.   Treasury, “Letter of Intent and Term Sheet,” 7/8/2009, www.financialstability.gov/docs/S-PPIP_LOI_Term-Sheets.pdf, accessed 7/8/2009.
210.   Treasury, “Letter of Intent and Term Sheet,” 7/8/2009, www.financialstability.gov/docs/S-PPIP_LOI_Term-Sheets.pdf, accessed 7/8/2009.
211.   Treasury, “Legacy Securities Public-Private Investment Program Compliance and Risk Management,” 7/2/2009.
212.   Treasury, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, www.financialstability.gov/roadtostability/unlockingCreditforSmallBusinesses.html, accessed 3/17/2009.
213.   Small Business Administration, “Q&A for Small Business Owners,” no date, www.treas.gov/press/releases/reports/tg58_smallbiz_qa.pdf, accessed 6/30/2009.
214.   Treasury, “Guidelines for Automotive Industry Financing Program,” 12/19/2008, www.financialstability.gov/docs/AIFP/AIFP_guidelines.pdf, accessed 6/9/2009.
215.   Treasury, “Auto Supplier Support Program: Stabilizing the Auto Industry at a Time of Crisis,” 3/19/2009, www.financialstability.gov/latest/supplier_support_program_3_18.pdf, accessed 6/9/2009.
216.   Treasury, “Obama Administration’s New Warranty Commitment Program,” 3/30/2009, www.financialstability.gov/docs/WarranteeCommitmentProgram.pdf, accessed 6/9/2009.
217.   Treasury, “Guidelines for Automotive Industry Financing Program,” 12/19/2008, www.financialstability.gov/docs/AIFP/AIFP_guidelines.pdf, accessed 6/9/2009.
218.   The $79.3 billion commitment: Treasury, Transactions Report, 7/2/2009, http://www.financialstability.gov/docs/transaction-reports/transactions-report_070209.pdf, accessed 7/2/2009. The $130.8 million repayment: Treasury, response to
       SIGTARP data call, 7/8/2009.
219.   Treasury, response to SIGTARP data call, 7/8/2009.
220.   Treasury, “Auto Supplier Support Program: Stabilizing the Auto Industry at a Time of Crisis,” 3/19/2009, www.financialstability.gov/latest/supplier_support_program_3_18.pdf, accessed 6/9/2009.
221.   Treasury, “Treasury Announces Auto Supplier Support Program,” 3/19/2009, http://www.financialstability.gov/latest/auto3_18.html, accessed 6/4/2009.
222.   Treasury, “Auto Supplier Support Program: Stabilizing the Auto Industry at a Time of Crisis,” 3/19/2009, www.financialstability.gov/latest/supplier_support_program_3_18.pdf, accessed 6/9/2009.
223.   Treasury, Transactions Report, 7/2/2009, http://www.financialstability.gov/docs/transaction-reports/transactions-report_070209.pdf, accessed 7/2/2009.
224.   Treasury, response to SIGTARP draft report, 7/9/2009.
225.   Treasury, “Obama Administration’s New Warranty Commitment Program,” 3/30/2009, www.financialstability.gov/docs/WarranteeCommitmentProgram.pdf, accessed 6/9/2009.
226.   Treasury, Transactions Report, 7/2/2009, http://www.financialstability.gov/docs/transaction-reports/transactions-report_070209.pdf, accessed 7/2/2009.
227.   Treasury, Office of Financial Stability Auto Team, GAO interview, 6/5/2009.
228.   Newton, Grant W., Bankruptcy and Insolvency Accounting, Volume 1, Sixth Ed., New York: John Wiley & Sons, Inc., 2000.
229.   Marrama v. Citizens Bank, 549 U.S. 365, 367 (2007).
230.   Grogan v. Garner, 498 U.S. 279, 286 (1991) (citing Local Loan Co. v. Hunt, 292 U.S. 234, 244 (1934)).
231.   U.S. Courts, “The Discharge in Bankruptcy – Bankruptcy Basics,” no date, www.uscourts.gov/bankruptcycourts/bankruptcybasics/discharge.html, accessed 6/9/2009.
232.   U.S. Courts, “The Discharge in Bankruptcy – Bankruptcy Basics,” no date, www.uscourts.gov/bankruptcycourts/bankruptcybasics/discharge.html, accessed 6/9/2009.
233.   U.S. Courts, “The Discharge in Bankruptcy – Bankruptcy Basics,” no date, www.uscourts.gov/bankruptcycourts/bankruptcybasics/discharge.html, accessed 6/9/2009.
234.   Newton, Grant W., Bankruptcy and Insolvency Accounting, Vol. 1, Sixth Ed., New York: John Wiley & Sons, Inc., 2000.
235.   U.S. Courts Press Release, “Bankruptcy Filings Near Million Mark for 12-Month Period Ending June 30, 2008,” 8/27/2008, www.uscourts.gov/Press_Releases/2008/BankruptcyFilingsAug2008.cfm, accessed 6/9/2009.
236.   Newton, Grant W., Bankruptcy and Insolvency Accounting, Vol. 1, Sixth Ed., New York: John Wiley & Sons, Inc., 2000.
237.   Under particular conditions, creditors and other parties in interest may also file a “plan of reorganization.” See 11 U.S.C. § 1121(c).
238.   Mini Code Special Redlined Edition, United States Bankruptcy Code, 2006 Ed., Texas: AWHFY, L.P., 2005.
239.   U.S. Courts, “United States Bankruptcy Courts,” no date, www.uscourts.gov/bankruptcycourts.html, accessed 6/15/2009.
240.   If any creditors had objected, their objections would have been aired at the court hearing where they could either have been overruled by the court, or the court could have ordered Sample Company to address the concerns and submit a new
       plan. Further, if any creditors continued to disagree with the plan after 120 days from the petition, they could choose to submit their own plan or in fact propose to convert to a liquidating version of Chapter 11 or to Chapter 7.
241.   Treasury, Transactions Report, 7/2/2009, http://www.financialstability.gov/docs/transaction-reports/transactions-report_070209.pdf, accessed 7/2/2009.
242.   Treasury, “Chrysler February 17 Plan: Viability Determination,” 3/30/2009, www.financialstability.gov/docs/AIFP/Chrysler-Viability-Assessment.pdf, accessed 6/10/2009.
243.   Treasury, “Obama Administration Auto Restructuring Initiative: Chrysler-Fiat Alliance,” 4/30/2009, www.financialstability.gov/docs/AIFP/Chrysler-restructuring-factsheet_043009.pdf, accessed 6/9/2009.
244.   Treasury, Office of Financial Stability Auto Team, GAO interview, 6/5/2009.
245.   Treasury, Office of Financial Stability Auto Team, GAO interview, 6/5/2009.
246.   Treasury, “Obama Administration Auto Restructuring Initiative: Chrysler-Fiat Alliance,” 4/30/2009, www.financialstability.gov/docs/AIFP/Chrysler-restructuring-factsheet_043009.pdf, accessed 6/9/2009.
247.   Treasury, “Obama Administration Auto Restructuring Initiative: Chrysler-Fiat Alliance,” 4/30/2009, www.financialstability.gov/docs/AIFP/Chrysler-restructuring-factsheet_043009.pdf, accessed 6/9/2009.
248.   Treasury, “Obama Administration Auto Restructuring Initiative: Chrysler-Fiat Alliance,” 4/30/2009, www.financialstability.gov/docs/AIFP/Chrysler-restructuring-factsheet_043009.pdf, accessed 6/9/2009.
249.   Treasury, Transactions Report, 7/2/2009, http://www.financialstability.gov/docs/transaction-reports/transactions-report_070209.pdf, accessed 7/2/2009.
250.   Treasury, “Obama Administration New Path to Viability for GM & Chrysler,” 3/30/2009, www.treas.gov/initiatives/eesa/AIFP/fact-sheet.pdf, accessed 6/10/2009.
251.   Treasury, “Obama Administration Auto Restructuring Initiative: General Motors Restructuring,” 6/1/2009, www.financialstability.gov/latest/05312009_gm-factsheet.html, accessed 6/10/2009.
252.   Treasury, Transactions Report, 7/2/2009, http://www.financialstability.gov/docs/transaction-reports/transactions-report_070209.pdf, accessed 7/2/2009.
253.   Note that this $884 million is included in the investment totals for GMAC, rather than for GM. Treasury, Transactions Report, 7/2/2009, http://www.financialstability.gov/docs/transaction-reports/transactions-report_070209.pdf, accessed
       7/2/2009.
254.   Treasury, Transactions Report, 7/2/2009, http://www.financialstability.gov/docs/transaction-reports/transactions-report_070209.pdf, accessed 7/2/2009.
255.   Treasury, “Obama Administration Auto Restructuring Initiative: General Motors Restructuring,” 6/1/2009, www.financialstability.gov/latest/05312009_gm-factsheet.html, accessed 6/10/2009.
256.   Senate, “Statement by Ron Bloom, Senior Advisor at the U.S. Treasury Department before the Senate Banking Committee,” 6/10/2009, banking.senate.gov/public/index.cfm?FuseAction=Hearings.Testimony&Hearing_ID=e4434686-9de0-4d73-
       99eb-b49b0ac31ee5&Witness_ID=9a2a802d-db2e-40c4-a97d-031375049b31, accessed 6/11/2009.
257.   Treasury, Office of Financial Stability Auto Team, SIGTARP interview, 6/1/2009.
258.   Treasury, response to SIGTARP draft report, 7/9/2009.
259.   Treasury, Transactions Report, 7/2/2009, http://www.financialstability.gov/docs/transaction-reports/transactions-report_070209.pdf, accessed 7/8/2009.
260.   Treasury, Office of Financial Stability Auto Team, SIGTARP interview, 6/1/2009.
261.   Treasury, “Treasury Announces TARP Investment in GMAC,” 3/2/2009, www.financialstability.gov/latest/hp1335.html, accessed 6/9/2009.
262.   Treasury, Transactions Report, 7/2/2009, http://www.financialstability.gov/docs/transaction-reports/transactions-report_070209.pdf, accessed 7/2/2009.
263.   Treasury, “Treasury Announces Additional Investment in GMAC LLC,” 5/21/2009, www.financialstability.gov/latest/tg5222009.html, accessed 6/9/2009.
264.   Treasury, Office of Financial Stability Auto Team, SIGTARP interview, 6/1/2009.
265.   Treasury, Office of Financial Stability Auto Team, SIGTARP interview, 6/1/2009.
266.   Treasury, Transactions Report, 7/2/2009, http://www.financialstability.gov/docs/transaction-reports/transactions-report_070209.pdf, accessed 7/2/2009.
267.   Treasury, response to SIGTARP draft report, 7/9/2009.
268.   Federal Reserve, “The Supervisory Capital Assessment Program: Overview of Results,” 5/7/2009, http://www.federalreserve.gov/newsevents/press/bcreg/bcreg20090507a1.pdf, accessed 7/2/2009.
269.   Federal Reserve, “The Supervisory Capital Assessment Program: Overview of Results,” 5/7/2009, http://www.federalreserve.gov/newsevents/press/bcreg/bcreg20090507a1.pdf, accessed 7/2/2009.
270.   Treasury, response to SIGTARP draft, 7/9/2009.
271.   Treasury, Office of Financial Stability Auto Team, SIGTARP interview, 6/1/2009.
272.   Treasury, “Making Home Affordable Program Update,” 4/28/2009, http://www.financialstability.gov/docs/042809SecondLienFactSheet.pdf, accessed 5/26/2009.
273.   Treasury, “Making Home Affordable Updated Detailed Program Description,” 3/4/2009, http://www.treas.gov/press/releases/reports/housing_fact_sheet.pdf, accessed 6/30/2009.
274.   Treasury, response to SIGTARP draft, 4/9/2009.
275.   Treasury, “Making Home Affordable Updated Detailed Program Description,” 3/4/2009, http://www.treas.gov/press/releases/reports/housing_fact_sheet.pdf, accessed 6/30/2009.
276.   Treasury, Transactions Report, 7/2/2009, http://www.financialstability.gov/docs/transaction-reports/transactions-report-070209.pdf, accessed 7/2/2009.
277.   Treasury, Transactions Report, 7/2/2009, http://www.financialstability.gov/docs/transaction-reports/transactions-report-070209.pdf, accessed 7/2/2009.
278.   Treasury, “Making Home Affordable Program Update,” 4/28/2009, http://www.financialstability.gov/docs/042809SecondLienFactSheet.pdf, 5/26/2009.
279.   Treasury, “Making Home Affordable Program Update,” 4/28/2009, http://www.financialstability.gov/docs/042809SecondLienFactSheet.pdf, 5/26/2009.
280.   Treasury, “Making Home Affordable Program Update,” 4/28/2009, http://www.financialstability.gov/docs/042809SecondLienFactSheet.pdf, 5/26/2009.
281.   Treasury, “Making Home Affordable Program Update,” 4/28/2009, http://www.financialstability.gov/docs/042809SecondLienFactSheet.pdf, 5/26/2009.
282.   Treasury, “Making Home Affordable Program Update,” 4/28/2009, http://www.financialstability.gov/docs/042809SecondLienFactSheet.pdf, 5/26/2009.
283.   American Recovery and Reinvestment Act of 2009, P.L. 111-5, 2/13/2009.
284.   Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.financialstability.gov/docs/EC_IFR_FR_web60909.pdf, accessed 6/10/2009.
285.   Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.financialstability.gov/docs/EC_IFR_FR_web60909.pdf, accessed 6/10/2009.
286.   Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.financialstability.gov/docs/EC_IFR_FR_web60909.pdf, accessed 6/10/2009.
287.   Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.financialstability.gov/docs/EC_IFR_FR_web60909.pdf, accessed 6/10/2009.
288.   Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.financialstability.gov/docs/EC_IFR_FR_web60909.pdf, accessed 6/10/2009.
289.   Treasury, Transactions Report, 7/2/2009, http://www.financialstability.gov/docs/transaction-reports/transactions-report-070209.pdf, accessed 7/2/2009.
290.   Treasury, “Interim Final Rule on TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.financialstability.gov/latest/tg_0609b2009.html, accessed 6/10/2009.
291.   Treasury, Executive Compensation briefing, 6/17/2009.
292.   Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.financialstability.gov/docs/EC_IFR_FR_web60909.pdf, accessed 6/10/2009.
293.   Treasury, “Interim Final Rule on TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.financialstability.gov/latest/tg_0609b2009.html, accessed 6/10/2009.
294.   Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.financialstability.gov/docs/EC_IFR_FR_web60909.pdf, accessed 6/10/2009.
295.   Treasury, “Interim Final Rule on TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.financialstability.gov/latest/tg_0609b2009.html, accessed 6/10/2009.
296.   Treasury, “Interim Final Rule on TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.financialstability.gov/latest/tg_0609b2009.html, accessed 6/10/2009.
297.   Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.financialstability.gov/docs/EC_IFR_FR_web60909.pdf, accessed 6/10/2009.
298.   Treasury, Executive Compensation briefing, 6/17/2009.
299.   Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.financialstability.gov/docs/EC_IFR_FR_web60909.pdf, accessed 6/10/2009.
196                 SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      300.   Treasury, “Interim Final Rule on TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.financialstability.gov/latest/tg_0609b2009.html, accessed 6/10/2009.
      301.   Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.financialstability.gov/docs/EC_IFR_FR_web60909.pdf, accessed 6/10/2009.
      302.   Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.financialstability.gov/docs/EC_IFR_FR_web60909.pdf, accessed 6/10/2009.
      303.   Treasury, “Interim Final Rule on TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.financialstability.gov/latest/tg_0609b2009.html, accessed 6/10/2009.
      304.   Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.financialstability.gov/docs/EC_IFR_FR_web60909.pdf, accessed 6/10/2009.
      305.   Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.financialstability.gov/docs/EC_IFR_FR_web60909.pdf, accessed 6/10/2009.
      306.   Treasury, “Interim Final Rule on TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.financialstability.gov/latest/tg_0609b2009.html, accessed 6/10/2009.
      307.   Treasury, “Interim Final Rule on TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.financialstability.gov/latest/tg_0609b2009.html, accessed 6/10/2009.
      308.   Treasury, “Interim Final Rule on TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.financialstability.gov/latest/tg_0609b2009.html, accessed 6/10/2009.
      309.   Treasury, “Interim Final Rule on TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.financialstability.gov/latest/tg_0609b2009.html, accessed 6/10/2009.
      310.   Treasury, “Interim Final Rule on TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.financialstability.gov/latest/tg_0609b2009.html, accessed 6/10/2009.
      311.   Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.financialstability.gov/docs/EC_IFR_FR_web60909.pdf, accessed 6/10/2009.
      312.   Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.financialstability.gov/docs/EC_IFR_FR_web60909.pdf, accessed 6/10/2009.
      313.   Federal Reserve, “Federal Reserve Act Section 10 Board of Governors of the Federal Reserve System,” www.federalreserve.gov/aboutthefed/section%2010.htm, accessed 6/30/2009.
      314.   Federal Reserve Act, Section 10, www.federalreserve.gov/aboutthefed/section%2010.htm, accessed 6/30/2009.
      315.   Federal Reserve, www.federalreserve.gov/aboutthefed/bios/board/bernanke.htm; accessed June 30, 2009.
      316.   Federal Reserve, Office of the Inspector General, response to SIGTARP draft report, 7/9/2009.
      317.   Federal Reserve, Office of the Inspector General, response to SIGTARP draft report, 7/9/2009.
      318.   Federal Reserve, “H.4.1 Release – Factors Affecting Reserve Balances,” 1/4/2007, www.federalreserve.gov/releases/h41/20070104/, accessed 7/1/2009; Federal Reserve, “H.4.1 Release – Factors Affecting Reserve Balances,” 6/25/2009,
             www.federalreserve.gov/releases/h41/Current, accessed 7/1/2009.
      319.   Federal Reserve Act, 12 U.S.C. § 343 (1932).
      320.   Fettig, David, “The History of a Powerful Paragraph,” The Region, 6/2008, www.minneapolisfed.org/publications_papers/pub_display.cfm?id=3485, accessed 7/7/2009.
      321.   Federal Reserve balance sheet, Federal Reserve Statistical Release H.4.1, “Factors Affecting Reserve Balances,” 6/4/2009, www.federalreserve.gov/releases/h41/current/h41.htm#h41tab9, accessed 6/7/2009.
      322.   Federal Reserve balance sheet was $910 billion on 1/4/2007 (January Federal Reserve balance sheet, Federal Reserve Statistical Release H.4.1, “Factors Affecting Reserve Balances,” 6/4/2009, www.federalreserve.gov/releases/h41/current/h41.
             htm#h41tab9, accessed 6/7/2009; historical data: www.federalreserve.gov/releases/h41/hist/h41hist1.htm.
      323.   On October 6, 2008, the Board of Governors of the Federal Reserve announced that it will begin to pay interest on depository institutions’ required and excess reserve balances, stating “the payment of interest on excess reserve balances will give
             the Federal Reserve greater scope to use its lending programs to address conditions in credit markets while also maintaining the federal funds rate close to the target established by the Federal Open Market Committee.” Federal Reserve board
             Press Release, 10/6/2008, www.federalreserve.gov/newsevents/press/monetary/20081006a.htm, accessed 6/10/2009.
      324.   Federal Reserve, Monetary Policy Report to the Congress, Appendix A, 2/24/2009, www.federalreserve.gov/monetarypolicy/mpr_20090225_appendixa.htm, accessed 5/14/2009.
      325.   Federal Reserve, Monetary Policy Report to the Congress, Appendix A, 2/24/2009, www.federalreserve.gov/monetarypolicy/mpr_20090225_appendixa.htm, accessed 5/14/2009.
      326.   Federal Reserve, research.stlouisfed.org/fred2/data/WREPO.txt, accessed 6/28/2009.
      327.   Federal Reserve Press Release, 9/14/2008, www.federalreserve.gov/newsevents/press/monetary/20080914a.htm, accessed 6/30/2009.
      328.   Federal Reserve Press Release, 9/14/2008, www.federalreserve.gov/newsevents/press/monetary/20080914a.htm, accessed 6/30/2009.
      329.   Federal Reserve, “Credit and Liquidity Programs and the Balance Sheet,” www.federalreserve.gov/monetarypolicy/bst_lendingother.htm, accessed 6/25/2009.
      330.   Federal Reserve, Monetary Policy Report to the Congress, Appendix A, 2/24/2009, www.federalreserve.gov/monetarypolicy/mpr_20090225_appendixa.htm, accessed 5/14/2009.
      331.   Federal Reserve, Monetary Policy Report to the Congress, Appendix A, 2/24/2009, www.federalreserve.gov/monetarypolicy/mpr_20090225_appendixa.htm, accessed 5/14/2009; Federal Reserve Press Release, 6/25/2009, www.federalreserve.gov/
             newsevents/press/monetary/20090625a.htm, accessed 6/30/2009.
      332.   Federal Reserve, Monetary Policy Report to the Congress, Appendix A, 2/24/2009, www.federalreserve.gov/monetarypolicy/mpr_20090225_appendixa.htm, accessed 5/14/2009.
      333.   Federal Reserve, Monetary Policy Report to the Congress, Appendix A, 2/24/2009, www.federalreserve.gov/monetarypolicy/mpr_20090225_appendixa.htm, accessed 5/14/2009.
      334.   Federal Reserve, Monetary Policy Report to the Congress, Appendix A, 2/24/2009, www.federalreserve.gov/monetarypolicy/mpr_20090225_appendixa.htm, accessed 5/14/2009.
      335.   Federal Reserve, Monetary Policy Report to the Congress, Appendix A, 2/24/2009, www.federalreserve.gov/monetarypolicy/mpr_20090225_appendixa.htm, accessed 5/14/2009.
      336.   Federal Reserve, Monetary Policy Report to the Congress, Appendix A, 2/24/2009, www.federalreserve.gov/monetarypolicy/mpr_20090225_appendixa.htm, accessed 5/14/2009; Federal Reserve Press Release, 6/25/2009,
             www.federalreserve.gov/newsevents/press/monetary/20090625a.htm, accessed 6/30/2009.
      337.   Federal Reserve, Monetary Policy Report to the Congress, Appendix A, 2/24/2009, www.federalreserve.gov/monetarypolicy/mpr_20090225_appendixa.htm, accessed 5/14/2009.
      338.   Federal Reserve, Monetary Policy Report to the Congress, Appendix A, 2/24/2009, www.federalreserve.gov/monetarypolicy/mpr_20090225_appendixa.htm, accessed 5/14/2009; Federal Reserve Press Release, 6/25/2009, www.federalreserve.gov/
             newsevents/press/monetary/20090625a.htm, accessed 6/30/2009.
      339.   Federal Reserve Bank of New York, “SOMA TSLF Options Program: Frequently Asked Questions,” 2/3/2009, www.newyorkfed.org/markets/top_faq.html, accessed 6/8/2009.
      340.   Federal Reserve Bank of New York, “SOMA TSLF Options Program: Frequently Asked Questions,” 2/3/2009, www.newyorkfed.org/markets/top_faq.html, accessed 6/8/2009.
      341.   Federal Reserve Bank of New York, “Term Securities Lending Facility Options Program (TOP) Terms and Conditions,” 2/3/2009, www.newyorkfed.org/markets/top_terms.html, accessed 6/8/2009.
      342.   Federal Reserve Press Release, 6/25/2009, www.federalreserve.gov/newsevents/press/monetary/20090625a.htm, accessed 6/30/2009.
      343.   Federal Reserve Bank of New York, “Announcement of Revisions to the SOMA Securities Lending Program,” 2/12/2009, www.newyorkfed.org/newsevents/news_archive/markets/1999/soma.html, accessed 6/12/2009.
      344.   Federal Reserve Bank of New York, “System Open Market Account Holdings” 6/3/2009, www.newyorkfed.org/markets/soma/sysopen_accthildings.html, accessed 6/9/2009.
      345.   Federal Reserve Bank of New York, “Announcement of Revisions to the SOMA Securities Lending Program,” 2/12/2009, www.newyorkfed.org/newsevents/news_archive/markets/1999/soma.html, accessed 6/12/2009.
      346.   Federal Reserve Bank of New York, “Changes to Dealer Limits for SOMA Securities Lending Program,” 9/23/2008, www.newyorkfed.org/markets/st092308.html, accessed 6/12/2009.
      347.   Federal Reserve Bank of New York, “Changes to SOMA Securities Lending Program,” 10/8/2008, www.newyorkfed.org/markets/st100808.html, accessed 6/12/2009.
      348.   Federal Reserve, Monetary Policy Report to the Congress, Appendix A, 2/24/2009, www.federalreserve.gov/monetarypolicy/mpr_20090225_appendixa.htm, accessed 5/14/2009.
      349.   Federal Reserve, Monetary Policy Report to the Congress, Appendix A, 2/24/2009, www.federalreserve.gov/monetarypolicy/mpr_20090225_appendixa.htm, accessed 5/14/2009.
      350.   Federal Reserve Press Release, 6/25/2009, www.federalreserve.gov/newsevents/press/monetary/20090625a.htm, accessed 6/30/2009.
      351.   Federal Reserve Press Release, 3/18/2009, federalreserve.gov/newsevents/press/monetary/20090318a.htm, accessed 5/15/2009.
      352.   Federal Reserve Press Release, 3/18/2009, federalreserve.gov/newsevents/press/monetary/20090318a.htm, accessed 5/15/2009.
      353.   Federal Reserve, “Credit and Liquidity Programs and the Balance Sheet,” www.federalreserve.gov/monetarypolicy/bst_liquidityswaps.htm, accessed 6/9/2009.
      354.   Federal Reserve, “Credit and Liquidity Programs and the Balance Sheet,” www.federalreserve.gov/monetarypolicy/bst_liquidityswaps.htm, accessed 6/9/2009.
      355.   Federal Reserve Press Release, 3/18/2009, federalreserve.gov/newsevents/press/monetary/20090318a.htm, accessed 6/12/2009.
      356.   Federal Reserve, “Permanent Open Market Operations Treasury: Frequently Asked Questions,” 3/24/2009, www.newyorkfed.org/markets/pomo_faq.html, accessed 6/11/2009, and www.treas.gov/press/releases/tg112.htm, accessed 7/1/2009.
      357.   Federal Reserve, Monetary Policy Report to the Congress, Appendix A, 2/24/2009, www.federalreserve.gov/monetarypolicy/mpr_20090225_appendixa.htm, accessed 5/14/2009.
      358.   Federal Reserve, response to SIGTARP data call, 7/10/2009.
      359.   Federal Reserve, Monetary Policy Report to the Congress, Appendix A, 2/24/2009, www.federalreserve.gov/monetarypolicy/mpr_20090225_appendixa.htm, accessed 5/14/2009.
      360.   Federal Reserve, Monetary Policy Report to the Congress, Appendix A, 2/24/2009, www.federalreserve.gov/monetarypolicy/mpr_20090225_appendixa.htm, accessed 5/14/2009.
      361.   Federal Reserve Press Release, 3/2/2009, www.federalreserve.gov/newsevents/press/other/20090302a.htm, accessed 7/1/2009.
      362.   Federal Reserve, Monetary Policy Report to the Congress, Appendix A, 2/24/2009, www.federalreserve.gov/monetarypolicy/mpr_20090225_appendixa.htm, accessed 5/14/2009.
      363.   Federal Reserve, Monetary Policy Report to the Congress, Appendix A, 2/24/2009, www.federalreserve.gov/monetarypolicy/mpr_20090225_appendixa.htm, accessed 5/14/2009.
      364.   Federal Reserve, Monetary Policy Report to the Congress, Appendix A, 2/24/2009, www.federalreserve.gov/monetarypolicy/mpr_20090225_appendixa.htm, accessed 5/14/2009.
      365.   Federal Reserve, “Federal Reserve System Monthly Report on Credit and Liquidity Programs and the Balance Sheet,” 6/2009, www.federalreserve.gov/newsevents/press/monetary/monthlyclbsreport200906.pdf, accessed 6/30/2009.
      366.   Federal Reserve, “Report Pursuant to Section 129 of the Emergency Economic Stabilization Act of 2008: Bridge Loan to The Bear Stearns Companies Inc. Through JPMorgan Chase Bank, N.A.,” no date, www.federalreserve.gov/monetarypolicy/
             files/129bearstearnsbridgeloan.pdf, accessed 6/17/2009.
      367.   Federal Reserve, “Report Pursuant to Section 129 of the Emergency Economic Stabilization Act of 2008: Bridge Loan to The Bear Stearns Companies Inc. Through JPMorgan Chase Bank, N.A.,” no date, www.federalreserve.gov/monetarypolicy/
             files/129bearstearnsbridgeloan.pdf, accessed 6/17/2009.
      368.   Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, Section 135.
      369.   FDIC, “Your Insured Deposits,” www.fdic.gov/deposit/Deposits/insured/, accessed 6/23/2009.
      370.   FDIC, “Your Insured Deposits,” www.fdic.gov/deposit/Deposits/insured/, accessed 6/23/2009.
      371.   Congressional Budget Office, “The Budget and Economic Outlook: Fiscal Years 2009-2019, 1/2009, p. 41, www.cbo.gov/doc.cfm?index=9957&type=3, accessed 5/14/2009.
      372.   GAO, “Financial Audit: Federal Deposit Insurance Corporation Funds’ 2008 and 2007 Financial Statements,” 5/2009, www.gao.gov/new.items/d09535.pdf, accessed 7/2/2009.
      373.   FDIC, Chief Financial Officer’s Report to the Board, First Quarter 2009, www.fdic.gov/about/strategic/corporate/cfo_report_1stqtr_09/exec_summary.html, accessed 7/10/2009.
      374.   FDIC, Press Release, 11/28/2008, www.fdic.gov/news/news/press/2008/pr08122.html, accessed 6/23/2009.
      375.   FDIC Press Release, 11/28/2008, www.fdic.gov/news/news/press/2008/pr08122.html, accessed 6/23/2009.
      376.   FDIC “Your Insured Deposits,” www.fdic.gov/deposit/Deposits/insured, accessed 6/23/2009.
      377.   FDIC, Press Release, 11/28/2008, www.fdic.gov/news/news/press/2008/pr08122.html, accessed 6/23/2009.
      378.   FDIC “Amendment of the Temporary Liquidity Guarantee Program To Extend the Debt Guarantee Program and To Impose Surcharges on Assessments for Certain Debt Issued on or After April 1, 2009,” 74 Federal Register 26,521–26,525,
             6/3/2009, www.fdic.gov/regulations/laws/federal/2009/09FinalAD37.pdf, accessed 6/24/2009.
      379.   FDIC, “Your Insured Deposits,” www.fdic.gov/deposit/Deposits/insured, accessed 6/23/2009.
      380.   FDIC, Financial Institution Letters, “Potential Extension of the Transaction Account Guarantee Program Notice of Proposed Rulemaking,” 6/23/2009, www.fdic.gov/news/news/financial/2009/fil09034.html, accessed 6/24/2009.
      381.   Treasury Press Release, “Treasury Announces Temporary Guarantee Program for Money Market Funds,” 9/29/2008, www.treas.gov/press/releases/hp1161.htm, accessed 6/24/2009.
      382.   Treasury Press Release, “Treasury Announces Temporary Guarantee Program for Money Market Funds,” 9/29/2008, www.treas.gov/press/releases/hp1161.htm, accessed 6/24/2009.
      383.   Treasury Press Release, “Treasury Announces Extension of Temporary Guarantee Program for Money Market Funds,” 3/31/2009, www.ustreas.gov/press/releases/tg76.htm, accessed 6/24/2009.
      384.   Treasury Press Release, “Treasury Announces Guaranty Program for Money Market Funds,” 9/18/2008, www.treasury.gov/press/releases/hp1147.htm, accessed 6/24/2009.
      385.   Federal Reserve Board Statistical Release Z.1, Flow of Funds Accounts of the United States, 6/11/2009, Table L.206, www.federalreserve.gov/release/z1/Current, accessed 6/11/2009.
      386.   House Financial Services Committee, “Summary of Housing and Economic Recovery Act of 2008,” www.financialservices.house.gov/FHA.html, accessed 6/25/2009.
      387.   White House, FY 2010 Budget, www.whitehouse.gov/omb/budget/fy2010/assets/gov.pdf, accessed 6/25/2009.
      388.   White House, FY 2010 Budget, www.whitehouse.gov/omb/budget/fy2010/assets/gov.pdf, accessed 6/25/2009.
      389.   Treasury, “Budget in Brief FY 2010,” www.ustreas.gov/offices/management/budget/budgetinbrief/fy2010/BIB-HousingGSE.pdf, accessed 6/25/2009.
      390.   House Financial Services Committee, Summary of Housing and Economic Recovery Act of 2008, financialservices.house.gov/FHA.html, accessed 6/25/2009; Treasury, “MBS Purchase Program Fact Sheet,” 9/7/2008, www.ustreas.gov/press/
             releases/reports/mbs_factsheet_090708hp1128.pdf, accessed 6/28/2009.
      391.   Treasury, “Budget in Brief FY 2010,” www.ustreas.gov/offices/management/budget/budgetinbrief/fy2010/BIB-HousingGSE.pdf, accessed 6/25/2009.
      392.   Treasury, “Budget in Brief FY 2010,” www.ustreas.gov/offices/management/budget/budgetinbrief/fy2010/BIB-HousingGSE.pdf, accessed 6/25/2009.
      393.   Treasury, “Budget in Brief FY 2010,” www.ustreas.gov/offices/management/budget/budgetinbrief/fy2010/BIB-HousingGSE.pdf, accessed 6/25/2009.
      394.   House Financial Services Committee, “Summary of Housing and Economic Recovery Act of 2008,” financialservices.house.gov/FHA.html, accessed 6/25/2009.
      395.   Federal Register, Vol. 74, No. 10, 1/15/2009, “Notices” pp. 2518–2522, www.federalstudentaid.ed.gov/ffelp/library/EA43FedReg.pdf, accessed 6/26/2009
      396.   Treasury, “Fact Sheet: IMF Reforms and New Arrangements to Borrow,” 5/18/2009, www.treas.gov/press/releases/tg136.htm, accessed 6/25/2009.
      397.   Federal Housing Finance Agency, “About FHFA,” no date, www.fhfa.gov/Default.aspx?Page=4, accessed 6/28/09.
      398.   Congressional Budget Office, “Federal Subsidies and the Housing GSEs, Appendix A: Responses to Analyses of the Congressional Budget Office’s 1996 Subsidy Estimates,” 5/2001, www.cbo.gov/doc.cfm?index=2841&type=0&sequence=7,
             accessed 7/1/2009.
      399.   Federal Reserve, “Flow of Funds Report,” 6/2009; Federal Housing Finance Agency, “The Housing GSEs,” presentation by James B. Lockhart II, Chairman, 12/10/2008, www.fhfa.gov/webfiles/216/WHF121008webversion.pdf, accessed
             6/28/2009.
      400.   Council of Federal Home Loan Banks, www.fhlbanks.com, accessed 7/14/2009.
                                                                                                                                               QUARTERLY REPORT TO CONGRESS I JULY 21, 2009                                           197


401.   Federal Housing Finance Agency, “The Housing GSEs,” presentation by James B. Lockhart II, Chairman, 12/10/2008, www.fhfa.gov/webfiles/216/WHF121008webversion.pdf, accessed 6/28/2009.
402.   National Credit Union Administration, “About NCUA,” no date, www.ncua.gov, accessed 6/28/2009.
403.   National Credit Union Administration, “National Credit Union Share Insurance Fund Preliminary Financial Highlights,” 3/31/2009, www.ncua.gov/Resources/Reports/ncusif/2009/Mar09PRELIMNETREPORT.pdf, accessed 6/28/2009.
404.   National Credit Union Administration, “TCCULFP Notice,” www.ncua.gov/news/press_releases/2008/FINAL%20TCCULGP%20Fed%20Reg%20Notice%2011-12-2008.pdf, accessed 6/28/2009; for extension, see www.ncua.gov/news/press_
       releases/2009/MA09-0521b.htm, accessed 6/28/2009.
405.   National Credit Union Administration Media Advisory, “Fryzel Announces Extension of Temporary Corporate Credit Union Liquidity Guarantee Program,” 5/21/2009, www.ncua.gov/news/press_releases/2009/MA09-0521b.htm, accessed
       6/29/2009.
406.   National Credit Union Administration Media Advisory, “Corporate Credit Union Share Guarantee Program Revised, Extended,” 4/21/2009, www.ncua.gov/news/press_releases/2009/MA09-0421.htm, accessed 6/29/2009.
407.   National Credit Union Administration Media Advisory, “Fryzel Announces Mortgage Relief Program for Consumers,” 11/18/2008, www.ncua.gov/news/press_releases/2008/MA08-1118a.htm, accessed 6/29/2009.
408.   National Credit Union Administration, “Term Sheet for Credit Union System Investment Program,” www.ncua.gov/Resources/CLF/CU%20SIP%20Notes%20Term%20Sheet%2012%2009%202008.pdf, accessed 6/28/2009.
409.   Government National Mortgage Association, “About GNMA,” no date, www.ginniemae.gov/about/about.asp?section=about, accessed 6/28/2009.
410.   Government National Mortgage Association, “Report to Congress, Fiscal Year 2008,” 11/7/2008, www.ginniemae.gov/reporttocongress, accessed 6/28/2009.
411.   Federal Housing Administration, “Message from the Chief Financial Officer,” 11/17/2008, p. 323, fhasecure.gov/offices/cfo/reports/section3.pdf, accessed 6/28/2009.
412.   Department of Veterans Affairs, “About VA Home Mortgage,” no date, www.homeloans.va.gov, accessed 6/28/2009.
413.   White House, “Budget FY 2009 – Department of Veterans Affairs,” www.whitehouse.gov/omb/budget/fy2009/veterans.html, accessed 6/28/2009.
414.   Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
415.   Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
416.   Treasury, response to SIGTARP data call, 7/8/2009.
417.   Treasury, response to SIGTARP data call, 7/8/2009.
418.   Treasury, response to SIGTARP data call, 7/8/2009.
419.   GAO-09-504, “Troubled Asset Relief Program: March 2009 Status of Efforts to Address Transparency and Accountability Issues,” 3/31/2009.
420.   Congressional Budget Office Press Release, 9/28/2008, www.cbo.gov, accessed 1/15/2009.
421.   Treasury, response to SIGTARP data call, 4/8/2009.
422.   Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
423.   White House Press Release, “President Obama Announces More Key Treasury Appointments,” 4/17/2009, www.whitehouse.gov/the_press_office/President-Obama-Announces-More-Key-Treasury-Appointments, accessed 6/4/2009.
424.   White House Press Release, “President Obama Announces More Key Treasury Appointments,” 4/17/2009, www.whitehouse.gov/the_press_office/President-Obama-Announces-More-Key-Treasury-Appointments, accessed 6/4/2009.
425.   Treasury Press Release, “Interim Final Rule on TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.ustreas.gov/press/releases/tg165.htm, accessed 6/24/2009.
426.   Treasury Press Release, “Interim Final Rule on TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.ustreas.gov/press/releases/tg165.htm, accessed 6/24/2009.
427.   Treasury Press Release, 4/22/2009, www.financialstability.gov/latest/tg100.html, accessed 6/4/2009.
428.   Treasury Press Release, 4/22/2009, www.financialstability.gov/latest/tg100.html, accessed 6/4/2009.
429.   Treasury Press Release, 4/22/2009, www.financialstability.gov/latest/tg100.html, accessed 6/4/2009.
430.   Treasury Press Release, 4/22/2009, www.financialstability.gov/latest/tg100.html, accessed 6/4/2009.
431.   Treasury, response to SIGTARP draft, 7/10/2009.
432.   OFS, OFS Asset Manager briefing report, 7/6/2009, OFS conference call.
433.   OFS, OFS Asset Manager briefing report, 7/6/2009, OFS conference call.
434.   OFS, OFS Asset Manager briefing report, 7/6/2009, OFS conference call.
435.   OFS, OFS Asset Manager briefing report, 7/6/2009, OFS conference call.
436.   OFS, response to SIGTARP data call, 6/30/2009.
437.   OFS, OFS Asset Manager Briefing, 7/6/2009, OFS conference call 7/6/2009.
438.   OFS, response to SIGTARP data call, 6/30/2009.
439.   OFS, conference call 7/6/2009.
440.   OFS, OFS Asset Manager Briefing, 7/6/2009, OFS conference call.
441.   OFS, OFS Asset Manager Briefing, 7/6/2009, OFS conference call.
442.   OFS, OFS Asset Manager Briefing, 7/6/2009, OFS conference call.
443.   OFS, OFS Asset Manager Briefing, 7/6/2009, OFS conference call.
444.   OFS, OFS Asset Manager Briefing, 7/6/2009, OFS conference call.
445.   Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
446.   Treasury Press Release, 10/6/2008, www.treasury.gov, accessed 1/15/2009.
447.   TARP Conflicts of Interest, Interim Rule, Billing Code 4810-25-P, 1/21/2009.
448.   GAO-09-161, “Troubled Asset Relief Program: Additional Actions Needed to Better Ensure Integrity, Accountability, and Transparency,” 12/2/2008.
449.   GAO-09-161, “Troubled Asset Relief Program: Additional Actions Needed to Better Ensure Integrity, Accountability, and Transparency,” 12/2/2008.
450.   Treasury, “Summary Response to Recommendations in December 2008 GAO Report,” 1/22/2009.
451.   Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
452.   Treasury, “Letter of Intent and Term Sheet,” 7/8/2009, www.financialstability.gov/docs/S-PPIP_LOI_Term-Sheets.pdf, accessed 7/8/2009.

Sources for Figure 2.1: Treasury, Office of Financial Stability, Chief of Compliance and CFO, SIGTARP interview, 3/30/2009; Treasury, Transactions Report, 7/2/2009, http://www.financialstability.gov/
docs/transaction-reports/transactions-report_070209.pdf, accessed 7/6/2009; Treasury, “Auto Supplier Support Program: Stabilizing the Auto Industry in a Time of Crisis,” 3/19/2009, http://www.treas.
gov/press/releases/docs/supplier_support_program_3_18.pdf, accessed 3/19/2009; Treasury, “Unlocking Credit for Small Businesses Fact Sheet,” 3/17/2009, http://www.financialstability.gov/roadto-
stability/unlockingCreditforSmallBusinesses.html, accessed 6/10/2009; Treasury, “Treasury, Federal Reserve, and FDIC Provide Assistance to Bank of America,” 1/16/2009, http://www.treas.gov/press/
releases/hp1356.htm, accessed 1/16/2009; Treasury Press Release, “U.S. Government Finalizes Terms of Citi Guarantee Announced in November,” 1/16/2009, http://www.financialstability.gov/latest/
hp1358.html, accessed 6/8/2009; Treasury, “Financial Stability Plan Fact Sheet,” 2/10/2009, http://www.financialstability.gov/docs/fact-sheet.pdf, accessed 6/8/2009; Treasury, “Making Home Affordable:
Updated Detailed Program Description,” 3/4/2009, http://www.treas.gov/press/releases/reports/housing_fact_sheet.pdf, accessed 6/10/2009; Treasury, “Public-Private Investment Program,” 4/6/2009,
http://www.financialstability.gov/roadtostability/publicprivatefund.html, accessed 6/9/2009.



APPENDICES
A. Glossary*                                                                                                                                     –
B. Acronyms and Abbreviations*                                                                                                                   –
C. Reporting Requirements                                                                                                                      198
D. Transaction Detail                                                                                                                          202
E. Public Announcement of Audits*                                                                                                                –
F. Key Oversight Reports and Testimonies*                                                                                                        –
G. Correspondence Regarding SIGTARP Recommendations                                                                                            222
H. Organizational Chart                                                                                                                        257

*Visit www.sigtarp.gov to view Appendix A: Glossary, Appendix B: Acronyms and Abbreviations,
Appendix E: Public Announcement of Audits, Appendix F: Key Oversight Reports and Testimonies,
and for further reference material.
198            APPENDIX C I CROSS-REFERENCE TO REPORTING REQUIREMENTS I JULY 21, 2009




      CROSS-REFERENCE TO REPORTING REQUIREMENTS
      This appendix provides Treasury’s responses to data call questions regarding the reporting requirements of the
      Special Inspector General for the Troubled Asset Relief Program outlined in EESA Section 121, as well as a
      cross-reference to related data presented in this report. Italics style indicates relevant narrative taken verbatim
      from source documents.

           EESA        EESA Reporting                                                                                                            SIGTARP
       #   Section     Requirement          Treasury Response to SIGTARP Data Call                                                               Report Section
       1   Section     A description of     Treasury posts several documents on its public website that are responsive to this ques-             Section 2:
           121(c)(A)   the categories of    tion, available at http://www.financialstability.gov/latest/reportsanddocs.html. Specifically,       “TARP Overview”
                       troubled assets      tranche reports and reports required under section 105(a) of the Emergency Economic
                       purchased or         Stabilization Act of 2008 (EESA) describe, at a high level, Treasury’s programs and troubled         Appendix D:
                       otherwise procured   asset purchases. The transaction reports describe these purchases in detail, including               “Transaction
                       by the Secretary.    the type of asset purchased, the identity of the institution selling the asset, and the price        Detail”
                                            Treasury paid for the asset. Other sources for this information are the determinations signed
                                            by the Secretary of the Treasury, designating certain financial instruments as “troubled as-
                                            sets” under section 3(9)(B) of EESA. Troubled asset determinations signed by the Treasury
                                            Secretary since March 30, 2009 are provided in response to [#3].

                                            Below are program descriptions from Treasury’s FinancialStability.gov website, as of
                                            6/30/2009:
                                            CPP: Treasury created the Capital Purchase Program (CPP) in October 2008 to stabilize the
                                            financial system by providing capital to viable financial institutions of all sizes throughout the
                                            nation. With a strengthened capital base, financial institutions have an increased capacity to
                                            lend to U.S. businesses and consumers and to support the U.S. economy.
                                            CAP: The purpose of the CAP is to restore confidence throughout the financial system that
                                            the nation’s largest banking institutions have a sufficient capital cushion against larger than
                                            expected future losses, should they occur due to a more severe economic environment, and
                                            to support lending to creditworthy borrowers.
                                            SSFI: Systemically Significant Failing Institution Program (SSFI) was established to provide
                                            stability and prevent disruptions to financial markets from the failure of institutions that are
                                            critical to the functioning of the nation’s financial system.
                                            AGP: The Asset Guarantee Program (AGP) provides government assurances for assets held
                                            by financial institutions that are critical to the functioning of the nation’s financial system,
                                            which face a risk of losing the critical confidence that is needed for them to continue to lend
                                            to other banks.
                                            TIP: Treasury created the Targeted Investment Program (TIP) to stabilize the financial system
                                            by making investments in institutions that are critical to the functioning of the financial sys-
                                            tem. This program focuses on the complex relationships and reliance of institutions within
                                            the financial system. Investments made through the TIP seek to avoid significant market
                                            disruptions resulting from the deterioration of one financial institution that can threaten other
                                            financial institutions and impair broader financial markets and pose a threat to the overall
                                            economy.
                                            TALF: The TALF is designed to increase credit availability and support economic activity by
                                            facilitating renewed issuance of consumer and small business ABS at more normal interest
                                            rate spreads… Under the TALF, the Federal Reserve Bank of New York (FRBNY) will provide
                                            non-recourse funding to any eligible borrower owning eligible collateral... The U.S. Treasury’s
                                            Troubled Assets Relief Program (TARP) will purchase $20 billion of subordinated debt in
                                            an SPV created by the FRBNY. The SPV will purchase and manage any assets received by
                                            the FRBNY in connection with any TALF loans. Residual returns from the SPV will be shared
                                            between the FRBNY and the U.S. Treasury.
                                                                         CROSS-REFERENCE TO REPORTING REQUIREMENTS I APPENDIX C I JULY 21, 2009            199



    EESA        EESA Reporting                                                                                                           SIGTARP
#   Section     Requirement             Treasury Response to SIGTARP Data Call                                                           Report Section
                                        PPIP: To address the challenge of legacy assets, Treasury – in conjunction with the Federal
                                        Deposit Insurance Corporation and the Federal Reserve – has announced the Public-Private
                                        Investment Program as part of its efforts to repair balance sheets throughout our financial
                                        system and ensure that credit is available to the households and businesses, large and
                                        small, that will help drive us toward recovery... Using $75 to $100 billion in TARP capital
                                        and capital from private investors, the Public-Private Investment Program will generate $500
                                        billion in purchasing power to buy legacy assets – with the potential to expand to $1 trillion
                                        over time.
                                        UCSB: The Treasury Department will begin making direct purchases of securities backed by
                                        SBA loans to get the credit market moving again, and it will stand ready to purchase new
                                        securities to ensure that community banks and credit unions feel confident in extending new
                                        loans to local businesses.
                                        AIFP: The objective of the Automotive Industry Financing Program (AIFP) is to prevent a sig-
                                        nificant disruption of the American automotive industry, which would pose a systemic risk to
                                        financial market stability and have a negative effect on the economy of the United States...
                                        Treasury has issued loans to the automobile industry and received warrants, which are a
                                        form of equity in a company, in return. Treasury’s loans to the automobile industry are work-
                                        ing to stabilize the financial system by addressing these companies’ short term needs, while
                                        providing them enough time to craft restructuring plans that will help them achieve viability.
                                        ASSP: [ASSP] will provide up to $5 billion in financing, giving suppliers the confidence they
                                        need to continue shipping parts, pay their employees and continue their operations.
                                        AWCP: The Treasury Department announced an innovative new program to give consumers
                                        who are considering new car purchases the confidence that even in this difficult economic
                                        period, their warrantees will be honored. This program is part of the Administration’s
                                        broader program to stabilize the auto industry and stand behind a restructuring effort that
                                        will result in stronger, more competitive and viable American car companies.
                                        HAMP (a program under MHA): The Home Affordable Modification program has a simple
                                        goal: reduce the amount homeowners owe per month to sustainable levels to stabilize
                                        communities. This program will bring together lenders, investors, servicers, borrowers,
                                        and the government, so that all stakeholders share in the cost of ensuring that responsible
                                        homeowners can afford their monthly mortgage payments – helping to reach up to 3 to 4
                                        million at-risk borrowers in all segments of the mortgage market, reducing foreclosures, and
                                        helping to avoid further downward pressures on overall home prices.

2   Section     A listing of the        Treasury posts transaction reports for all the troubled asset purchases on its public website    Appendix D:
    121(c)(B)   troubled assets         within two business days after each transaction. Information on all transactions is avail-       “Transaction
                purchased in each       able at http://www.financialstability.gov/impact/transactions.htm. Since the publication of      Detail”
                such category           the SIGTARP Report in April, Treasury has continued to invest funds in financial institutions
                described under         across the United States through the Capital Purchase Program (CPP), and as of May 31,
                [Section 121(c)(A)].    2009 more than $15 billion has been allocated towards the Making Home Affordable Pro-
                                        gram. Guidelines for all TARP programs, which explain each program’s scope and purpose
                                        are also posted on Treasury’s website at http://www.financialstability.gov/roadtostability/
                                        programs.htm. Additional information about these programs and related purchases is avail-
                                        able in tranche reports and Section 105(a) reports, which are posted on Treasury’s website.
                                        Information is also available in the troubled asset determinations attached as part of the
                                        response to [#3].

3   Section     An explanation of       Pursuant to Section (3)(9)(B) of EESA, the Secretary of the Treasury periodically designates     Section 2:
    121(c)(C)   the reasons the         financial instruments as “troubled assets” and submits written determinations to appropriate     “TARP Overview”
                Secretary deemed        committees of Congress. Attached below are all troubled asset determinations signed by
                it necessary to pur-    the Secretary of the Treasury since Treasury responded to SIGTARP’s previous data call on
                chase each such         April 8, 2009. [Treasury provided determinations for HAMP, AIFP, and SSFI (AIG)]. Additional
                troubled asset.         information on the TARP programs associated with these “troubled assets” , including each
                                        program’s scope and purpose, can be found online at http://www.financialstability.gov/
                                        roadtostability/programs.htm.

4   Section     A listing of each       See #2 above                                                                                     See #2
    121(c)(D)   financial institution
                that such troubled
                assets were pur-
                chased from.
200           APPENDIX C I CROSS-REFERENCE TO REPORTING REQUIREMENTS I JULY 21, 2009




          EESA        EESA Reporting                                                                                                            SIGTARP
      #   Section     Requirement            Treasury Response to SIGTARP Data Call                                                             Report Section
      5   Section     A listing of and       As of June 30, 2009, four financial institutions have been selected as financial agents to pro-    Section 4:
          121(c)(E)   detailed biographi-    vide asset management services to the Treasury. EARNEST Partners was engaged on March              “TARP Operations
                      cal information on     16, 2009 to provide asset management services for the Small Business Administration                and Administra-
                      each person or         (SBA) related loans and securities. Detailed biographical information on EARNEST Partners          tion”
                      entity hired to man-   was provided [to SIGTARP for incorporation in its July 2009 Quarterly Report]... As of June
                      age such troubled      30, 2009, the Treasury and EARNEST Partners had not acquired any assets under the Small            Appendix C:
                      assets.                Business Support Program. Therefore, there are no assets assigned to the asset manager.            “Reporting
                                                                                                                                                Requirements”
                                             On April 21, 2009, the Treasury selected AllianceBernstein L.P., FSI Group, LLC, and Pied-         of SIGTARP’s
                                             mont Investment Advisors, LLC as financial agents to provide asset management services             April 21, 2009
                                             for the portfolio of equity securities, warrants and senior subordinated securities issued to      Quarterly Report
                                             the Treasury by financial institutions.                                                            to Congress

                                             AllianceBernstein is a leading global investment management firm that offers high-quality
                                             research and diversified investment services to institutional clients, individuals and private
                                             clients in major markets around the world. The firm, headquartered in New York City,
                                             employs more than 500 investment professionals with expertise in growth equities, value
                                             equities, fixed-income securities, blend strategies and alternative investments.

                                             FSI Group LLC operates a multi-strategy investment platform focused on opportunities in the
                                             financial services sector. The firm, based in Cincinnati, specializes in financing and investing
                                             in banks, thrifts, insurance companies, REITs, real estate operating companies and other
                                             financial services firms.

                                             Piedmont Investment Advisors is a professional money management firm specializing in core
                                             equity and fixed-income management. The firm was founded in August 2000 and is based in
                                             Durham, North Carolina.
                                             The three asset management firms discussed above are collectively assigned to manage
                                             the assets issued to the Treasury under the CPP, with participating financial institution as-
                                             signed a single lead asset manager that is the Treasury’s primary representative with that
                                             institution.

      6   Section     A current estimate     This information is contained in our transactions reports, which are posted on Treasury’s  Obligations by
          121(c)(F)   of the total amount    website at http://www.financialstability.gov/latest/reportsanddocs.html. The most recent   Program provided
                      of troubled assets     TARP transactions report (as of June 30, 2009) [was provided to SIGTARP]. The transactions in Table C.1 below
                      purchased pursu-       report captures the total obligation under each TARP program.
                      ant to any program                                                                                                Section 2:
                      established under                                                                                                 “TARP Overview”
                      section 101, the
                      amount of troubled                                                                                                        Appendix D:
                      assets on the                                                                                                             “Transaction
                      books of the Trea-                                                                                                        Detail”
                      sury, the amount
                      of troubled assets
                      sold, and the profit
                      and loss incurred
                      on each sale or
                      disposition of each
                      such troubled
                      asset.
      7   Section     A listing of the       On January 16, 2009, TARP closed on the guarantee transaction with Citigroup, as an-               Section 2:
          121(c)(G)   insurance con-         nounced in a joint statement by the Treasury, Federal Reserve and FDIC on November 23,             “TARP Overview”
                      tracts issued under    2008. No other insurance contracts have been issued as of June 30, 2009.
                      section 102.
                                                                                                 CROSS-REFERENCE TO REPORTING REQUIREMENTS I APPENDIX C I JULY 21, 2009                                           201



       EESA             EESA Reporting                                                                                                                                               SIGTARP
 #     Section          Requirement                  Treasury Response to SIGTARP Data Call                                                                                          Report Section
 8     Section          A detailed                   The extent of Treasury’s appropriation for TARP is described in section 118 of EESA.                                            Obligations by
       121(f)           statement of                 Treasury’s authority to purchase troubled assets is described in section 115 of EESA. The                                       Program provided
                        all purchases,               amount of troubled assets purchased, by institution and in the aggregate, is listed on Trea-                                    in Table C.1 below
                        obligations, expen-          sury’s transaction reports, which are published on Treasury’s website. Treasury also reports
                        ditures, and rev-            the apportioned amount of TARP funds by program category in the FSP Budget report                                               Section 2:
                        enues associated             provided [to SIGTARP].                                                                                                          “TARP Overview”
                        with any program
                        established by the                                                                                                                                           Section 4:
                        Secretary of the                                                                                                                                             “TARP Operations
                        Treasury under                                                                                                                                               and Administra-
                        sections 101 and                                                                                                                                             tion”
                        102.
                                                                                                                                                                                     Appendix D:
                                                                                                                                                                                     “Transaction
                                                                                                                                                                                     Detail”

 Note: TARP participation in TALF has increased to $80 billion according to Treasury Office of Financial Stability, Chief of Compliance and CFO, SIGTARP interview, 3/30/2009.

 Sources: Program descriptions: Treasury, “Programs” webpage, 5/7/2009 (“Updated” date), http://www.financialstability.gov/roadtostability/programs.htm, accessed 6/30/2009; ASSP: “Treasury
 Announces Auto Suppliers Support Program,” 3/19/2009, http://www.financialstability.gov/latest/auto3_18.html, accessed 6/30/2009; AWCP, “Obama Administration’s New Warrantee Commitment
 Program,” no date, http://www.financialstability.gov/docs/WarranteeCommitmentProgram.pdf, accessed 6/30/2009; TALF: Federal Reserve, “Term Asset-Backed Securities Loan Facility (TALF)
 Frequently Asked Questions,” no date, http://www.federalreserve.gov/newsevents/press/monetary/monetary20090303a2.pdf, accessed 6/30/2009; Treasury, responses to SIGTARP data call,
 6/30/2009 and 7/8/2009.



TABLE C.1

 TOTAL AMOUNT OF TROUBLED ASSETS PURCHASED AND HELD ON TREASURY’S BOOKS, AS OF 6/30/2009 ($ BILLIONS)
                                                                                       Obligationsa                 Expendedb                          On Treasury’s Booksc

 Capital Purchase Program (“CPP”)                                                            $203.2                       $203.2                                         $203.2
 Systemically Significant Failing Institutions (“SSFI”)                                          69.8                         41.2                                          41.2


 Targeted Investment Program (“TIP”)                                                             40.0                         40.0                                          40.0
 Automotive Industry Financing Program (“AIFP”)                 d
                                                                                                 85.0                         54.3                                          54.3
 Asset Guarantee Program (“AGP”)e                                                                  5.0                           —                                               —
 Term Asset-Backed Securities Loan Facility (“TALF”)                 f
                                                                                                 20.0                           0.1                                           0.1
 Making Homes Affordable (MHA)                                                                   18.0                            —                                               —
 Total                                                                                       $441.0                      $338.7                                         $338.7

Notes:
Numbers affected by rounding.
a
  According to Treasury, “From a budgetary perspective, what Treasury has committed to spend (e.g. signed agreements with TARP recipients).” Based on “Face Value Obligations” from Treasury source docu-
ment (TARP/Financial Stability Plan Tracking Report).
b
  According to Treasury, “Represents TARP cash that has left the Treasury.” Based on “Face Value Disbursed/Outlays” from Treasury source document (TARP/Financial Stability Plan Tracking Report).
c
  According to Treasury, “All assets are currently carried at par value.”
d
  According to Treasury, “The face value obligations exceed the expected program usage amount for the AIFP because the final amount expected to be spent out of the Chrysler DIP and Exit financing is
expected to be lower than originally obligated.”
e
  According to Treasury, “Reflects negative subsidy of $750 million off of the total $301 billion Citigroup guarantee, not just the $5 billion portion guaranteed by Treasury via the TARP (Breakdown of $301B:
$5B from the UST, $40B from Citi, $5B from the FDIC and $251B from the Federal Reserve).”
f
  According to Treasury, “Term Asset Backed Securities Loan Facility (TALF-1): Up to $20B may be disbursed as credit protection for the $200B Federal Reserve Loan Facility. TARP is temporarily carrying this
at a 100 percent subsidy. Initial funding of $100M on 3/25/09.”

Source: Treasury, response to SIGTARP data call, 7/8/2009.
CPP TRANSACTION DETAIL, AS OF 6/30/2009
                                                                                                                                                                                                                                                                                                       202
            Seller                                                       Purchase Details                       Capital Repayment Details                           Final Disposition                               Warrant and Market Data for Publicly Traded Companies

                                                                                                                                                                                                                                                  Number of       Current Amt. “In the
                                                                                                            Capital             Capital     Remaining       Final       Disposition           Final                     Market                     Warrants    Number of    Money” /        Dividend
                                                          Investment                        Investment   Repayment           Repayment        Capital Disposition       Investment      Disposition       Current Capitalization        Strike     Originally Outstanding “Out of the    Payments to
Date        Name of Institution                           Description                          Amount         Date             Amount6        Amount        Date        Description      Proceeds     Stock Price (in millions)         Pricea        Issued    Warrants    Money” e        Treasury

10/28/08 Bank of America Corporation (Charlotte, NC) Pref. Stock w/ Warr.           $15,000,000,000                                                                                                       $13.20        $104,544       $30.79     73,075,674   73,075,674     $(17.59) $410,416,667

10/28/08 Bank of New York Mellon Corporation (New         Pref. Stock w/ Warr.       $3,000,000,000      6/17/2009 4      $3,000,000,000           $0                                                     $29.31         $35,039       $31.00     14,516,129   14,516,129      $(1.69)   $95,416,667
         York, NY)

10/28/08 Citigroup Inc. (New York, NY)11, 12              Pref. Stock w/ Warr.      $25,000,000,000                                                                                                        $2.97         $16,315       $17.85    210,084,034 210,084,034      $(14.88) $684,027,778

10/28/08 JPMorgan Chase & Co. (New York, NY)              Pref. Stock w/ Warr.      $25,000,000,000      6/17/2009 4     $25,000,000,000           $0                                                     $34.11        $133,063       $42.42     88,401,697   88,401,697      $(8.31) $795,138,889

10/28/08 Morgan Stanley (New York, NY)                    Pref. Stock w/ Warr.      $10,000,000,000      6/17/2009 4     $10,000,000,000           $0                                                     $28.51         $38,537       $22.99     65,245,759   65,245,759       $5.52 $318,055,555

10/28/08 State Street Corporation (Boston, MA)            Pref. Stock w/ Warr.       $2,000,000,000      6/17/2009 5      $2,000,000,000           $0                                                     $47.20         $22,944       $53.80      5,576,208    2,788,104      $(6.60)   $63,611,111

10/28/08 The Goldman Sachs Group, Inc. (New               Pref. Stock w/ Warr.      $10,000,000,000      6/17/2009 4     $10,000,000,000           $0                                                    $147.44         $75,339      $122.90     12,205,045   12,205,045      $24.54 $318,055,555
         York, NY)

10/28/08 Wells Fargo & Company (San Francisco, CA) Pref. Stock w/ Warr.             $25,000,000,000                                                                                                       $24.26        $114,141       $34.01    110,261,688 110,261,688       $(9.75) $684,027,778

11/14/08 1st FS Corporation (Hendersonville, NC)          Pref. Stock w/ Warr.          $16,369,000                                                                                                        $4.99             $25        $8.59        276,815      276,815      $(3.60)     $411,499

11/14/08 Bank of Commerce Holdings (Redding, CA)          Pref. Stock w/ Warr.          $17,000,000                                                                                                        $5.70             $50        $6.29        405,405      405,405      $(0.59)     $427,361

11/14/08 BB&T Corp. (Winston-Salem, NC)                   Pref. Stock w/ Warr.       $3,133,640,000      6/17/2009 4      $3,133,640,000           $0                                                     $21.98         $13,971       $33.81     13,902,573   13,902,573     $(11.83)   $92,703,517

11/14/08 Broadway Financial Corporation (Los              Pref. Stock w/ Warr.              $9,000,000                                                                                                     $6.25             $11        $7.37        183,175      183,175      $(1.12)     $226,250
         Angeles, CA)
                                                                                                                                                                                                                                                                                                       APPENDIX D I TRANSACTION DETAIL I JULY 21, 2009




                                                                                                                     4
11/14/08 Capital One Financial Corporation (McLean, VA) Pref. Stock w/ Warr.         $3,555,199,000      6/17/2009        $3,555,199,000           $0                                                     $21.88          $9,882       $42.13     12,657,960   12,657,960     $(20.25) $105,174,638

11/14/08 Comerica Inc. (Dallas, TX)                       Pref. Stock w/ Warr.       $2,250,000,000                                                                                                       $21.15          $3,196       $29.40     11,479,592   11,479,592      $(8.25)   $56,562,500

11/14/08 First Horizon National Corporation (Memphis, TN) Pref. Stock w/ Warr.         $866,540,000                                                                                                       $12.00          $2,579        $9.60     12,743,235   13,323,473       $2.40    $21,783,853

11/14/08 Huntington Bancshares (Columbus, OH)             Pref. Stock w/ Warr.       $1,398,071,000                                                                                                        $4.18          $2,272        $8.90     23,562,994   23,562,994      $(4.72)   $35,145,952

11/14/08 KeyCorp (Cleveland, OH)                          Pref. Stock w/ Warr.       $2,500,000,000                                                                                                        $5.24          $2,633       $10.64     35,244,361   35,244,361      $(5.40)   $62,847,222

11/14/08 Marshall & Ilsley Corporation (Milwaukee, WI) Pref. Stock w/ Warr.          $1,715,000,000                                                                                                        $4.80          $1,693       $18.62     13,815,789   13,815,789     $(13.82)   $43,113,194

11/14/08 Northern Trust Corporation (Chicago, IL)         Pref. Stock w/ Warr.       $1,576,000,000      6/17/2009 4      $1,576,000,000           $0                                                     $53.68         $12,814       $61.81      3,824,624    3,824,624      $(8.13)   $46,623,333

11/14/08 Provident Bancshares Corp. (Baltimore, MD) Pref. Stock w/ Warr.               $151,500,000                                                                                                          NA d            NA d       $9.57      2,374,608    2,374,608          NA     $3,808,542

11/14/08 Regions Financial Corp. (Birmingham, AL)         Pref. Stock w/ Warr.       $3,500,000,000                                                                                                        $4.04          $4,667       $10.88     48,253,677   48,253,677      $(6.84)   $87,986,111

11/14/08 SunTrust Banks, Inc. (Atlanta, GA)               Pref. Stock w/ Warr.       $3,500,000,000                                                                                                       $16.45          $7,644       $44.15     11,891,280   11,891,280     $(27.70) $133,506,944

11/14/08 TCF Financial Corporation (Wayzata, MN)          Pref. Stock w/ Warr.         $361,172,000      4/22/2009 4       $361,172,000            $0                                                     $13.37          $1,713       $16.93      3,199,988    3,199,988      $(3.56)    $7,925,719

11/14/08 U.S. Bancorp (Minneapolis, MN)                   Pref. Stock w/ Warr.       $6,599,000,000      6/17/2009 4      $6,599,000,000           $0                                                     $17.92         $34,005       $30.29     32,679,102   32,679,102     $(12.37) $195,220,417

11/14/08 UCBH Holdings, Inc. (San Francisco, CA)          Pref. Stock w/ Warr.         $298,737,000                                                                                                        $1.26            $152        $5.71      7,847,732    7,847,732      $(4.45)    $7,509,920

11/14/08 Umpqua Holdings Corp. (Portland, OR)             Pref. Stock w/ Warr.         $214,181,000                                                                                                        $7.76            $467       $14.46      2,221,795    2,221,795      $(6.70)    $5,384,272

11/14/08 Valley National Bancorp (Wayne, NJ)              Pref. Stock w/ Warr.         $300,000,000       6/3/2009 4        $75,000,000 $225,000,000                                                      $11.70          $1,659       $18.66      2,297,090    2,411,945      $(6.96)    $7,729,167

11/14/08 Washington Federal Inc. (Seattle, WA)            Pref. Stock w/ Warr.         $200,000,000      5/27/2009 4       $200,000,000            $0                                                     $13.00          $1,145       $17.57      1,707,456    1,707,456      $(4.57)    $5,361,111

11/14/08 Zions Bancorporation (Salt Lake City, UT)        Pref. Stock w/ Warr.       $1,400,000,000                                                                                                       $11.56          $1,333       $36.27      5,789,909    5,789,909     $(24.71)   $35,194,444

11/21/08 Ameris Bancorp (Moultrie, GA)                    Pref. Stock w/ Warr.          $52,000,000                                                                                                        $6.32             $86       $11.48        679,443      679,443      $(5.16)    $1,256,667

11/21/08 Associated Banc-Corp (Green Bay, WI)             Pref. Stock w/ Warr.         $525,000,000                                                                                                       $12.50          $1,598       $19.77      3,983,308    3,983,308      $(7.27)   $12,687,500

11/21/08 Banner Corporation (Walla Walla, WA)             Pref. Stock w/ Warr.         $124,000,000                                                                                                        $3.82             $67       $10.89      1,707,989    1,707,989      $(7.07)    $2,996,667

11/21/08 Boston Private Financial Holdings, Inc.          Pref. Stock w/ Warr.         $154,000,000                                                                                                        $4.48            $304        $8.00      2,887,500    2,887,500      $(3.52)    $3,721,667
         (Boston, MA)

11/21/08 Cascade Financial Corporation (Everett, WA) Pref. Stock w/ Warr.               $38,970,000                                                                                                        $2.16             $26        $6.77        863,442      863,442      $(4.61)     $941,775

11/21/08 Centerstate Banks of Florida Inc. (Davenport, FL) Pref. Stock w/ Warr.         $27,875,000                                                                                                        $7.42             $93       $16.67        250,825      250,825      $(9.25)     $673,646

11/21/08 City National Corporation (Beverly Hills, CA)    Pref. Stock w/ Warr.         $400,000,000                                                                                                       $36.83           $1,880      $53.16      1,128,668    1,128,668     $(16.33)    $9,666,667

11/21/08 Columbia Banking System, Inc. (Tacoma, WA) Pref. Stock w/ Warr.                $76,898,000                                                                                                       $10.23            $187       $14.49        796,046      796,046      $(4.26)    $1,858,368

11/21/08 First Community Bankshares Inc. (Bluefield, VA) Pref. Stock w/ Warr.           $41,500,000                                                                                                       $12.84            $208       $35.26        176,546      176,546     $(22.42)    $1,002,917

11/21/08 First Community Corporation (Lexington, SC) Pref. Stock w/ Warr.               $11,350,000                                                                                                        $6.90             $22        $8.69        195,915      195,915      $(1.79)     $274,292

11/21/08 First Niagara Financial Group (Lockport, NY) Pref. Stock w/ Warr.             $184,011,000      5/27/2009 5       $184,011,000            $0    6/24/09            Warrants $2,700,000           $11.42          $1,710       $14.48      1,906,191            0      $(3.06)    $4,753,618

11/21/08 First PacTrust Bancorp, Inc. (Chula Vista, CA) Pref. Stock w/ Warr.            $19,300,000                                                                                                        $6.86             $29       $10.31        280,795      280,795      $(3.45)     $466,417

11/21/08 Heritage Commerce Corp. (San Jose, CA)           Pref. Stock w/ Warr.          $40,000,000                                                                                                        $3.73             $44       $12.96        462,963      462,963      $(9.23)     $966,667
CPP TRANSACTION DETAIL, AS OF 6/30/2009
           Seller                                                       Purchase Details                       Capital Repayment Details                           Final Disposition                              Warrant and Market Data for Publicly Traded Companies

                                                                                                                                                                                                                                                Number of       Current Amt. “In the
                                                                                                           Capital           Capital       Remaining       Final       Disposition           Final                     Market                    Warrants    Number of    Money” /        Dividend
                                                          Investment                       Investment   Repayment         Repayment          Capital Disposition       Investment      Disposition       Current Capitalization       Strike     Originally Outstanding “Out of the    Payments to
Date       Name of Institution                            Description                         Amount         Date           Amount6          Amount        Date        Description      Proceeds     Stock Price (in millions)        Pricea        Issued    Warrants    Money” e        Treasury

11/21/08 Heritage Financial Corporation (Olympia, WA) Pref. Stock w/ Warr.             $24,000,000                                                                                                       $11.56            $78       $13.04        276,074      276,074      $(1.48)     $580,000

11/21/08 HF Financial Corp. (Sioux Falls, SD)             Pref. Stock w/ Warr.         $25,000,000       6/3/2009 4      $25,000,000              $0    6/30/09            Warrants     $650,000         $11.82            $48       $12.40        302,419            0      $(0.58)     $666,667

11/21/08 Nara Bancorp, Inc. (Los Angeles, CA)             Pref. Stock w/ Warr.         $67,000,000                                                                                                        $5.18           $136        $9.64      1,042,531    1,042,531      $(4.46)    $1,619,167

11/21/08 Pacific Capital Bancorp (Santa Barbara, CA) Pref. Stock w/ Warr.             $180,634,000                                                                                                        $2.14           $100       $17.92      1,512,003    1,512,003     $(15.78)    $2,107,397

11/21/08 Porter Bancorp Inc. (Louisville, KY)             Pref. Stock w/ Warr.         $35,000,000                                                                                                       $15.15           $148       $17.51        299,829      299,829      $(2.36)     $845,833

11/21/08 Severn Bancorp, Inc. (Annapolis, MD)             Pref. Stock w/ Warr.         $23,393,000                                                                                                        $3.10            $31        $6.30        556,976      556,976      $(3.20)     $565,331

11/21/08 Taylor Capital Group (Rosemont, IL)              Pref. Stock w/ Warr.        $104,823,000                                                                                                        $6.85            $76       $10.75      1,462,647    1,462,647      $(3.90)    $2,533,223

11/21/08 Trustmark Corporation (Jackson, MS)              Pref. Stock w/ Warr.        $215,000,000                                                                                                       $19.32          $1,109      $19.57      1,647,931    1,647,931      $(0.25)    $5,195,833

11/21/08 Webster Financial Corporation (Waterbury,        Pref. Stock w/ Warr.        $400,000,000                                                                                                        $8.05           $425       $18.28      3,282,276    3,282,276     $(10.23)    $9,666,667
         CT)

11/21/08 Western Alliance Bancorporation (Las             Pref. Stock w/ Warr.        $140,000,000                                                                                                        $6.84           $466       $13.34      1,574,213    1,574,213      $(6.50)    $3,383,333
         Vegas, NV)
                                                                                                                    4
12/5/08    Bank of Marin Bancorp (Novato, CA)             Pref. Stock w/ Warr.         $28,000,000      3/31/2009        $28,000,000              $0                                                     $26.95           $139       $27.23        154,242      154,242      $(0.28)     $451,111

12/5/08    Bank of North Carolina (Thomasville, NC)       Pref. Stock w/ Warr.         $31,260,000                                                                                                        $8.00            $59        $8.63        543,337      543,337      $(0.63)     $694,667

12/5/08    Blue Valley Ban Corp (Overland Park, KS)       Pref. Stock w/ Warr.         $21,750,000                                                                                                        $8.20            $23       $29.37        111,083      111,083     $(21.17)     $211,458

12/5/08    Cathay General Bancorp (Los Angeles, CA)       Pref. Stock w/ Warr.        $258,000,000                                                                                                        $9.51           $471       $20.96      1,846,374    1,846,374     $(11.45)    $5,733,333

12/5/08    Central Bancorp, Inc. (Somerville, MA)         Pref. Stock w/ Warr.         $10,000,000                                                                                                        $8.00            $13        $6.39        234,742      234,742       $1.61      $222,222

12/5/08    Central Federal Corporation (Fairlawn, OH)     Pref. Stock w/ Warr.             $7,225,000                                                                                                     $2.92            $12        $3.22        336,568      336,568      $(0.30)     $160,556

12/5/08    Coastal Banking Company, Inc. (Fernandina      Pref. Stock w/ Warr.             $9,950,000                                                                                                     $3.55              $9       $7.26        205,579      205,579      $(3.71)     $221,111
           Beach, FL)

12/5/08    CVB Financial Corp (Ontario, CA)               Pref. Stock w/ Warr.        $130,000,000                                                                                                        $5.97           $497       $11.68      1,669,521    1,669,521      $(5.71)    $2,888,889

12/5/08    Eagle Bancorp, Inc. (Bethesda, MD)             Pref. Stock w/ Warr.         $38,235,000                                                                                                        $8.77           $112        $7.44        770,867      770,867       $1.33      $849,667

12/5/08    East West Bancorp (Pasadena, CA)               Pref. Stock w/ Warr.        $306,546,000                                                                                                        $6.49           $416       $15.15      3,035,109    3,035,109      $(8.66)    $6,812,133

12/5/08    Encore Bancshares Inc. (Houston, TX)           Pref. Stock w/ Warr.         $34,000,000                                                                                                        $7.22            $74       $14.01        364,026      364,026      $(6.79)     $755,556

12/5/08    First Defiance Financial Corp. (Defiance, OH) Pref. Stock w/ Warr.          $37,000,000                                                                                                       $13.00           $106       $10.08        550,595      550,595       $2.92      $822,222

12/5/08    First Financial Holdings Inc. (Charleston, SC) Pref. Stock w/ Warr.         $65,000,000                                                                                                        $9.40           $110       $20.17        483,391      483,391     $(10.77)    $1,444,444

12/5/08    First Midwest Bancorp, Inc. (Itasca, IL)       Pref. Stock w/ Warr.        $193,000,000                                                                                                        $7.31           $355       $22.18      1,305,230    1,305,230     $(14.87)    $4,288,889

12/5/08    FPB Bancorp, Inc. (Port St. Lucie, FL)         Pref. Stock w/ Warr.             $5,800,000                                                                                                     $2.50              $5       $4.75        183,158      183,158      $(2.25)     $128,889

12/5/08    Great Southern Bancorp (Springfield, MO)       Pref. Stock w/ Warr.         $58,000,000                                                                                                       $20.55           $275        $9.57        909,091      909,091      $10.98     $1,288,889

12/5/08    Iberiabank Corporation (Lafayette ,LA )        Pref. Stock w/ Warr.         $90,000,000      3/31/2009 5      $90,000,000              $0    5/20/09          Warrants 9 $1,200,000           $39.41           $636       $48.74        276,980            0      $(9.33)    $1,450,000

12/5/08    Manhattan Bancorp (El Segundo, CA)             Pref. Stock w/ Warr.             $1,700,000                                                                                                     $6.00            $24        $8.65         29,480       29,480      $(2.65)      $37,778

12/5/08    MB Financial Inc. (Chicago, IL)                Pref. Stock w/ Warr.        $196,000,000                                                                                                       $10.19           $360       $29.05      1,012,048    1,012,048     $(18.86)    $4,355,556

12/5/08    Midwest Banc Holdings, Inc. (Melrose           Pref. Stock w/ Warr.         $84,784,000                                                                                                        $0.75            $21        $2.97      4,282,020    4,282,020      $(2.22)     $824,289
           Park, IL)

12/5/08    Oak Valley Bancorp (Oakdale, CA)               Pref. Stock w/ Warr.         $13,500,000                                                                                                        $4.25            $33        $5.78        350,346      350,346      $(1.53)     $300,000

12/5/08    Old Line Bancshares, Inc. (Bowie, MD)          Pref. Stock w/ Warr.             $7,000,000                                                                                                     $5.90            $23        $7.40        141,892      141,892      $(1.50)     $155,556

12/5/08    Popular, Inc. (San Juan, PR)                   Pref. Stock w/ Warr.        $935,000,000                                                                                                        $2.20           $620        $6.70     20,932,836   20,932,836      $(4.50)   $20,777,778

12/5/08    Sandy Spring Bancorp, Inc. (Olney, MD)         Pref. Stock w/ Warr.         $83,094,000                                                                                                       $14.70           $242       $19.13        651,547      651,547      $(4.43)    $1,846,533

12/5/08    South Financial Group, Inc. (Greenville, SC)   Pref. Stock w/ Warr.        $347,000,000                                                                                                        $1.19           $101        $5.15     10,106,796   10,106,796      $(3.96)    $7,711,111

12/5/08    Southern Community Financial Corp.             Pref. Stock w/ Warr.         $42,750,000                                                                                                        $2.71            $46        $3.95      1,623,418    1,623,418      $(1.24)     $950,000
           (Winston-Salem, NC )

12/5/08    Southern Missouri Bancorp, Inc. (Poplar        Pref. Stock w/ Warr.             $9,550,000                                                                                                     $9.95            $21       $12.53        114,326      114,326      $(2.58)     $212,222
           Bluff, MO)
                                                                                                                                                                                                                                                                                                     TRANSACTION DETAIL I APPENDIX D I JULY 21, 2009




12/5/08    Southwest Bancorp, Inc. (Stillwater, OK)       Pref. Stock w/ Warr.         $70,000,000                                                                                                        $9.76           $143       $14.92        703,753      703,753      $(5.16)    $1,555,556

12/5/08    State Bancorp, Inc. (Jericho, NY)              Pref. Stock w/ Warr.         $36,842,000                                                                                                        $7.56           $110       $11.87        465,569      465,569      $(4.31)     $818,711

12/5/08    Sterling Financial Corporation (Spokane, WA) Pref. Stock w/ Warr.          $303,000,000                                                                                                        $2.91           $152        $7.06      6,437,677    6,437,677      $(4.15)    $6,733,333

12/5/08    Superior Bancorp Inc. (Birmingham, AL)         Pref. Stock w/ Warr.         $69,000,000                                                                                                        $2.61            $26        $5.38      1,923,792    1,923,792      $(2.77)    $1,533,333
                                                                                                                                                                                                                                                                                                     203




12/5/08    TIB Financial Corp (Naples, FL)                Pref. Stock w/ Warr.         $37,000,000                                                                                                        $2.80            $41        $5.12      1,063,218    1,084,589      $(2.32)     $822,222
                                                                                                                                                                                                                                                                                                       204
CPP TRANSACTION DETAIL, AS OF 6/30/2009
            Seller                                                        Purchase Details                       Capital Repayment Details                           Final Disposition                              Warrant and Market Data for Publicly Traded Companies

                                                                                                                                                                                                                                                  Number of       Current Amt. “In the
                                                                                                             Capital           Capital       Remaining       Final       Disposition           Final                     Market                    Warrants    Number of    Money” /        Dividend
                                                           Investment                        Investment   Repayment         Repayment          Capital Disposition       Investment      Disposition       Current Capitalization       Strike     Originally Outstanding “Out of the    Payments to
Date        Name of Institution                            Description                          Amount         Date           Amount6          Amount        Date        Description      Proceeds     Stock Price (in millions)        Pricea        Issued    Warrants    Money” e        Treasury

12/5/08     United Community Banks, Inc. (Blairsville, GA) Pref. Stock w/ Warr.         $180,000,000                                                                                                        $5.99           $293       $12.47      2,132,701    2,165,638      $(6.48)    $4,000,000

12/5/08     Unity Bancorp, Inc. (Clinton, NJ)              Pref. Stock w/ Warr.          $20,649,000                                                                                                        $3.55            $25        $4.05        764,778      764,778      $(0.50)     $458,867

12/5/08     Wesbanco Bank Inc. (Wheeling, WV)              Pref. Stock w/ Warr.          $75,000,000                                                                                                       $14.54           $386       $25.61        439,282      439,282     $(11.07)    $1,666,667

12/12/08 Bank of the Ozarks, Inc. (Little Rock, AR)        Pref. Stock w/ Warr.          $75,000,000                                                                                                       $21.63           $365       $29.62        379,811      379,811      $(7.99)    $1,593,750

12/12/08 Capital Bank Corporation (Raleigh, NC)            Pref. Stock w/ Warr.          $41,279,000                                                                                                        $4.75            $54        $8.26        749,619      749,619      $(3.51)     $877,179

12/12/08 Center Financial Corporation (Los Angeles, CA) Pref. Stock w/ Warr.             $55,000,000                                                                                                        $2.52            $42        $9.54        864,780      864,780      $(7.02)    $1,168,750

12/12/08 Citizens Republic Bancorp, Inc. (Flint, MI)       Pref. Stock w/ Warr.         $300,000,000                                                                                                        $0.71            $90        $2.56     17,578,125   17,578,125      $(1.85)    $6,375,000

12/12/08 Citizens South Banking Corporation                Pref. Stock w/ Warr.          $20,500,000                                                                                                        $5.15            $39        $7.17        428,870      428,870      $(2.02)     $435,625
         (Gastonia, NC)

12/12/08 Fidelity Bancorp, Inc. (Pittsburgh, PA)           Pref. Stock w/ Warr.              $7,000,000                                                                                                     $6.51            $20        $8.65        121,387      121,387      $(2.14)     $148,750

12/12/08 First Litchfield Financial Corporation            Pref. Stock w/ Warr.          $10,000,000                                                                                                        $5.70            $13        $7.53        199,203      199,203      $(1.83)     $212,500
         (Litchfield, CT)

12/12/08 HopFed Bancorp (Hopkinsville, KY)                 Pref. Stock w/ Warr.          $18,400,000                                                                                                        $9.69            $35       $11.32        243,816      243,816      $(1.63)     $391,000

12/12/08 Independent Bank Corporation (Ionia, MI)          Pref. Stock w/ Warr.          $72,000,000                                                                                                        $1.32            $32        $3.12      3,461,538    3,461,538      $(1.80)    $1,530,000
                                                                                                                                                                                                                                                                                                       APPENDIX D I TRANSACTION DETAIL I JULY 21, 2009




12/12/08 Indiana Community Bancorp (Columbus, IN)          Pref. Stock w/ Warr.          $21,500,000                                                                                                       $12.96            $44       $17.09        188,707      188,707      $(4.13)     $456,875

12/12/08 LNB Bancorp Inc. (Lorain, OH)                     Pref. Stock w/ Warr.          $25,223,000                                                                                                        $6.35            $46        $6.74        561,343      561,343      $(0.39)     $535,989

12/12/08 LSB Corporation (North Andover, MA)               Pref. Stock w/ Warr.          $15,000,000                                                                                                       $10.18            $46       $10.74        209,497      209,497      $(0.56)     $318,750

12/12/08 National Penn Bancshares, Inc. (Boyertown, PA) Pref. Stock w/ Warr.            $150,000,000                                                                                                        $4.61           $387       $15.30      1,470,588    1,470,588     $(10.69)    $3,187,500

12/12/08 NewBridge Bancorp (Greensboro, NC)                Pref. Stock w/ Warr.          $52,372,000                                                                                                        $2.07            $32        $3.06      2,567,255    2,567,255      $(0.99)    $1,112,905

12/12/08 Northeast Bancorp (Lewiston, ME)                  Pref. Stock w/ Warr.              $4,227,000                                                                                                     $8.10            $19        $9.33         67,958       67,958      $(1.23)      $89,824

12/12/08 Old National Bancorp (Evansville, IN)             Pref. Stock w/ Warr.         $100,000,000      3/31/2009 4    $100,000,000               $0     5/8/09            Warrants $1,200,000            $9.82           $652       $18.45        813,008            0      $(8.63)    $1,513,889

12/12/08 Pacific International Bancorp (Seattle, WA)       Pref. Stock w/ Warr.              $6,500,000                                                                                                     $5.00             NA        $7.63        127,785      127,785      $(2.63)     $138,125

12/12/08 Pinnacle Financial Partners, Inc. (Nashville,     Pref. Stock w/ Warr.          $95,000,000                                                                                                       $13.32           $423       $26.64        534,910      534,910     $(13.32)    $2,018,750
         TN)

12/12/08 Signature Bank (New York, NY)                     Pref. Stock w/ Warr.         $120,000,000      3/31/2009 4    $120,000,000               $0                                                     $27.27           $965       $30.21        595,829      595,829      $(2.94)    $1,816,667

12/12/08 Sterling Bancshares, Inc. (Houston, TX)           Pref. Stock w/ Warr.         $125,198,000       5/5/2009 4    $125,198,000               $0                                                      $6.33           $510        $7.18      2,615,557    2,615,557      $(0.85)    $2,486,571

12/12/08 Susquehanna Bancshares, Inc (Lititz, PA)          Pref. Stock w/ Warr.         $300,000,000                                                                                                        $4.89           $422       $14.86      3,028,264    3,028,264      $(9.97)    $6,375,000

12/12/08 SVB Financial Group (Santa Clara, CA)             Pref. Stock w/ Warr.         $235,000,000                                                                                                       $27.22           $898       $49.78        708,116      708,116     $(22.56)    $4,993,750

12/12/08 The Bancorp, Inc. (Wilmington, DE)                Pref. Stock w/ Warr.          $45,220,000                                                                                                        $6.00            $87        $3.46      1,960,405    1,960,405       $2.54      $960,925

12/12/08 TowneBank (Portsmouth, VA)                        Pref. Stock w/ Warr.          $76,458,000                                                                                                       $14.00           $329       $21.31        538,184      538,184      $(7.31)    $1,624,733

12/12/08 Valley Financial Corporation (Roanoke, VA)        Pref. Stock w/ Warr.          $16,019,000                                                                                                        $4.41            $21        $6.97        344,742      344,742      $(2.56)     $340,404

12/12/08 Virginia Commerce Bancorp (Arlington, VA)         Pref. Stock w/ Warr.          $71,000,000                                                                                                        $2.30            $61        $3.95      2,696,203    2,696,203      $(1.65)    $1,508,750

12/12/08 Wilmington Trust Corporation (Wilmington,         Pref. Stock w/ Warr.         $330,000,000                                                                                                       $13.66           $947       $26.66      1,856,714    1,856,714     $(13.00)    $7,012,500
         DE)

12/12/08 Wilshire Bancorp, Inc. (Los Angeles, CA)          Pref. Stock w/ Warr.          $62,158,000                                                                                                        $5.75           $169        $9.82        949,460      949,460      $(4.07)    $1,320,858

12/19/08 Alliance Financial Corporation (Syracuse, NY) Pref. Stock w/ Warr.              $26,918,000      5/13/2009 4      $26,918,000              $0    6/17/09            Warrants     $900,000         $28.36           $130       $23.33        173,069            0       $5.03      $538,360

12/19/08 AmeriServ Financial, Inc (Johnstown, PA)          Pref. Stock w/ Warr.          $21,000,000                                                                                                        $1.85            $39        $2.40      1,312,500    1,312,500      $(0.55)     $425,833

12/19/08 Bancorp Rhode Island, Inc. (Providence, RI)       Pref. Stock w/ Warr.          $30,000,000                                                                                                       $19.71            $91       $23.32        192,967      192,967      $(3.61)     $608,333

12/19/08 BancTrust Financial Group, Inc. (Mobile, AL)      Pref. Stock w/ Warr.          $50,000,000                                                                                                        $2.98            $53       $10.26        730,994      730,994      $(7.28)    $1,013,889

12/19/08 Berkshire Hills Bancorp, Inc. (Pittsfield, MA)    Pref. Stock w/ Warr.          $40,000,000      5/27/2009 4      $40,000,000              $0    6/24/09            Warrants $1,040,000           $20.78           $285       $26.51        226,330            0      $(5.73)     $877,778
                                                       2
12/19/08 Bridgeview Bancorp, Inc. (Bridgeview, IL)         Pref. Stock w/ Ex. Warr.      $38,000,000                                                                                                                                                                                       $839,906

12/19/08 Citizens First Corporation (Bowling Green, KY)Pref. Stock w/ Warr.                  $8,779,000                                                                                                     $5.50            $11        $5.18        254,218      254,218       $0.32      $178,019

12/19/08 CoBiz Financial Inc. (Denver, CO)                 Pref. Stock w/ Warr.          $64,450,000                                                                                                        $6.41           $150       $10.79        895,968      895,968      $(4.38)    $1,306,903

12/19/08 Community Bankers Trust Corporation (Glen Pref. Stock w/ Warr.                  $17,680,000                                                                                                        $3.70            $79        $3.40        780,000      780,000       $0.30      $358,511
         Allen, VA)

12/19/08 Community Financial Corporation (Staunton, Pref. Stock w/ Warr.                 $12,643,000                                                                                                        $4.40            $19        $5.40        351,194      351,194      $(1.00)     $256,372
         VA)
CPP TRANSACTION DETAIL, AS OF 6/30/2009
            Seller                                                      Purchase Details                       Capital Repayment Details                           Final Disposition                              Warrant and Market Data for Publicly Traded Companies

                                                                                                                                                                                                                                                Number of       Current Amt. “In the
                                                                                                           Capital           Capital       Remaining       Final       Disposition           Final                     Market                    Warrants    Number of    Money” /        Dividend
                                                         Investment                        Investment   Repayment         Repayment          Capital Disposition       Investment      Disposition       Current Capitalization       Strike     Originally Outstanding “Out of the    Payments to
Date        Name of Institution                          Description                          Amount         Date           Amount6          Amount        Date        Description      Proceeds     Stock Price (in millions)        Pricea        Issued    Warrants    Money” e        Treasury

12/19/08 Community West Bancshares (Goleta, CA)          Pref. Stock w/ Warr.          $15,600,000                                                                                                        $2.10            $12        $4.49        521,158      521,158      $(2.39)     $316,333

12/19/08 Enterprise Financial Services Corp. (St.        Pref. Stock w/ Warr.          $35,000,000                                                                                                        $9.09           $117       $16.20        324,074      324,074      $(7.11)     $709,722
         Louis, MO)

12/19/08 Exchange Bank (Santa Rosa, CA)2                 Pref. Stock w/ Ex. Warr.      $43,000,000                                                                                                                                                                                       $950,419

12/19/08 FCB Bancorp, Inc. (Louisville, KY)2             Pref. Stock w/ Ex. Warr.          $9,294,000                                                                                                                                                                                    $205,435

12/19/08 FFW Corporation (Wabash, IN)2                   Pref. Stock w/ Ex. Warr.          $7,289,000                                                                                                                                                                                    $161,091

12/19/08 Fidelity Financial Corporation (Wichita, KS)2   Pref. Stock w/ Ex. Warr.      $36,282,000                                                                                                                                                                                       $801,929

12/19/08 Fidelity Southern Corporation (Atlanta, GA)     Pref. Stock w/ Warr.          $48,200,000                                                                                                        $2.90            $28        $3.16      2,266,458    2,289,179      $(0.26)     $977,389

12/19/08 First California Financial Group, Inc (Westlake Pref. Stock w/ Warr.          $25,000,000                                                                                                        $6.17            $72        $6.26        599,042      599,042      $(0.09)     $506,944
         Village, CA)

12/19/08 Flushing Financial Corporation (Lake            Pref. Stock w/ Warr.          $70,000,000                                                                                                        $9.35           $203       $13.97        751,611      751,611      $(4.62)    $1,419,444
         Success, NY)

12/19/08 Hawthorn Bancshares, Inc. (Lee’s Summit,        Pref. Stock w/ Warr.          $30,255,000                                                                                                        $9.90            $43       $18.49        245,443      245,443      $(8.59)     $613,505
         MO)

12/19/08 Heartland Financial USA, Inc. (Dubuque, IA)     Pref. Stock w/ Warr.          $81,698,000                                                                                                       $14.28           $233       $20.10        609,687      609,687      $(5.82)    $1,656,654

12/19/08 Horizon Bancorp (Michigan City, IN)             Pref. Stock w/ Warr.          $25,000,000                                                                                                       $16.25            $53       $17.68        212,104      212,104      $(1.43)     $506,944

12/19/08 Intermountain Community Bancorp                 Pref. Stock w/ Warr.          $27,000,000                                                                                                        $3.40            $28        $6.20        653,226      653,226      $(2.80)     $547,500
         (Sandpoint, ID)

12/19/08 Marquette National Corporation (Chicago, IL)2 Pref. Stock w/ Ex. Warr.        $35,500,000                                                                                                                                                                                       $784,649

12/19/08 Mid Penn Bancorp, Inc. (Millersburg, PA)        Pref. Stock w/ Warr.          $10,000,000                                                                                                       $15.80            $55       $20.52         73,099       73,099      $(4.72)     $202,778

12/19/08 Monadnock Bancorp, Inc. (Peterborough,          Pref. Stock w/ Ex. Warr.          $1,834,000                                                                                                                                                                                     $40,547
         NH)2

12/19/08 Monarch Financial Holdings, Inc.                Pref. Stock w/ Warr.          $14,700,000                                                                                                        $8.90            $52        $8.33        264,706      264,706       $0.57      $298,083
         (Chesapeake, VA)

12/19/08 NCAL Bancorp (Los Angeles, CA)2                 Pref. Stock w/ Ex. Warr.      $10,000,000                                                                                                                                                                                       $221,028

12/19/08 OneUnited Bank (Boston, MA)3                    Pref. Stock                   $12,063,000                                                                                                                                                                                        $93,823

12/19/08 Pacific City Financial Corporation (Los         Pref. Stock w/ Ex. Warr.      $16,200,000                                                                                                                                                                                       $358,065
         Angeles, CA)2

12/19/08 Patapsco Bancorp, Inc. (Dundalk, MD)2           Pref. Stock w/ Ex. Warr.          $6,000,000                                                                                                                                                                                    $132,617

12/19/08 Patriot Bancshares, Inc. (Houston, TX)2         Pref. Stock w/ Ex. Warr.      $26,038,000                                                                                                                                                                                       $575,516

12/19/08 Plains Capital Corporation (Dallas, TX)2        Pref. Stock w/ Ex. Warr.      $87,631,000                                                                                                                                                                                      $1,936,905

12/19/08 Santa Lucia Bancorp (Atascadero, CA)            Pref. Stock w/ Warr.              $4,000,000                                                                                                    $11.80            $23       $16.06         37,360       37,360      $(4.26)      $81,111

12/19/08 Seacoast Banking Corporation of Florida         Pref. Stock w/ Warr.          $50,000,000                                                                                                        $2.43            $47        $6.36      1,179,245    1,179,245      $(3.93)     $388,889
         (Stuart, FL)

12/19/08 Security Federal Corporation (Aiken, SC)        Pref. Stock w/ Warr.          $18,000,000                                                                                                       $11.26            $28       $19.57        137,966      137,966      $(8.31)     $365,000

12/19/08 StellarOne Corporation (Charlottesville, VA)    Pref. Stock w/ Warr.          $30,000,000                                                                                                       $12.95           $294       $14.87        302,623      302,623      $(1.92)     $608,333

12/19/08 Summit State Bank (Santa Rosa, CA)              Pref. Stock w/ Warr.              $8,500,000                                                                                                     $6.75            $32        $5.33        239,212      239,212       $1.42      $172,361

12/19/08 Synovus Financial Corp. (Columbus, GA)          Pref. Stock w/ Warr.         $967,870,000                                                                                                        $2.99           $988        $9.36     15,510,737   15,510,737      $(6.37)   $19,626,253

12/19/08 Tennessee Commerce Bancorp, Inc.                Pref. Stock w/ Warr.          $30,000,000                                                                                                        $4.76            $23        $9.75        461,538      461,538      $(4.99)     $608,333
         (Franklin, TN)

12/19/08 The Connecticut Bank and Trust Company          Pref. Stock w/ Warr.              $5,448,000                                                                                                     $5.15            $18        $4.65        175,742      175,742       $0.50
         (Hartford, CT)

12/19/08 The Elmira Savings Bank, FSB (Elmira, NY)       Pref. Stock w/ Warr.              $9,090,000                                                                                                    $15.66            $30       $11.70        116,538      116,538       $3.96      $184,325

12/19/08 Tidelands Bancshares, Inc (Mt. Pleasant, SC) Pref. Stock w/ Warr.             $14,448,000                                                                                                        $2.90            $12        $3.79        571,821      571,821      $(0.89)     $292,973

12/19/08 Tri-County Financial Corporation (Waldorf,      Pref. Stock w/ Ex. Warr.      $15,540,000                                                                                                                                                                                       $343,478
         MD)2
                                                                                                                                                                                                                                                                                                     TRANSACTION DETAIL I APPENDIX D I JULY 21, 2009




12/19/08 Union Bankshares Corporation (Bowling           Pref. Stock w/ Warr.          $59,000,000                                                                                                       $14.97           $204       $20.94        422,636      422,636      $(5.97)    $1,196,389
         Green, VA)

12/19/08 VIST Financial Corp. (Wyomissing, PA)           Pref. Stock w/ Warr.          $25,000,000                                                                                                        $6.61            $38       $10.30        364,078      364,078      $(3.69)     $506,944

12/19/08 Wainwright Bank & Trust Company (Boston,        Pref. Stock w/ Warr.          $22,000,000                                                                                                        $7.85            $57        $8.46        390,071      390,071      $(0.61)     $446,111
         MA)
                                                                                                                                                                                                                                                                                                     205
CPP TRANSACTION DETAIL, AS OF 6/30/2009
            Seller                                                     Purchase Details                       Capital Repayment Details                           Final Disposition                              Warrant and Market Data for Publicly Traded Companies
                                                                                                                                                                                                                                                                                                    206
                                                                                                                                                                                                                                               Number of       Current Amt. “In the
                                                                                                          Capital           Capital       Remaining       Final       Disposition           Final                     Market                    Warrants    Number of    Money” /        Dividend
                                                        Investment                        Investment   Repayment         Repayment          Capital Disposition       Investment      Disposition       Current Capitalization       Strike     Originally Outstanding “Out of the    Payments to
Date        Name of Institution                         Description                          Amount         Date           Amount6          Amount        Date        Description      Proceeds     Stock Price (in millions)        Pricea        Issued    Warrants    Money” e        Treasury

12/19/08 Whitney Holding Corporation (New Orleans,      Pref. Stock w/ Warr.         $300,000,000                                                                                                        $9.16           $617       $17.10      2,631,579    2,631,579      $(7.94)    $6,083,333
         LA)

12/19/08 Wintrust Financial Corporation (Lake           Pref. Stock w/ Warr.         $250,000,000                                                                                                       $16.08           $385       $22.82      1,643,295    1,643,295      $(6.74)    $5,069,444
         Forest, IL)

12/23/08 1st Constitution Bancorp (Cranbury, NJ)        Pref. Stock w/ Warr.          $12,000,000                                                                                                        $8.50            $36        $8.56        200,222      210,233      $(0.06)     $236,667

12/23/08 BCSB Bancorp, Inc. (Baltimore, MD)             Pref. Stock w/ Warr.          $10,800,000                                                                                                        $8.10            $25        $8.83        183,465      183,465      $(0.73)     $213,000

12/23/08 Bridge Capital Holdings (San Jose, CA)         Pref. Stock w/ Warr.          $23,864,000                                                                                                        $6.15            $42        $9.03        396,412      396,412      $(2.88)     $470,651

12/23/08 Cache Valley Banking Company (Logan, UT)2 Pref. Stock w/ Ex. Warr.               $4,767,000                                                                                                                                                                                    $102,465

12/23/08 Capital Bancorp, Inc. (Rockville, MD)2         Pref. Stock w/ Ex. Warr.          $4,700,000                                                                                                                                                                                    $101,037

12/23/08 Capital Pacific Bancorp (Portland, OR)2        Pref. Stock w/ Ex. Warr.          $4,000,000                                                                                                                                                                                     $85,989

12/23/08 Cecil Bancorp, Inc. (Elkton, MD)               Pref. Stock w/ Warr.          $11,560,000                                                                                                        $4.40            $16        $6.63        261,538      261,538      $(2.23)     $227,989

12/23/08 Central Jersey Bancorp (Oakhurst, NJ)          Pref. Stock w/ Warr.          $11,300,000                                                                                                        $5.50            $50        $6.31        268,621      268,621      $(0.81)     $222,861

12/23/08 Citizens Bancorp (Nevada City, CA)2            Pref. Stock w/ Ex. Warr.      $10,400,000                                                                                                                                                                                       $223,571

12/23/08 Citizens Community Bank (South Hill, VA)2      Pref. Stock w/ Ex. Warr.          $3,000,000                                                                                                                                                                                     $64,492
                                                                                                                                                                                                                                                                                                    APPENDIX D I TRANSACTION DETAIL I JULY 21, 2009




12/23/08 Community Investors Bancorp, Inc. (Bucyrus, Pref. Stock w/ Ex. Warr.             $2,600,000                                                                                                                                                                                     $55,893
         OH)2

12/23/08 Emclaire Financial Corp. (Emlenton, PA)        Pref. Stock w/ Warr.              $7,500,000                                                                                                    $18.00            $26       $22.45         50,111       50,111      $(4.45)     $147,917

12/23/08 Financial Institutions, Inc. (Warsaw, NY)      Pref. Stock w/ Warr.          $37,515,000                                                                                                       $13.66           $148       $14.88        378,175      378,175      $(1.22)     $739,880

12/23/08 First Community Bank Corporation of            Pref. Stock w/ Warr.          $10,685,000                                                                                                        $3.76            $16        $7.02        228,312      228,312      $(3.26)     $210,732
         America (Pinellas Park, FL)

12/23/08 First Financial Bancorp (Cincinnati, OH)       Pref. Stock w/ Warr.          $80,000,000                                                                                                        $7.53           $373       $12.90        930,233      930,233      $(5.37)    $1,577,778

12/23/08 First Sound Bank (Seattle, WA)                 Pref. Stock w/ Warr.              $7,400,000                                                                                                     $3.00             NA        $9.73        114,080      114,080      $(6.73)     $145,944

12/23/08 Fulton Financial Corporation (Lancaster, PA)   Pref. Stock w/ Warr.         $376,500,000                                                                                                        $5.19           $911       $10.25      5,509,756    5,509,756      $(5.06)    $7,425,417

12/23/08 Green Bankshares, Inc. (Greeneville, TN)       Pref. Stock w/ Warr.          $72,278,000                                                                                                        $4.48            $59       $17.06        635,504      635,504     $(12.58)    $1,425,483

12/23/08 HMN Financial, Inc. (Rochester, MN)            Pref. Stock w/ Warr.          $26,000,000                                                                                                        $3.51            $15        $4.68        833,333      833,333      $(1.17)     $512,778

12/23/08 International Bancshares Corporation           Pref. Stock w/ Warr.         $216,000,000                                                                                                       $10.31           $707       $24.43      1,326,238    1,326,238     $(14.12)    $4,260,000
         (Laredo, TX)

12/23/08 Intervest Bancshares Corporation (New          Pref. Stock w/ Warr.          $25,000,000                                                                                                        $3.50            $29        $5.42        691,882      691,882      $(1.92)     $493,056
         York, NY)

12/23/08 Leader Bancorp, Inc. (Arlington, MA)2          Pref. Stock w/ Ex. Warr.          $5,830,000                                                                                                                                                                                    $125,347

12/23/08 M&T Bank Corporation (Buffalo, NY)             Pref. Stock w/ Warr.         $600,000,000                                                                                                       $50.93         $5,659       $73.86      1,218,522    1,218,522     $(22.93)   $11,833,333

12/23/08 Magna Bank (Memphis, TN)2                      Pref. Stock w/ Ex. Warr.      $13,795,000                                                                                                                                                                                       $296,564

12/23/08 Mission Valley Bancorp (Sun Valley, CA)3       Pref. Stock                       $5,500,000                                                                                                                                                                                    $108,472

12/23/08 MutualFirst Financial, Inc. (Muncie, IN)       Pref. Stock w/ Warr.          $32,382,000                                                                                                        $8.96            $63        $7.77        625,135      625,135       $1.19      $638,645

12/23/08 Nicolet Bankshares, Inc. (Green Bay, WI)2      Pref. Stock w/ Ex. Warr.      $14,964,000                                                                                                                                                                                       $321,677

12/23/08 Pacific Coast Bankers’ Bancshares (San         Pref. Stock w/ Ex. Warr.      $11,600,000                                                                                                                                                                                       $249,368
         Francisco, CA)2

12/23/08 Pacific Commerce Bank (Los Angeles, CA)2       Pref. Stock w/ Ex. Warr.          $4,060,000                                                                                                                                                                                     $55,318

12/23/08 Park National Corporation (Newark, OH)         Pref. Stock w/ Warr.         $100,000,000                                                                                                       $56.48           $789       $65.97        227,376      227,376      $(9.49)    $1,972,222

12/23/08 Parkvale Financial Corporation (Monroeville,   Pref. Stock w/ Warr.          $31,762,000                                                                                                        $8.99            $49       $12.66        376,327      376,327      $(3.67)     $626,417
         PA)

12/23/08 Peoples Bancorp of North Carolina, Inc.        Pref. Stock w/ Warr.          $25,054,000                                                                                                        $6.15            $34       $10.52        357,234      357,234      $(4.37)     $494,121
         (Newton, NC)

12/23/08 Saigon National Bank (Westminster, CA)2        Pref. Stock w/ Ex. Warr.          $1,549,000

12/23/08 Seacoast Commerce Bank (Chula Vista, CA)2 Pref. Stock w/ Ex. Warr.               $1,800,000                                                                                                                                                                                     $38,695

12/23/08 Sterling Bancorp (New York, NY)                Pref. Stock w/ Warr.          $42,000,000                                                                                                        $8.35           $151       $12.19        516,817      516,817      $(3.84)     $828,333

12/23/08 TCNB Financial Corp. (Dayton, OH)2             Pref. Stock w/ Ex. Warr.          $2,000,000                                                                                                                                                                                     $42,994

12/23/08 Tennessee Valley Financial Holdings, Inc. (Oak Pref. Stock w/ Ex. Warr.          $3,000,000                                                                                                                                                                                     $64,492
         Ridge, TN)2

12/23/08 The Little Bank, Incorporated (Kinston, NC)2   Pref. Stock w/ Ex. Warr.          $7,500,000                                                                                                                                                                                    $161,230
CPP TRANSACTION DETAIL, AS OF 6/30/2009
           Seller                                                       Purchase Details                       Capital Repayment Details                           Final Disposition                              Warrant and Market Data for Publicly Traded Companies

                                                                                                                                                                                                                                                Number of       Current Amt. “In the
                                                                                                           Capital           Capital       Remaining       Final       Disposition           Final                     Market                    Warrants    Number of    Money” /        Dividend
                                                         Investment                        Investment   Repayment         Repayment          Capital Disposition       Investment      Disposition       Current Capitalization       Strike     Originally Outstanding “Out of the    Payments to
Date       Name of Institution                           Description                          Amount         Date           Amount6          Amount        Date        Description      Proceeds     Stock Price (in millions)        Pricea        Issued    Warrants    Money” e        Treasury

12/23/08 Timberland Bancorp, Inc. (Hoquiam, WA)          Pref. Stock w/ Warr.          $16,641,000                                                                                                        $4.10            $29        $6.73        370,899      370,899      $(2.63)     $328,198

12/23/08 United Bancorporation of Alabama, Inc.          Pref. Stock w/ Warr.          $10,300,000                                                                                                       $15.50             NA       $14.85        104,040      104,040       $0.65      $203,139
         (Atmore, AL)

12/23/08 Uwharrie Capital Corp (Albemarle, NC)2          Pref. Stock w/ Ex. Warr.      $10,000,000                                                                                                                                                                                       $214,972

12/23/08 Western Community Bancshares, Inc. (Palm Pref. Stock w/ Ex. Warr.                 $7,290,000                                                                                                                                                                                    $156,733
         Desert, CA)2

12/23/08 Western Illinois Bancshares Inc. (Monmouth, Pref. Stock w/ Ex. Warr.              $6,855,000                                                                                                                                                                                    $147,373
         IL)2

12/31/08 CIT Group Inc. (New York, NY)                   Pref. Stock w/ Warr.        $2,330,000,000                                                                                                       $2.15           $836        $3.94     88,705,584   88,705,584      $(1.79)   $43,687,500

12/31/08 Fifth Third Bancorp (Cincinnati, OH)            Pref. Stock w/ Warr.        $3,408,000,000                                                                                                       $7.10         $5,645       $11.72     43,617,747   43,617,747      $(4.62)   $85,200,000

12/31/08 First Banks, Inc. (Clayton, MO)2                Pref. Stock w/ Ex. Warr.     $295,400,000                                                                                                                                                                                      $6,037,238

12/31/08 Hampton Roads Bankshares, Inc. (Norfolk,        Pref. Stock w/ Warr.          $80,347,000                                                                                                        $8.25           $180        $9.09      1,325,858    1,325,858      $(0.84)    $1,506,507
         VA)

12/31/08 SunTrust Banks, Inc. (Atlanta, GA)              Pref. Stock w/ Warr.        $1,350,000,000                                                                                                      $16.45         $7,644       $33.70      6,008,902    6,008,902     $(17.25)     See note c

12/31/08 The PNC Financial Services Group Inc.           Pref. Stock w/ Warr.        $7,579,200,000                                                                                                      $38.81        $17,275       $67.33     16,885,192   16,885,192     $(28.52) $142,110,000
         (Pittsburgh, PA)

12/31/08 West Bancorporation, Inc. (West Des             Pref. Stock w/ Warr.          $36,000,000                                                                                                        $5.06            $88       $11.39        474,100      474,100      $(6.33)     $675,000
         Moines, IA)

1/9/09     American Express Company (New York, NY) Pref. Stock w/ Warr.              $3,388,890,000     6/17/2009 4   $3,388,890,000              $0                                                     $23.24        $27,136       $20.95     24,264,129   24,264,129       $2.29    $74,367,308

1/9/09     American State Bancshares, Inc. (Great        Pref. Stock w/ Ex. Warr.          $6,000,000                                                                                                                                                                                    $114,450
           Bend, KS)2

1/9/09     Bank of America Corporation (Charlotte, NC)1 Pref. Stock w/ Warr.        $10,000,000,000                                                                                                      $13.20       $104,544       $30.79     48,717,116   48,717,116     $(17.59) $175,000,000

1/9/09     C&F Financial Corporation (West Point, VA)    Pref. Stock w/ Warr.          $20,000,000                                                                                                       $16.50            $50       $17.91        167,504      167,504      $(1.41)     $350,000

1/9/09     Cadence Financial Corporation (Starkville,    Pref. Stock w/ Warr.          $44,000,000                                                                                                        $2.23            $27        $5.76      1,145,833    1,145,833      $(3.53)     $770,000
           MS)

1/9/09     Carolina Bank Holdings, Inc. (Greensboro, NC) Pref. Stock w/ Warr.          $16,000,000                                                                                                        $4.28            $14        $6.71        357,675      357,675      $(2.44)     $280,000

1/9/09     Center Bancorp, Inc. (Union, NJ)              Pref. Stock w/ Warr.          $10,000,000                                                                                                        $8.15           $106        $8.65        173,410      173,410      $(0.50)     $175,000

1/9/09     Central Pacific Financial Corp. (Honolulu, HI) Pref. Stock w/ Warr.        $135,000,000                                                                                                        $3.75           $108       $12.77      1,585,748    1,585,748      $(9.02)    $2,362,500

1/9/09     Centrue Financial Corporation (St. Louis, MO) Pref. Stock w/ Warr.          $32,668,000                                                                                                                                    $9.64        508,320      508,320      $(9.64)     $571,690

1/9/09     Codorus Valley Bancorp, Inc. (York, PA)       Pref. Stock w/ Warr.          $16,500,000                                                                                                        $6.30            $25        $9.38        263,859      263,859      $(3.08)     $288,750

1/9/09     Colony Bankcorp, Inc. (Fitzgerald, GA)        Pref. Stock w/ Warr.          $28,000,000                                                                                                        $7.11            $51        $8.40        500,000      500,000      $(1.29)     $490,000

1/9/09     Commerce National Bank (Newport Beach,        Pref. Stock w/ Warr.              $5,000,000                                                                                                     $5.75            $15        $8.60         87,209       87,209      $(2.85)
           CA)

1/9/09     Community Trust Financial Corporation         Pref. Stock w/ Ex. Warr.      $24,000,000                                                                                                                                                                                       $457,800
           (Ruston, LA)2

1/9/09     Congaree Bancshares, Inc. (Cayce, SC)2        Pref. Stock w/ Ex. Warr.          $3,285,000                                                                                                                                                                                     $62,654

1/9/09     Crescent Financial Corporation (Cary, NC)     Pref. Stock w/ Warr.          $24,900,000                                                                                                        $3.80            $37        $4.48        833,705      833,705      $(0.68)     $435,750

1/9/09     Eastern Virginia Bankshares, Inc.             Pref. Stock w/ Warr.          $24,000,000                                                                                                        $8.64            $51        $9.63        373,832      373,832      $(0.99)     $420,000
           (Tappahannock, VA)

1/9/09     F.N.B. Corporation (Hermitage, PA)            Pref. Stock w/ Warr.         $100,000,000                                                                                                        $6.19           $686       $11.52      1,302,083    1,302,083      $(5.33)    $1,750,000

1/9/09     Farmers Capital Bank Corporation (Frankfort, Pref. Stock w/ Warr.           $30,000,000                                                                                                       $25.17           $185       $20.09        223,992      223,992       $5.08      $525,000
           KY)

1/9/09     First Bancorp (Troy, NC)                      Pref. Stock w/ Warr.          $65,000,000                                                                                                       $15.68           $261       $15.82        616,308      616,308      $(0.14)    $1,137,500

1/9/09     First Financial Service Corporation           Pref. Stock w/ Warr.          $20,000,000                                                                                                       $17.41            $83       $13.89        215,983      215,983       $3.52      $350,000
           (Elizabethtown, KY)

1/9/09     First Security Group, Inc. (Chattanooga, TN) Pref. Stock w/ Warr.           $33,000,000                                                                                                        $3.80            $62        $6.01        823,627      823,627      $(2.21)     $577,500
                                                                                                                                                                                                                                                                                                      TRANSACTION DETAIL I APPENDIX D I JULY 21, 2009




1/9/09     FirstMerit Corporation (Akron, OH)            Pref. Stock w/ Warr.         $125,000,000      4/22/2009 4    $125,000,000               $0    5/27/09            Warrants $5,025,000           $17.00         $1,393       $19.69        952,260            0      $(2.69)    $1,788,194

1/9/09     GrandSouth Bancorporation (Greenville, SC)2 Pref. Stock w/ Ex. Warr.            $9,000,000                                                                                                                                                                                    $171,675

1/9/09     Independence Bank (East Greenwich, RI)2       Pref. Stock w/ Ex. Warr.          $1,065,000                                                                                                                                                                                     $20,307
                                                                                                                                                                                                                                                                                                      207
CPP TRANSACTION DETAIL, AS OF 6/30/2009
                                                                                                                                                                                                                                                                                                      208
          Seller                                                         Purchase Details                       Capital Repayment Details                           Final Disposition                              Warrant and Market Data for Publicly Traded Companies

                                                                                                                                                                                                                                                 Number of       Current Amt. “In the
                                                                                                            Capital           Capital       Remaining       Final       Disposition           Final                     Market                    Warrants    Number of    Money” /        Dividend
                                                          Investment                        Investment   Repayment         Repayment          Capital Disposition       Investment      Disposition       Current Capitalization       Strike     Originally Outstanding “Out of the    Payments to
Date      Name of Institution                             Description                          Amount         Date           Amount6          Amount        Date        Description      Proceeds     Stock Price (in millions)        Pricea        Issued    Warrants    Money” e        Treasury

1/9/09    Independent Bank Corp. (Rockland, MA)           Pref. Stock w/ Warr.          $78,158,000      4/22/2009 4      $78,158,000              $0    5/27/09            Warrants $2,200,000           $19.70           $412       $24.34        481,664            0      $(4.64)    $1,118,094

1/9/09    LCNB Corp. (Lebanon, OH)                        Pref. Stock w/ Warr.          $13,400,000                                                                                                        $9.85            $66        $9.26        217,063      217,063       $0.59      $234,500

1/9/09    MidSouth Bancorp, Inc. (Lafayette, LA)          Pref. Stock w/ Warr.          $20,000,000                                                                                                       $16.80           $114       $14.32        208,768      208,768       $2.48      $350,000

1/9/09    Mission Community Bancorp (San Luis             Pref. Stock                       $5,116,000                                                                                                                                                                                     $89,530
          Obispo, CA)3

1/9/09    New York Private Bank & Trust Corporation       Pref. Stock w/ Ex. Warr.     $267,274,000                                                                                                                                                                                      $5,098,261
          (New York, NY)2

1/9/09    North Central Bancshares, Inc. (Fort            Pref. Stock w/ Warr.          $10,200,000                                                                                                       $14.10            $19       $15.43         99,157       99,157      $(1.33)     $178,500
          Dodge, IA)

1/9/09    Peapack-Gladstone Financial Corporation(        Pref. Stock w/ Warr.          $28,685,000                                                                                                       $19.29           $160       $30.06        143,139      143,139     $(10.77)     $501,988
          Gladstone, NJ)

1/9/09    Redwood Financial Inc. (Redwood Falls, MN)2 Pref. Stock w/ Ex. Warr.              $2,995,000                                                                                                                                                                                     $57,138

1/9/09    Rising Sun Bancorp (Rising Sun, MD)2            Pref. Stock w/ Ex. Warr.          $5,983,000                                                                                                                                                                                    $114,122

1/9/09    Security Business Bancorp (San Diego, CA)2 Pref. Stock w/ Ex. Warr.               $5,803,000                                                                                                                                                                                    $110,688

1/9/09    Security California Bancorp (Riverside, CA)2    Pref. Stock w/ Ex. Warr.          $6,815,000                                                                                                                                                                                    $130,005
                                                                                                                                                                                                                                                                                                      APPENDIX D I TRANSACTION DETAIL I JULY 21, 2009




1/9/09    Shore Bancshares, Inc. (Easton, MD)             Pref. Stock w/ Warr.          $25,000,000      4/15/2009 4      $25,000,000              $0                                                     $17.94           $151       $21.68        172,970      172,970      $(3.74)     $333,333

1/9/09    Sound Banking Company (Morehead City, NC)2 Pref. Stock w/ Ex. Warr.               $3,070,000                                                                                                                                                                                     $58,576

1/9/09    Sun Bancorp, Inc. (Vineland, NJ)                Pref. Stock w/ Warr.          $89,310,000       4/8/2009 4      $89,310,000              $0    5/27/09            Warrants $2,100,000            $5.18           $120        $8.27      1,543,376            0      $(3.09)    $1,103,971

1/9/09    Surrey Bancorp (Mount Airy, NC)2                Pref. Stock w/ Ex. Warr.          $2,000,000                                                                                                                                                                                     $38,150

1/9/09    Texas National Bancorporation (Jacksonville, Pref. Stock w/ Ex. Warr.             $3,981,000                                                                                                                                                                                     $75,937
          TX)2

1/9/09    The First Bancorp, Inc. (Damariscotta, ME)      Pref. Stock w/ Warr.          $25,000,000                                                                                                       $19.47           $189       $16.60        225,904      225,904       $2.87      $437,500

1/9/09    The Queensborough Company (Louisville,          Pref. Stock w/ Ex. Warr.      $12,000,000                                                                                                                                                                                       $228,900
          GA)2

1/9/09    Valley Community Bank (Pleasanton, CA)2         Pref. Stock w/ Ex. Warr.          $5,500,000                                                                                                                                                                                    $104,913

1/16/09   Bank of Commerce (Charlotte, NC)2               Pref. Stock w/ Ex. Warr.          $3,000,000                                                                                                                                                                                     $54,046

1/16/09   Bar Harbor Bankshares/Bar Harbor Bank &         Pref. Stock w/ Warr.          $18,751,000                                                                                                       $30.85            $89       $26.81        104,910      104,910       $4.04      $309,913
          Trust (Bar Harbor, ME)

1/16/09   BNCCORP, Inc. (Bismarck, ND)2                   Pref. Stock w/ Ex. Warr.      $20,093,000                                                                                                                                                                                       $361,992

1/16/09   Carver Bancorp, Inc (New York, NY )3            Pref. Stock                   $18,980,000                                                                                                                                                                                       $313,697

1/16/09   Centra Financial Holdings, Inc./Centra Bank, Pref. Stock w/ Ex. Warr.         $15,000,000      3/31/2009 4      $15,000,000              $0    4/15/09 Preferred Stock2, 7     $750,000                                                                                         $172,938
          Inc. (Morgantown, WV)2

1/16/09   Citizens & Northern Corporation (Wellsboro, Pref. Stock w/ Warr.              $26,440,000                                                                                                       $20.57           $185       $20.36        194,794      194,794       $0.21      $436,994
          PA)

1/16/09   Community 1st Bank (Roseville, CA)2             Pref. Stock w/ Ex. Warr.          $2,550,000                                                                                                                                                                                     $34,755

1/16/09   Community Bank of the Bay (Oakland, CA)3        Pref. Stock                       $1,747,000

1/16/09   Dickinson Financial Corporation II (Kansas      Pref. Stock w/ Ex. Warr.     $146,053,000                                                                                                                                                                                      $2,631,197
          City, MO)2

1/16/09   ECB Bancorp, Inc./East Carolina Bank            Pref. Stock w/ Warr.          $17,949,000                                                                                                       $19.50            $55       $18.57        144,984      144,984       $0.93      $296,658
          (Engelhard, NC)

1/16/09   First BanCorp (San Juan, PR)                    Pref. Stock w/ Warr.         $400,000,000                                                                                                        $3.95           $366       $10.27      5,842,259    5,842,259      $(6.32)    $6,611,111

1/16/09   First Bankers Trustshares, Inc. (Quincy, IL)2   Pref. Stock w/ Ex. Warr.      $10,000,000                                                                                                                                                                                       $180,153

1/16/09   First Manitowoc Bancorp, Inc. (Manitowoc, WI)2 Pref. Stock w/ Ex. Warr.       $12,000,000      5/27/2009 4      $12,000,000              $0    5/27/09 Preferred Stock2, 7     $600,000                                                                                         $237,983

1/16/09   Home Bancshares, Inc. (Conway, AR)              Pref. Stock w/ Warr.          $50,000,000                                                                                                       $19.04           $379       $26.03        288,129      288,129      $(6.99)     $826,389

1/16/09   Idaho Bancorp (Boise, ID)2                      Pref. Stock w/ Ex. Warr.          $6,900,000                                                                                                                                                                                    $124,306

1/16/09   MainSource Financial Group, Inc.(Greensburg, Pref. Stock w/ Warr.             $57,000,000                                                                                                        $7.42           $149       $14.95        571,906      571,906      $(7.53)     $942,083
          IN)

1/16/09   MetroCorp Bancshares, Inc. (Houston, TX)        Pref. Stock w/ Warr.          $45,000,000                                                                                                        $3.10            $34        $8.75        771,429      771,429      $(5.65)     $743,750

1/16/09   Morrill Bancshares, Inc. (Merriam, KS)2         Pref. Stock w/ Ex. Warr.      $13,000,000                                                                                                                                                                                       $234,199

1/16/09   New Hampshire Thrift Bancshares, Inc.           Pref. Stock w/ Warr.          $10,000,000                                                                                                        $9.85            $57        $8.14        184,275      184,275       $1.71      $165,278
          (Newport, NH)
CPP TRANSACTION DETAIL, AS OF 6/30/2009
          Seller                                                            Purchase Details                       Capital Repayment Details                           Final Disposition                              Warrant and Market Data for Publicly Traded Companies

                                                                                                                                                                                                                                                    Number of       Current Amt. “In the
                                                                                                               Capital           Capital       Remaining       Final       Disposition           Final                     Market                    Warrants    Number of    Money” /        Dividend
                                                             Investment                        Investment   Repayment         Repayment          Capital Disposition       Investment      Disposition       Current Capitalization       Strike     Originally Outstanding “Out of the    Payments to
Date      Name of Institution                                Description                          Amount         Date           Amount6          Amount        Date        Description      Proceeds     Stock Price (in millions)        Pricea        Issued    Warrants    Money” e        Treasury

1/16/09   OceanFirst Financial Corp. (Toms River, NJ)        Pref. Stock w/ Warr.          $38,263,000                                                                                                       $11.97           $148       $15.07        380,853      380,853      $(3.10)     $632,403

1/16/09   Old Second Bancorp, Inc. (Aurora, IL)              Pref. Stock w/ Warr.          $73,000,000                                                                                                        $5.90            $82       $13.43        815,339      815,339      $(7.53)    $1,206,528

1/16/09   Pacific Coast National Bancorp (San                Pref. Stock w/ Ex. Warr.          $4,120,000                                                                                                                                                                                     $18,088
          Clemente, CA)2

1/16/09   Puget Sound Bank (Bellevue, WA)2                   Pref. Stock w/ Ex. Warr.          $4,500,000                                                                                                                                                                                     $81,069

1/16/09   Pulaski Financial Corp (Creve Coeur, MO)           Pref. Stock w/ Warr.          $32,538,000                                                                                                        $6.60            $68        $6.27        778,421      778,421       $0.33      $537,781

1/16/09   Redwood Capital Bancorp (Eureka, CA)2              Pref. Stock w/ Ex. Warr.          $3,800,000                                                                                                                                                                                     $68,458

1/16/09   S&T Bancorp (Indiana, PA)                          Pref. Stock w/ Warr.         $108,676,000                                                                                                       $12.16           $336       $31.53        517,012      517,012     $(19.37)    $1,796,173

1/16/09   SCBT Financial Corporation (Columbia, SC)          Pref. Stock w/ Warr.          $64,779,000      5/20/2009 4      $64,779,000              $0    6/24/09            Warrants $1,400,000           $23.69           $299       $32.06        303,083            0      $(8.37)    $1,115,639

1/16/09   Somerset Hills Bancorp (Bernardsville, NJ)         Pref. Stock w/ Warr.              $7,414,000   5/20/2009 4       $7,414,000              $0    6/24/09            Warrants     $275,000          $7.50            $39        $6.82        163,065            0       $0.68      $127,686

1/16/09   Southern Bancorp, Inc. (Arkadelphia, AR)3          Pref. Stock                   $11,000,000                                                                                                                                                                                       $181,806

1/16/09   State Bankshares, Inc. (Fargo, ND)2                Pref. Stock w/ Ex. Warr.      $50,000,000                                                                                                                                                                                       $900,764

1/16/09   Syringa Bancorp (Boise, ID)2                       Pref. Stock w/ Ex. Warr.          $8,000,000                                                                                                                                                                                    $144,122

1/16/09   TCB Holding Company, Texas Community               Pref. Stock w/ Ex. Warr.      $11,730,000                                                                                                                                                                                       $211,335
          Bank (The Woodlands, TX)2
                                                                                                                        4
1/16/09   Texas Capital Bancshares, Inc. (Dallas, TX)        Pref. Stock w/ Warr.          $75,000,000      5/13/2009        $75,000,000              $0                                                     $15.47           $551       $14.84        758,086      758,086       $0.63     $1,218,750

1/16/09   The Baraboo Bancorporation (Baraboo, WI)2 Pref. Stock w/ Ex. Warr.               $20,749,000                                                                                                                                                                                       $373,787

1/16/09   Treaty Oak Bancorp, Inc. (Austin,TX)2              Pref. Stock w/ Ex. Warr.          $3,268,000                                                                                                                                                                                     $58,863

1/16/09   United Bancorp, Inc. (Tecumseh, MI)                Pref. Stock w/ Warr.          $20,600,000                                                                                                        $6.10            $31        $9.92        311,492      311,492      $(3.82)     $340,472

1/16/09   United Financial Banking Companies, Inc.           Pref. Stock w/ Ex. Warr.          $5,658,000                                                                                                                                                                                    $101,934
          (Vienna, VA)2

1/16/09   Washington Banking Company/Whidbey                 Pref. Stock w/ Warr.          $26,380,000                                                                                                        $9.42            $90        $8.04        492,164      492,164       $1.38      $436,003
          Island Bank (Oak Harbor, WA)

1/16/09   Yadkin Valley Financial Corporation (Elkin, NC) Pref. Stock w/ Warr.             $36,000,000                                                                                                        $6.91           $111       $13.99        385,990      385,990      $(7.08)     $595,000

1/23/09   1st Source Corporation (South Bend, IN)            Pref. Stock w/ Warr.         $111,000,000                                                                                                       $17.27           $418       $19.87        837,947      837,947      $(2.60)    $1,726,667

1/23/09   AB&T Financial Corporation (Gastonia, NC)          Pref. Stock w/ Warr.              $3,500,000                                                                                                     $5.25            $14        $6.55         80,153       80,153      $(1.30)      $54,444

1/23/09   Alarion Financial Services, Inc. (Ocala, FL)2      Pref. Stock w/ Ex. Warr.          $6,514,000                                                                                                                                                                                    $110,457

1/23/09   BankFirst Capital Corporation (Macon, MS)2         Pref. Stock w/ Ex. Warr.      $15,500,000                                                                                                                                                                                       $262,812

1/23/09   California Oaks State Bank (Thousand               Pref. Stock w/ Ex. Warr.          $3,300,000                                                                                                                                                                                     $55,954
          Oaks, CA)2

1/23/09   Calvert Financial Corporation (Ashland, MO)2 Pref. Stock w/ Ex. Warr.                $1,037,000                                                                                                                                                                                     $17,588

1/23/09   CalWest Bancorp (Rancho Santa Margarita,           Pref. Stock w/ Ex. Warr.          $4,656,000                                                                                                                                                                                     $78,951
          CA)2

1/23/09   Commonwealth Business Bank (Los Angeles, Pref. Stock w/ Ex. Warr.                    $7,701,000                                                                                                                                                                                     $25,648
          CA)2
                                                         2
1/23/09   Crosstown Holding Company (Blaine, MN)             Pref. Stock w/ Ex. Warr.      $10,650,000                                                                                                                                                                                       $180,591

1/23/09   Farmers Bank (Windsor, VA)2                        Pref. Stock w/ Ex. Warr.          $8,752,000                                                                                                                                                                                    $148,406

1/23/09   First Citizens Banc Corp (Sandusky, OH)            Pref. Stock w/ Warr.          $23,184,000                                                                                                        $5.01            $39        $7.41        469,312      469,312      $(2.40)     $360,640

1/23/09   First ULB Corp. (Oakland, CA)2                     Pref. Stock w/ Ex. Warr.          $4,900,000   4/22/2009 4       $4,900,000              $0    4/22/09 Preferred Stock2, 7     $245,000                                                                                          $66,021


1/23/09   FPB Financial Corp. (Hammond, LA)2                 Pref. Stock w/ Ex. Warr.          $3,240,000                                                                                                                                                                                     $54,936

1/23/09   Fresno First Bank (Fresno, CA)2                    Pref. Stock w/ Ex. Warr.          $1,968,000

1/23/09   Liberty Bancshares, Inc. (Jonesboro, AR)2          Pref. Stock w/ Ex. Warr.      $57,500,000                                                                                                                                                                                       $974,945

1/23/09   Midland States Bancorp, Inc. (Effingham, IL)2 Pref. Stock w/ Ex. Warr.           $10,189,000                                                                                                                                                                                       $172,749

1/23/09   Moscow Bancshares, Inc. (Moscow, TN)2              Pref. Stock w/ Ex. Warr.          $6,216,000                                                                                                                                                                                    $105,402
                                                                                                                                                                                                                                                                                                         TRANSACTION DETAIL I APPENDIX D I JULY 21, 2009




1/23/09   Pierce County Bancorp (Tacoma, WA)2                Pref. Stock w/ Ex. Warr.          $6,800,000                                                                                                                                                                                    $115,298

1/23/09   Princeton National Bancorp, Inc. (Princeton, IL) Pref. Stock w/ Warr.            $25,083,000                                                                                                       $14.60            $48       $24.27        155,025      155,025      $(9.67)     $390,180

1/23/09   Seaside National Bank & Trust (Orlando, FL)2 Pref. Stock w/ Ex. Warr.                $5,677,000                                                                                                                                                                                     $96,261

1/23/09   Southern Illinois Bancorp, Inc. (Carmi, IL)2       Pref. Stock w/ Ex. Warr.          $5,000,000                                                                                                                                                                                     $84,778

1/23/09   Stonebridge Financial Corp. (West Chester, PA)2 Pref. Stock w/ Ex. Warr.         $10,973,000                                                                                                                                                                                       $186,064
                                                                                                                                                                                                                                                                                                         209
CPP TRANSACTION DETAIL, AS OF 6/30/2009
          Seller                                                         Purchase Details                       Capital Repayment Details                           Final Disposition                              Warrant and Market Data for Publicly Traded Companies
                                                                                                                                                                                                                                                                                                      210
                                                                                                                                                                                                                                                 Number of       Current Amt. “In the
                                                                                                            Capital           Capital       Remaining       Final       Disposition           Final                     Market                    Warrants    Number of    Money” /        Dividend
                                                         Investment                         Investment   Repayment         Repayment          Capital Disposition       Investment      Disposition       Current Capitalization       Strike     Originally Outstanding “Out of the    Payments to
Date      Name of Institution                            Description                           Amount         Date           Amount6          Amount        Date        Description      Proceeds     Stock Price (in millions)        Pricea        Issued    Warrants    Money” e        Treasury

1/23/09   WSFS Financial Corporation (Wilmington, DE) Pref. Stock w/ Warr.              $52,625,000                                                                                                       $27.31           $169       $45.08        175,105      175,105     $(17.77)     $818,612

1/30/09   Adbanc, Inc (Ogallala, NE)2                    Pref. Stock w/ Ex. Warr.       $12,720,000                                                                                                                                                                                       $202,195

1/30/09   AMB Financial Corp. (Munster, IN)2             Pref. Stock w/ Ex. Warr.           $3,674,000                                                                                                                                                                                     $58,409

1/30/09   Anchor BanCorp Wisconsin Inc. (Madison, WI) Pref. Stock w/ Warr.             $110,000,000                                                                                                        $1.30            $28        $2.23      7,399,103    7,399,103      $(0.93)

1/30/09   Annapolis Bancorp, Inc. (Annapolis, MD)        Pref. Stock w/ Warr.               $8,152,000                                                                                                     $3.80            $15        $4.08        299,706      299,706      $(0.28)     $118,883

1/30/09   Bankers’ Bank of the West Bancorp, Inc.        Pref. Stock w/ Ex. Warr.       $12,639,000                                                                                                                                                                                       $200,909
          (Denver, CO)2

1/30/09   Beach Business Bank (Manhattan Beach, CA)2 Pref. Stock w/ Ex. Warr.               $6,000,000                                                                                                                                                                                     $95,375

1/30/09   Central Bancshares, Inc. (Houston, TX)2        Pref. Stock w/ Ex. Warr.           $5,800,000                                                                                                                                                                                     $92,196

1/30/09   Central Valley Community Bancorp (Fresno, CA) Pref. Stock w/ Warr.                $7,000,000                                                                                                     $5.19            $40        $6.64        158,133      158,133      $(1.45)     $102,083

1/30/09   Central Virginia Bankshares, Inc. (Powhatan, VA) Pref. Stock w/ Warr.         $11,385,000                                                                                                        $4.25            $11        $6.48        263,542      263,542      $(2.23)     $166,031

1/30/09   Community Partners Bancorp (Middletown, NJ) Pref. Stock w/ Warr.                  $9,000,000                                                                                                     $4.20            $29        $4.68        288,462      288,462      $(0.48)     $131,250

1/30/09   Country Bank Shares, Inc. (Milford, NE)2       Pref. Stock w/ Ex. Warr.           $7,525,000                                                                                                                                                                                    $119,610

1/30/09   DNB Financial Corporation (Downingtown, PA) Pref. Stock w/ Warr.              $11,750,000                                                                                                        $7.55            $20        $9.46        186,311      186,311      $(1.91)     $171,354
                                                                                                                                                                                                                                                                                                      APPENDIX D I TRANSACTION DETAIL I JULY 21, 2009




1/30/09   Equity Bancshares, Inc. (Wichita, KS)2         Pref. Stock w/ Ex. Warr.           $8,750,000                                                                                                                                                                                    $139,102

1/30/09   F & M Bancshares, Inc. (Trezevant, TN)2        Pref. Stock w/ Ex. Warr.           $4,609,000                                                                                                                                                                                     $73,252

1/30/09   First Resource Bank (Exton, PA)2               Pref. Stock w/ Ex. Warr.           $2,600,000                                                                                                                                                                                     $41,330

1/30/09   First Southern Bancorp, Inc. (Boca Raton, FL)2 Pref. Stock w/ Ex. Warr.       $10,900,000                                                                                                                                                                                       $173,264

1/30/09   First United Corporation (Oakland, MD)         Pref. Stock w/ Warr.           $30,000,000                                                                                                       $11.25            $69       $13.79        326,323      326,323      $(2.54)     $437,500

1/30/09   Firstbank Corporation (Alma, MI)               Pref. Stock w/ Warr.           $33,000,000                                                                                                        $7.05            $54        $8.55        578,947      578,947      $(1.50)     $481,250

1/30/09   Flagstar Bancorp, Inc. (Troy, MI)              Pref. Stock w/ Warr.          $266,657,000                                                                                                        $0.68            $61        $0.62     64,513,790   64,513,790       $0.06     $3,888,747

1/30/09   Goldwater Bank, N.A. (Scottsdale, AZ)2         Pref. Stock w/ Ex. Warr.           $2,568,000                                                                                                                                                                                     $40,810

1/30/09   Greer Bancshares Incorporated (Greer, SC)2 Pref. Stock w/ Ex. Warr.               $9,993,000                                                                                                                                                                                    $158,856

1/30/09   Guaranty Federal Bancshares, Inc.              Pref. Stock w/ Warr.           $17,000,000                                                                                                        $6.90            $18        $5.55        459,459      459,459       $1.35      $247,917
          (Springfield, MO)

1/30/09   Hilltop Community Bancorp, Inc. (Summit, NJ)2 Pref. Stock w/ Ex. Warr.            $4,000,000                                                                                                                                                                                     $63,583

1/30/09   Katahdin Bankshares Corp. (Houlton, ME)2       Pref. Stock w/ Ex. Warr.       $10,449,000                                                                                                                                                                                       $166,084

1/30/09   Legacy Bancorp, Inc. (Milwaukee, WI)3          Pref. Stock                        $5,498,000                                                                                                                                                                                     $80,179

1/30/09   Metro City Bank (Doraville, GA)2               Pref. Stock w/ Ex. Warr.           $7,700,000                                                                                                                                                                                    $122,398

1/30/09   Middleburg Financial Corporation (Middleburg, Pref. Stock w/ Warr.            $22,000,000                                                                                                       $13.76            $65       $15.85        208,202      208,202      $(2.09)     $320,833
          VA)

1/30/09   Monument Bank (Bethesda, MD)2                  Pref. Stock w/ Ex. Warr.           $4,734,000                                                                                                                                                                                     $75,258

1/30/09   Northway Financial, Inc. (Berlin, NH)2         Pref. Stock w/ Ex. Warr.       $10,000,000                                                                                                                                                                                       $158,958

1/30/09   Oak Ridge Financial Services, Inc.             Pref. Stock w/ Warr.               $7,700,000                                                                                                     $7.20            $13        $7.05        163,830      163,830       $0.15      $112,292
          (Oak Ridge, NC)

1/30/09   Ojai Community Bank (Ojai, CA)2                Pref. Stock w/ Ex. Warr.           $2,080,000                                                                                                                                                                                     $33,063

1/30/09   Parke Bancorp, Inc. (Sewell, NJ)               Pref. Stock w/ Warr.           $16,288,000                                                                                                        $9.16            $37        $8.15        299,779      299,779       $1.01      $237,533

1/30/09   Peninsula Bank Holding Co. (Palo Alto, CA)     Pref. Stock w/ Warr.               $6,000,000                                                                                                     $9.25            $17       $11.02         81,670       81,670      $(1.77)

1/30/09   Peoples Bancorp Inc. (Marietta, OH)            Pref. Stock w/ Warr.           $39,000,000                                                                                                       $17.05           $178       $18.86        313,505      313,505      $(1.81)     $568,750

1/30/09   Plumas Bancorp (Quincy, CA)                    Pref. Stock w/ Warr.           $11,949,000                                                                                                        $4.99            $24        $7.54        237,712      237,712      $(2.55)     $174,256

1/30/09   PrivateBancorp, Inc. (Chicago, IL)             Pref. Stock w/ Warr.          $243,815,000                                                                                                       $22.24         $1,013       $28.35      1,290,026    1,290,026      $(6.11)    $3,555,635

1/30/09   Rogers Bancshares, Inc. (Little Rock, AR)2     Pref. Stock w/ Ex. Warr.       $25,000,000                                                                                                                                                                                       $397,396

1/30/09   Stewardship Financial Corporation (Midland     Pref. Stock w/ Warr.           $10,000,000                                                                                                        $9.50            $53       $11.80        127,119      127,119      $(2.30)     $145,833
          Park, NJ)

1/30/09   UBT Bancshares, Inc. (Marysville, KS)2         Pref. Stock w/ Ex. Warr.           $8,950,000                                                                                                                                                                                    $142,334

1/30/09   Valley Commerce Bancorp (Visalia, CA)2         Pref. Stock w/ Ex. Warr.           $7,700,000                                                                                                                                                                                    $122,398

1/30/09   W.T.B. Financial Corporation (Spokane, WA)2 Pref. Stock w/ Ex. Warr.         $110,000,000                                                                                                                                                                                      $1,748,541
CPP TRANSACTION DETAIL, AS OF 6/30/2009
          Seller                                                           Purchase Details                       Capital Repayment Details                           Final Disposition                              Warrant and Market Data for Publicly Traded Companies

                                                                                                                                                                                                                                                   Number of       Current Amt. “In the
                                                                                                              Capital           Capital       Remaining       Final       Disposition           Final                     Market                    Warrants    Number of    Money” /        Dividend
                                                            Investment                        Investment   Repayment         Repayment          Capital Disposition       Investment      Disposition       Current Capitalization       Strike     Originally Outstanding “Out of the    Payments to
Date      Name of Institution                               Description                          Amount         Date           Amount6          Amount        Date        Description      Proceeds     Stock Price (in millions)        Pricea        Issued    Warrants    Money” e        Treasury

1/30/09   WashingtonFirst Bank (Reston, VA)2                Pref. Stock w/ Ex. Warr.          $6,633,000                                                                                                                                                                                    $105,446

2/6/09    Alaska Pacific Bancshares, Inc. (Juneau, AK) Pref. Stock w/ Warr.                   $4,781,000                                                                                                     $4.05              $3       $4.08        175,772      175,772      $(0.03)      $65,739

2/6/09    Banner County Ban Corporation (Harrisburg, Pref. Stock w/ Ex. Warr.                  $795,000                                                                                                                                                                                      $11,921
          NE)2

2/6/09    Carolina Trust Bank (Lincolnton, NC)              Pref. Stock w/ Warr.              $4,000,000                                                                                                     $7.24            $11        $6.90         86,957       86,957       $0.34       $55,000

2/6/09    CedarStone Bank (Lebanon, TN)2                    Pref. Stock w/ Ex. Warr.          $3,564,000                                                                                                                                                                                     $53,411

2/6/09    Centrix Bank & Trust (Bedford, NH)2               Pref. Stock w/ Ex. Warr.          $7,500,000                                                                                                                                                                                    $112,406

2/6/09    Citizens Commerce Bancshares, Inc.                Pref. Stock w/ Ex. Warr.          $6,300,000                                                                                                                                                                                     $94,421
          (Versailles, KY)2

2/6/09    Community Holding Company of Florida, Inc. Pref. Stock w/ Ex. Warr.                 $1,050,000                                                                                                                                                                                     $15,676
          (Miramar Beach, FL)2

2/6/09    F & M Financial Corporation (Salisbury, NC)2 Pref. Stock w/ Ex. Warr.           $17,000,000                                                                                                                                                                                       $254,788

2/6/09    First Bank of Charleston, Inc. (Charleston,       Pref. Stock w/ Ex. Warr.          $3,345,000                                                                                                                                                                                     $50,127
          WV)2

2/6/09    First Express of Nebraska, Inc. (Gering, NE)2 Pref. Stock w/ Ex. Warr.              $5,000,000                                                                                                                                                                                     $74,938

2/6/09    First Market Bank, FSB (Richmond, VA)2            Pref. Stock w/ Ex. Warr.      $33,900,000                                                                                                                                                                                       $508,076

2/6/09    First Western Financial, Inc. (Denver, CO)2       Pref. Stock w/ Ex. Warr.          $8,559,000                                                                                                                                                                                    $128,279

2/6/09    Georgia Commerce Bancshares, Inc.                 Pref. Stock w/ Ex. Warr.          $8,700,000                                                                                                                                                                                    $130,391
          (Atlanta, GA)2
                                             2
2/6/09    Hyperion Bank (Philadelphia, PA)                  Pref. Stock w/ Ex. Warr.          $1,552,000                                                                                                                                                                                     $23,271

2/6/09    Lakeland Bancorp, Inc. (Oak Ridge, NJ)            Pref. Stock w/ Warr.          $59,000,000                                                                                                        $8.99           $212        $9.32        949,571      949,571      $(0.33)     $811,250

2/6/09    Liberty Financial Services, Inc. (New Orleans, Pref. Stock                          $5,645,000                                                                                                                                                                                     $77,619
          LA)3

2/6/09    Lone Star Bank (Houston, TX)2                     Pref. Stock w/ Ex. Warr.          $3,072,000

2/6/09    Mercantile Capital Corp. (Boston, MA)2            Pref. Stock w/ Ex. Warr.          $3,500,000                                                                                                                                                                                     $52,456

2/6/09    MidWestOne Financial Group, Inc. (Iowa            Pref. Stock w/ Warr.          $16,000,000                                                                                                        $7.81            $67       $12.08        198,675      198,675      $(4.27)     $220,000
          City, IA)

2/6/09    Monarch Community Bancorp, Inc.                   Pref. Stock w/ Warr.              $6,785,000                                                                                                     $6.10            $12        $3.90        260,962      260,962       $2.20       $93,294
          (Coldwater, MI)
                                                        2
2/6/09    Pascack Community Bank (Westwood, NJ)             Pref. Stock w/ Ex. Warr.          $3,756,000                                                                                                                                                                                     $56,298

2/6/09    PGB Holdings, Inc. (Chicago, IL)3                 Pref. Stock                       $3,000,000                                                                                                                                                                                     $41,250

2/6/09    Stockmens Financial Corporation (Rapid            Pref. Stock w/ Ex. Warr.      $15,568,000                                                                                                                                                                                       $233,316
          City, SD)2

2/6/09    The Bank of Currituck (Moyock, NC)2               Pref. Stock w/ Ex. Warr.          $4,021,000                                                                                                                                                                                     $60,264

2/6/09    The First Bancshares, Inc. (Hattiesburg, MS) Pref. Stock w/ Warr.                   $5,000,000                                                                                                     $7.50            $22       $13.71         54,705       54,705      $(6.21)      $68,750

2/6/09    The Freeport State Bank (Harper, KS)2             Pref. Stock w/ Ex. Warr.           $301,000                                                                                                                                                                                       $4,510

2/6/09    Todd Bancshares, Inc. (Hopkinsville, KY)2         Pref. Stock w/ Ex. Warr.          $4,000,000                                                                                                                                                                                     $59,950

2/6/09    US Metro Bank (Garden Grove, CA)2                 Pref. Stock w/ Ex. Warr.          $2,861,000                                                                                                                                                                                     $42,878

2/13/09   1st Enterprise Bank (Los Angeles, CA)2            Pref. Stock w/ Ex. Warr.          $4,400,000                                                                                                                                                                                     $61,282

2/13/09   BankGreenville (Greenville, SC)2                  Pref. Stock w/ Ex. Warr.          $1,000,000                                                                                                                                                                                     $13,928

2/13/09   Bern Bancshares, Inc. (Bern, KS)2                 Pref. Stock w/ Ex. Warr.           $985,000                                                                                                                                                                                      $13,736

2/13/09   Carrollton Bancorp (Baltimore, MD)                Pref. Stock w/ Warr.              $9,201,000                                                                                                     $5.56            $14        $6.72        205,379      205,379      $(1.16)     $117,568

2/13/09   ColoEast Bankshares, Inc. (Lamar, CO)2            Pref. Stock w/ Ex. Warr.      $10,000,000                                                                                                                                                                                       $139,278

2/13/09   Corning Savings and Loan Association              Pref. Stock w/ Ex. Warr.           $638,000                                                                                                                                                                                       $8,888
          (Corning, AR)2
                                                                                                                                                                                                                                                                                                        TRANSACTION DETAIL I APPENDIX D I JULY 21, 2009




2/13/09   DeSoto County Bank (Horn Lake, MS)2               Pref. Stock w/ Ex. Warr.          $1,173,000                                                                                                                                                                                     $16,345

2/13/09   F&M Financial Corporation (Clarksville, TN)2      Pref. Stock w/ Ex. Warr.      $17,243,000                                                                                                                                                                                       $240,153

2/13/09   Financial Security Corporation (Basin, WY)2       Pref. Stock w/ Ex. Warr.          $5,000,000                                                                                                                                                                                     $69,639

2/13/09   First Choice Bank (Cerritos, CA)2                 Pref. Stock w/ Ex. Warr.          $2,200,000                                                                                                                                                                                     $30,641

2/13/09   First Menasha Bancshares, Inc. (Neenah, WI)2 Pref. Stock w/ Ex. Warr.               $4,797,000                                                                                                                                                                                     $66,815
                                                                                                                                                                                                                                                                                                        211
CPP TRANSACTION DETAIL, AS OF 6/30/2009
          Seller                                                         Purchase Details                       Capital Repayment Details                           Final Disposition                              Warrant and Market Data for Publicly Traded Companies
                                                                                                                                                                                                                                                                                                      212
                                                                                                                                                                                                                                                 Number of       Current Amt. “In the
                                                                                                            Capital           Capital       Remaining       Final       Disposition           Final                     Market                    Warrants    Number of    Money” /        Dividend
                                                          Investment                        Investment   Repayment         Repayment          Capital Disposition       Investment      Disposition       Current Capitalization       Strike     Originally Outstanding “Out of the    Payments to
Date      Name of Institution                             Description                          Amount         Date           Amount6          Amount        Date        Description      Proceeds     Stock Price (in millions)        Pricea        Issued    Warrants    Money” e        Treasury

2/13/09   FNB United Corp. (Asheboro, NC)                 Pref. Stock w/ Warr.          $51,500,000                                                                                                        $2.48            $28        $3.50      2,207,143    2,207,143      $(1.02)     $658,055

2/13/09   Gregg Bancshares, Inc. (Ozark, MO)2             Pref. Stock w/ Ex. Warr.           $825,000                                                                                                                                                                                      $11,485

2/13/09   Hometown Bancshares, Inc. (Corbin, KY)2         Pref. Stock w/ Ex. Warr.          $1,900,000                                                                                                                                                                                     $26,463

2/13/09   Liberty Bancshares, Inc. (Springfield, MO)2     Pref. Stock w/ Ex. Warr.      $21,900,000                                                                                                                                                                                       $305,018

2/13/09   Meridian Bank (Devon, PA)2                      Pref. Stock w/ Ex. Warr.          $6,200,000                                                                                                                                                                                     $86,352

2/13/09   Midwest Regional Bancorp, Inc. (Festus, MO)2 Pref. Stock w/ Ex. Warr.              $700,000                                                                                                                                                                                       $9,749

2/13/09   Northwest Bancorporation, Inc. (Spokane, WA)2 Pref. Stock w/ Ex. Warr.        $10,500,000                                                                                                                                                                                       $146,242

2/13/09   Northwest Commercial Bank (Lakewood, WA)2 Pref. Stock w/ Ex. Warr.                $1,992,000                                                                                                                                                                                     $27,753

2/13/09   Peoples Bancorp (Lynden, WA)2                   Pref. Stock w/ Ex. Warr.      $18,000,000                                                                                                                                                                                       $250,700

2/13/09   PremierWest Bancorp (Medford, OR)               Pref. Stock w/ Warr.          $41,400,000                                                                                                        $3.39            $84        $5.70      1,038,462    1,090,385      $(2.31)     $529,000

2/13/09   QCR Holdings, Inc. (Moline, IL)                 Pref. Stock w/ Warr.          $38,237,000                                                                                                       $10.00            $45       $10.99        521,888      521,888      $(0.99)     $488,584

2/13/09   Regional Bankshares, Inc .(Hartsville, SC)2     Pref. Stock w/ Ex. Warr.          $1,500,000                                                                                                                                                                                     $20,892

2/13/09   Reliance Bancshares, Inc. (Frontenac, MO)2      Pref. Stock w/ Ex. Warr.      $40,000,000                                                                                                                                                                                       $557,111
                                                                                                                                                                                                                                                                                                      APPENDIX D I TRANSACTION DETAIL I JULY 21, 2009




2/13/09   Santa Clara Valley Bank, N.A. (Santa Paula,     Pref. Stock w/ Ex. Warr.          $2,900,000                                                                                                                                                                                     $40,391
          CA)2

2/13/09   Security Bancshares of Pulaski County, Inc.     Pref. Stock w/ Ex. Warr.          $2,152,000                                                                                                                                                                                     $29,982
          (Waynesville, MO)2

2/13/09   State Capital Corporation (Greenwood, MS)2 Pref. Stock w/ Ex. Warr.           $15,000,000                                                                                                                                                                                       $208,917

2/13/09   The Bank of Kentucky Financial Corporation      Pref. Stock w/ Warr.          $34,000,000                                                                                                       $28.00           $157       $18.56        274,784      274,784       $9.44      $434,444
          (Crestview Hills, KY)

2/13/09   Westamerica Bancorporation (San Rafael, CA) Pref. Stock w/ Warr.              $83,726,000                                                                                                       $49.61         $1,448       $50.92        246,640      246,640      $(1.31)    $1,069,832

2/20/09   BancPlus Corporation (Ridgeland, MS)2           Pref. Stock w/ Ex. Warr.      $48,000,000                                                                                                                                                                                       $617,666

2/20/09   CBB Bancorp (Cartersville, GA)2                 Pref. Stock w/ Ex. Warr.          $2,644,000                                                                                                                                                                                     $34,019

2/20/09   Central Community Corporation (Temple, TX)2 Pref. Stock w/ Ex. Warr.          $22,000,000                                                                                                                                                                                       $283,097

2/20/09   Crazy Woman Creek Bancorp, Inc. (Buffalo,       Pref. Stock w/ Ex. Warr.          $3,100,000                                                                                                                                                                                     $39,891
          WY)2

2/20/09   First BancTrust Corporation (Paris, IL)2        Pref. Stock w/ Ex. Warr.          $7,350,000                                                                                                                                                                                     $94,591

2/20/09   First Merchants Corporation (Muncie, IN)        Pref. Stock w/ Warr.         $116,000,000                                                                                                        $8.03           $169       $17.55        991,453      991,453      $(9.52)    $1,369,444

2/20/09   First Priority Financial Corp. (Malvern, PA)2   Pref. Stock w/ Ex. Warr.          $4,579,000                                                                                                                                                                                     $58,924

2/20/09   Florida Business BancGroup, Inc. (Tampa, FL)2 Pref. Stock w/ Ex. Warr.            $9,495,000                                                                                                                                                                                    $122,188

2/20/09   Guaranty Bancorp, Inc. (Woodsville, NH)2        Pref. Stock w/ Ex. Warr.          $6,920,000                                                                                                                                                                                     $89,047

2/20/09   Hamilton State Bancshares (Hoschton, GA)2       Pref. Stock w/ Ex. Warr.          $7,000,000                                                                                                                                                                                     $90,077

2/20/09   Hometown Bancorp of Alabama, Inc.               Pref. Stock w/ Ex. Warr.          $3,250,000                                                                                                                                                                                     $41,832
          (Oneonta, AL)2

2/20/09   Lafayette Bancorp, Inc. (Oxford, MS)2           Pref. Stock w/ Ex. Warr.          $1,998,000                                                                                                                                                                                     $25,712

2/20/09   Liberty Shares, Inc. (Hinesville, GA)2          Pref. Stock w/ Ex. Warr.      $17,280,000                                                                                                                                                                                       $222,360

2/20/09   Market Bancorporation, Inc. (New Market, MN)2 Pref. Stock w/ Ex. Warr.            $2,060,000                                                                                                                                                                                     $26,508

2/20/09   Mid-Wisconsin Financial Services, Inc.          Pref. Stock w/ Ex. Warr.      $10,000,000                                                                                                                                                                                       $128,681
          (Medford, WI)2

2/20/09   Northern States Financial Corporation           Pref. Stock w/ Warr.          $17,211,000                                                                                                        $5.33            $22        $4.42        584,084      584,084       $0.91      $203,185
          (Waukegan, IL)

2/20/09   Premier Service Bank (Riverside, CA)2           Pref. Stock w/ Ex. Warr.          $4,000,000

2/20/09   Royal Bancshares of Pennsylvania, Inc.          Pref. Stock w/ Warr.          $30,407,000                                                                                                        $1.87            $25        $4.13      1,104,370    1,104,370      $(2.26)     $358,971
          (Narberth, PA)

2/20/09   Security State Bancshares, Inc.(Charleston,     Pref. Stock w/ Ex. Warr.      $12,500,000                                                                                                                                                                                       $160,850
          MO)2

2/20/09   Sonoma Valley Bancorp (Sonoma , CA)2            Pref. Stock w/ Ex. Warr.          $8,653,000                                                                                                                                                                                    $111,354

2/20/09   The Private Bank of California (Los Angeles, Pref. Stock w/ Ex. Warr.             $5,450,000                                                                                                                                                                                     $70,142
          CA)2

2/20/09   United American Bank (San Mateo, CA)2           Pref. Stock w/ Ex. Warr.          $8,700,000
CPP TRANSACTION DETAIL, AS OF 6/30/2009
          Seller                                                           Purchase Details                       Capital Repayment Details                           Final Disposition                              Warrant and Market Data for Publicly Traded Companies

                                                                                                                                                                                                                                                   Number of       Current Amt. “In the
                                                                                                              Capital           Capital       Remaining       Final       Disposition           Final                     Market                    Warrants    Number of    Money” /        Dividend
                                                            Investment                        Investment   Repayment         Repayment          Capital Disposition       Investment      Disposition       Current Capitalization       Strike     Originally Outstanding “Out of the    Payments to
Date      Name of Institution                               Description                          Amount         Date           Amount6          Amount        Date        Description      Proceeds     Stock Price (in millions)        Pricea        Issued    Warrants    Money” e        Treasury

2/20/09   White River Bancshares Company                    Pref. Stock w/ Ex. Warr.      $16,800,000                                                                                                                                                                                       $216,183
          (Fayetteville, AR)2
                                                        2
2/27/09   Avenue Financial Holdings, Inc. (Nashville, TN)   Pref. Stock w/ Ex. Warr.          $7,400,000                                                                                                                                                                                     $87,382

2/27/09   BNC Financial Group, Inc. (New Canaan, CT)2 Pref. Stock w/ Ex. Warr.                $4,797,000                                                                                                                                                                                     $56,647

2/27/09   California Bank of Commerce (Lafayette, CA)2 Pref. Stock w/ Ex. Warr.               $4,000,000                                                                                                                                                                                     $47,233

2/27/09   Catskill Hudson Bancorp, Inc (Rock Hill, NY)2 Pref. Stock w/ Ex. Warr.              $3,000,000                                                                                                                                                                                     $35,425

2/27/09   Central Bancorp, Inc. (Garland, TX)2              Pref. Stock w/ Ex. Warr.      $22,500,000                                                                                                                                                                                       $265,688

2/27/09   Columbine Capital Corp. (Buena Vista, CO)2        Pref. Stock w/ Ex. Warr.          $2,260,000                                                                                                                                                                                     $26,687

2/27/09   Community Business Bank (West                     Pref. Stock w/ Ex. Warr.          $3,976,000                                                                                                                                                                                     $46,954
          Sacramento, CA)2
                                                 2
2/27/09   Community First Inc. (Columbia, TN)               Pref. Stock w/ Ex. Warr.      $17,806,000                                                                                                                                                                                       $210,253

2/27/09   D.L. Evans Bancorp (Burley, ID)2                  Pref. Stock w/ Ex. Warr.      $19,891,000                                                                                                                                                                                       $234,889

2/27/09   First Gothenburg Bancshares, Inc.                 Pref. Stock w/ Ex. Warr.          $7,570,000                                                                                                                                                                                     $89,399
          (Gothenburg, NE)2

2/27/09   First M&F Corporation (Kosciusko, MS)             Pref. Stock w/ Warr.          $30,000,000                                                                                                        $4.07            $37        $8.77        513,113      513,113      $(4.70)     $325,000

2/27/09   First State Bank of Mobeetie (Mobeetie, TX)2 Pref. Stock w/ Ex. Warr.                $731,000                                                                                                                                                                                       $8,641

2/27/09   FNB Bancorp (South San Francisco, CA)2            Pref. Stock w/ Ex. Warr.      $12,000,000                                                                                                                                                                                       $141,700

2/27/09   Green Circle Investments, Inc. (Clive, IA)2       Pref. Stock w/ Ex. Warr.          $2,400,000                                                                                                                                                                                     $28,340

2/27/09   Green City Bancshares, Inc. (Green City, MO)2 Pref. Stock w/ Ex. Warr.               $651,000                                                                                                                                                                                       $7,696

2/27/09   Howard Bancorp, Inc. (Ellicott City, MD)2         Pref. Stock w/ Ex. Warr.          $5,983,000                                                                                                                                                                                     $70,646

2/27/09   Integra Bank Corporation (Evansville, IN)         Pref. Stock w/ Warr.          $83,586,000                                                                                                        $1.15            $24        $1.69      7,418,876    7,418,876      $(0.54)     $905,515

2/27/09   Lakeland Financial Corporation (Warsaw, IN) Pref. Stock w/ Warr.                $56,044,000                                                                                                       $19.00           $236       $21.20        396,538      396,538      $(2.20)     $607,143

2/27/09   Medallion Bank (Salt Lake City, UT)2              Pref. Stock w/ Ex. Warr.      $11,800,000                                                                                                                                                                                       $139,338

2/27/09   Midtown Bank & Trust Company (Atlanta, GA)2 Pref. Stock w/ Ex. Warr.                $5,222,000                                                                                                                                                                                     $61,662

2/27/09   National Bancshares, Inc. (Bettendorf, IA)2       Pref. Stock w/ Ex. Warr.      $24,664,000                                                                                                                                                                                       $291,237

2/27/09   Private Bancorporation, Inc. (Minneapolis, MN)2 Pref. Stock w/ Ex. Warr.            $4,960,000                                                                                                                                                                                     $58,569

2/27/09   PSB Financial Corporation (Many, LA)2             Pref. Stock w/ Ex. Warr.          $9,270,000                                                                                                                                                                                    $109,473

2/27/09   Regent Capital Corporation (Nowata, OK)2          Pref. Stock w/ Ex. Warr.          $2,655,000                                                                                                                                                                                     $31,356

2/27/09   Ridgestone Financial Services, Inc.               Pref. Stock w/ Ex. Warr.      $10,900,000                                                                                                                                                                                       $128,711
          (Brookfield, WI)2

2/27/09   Southern First Bancshares, Inc. (Greenville, SC) Pref. Stock w/ Warr.           $17,299,000                                                                                                        $6.99            $21        $7.85        330,554      330,554      $(0.86)     $187,406

2/27/09   The Victory Bank (Limerick, PA)2                  Pref. Stock w/ Ex. Warr.           $541,000                                                                                                                                                                                       $6,388

2/27/09   TriState Capital Holdings, Inc. (Pittsburgh, PA)2 Pref. Stock w/ Ex. Warr.      $23,000,000                                                                                                                                                                                       $271,592

3/6/09    AmeriBank Holding Company (Collinsville, OK)2 Pref. Stock w/ Ex. Warr.              $2,492,000                                                                                                                                                                                     $26,038

3/6/09    Blue Ridge Bancshares, Inc. (Independence, MO)2Pref. Stock w/ Ex. Warr.         $12,000,000                                                                                                                                                                                       $125,350

3/6/09    Blue River Bancshares, Inc. (Shelbyville, IN)2 Pref. Stock w/ Ex. Warr.             $5,000,000                                                                                                                                                                                     $52,230

3/6/09    BOH Holdings, Inc. (Houston, TX)2                 Pref. Stock w/ Ex. Warr.      $10,000,000                                                                                                                                                                                       $104,458

3/6/09    Citizens Bancshares Corporation (Atlanta, GA)3 Pref. Stock                          $7,462,000                                                                                                                                                                                     $71,511

3/6/09    Community Bancshares of Kansas, Inc.              Pref. Stock w/ Ex. Warr.           $500,000                                                                                                                                                                                       $5,223
          (Goff, KS)2

3/6/09    Farmers & Merchants Bancshares, Inc.              Pref. Stock w/ Ex. Warr.      $11,000,000                                                                                                                                                                                       $114,905
          (Houston, TX)2

3/6/09    First Busey Corporation (Urbana, IL)              Pref. Stock w/ Warr.         $100,000,000                                                                                                        $7.35           $263       $13.07      1,147,666    1,147,666      $(5.72)     $958,333

3/6/09    First Federal Bancshares of Arkansas, Inc.        Pref. Stock w/ Warr.          $16,500,000                                                                                                        $3.93            $19        $7.69        321,847      321,847      $(3.76)     $158,125
                                                                                                                                                                                                                                                                                                        TRANSACTION DETAIL I APPENDIX D I JULY 21, 2009




          (Harrison, AR)

3/6/09    First Reliance Bancshares, Inc. (Florence, SC)2 Pref. Stock w/ Ex. Warr.        $15,349,000                                                                                                                                                                                       $160,326

3/6/09    First Southwest Bancorporation, Inc.              Pref. Stock w/ Ex. Warr.          $5,500,000                                                                                                                                                                                     $57,452
          (Alamosa, CO)2

3/6/09    First Texas BHC, Inc. (Fort Worth,TX)2            Pref. Stock w/ Ex. Warr.      $13,533,000                                                                                                                                                                                       $141,369
                                                                                                                                                                                                                                                                                                        213
CPP TRANSACTION DETAIL, AS OF 6/30/2009
                                                                                                                                                                                                                                                                                                           214
          Seller                                                              Purchase Details                       Capital Repayment Details                           Final Disposition                              Warrant and Market Data for Publicly Traded Companies

                                                                                                                                                                                                                                                      Number of       Current Amt. “In the
                                                                                                                 Capital           Capital       Remaining       Final       Disposition           Final                     Market                    Warrants    Number of    Money” /        Dividend
                                                               Investment                        Investment   Repayment         Repayment          Capital Disposition       Investment      Disposition       Current Capitalization       Strike     Originally Outstanding “Out of the    Payments to
Date      Name of Institution                                  Description                          Amount         Date           Amount6          Amount        Date        Description      Proceeds     Stock Price (in millions)        Pricea        Issued    Warrants    Money” e        Treasury

3/6/09    Germantown Capital Corporation, Inc.                 Pref. Stock w/ Ex. Warr.          $4,967,000                                                                                                                                                                                     $51,878
          (Germantown, TN)2

3/6/09    HCSB Financial Corporation (Loris, SC)               Pref. Stock w/ Warr.          $12,895,000                                                                                                       $12.60            $48       $21.09         91,714       91,714      $(8.49)     $123,577

3/6/09    Highlands Independent Bancshares, Inc.               Pref. Stock w/ Ex. Warr.          $6,700,000                                                                                                                                                                                     $69,987
          (Sebring, FL)2

3/6/09    ICB Financial (Ontario, CA)2                         Pref. Stock w/ Ex. Warr.          $6,000,000                                                                                                                                                                                     $62,675

3/6/09    Marine Bank & Trust Company (Vero Beach, FL)2 Pref. Stock w/ Ex. Warr.                 $3,000,000                                                                                                                                                                                     $31,338

3/6/09    Merchants and Planters Bancshares, Inc.              Pref. Stock w/ Ex. Warr.          $1,881,000                                                                                                                                                                                     $19,648
          (Toone, TN)2

3/6/09    Park Bancorporation, Inc. (Madison, WI)2             Pref. Stock w/ Ex. Warr.      $23,200,000                                                                                                                                                                                       $242,343

3/6/09    PeoplesSouth Bancshares, Inc. (Colquitt, GA)2 Pref. Stock w/ Ex. Warr.             $12,325,000                                                                                                                                                                                       $128,741

3/6/09    Pinnacle Bank Holding Company, Inc. (Orange Pref. Stock w/ Ex. Warr.                   $4,389,000                                                                                                                                                                                     $45,839
          City, FL)2

3/6/09    Regent Bancorp, Inc. (Davie, FL)2                    Pref. Stock w/ Ex. Warr.          $9,982,000                                                                                                                                                                                    $104,269

3/13/09   1st United Bancorp, Inc. (Boca Raton, FL)2           Pref. Stock w/ Ex. Warr.      $10,000,000                                                                                                                                                                                        $93,861
                                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I JULY 21, 2009




3/13/09   BancIndependent, Inc. (Sheffield, AL)2               Pref. Stock w/ Ex. Warr.      $21,100,000                                                                                                                                                                                       $198,047

3/13/09   Bank of George (Las Vegas, NV)2                      Pref. Stock w/ Ex. Warr.          $2,672,000                                                                                                                                                                                     $25,086

3/13/09   Blackhawk Bancorp, Inc. (Beloit, WI)2                Pref. Stock w/ Ex. Warr.      $10,000,000                                                                                                                                                                                        $93,861

3/13/09   Butler Point, Inc. (Catlin, IL)2                     Pref. Stock w/ Ex. Warr.           $607,000                                                                                                                                                                                       $5,692

3/13/09   Discover Financial Services (Riverwoods, IL) Pref. Stock w/ Warr.               $1,224,558,000                                                                                                       $10.27         $4,947        $8.96     20,500,413   20,500,413       $1.31    $10,544,804

3/13/09   First American International Corp. (Brooklyn, Pref. Stock                          $17,000,000                                                                                                                                                                                       $146,389
          NY)3
                                                       2
3/13/09   First Intercontinental Bank (Doraville, GA)          Pref. Stock w/ Ex. Warr.          $6,398,000                                                                                                                                                                                     $60,054

3/13/09   First National Corporation (Strasburg, VA)2          Pref. Stock w/ Ex. Warr.      $13,900,000                                                                                                                                                                                       $130,467

3/13/09   First Northern Community Bancorp (Dixon, CA) Pref. Stock w/ Warr.                  $17,390,000                                                                                                        $5.76            $52        $7.39        352,977      352,977      $(1.63)     $149,747

3/13/09   First Place Financial Corp. (Warren, OH)             Pref. Stock w/ Warr.          $72,927,000                                                                                                        $3.11            $53        $2.98      3,670,822    3,670,822       $0.13      $627,982

3/13/09   Haviland Bancshares, Inc. (Haviland, KS)2            Pref. Stock w/ Ex. Warr.           $425,000                                                                                                                                                                                       $3,986

3/13/09   IBW Financial Corporation (Washington, DC)2 Pref. Stock w/ Ex. Warr.                   $6,000,000                                                                                                                                                                                     $56,317

3/13/09   Madison Financial Corporation (Richmond, KY)2 Pref. Stock w/ Ex. Warr.                 $3,370,000                                                                                                                                                                                     $31,639

3/13/09   Moneytree Corporation (Lenoir City, TN)2             Pref. Stock w/ Ex. Warr.          $9,516,000                                                                                                                                                                                     $89,321

3/13/09   Provident Community Bancshares, Inc. (Rock Pref. Stock w/ Warr.                        $9,266,000                                                                                                     $3.30              $6       $7.77        178,880      178,880      $(4.47)      $79,791
          Hill, SC)

3/13/09   Salisbury Bancorp, Inc. (Lakeville, CT)              Pref. Stock w/ Warr.              $8,816,000                                                                                                    $24.31            $41       $22.93         57,671       57,671       $1.38       $75,916

3/13/09   Sovereign Bancshares, Inc. (Dallas, TX)2             Pref. Stock w/ Ex. Warr.      $18,215,000                                                                                                                                                                                       $170,972

3/13/09   St. Johns Bancshares, Inc. (St. Louis, MO)2          Pref. Stock w/ Ex. Warr.          $3,000,000                                                                                                                                                                                     $28,158

3/20/09   Citizens Bank & Trust Company (Covington, LA)2 Pref. Stock w/ Ex. Warr.                $2,400,000                                                                                                                                                                                     $19,983

3/20/09   Community First Bancshares Inc. (Union               Pref. Stock w/ Ex. Warr.      $20,000,000                                                                                                                                                                                       $166,528
          City, TN)2

3/20/09   Farmers & Merchants Financial Corporation            Pref. Stock w/ Ex. Warr.           $442,000                                                                                                                                                                                       $3,679
          (Argonia, KS)2
                                                           2
3/20/09   Farmers State Bankshares, Inc. (Holton, KS) Pref. Stock w/ Ex. Warr.                    $700,000                                                                                                                                                                                       $5,897

3/20/09   First Colebrook Bancorp, Inc. (Colebrook, NH)2 Pref. Stock w/ Ex. Warr.                $4,500,000                                                                                                                                                                                     $37,469

3/20/09   First NBC Bank Holding Company (New                  Pref. Stock w/ Ex. Warr.      $17,836,000                                                                                                                                                                                       $148,512
          Orleans, LA)2

3/20/09   Heritage Oaks Bancorp (Paso Robles, CA)              Pref. Stock w/ Warr.          $21,000,000                                                                                                        $6.25            $48        $5.15        611,650      611,650       $1.10      $160,416

3/20/09   Kirksville Bancorp, Inc. (Kirksville, MO)2           Pref. Stock w/ Ex. Warr.           $470,000                                                                                                                                                                                       $3,920

3/20/09   Peoples Bancshares of TN, Inc (Madisonville, Pref. Stock w/ Ex. Warr.                  $3,900,000                                                                                                                                                                                     $32,473
          TN)2

3/20/09   Premier Bank Holding Company (Tallahassee, Pref. Stock w/ Ex. Warr.                    $9,500,000                                                                                                                                                                                     $79,100
          FL)2
CPP TRANSACTION DETAIL, AS OF 6/30/2009
          Seller                                                          Purchase Details                       Capital Repayment Details                           Final Disposition                              Warrant and Market Data for Publicly Traded Companies

                                                                                                                                                                                                                                                  Number of       Current Amt. “In the
                                                                                                             Capital           Capital       Remaining       Final       Disposition           Final                     Market                    Warrants    Number of    Money” /        Dividend
                                                          Investment                         Investment   Repayment         Repayment          Capital Disposition       Investment      Disposition       Current Capitalization       Strike     Originally Outstanding “Out of the    Payments to
Date      Name of Institution                             Description                           Amount         Date           Amount6          Amount        Date        Description      Proceeds     Stock Price (in millions)        Pricea        Issued    Warrants    Money” e        Treasury

3/27/09   Alpine Banks of Colorado (Glenwood Springs, Pref. Stock w/ Ex. Warr.           $70,000,000                                                                                                                                                                                       $508,666
          CO)2

3/27/09   CBS Banc-Corp. (Russellville, AL)2              Pref. Stock w/ Ex. Warr.       $24,300,000                                                                                                                                                                                       $176,580

3/27/09   Clover Community Bankshares, Inc. (Clover, Pref. Stock w/ Ex. Warr.                $3,000,000                                                                                                                                                                                     $21,800
          SC)2

3/27/09   Colonial American Bank (West Conshohocken, Pref. Stock w/ Ex. Warr.                 $574,000                                                                                                                                                                                       $4,175
          PA)2

3/27/09   CSRA Bank Corp. (Wrens, GA)2                    Pref. Stock w/ Ex. Warr.           $2,400,000                                                                                                                                                                                     $17,440

3/27/09   IBT Bancorp, Inc. (Irving, TX)2                 Pref. Stock w/ Ex. Warr.           $2,295,000                                                                                                                                                                                     $16,680

3/27/09   Maryland Financial Bank (Towson, MD)2           Pref. Stock w/ Ex. Warr.           $1,700,000                                                                                                                                                                                     $12,353

3/27/09   MS Financial, Inc. (Kingwood, TX)2              Pref. Stock w/ Ex. Warr.           $7,723,000                                                                                                                                                                                     $56,119

3/27/09   Naples Bancorp, Inc. (Naples, FL)2              Pref. Stock w/ Ex. Warr.           $4,000,000                                                                                                                                                                                     $29,067

3/27/09   Pathway Bancorp (Cairo, NE)2                    Pref. Stock w/ Ex. Warr.           $3,727,000                                                                                                                                                                                     $27,079

3/27/09   SBT Bancorp, Inc. (Simsbury, CT)2               Pref. Stock w/ Ex. Warr.           $4,000,000                                                                                                                                                                                     $29,067

3/27/09   Spirit BankCorp, Inc. (Bristow, OK)2            Pref. Stock w/ Ex. Warr.       $30,000,000                                                                                                                                                                                       $218,000

3/27/09   Triad Bancorp, Inc. (Frontenac, MO)2            Pref. Stock w/ Ex. Warr.           $3,700,000                                                                                                                                                                                     $26,887

3/27/09   Trinity Capital Corporation (Los Alamos, NM)2 Pref. Stock w/ Ex. Warr.         $35,539,000                                                                                                                                                                                       $258,251

4/3/09    BancStar, Inc. (Festus, MO)2                    Pref. Stock w/ Ex. Warr.           $8,600,000                                                                                                                                                                                     $54,682

4/3/09    BCB Holding Company, Inc. (Theodore, AL)2 Pref. Stock w/ Ex. Warr.                 $1,706,000                                                                                                                                                                                     $10,845

4/3/09    Community First Bancshares, Inc. (Harrison, Pref. Stock w/ Ex. Warr.           $12,725,000                                                                                                                                                                                        $80,907
          AR)2

4/3/09    First Capital Bancorp, Inc. (Glen Ellen, VA)    Pref. Stock w/ Warr.           $10,958,000                                                                                                        $8.00            $24        $6.55        250,947      250,947       $1.45       $63,922

4/3/09    Fortune Financial Corporation (Arnold, MO)2     Pref. Stock w/ Ex. Warr.           $3,100,000                                                                                                                                                                                     $19,711

4/3/09    Millennium Bancorp, Inc. (Edwards, CO)2         Pref. Stock w/ Ex. Warr.           $7,260,000                                                                                                                                                                                     $46,162

4/3/09    Prairie Star Bancshares, Inc. (Olathe, KS)2     Pref. Stock w/ Ex. Warr.           $2,800,000                                                                                                                                                                                     $17,803

4/3/09    Titonka Bancshares, Inc (Titonka, IA)2          Pref. Stock w/ Ex. Warr.           $2,117,000                                                                                                                                                                                     $13,462

4/3/09    Tri-State Bank of Memphis (Memphis, TN)2, 3 Pref. Stock                            $2,795,000                                                                                                                                                                                     $16,304

4/3/09    TriSummit Bank (Kingsport, TN)2                 Pref. Stock w/ Ex. Warr.           $2,765,000                                                                                                                                                                                     $17,578

4/10/09   Capital Commerce Bancorp, Inc. (Milwaukee, Pref. Stock w/ Ex. Warr.                $5,100,000                                                                                                                                                                                     $27,023
          WI)2

4/10/09   City National Bancshares Corporation            Pref. Stock                        $9,439,000                                                                                                                                                                                     $45,884
          (Newark, NJ)3

4/10/09   First Business Bank, N.A. (San Diego, CA)2      Pref. Stock w/ Ex. Warr.           $2,211,000                                                                                                                                                                                     $11,719

4/10/09   Metropolitan Capital Bancorp, Inc. (Chicago, IL)2 Pref. Stock w/ Ex. Warr.         $2,040,000                                                                                                                                                                                     $10,810

4/10/09   SV Financial, Inc. (Sterling, IL)2              Pref. Stock w/ Ex. Warr.           $4,000,000                                                                                                                                                                                     $21,194

4/17/09   Bank of the Carolinas Corporation               Pref. Stock w/ Warr.           $13,179,000                                                                                                        $5.00            $19        $4.16        475,204      475,204       $0.84       $51,252
          (Mocksville, NC)

4/17/09   BNB Financial Services Corporation (New         Pref. Stock w/ Ex. Warr.           $7,500,000                                                                                                                                                                                     $31,792
          York, NY)2

4/17/09   Omega Capital Corp. (Lakewood, CO)2             Pref. Stock w/ Ex. Warr.           $2,816,000                                                                                                                                                                                     $11,938

4/17/09   Patterson Bancshares, Inc (Patterson, LA)2      Pref. Stock w/ Ex. Warr.           $3,690,000                                                                                                                                                                                     $15,645

4/17/09   Penn Liberty Financial Corp. (Wayne, PA)2       Pref. Stock w/ Ex. Warr.           $9,960,000                                                                                                                                                                                     $42,219

4/17/09   Tifton Banking Company (Tifton, GA)2            Pref. Stock w/ Ex. Warr.           $3,800,000                                                                                                                                                                                     $16,108

4/24/09   Allied First Bancorp, Inc. (Oswego, IL)2        Pref. Stock w/ Ex. Warr.           $3,652,000                                                                                                                                                                                     $11,613
                                                                                                                                                                                                                                                                                                       TRANSACTION DETAIL I APPENDIX D I JULY 21, 2009




4/24/09   Birmingham Bloomfield Bancshares, Inc           Pref. Stock w/ Ex. Warr.           $1,635,000                                                                                                                                                                                      $5,200
          (Birmingham, MI)2

4/24/09   Business Bancshares, Inc. (Clayton,MO)2         Pref. Stock w/ Ex. Warr.       $15,000,000                                                                                                                                                                                        $47,688

4/24/09   Frontier Bancshares, Inc. (Austin,TX)8          Sub. Debent. w/ Ex. Warr.          $3,000,000

4/24/09   Grand Capital Corporation (Tulsa,OK)2           Pref. Stock w/ Ex. Warr.           $4,000,000                                                                                                                                                                                     $12,717
                                                                                                                                                                                                                                                                                                       215
CPP TRANSACTION DETAIL, AS OF 6/30/2009
          Seller                                                        Purchase Details                       Capital Repayment Details                           Final Disposition                              Warrant and Market Data for Publicly Traded Companies
                                                                                                                                                                                                                                                                                                     216
                                                                                                                                                                                                                                                Number of       Current Amt. “In the
                                                                                                           Capital           Capital       Remaining       Final       Disposition           Final                     Market                    Warrants    Number of    Money” /        Dividend
                                                         Investment                        Investment   Repayment         Repayment          Capital Disposition       Investment      Disposition       Current Capitalization       Strike     Originally Outstanding “Out of the    Payments to
Date      Name of Institution                            Description                          Amount         Date           Amount6          Amount        Date        Description      Proceeds     Stock Price (in millions)        Pricea        Issued    Warrants    Money” e        Treasury

4/24/09   Indiana Bank Corp. (Dana, IN)2                 Pref. Stock w/ Ex. Warr.          $1,312,000                                                                                                                                                                                      $4,174

4/24/09   Mackinac Financial Corporation/mBank           Pref. Stock w/ Warr.          $11,000,000                                                                                                        $4.50            $15        $4.35        379,310      379,310       $0.15       $32,083
          (Manistique, MI)

4/24/09   Oregon Bancorp, Inc. (Salem, OR)2              Pref. Stock w/ Ex. Warr.          $3,216,000                                                                                                                                                                                     $10,225

4/24/09   Peoples Bancorporation, Inc. (Easley, SC)2     Pref. Stock w/ Ex. Warr.      $12,660,000                                                                                                                                                                                        $40,248

4/24/09   Standard Bancshares, Inc. (Hickory Hills, IL)2 Pref. Stock w/ Ex. Warr.      $60,000,000                                                                                                                                                                                       $190,750

4/24/09   Vision Bank - Texas (Richardson, TX)2          Pref. Stock w/ Ex. Warr.          $1,500,000                                                                                                                                                                                      $4,769

4/24/09   York Traditions Bank (York, PA)2               Pref. Stock w/ Ex. Warr.          $4,871,000                                                                                                                                                                                     $15,488

5/1/09    CenterBank(Milford, OH)2                       Pref. Stock w/ Ex. Warr.          $2,250,000

5/1/09    Georgia Primary Bank(Atlanta, GA)2             Pref. Stock w/ Ex. Warr.          $4,500,000

5/1/09    HPK Financial Corporation (Chicago, IL)2       Pref. Stock w/ Ex. Warr.          $4,000,000

5/1/09    OSB Financial Services, Inc. (Orange, TX)8     Sub. Debent. w/ Ex. Warr.         $6,100,000

5/1/09    Security State Bank Holding-Company            Sub. Debent. w/ Ex. Warr.     $10,750,000
          (Jamestown, ND)8
                                                                                                                                                                                                                                                                                                     APPENDIX D I TRANSACTION DETAIL I JULY 21, 2009




5/1/09    Union Bank & Trust Company (Oxford, NC)2       Pref. Stock w/ Ex. Warr.          $3,194,000

5/1/09    Village Bank and Trust Financial Corp          Pref. Stock w/ Warr.          $14,738,000                                                                                                        $4.70            $20        $4.43        499,029      499,029       $0.27
          (Midlothian, VA)

5/8/09    Freeport Bancshares, Inc. (Freeport, IL)8      Sub. Debent. w/ Ex. Warr.         $3,000,000

5/8/09    Gateway Bancshares, Inc. (Ringgold, GA)2       Pref. Stock w/ Ex. Warr.          $6,000,000

5/8/09    Highlands State Bank (Vernon, NJ)2             Pref. Stock w/ Ex. Warr.          $3,091,000

5/8/09    Investors Financial Corporation of Pettis      Sub. Debent. w/ Ex. Warr.         $4,000,000
          County, Inc. (Sedalia, MO)8

5/8/09    One Georgia Bank (Atlanta, GA)2                Pref. Stock w/ Ex. Warr.          $5,500,000

5/8/09    Premier Bancorp, Inc. (Wilmette, IL)3, 8       Sub. Debent.                      $6,784,000

5/8/09    Sword Financial Corporation (Horicon, WI)8     Sub. Debent. w/ Ex. Warr.     $13,644,000

5/15/09   Boscobel Bancorp, In c(Boscobel, WI)8          Sub. Debent. w/ Ex. Warr.         $5,586,000

5/15/09   Brogan Bankshares, Inc. (Kaukauna, WI)8        Sub. Debent. w/ Ex. Warr.         $2,400,000

5/15/09   Community Financial Shares, Inc. (Glen         Pref. Stock w/ Ex. Warr.          $6,970,000
          Ellyn, IL)2

5/15/09   Deerfield Financial Corporation (Deerfield, WI)8 Sub. Debent. w/ Ex. Warr.       $2,639,000

5/15/09   First Community Bancshares, Inc (Overland      Pref. Stock w/ Ex. Warr.      $14,800,000
          Park, KS)2

5/15/09   Foresight Financial Group, Inc. (Rockford, IL)2 Pref. Stock w/ Ex. Warr.     $15,000,000

5/15/09   IBC Bancorp, Inc. (Chicago, IL)3, 8            Sub. Debent.                      $4,205,000

5/15/09   Market Street Bancshares, Inc. (Mt. Vernon, IL)8 Sub. Debent. w/ Ex. Warr.   $20,300,000

5/15/09   Mercantile Bank Corporation (Grand Rapids, MI) Pref. Stock w/ Warr.          $21,000,000                                                                                                        $3.30            $28        $5.11        616,438      616,438      $(1.81)

5/15/09   Northern State Bank (Closter, NJ)2             Pref. Stock w/ Ex. Warr.          $1,341,000

5/15/09   Riverside Bancshares, Inc. (Little Rock, AR)8 Sub. Debent. w/ Ex. Warr.          $1,100,000

5/15/09   Southern Heritage Bancshares, Inc.             Pref. Stock w/ Ex. Warr.          $4,862,000
          (Cleveland, TN)2

5/15/09   Western Reserve Bancorp, Inc (Medina, OH)2 Pref. Stock w/ Ex. Warr.              $4,700,000

5/15/09   Worthington Financial Holdings, Inc.           Pref. Stock w/ Ex. Warr.          $2,720,000
          (Huntsville, AL)2

5/22/09   Blackridge Financial, Inc. (Fargo, ND)2        Pref. Stock w/ Ex. Warr.          $5,000,000

5/22/09   Commonwealth Bancshares, Inc.(Louisville, KY)8 Sub. Debent. w/ Ex. Warr.     $20,400,000

5/22/09   Diamond Bancorp, Inc. (Washington, MO)8        Sub. Debent. w/ Ex. Warr.     $20,445,000

5/22/09   F & C Bancorp, Inc. (Holden, MO)8              Sub. Debent. w/ Ex. Warr.         $2,993,000

5/22/09   First Advantage Bancshares Inc. (Coon          Pref. Stock w/ Ex. Warr.          $1,177,000
          Rapids, MN)2
CPP TRANSACTION DETAIL, AS OF 6/30/2009
          Seller                                                            Purchase Details                       Capital Repayment Details                           Final Disposition                              Warrant and Market Data for Publicly Traded Companies

                                                                                                                                                                                                                                                    Number of       Current Amt. “In the
                                                                                                               Capital           Capital       Remaining       Final       Disposition           Final                     Market                    Warrants    Number of    Money” /        Dividend
                                                            Investment                         Investment   Repayment         Repayment          Capital Disposition       Investment      Disposition       Current Capitalization       Strike     Originally Outstanding “Out of the    Payments to
Date      Name of Institution                               Description                           Amount         Date           Amount6          Amount        Date        Description      Proceeds     Stock Price (in millions)        Pricea        Issued    Warrants    Money” e        Treasury

5/22/09   Fort Lee Federal Savings Bank (Fort Lee, NJ)2 Pref. Stock w/ Ex. Warr.               $1,300,000

5/22/09   Franklin Bancorp, Inc. (Washington, MO)2          Pref. Stock w/ Ex. Warr.           $5,097,000

5/22/09   Illinois State Bancorp, Inc. (Chicago, IL)2       Pref. Stock w/ Ex. Warr.           $6,272,000

5/22/09   Premier Financial Corp (Dubuque, IA)8             Sub. Debent. w/ Ex. Warr.          $6,349,000

5/22/09   The Landrum Company (Columbia, MO)2               Pref. Stock w/ Ex. Warr.       $15,000,000

5/22/09   United Bank Corporation (Barnesville, GA)8        Sub. Debent. w/ Ex. Warr.      $14,400,000

5/22/09   Universal Bancorp (Bloomfield, IN)2               Pref. Stock w/ Ex. Warr.           $9,900,000

5/29/09   American Premier Bancorp (Arcadia ,CA)2           Pref. Stock w/ Ex. Warr.           $1,800,000

5/29/09   CB Holding Corp. (Aledo, IL)2                     Pref. Stock w/ Ex. Warr.           $4,114,000

5/29/09   Chambers Bancshares, Inc. (Danville, AR)8         Sub. Debent. w/ Ex. Warr.      $19,817,000

5/29/09   Citizens Bancshares Co. (Chillicothe, MO)2        Pref. Stock w/ Ex. Warr.       $24,990,000

5/29/09   Community Bank Shares of Indiana, Inc. (New Pref. Stock w/ Warr.                 $19,468,000                                                                                                        $7.51            $24        $7.56        386,270      386,270      $(0.05)
          Albany, IN)
                                                   8
5/29/09   Fidelity Bancorp, Inc (Baton Rouge, LA)           Sub. Debent. w/ Ex. Warr.          $3,942,000

5/29/09   Grand Mountain Bancshares, Inc. (Granby,          Pref. Stock w/ Ex. Warr.           $3,076,000
          CO)2
                                                        2
5/29/09   Two Rivers Financial Group (Burlington, IA)       Pref. Stock w/ Ex. Warr.       $12,000,000

6/5/09    Covenant Financial Corporation (Clarksdale, MS)2 Pref. Stock w/ Ex. Warr.            $5,000,000

6/5/09    First Trust Corporation (New Orleans, LA)8        Sub. Debent. w/ Ex. Warr.      $17,969,000

6/5/09    OneFinancial Corporation (Little Rock, AR)8, 10 Sub. Debent. w/ Ex. Warr.        $17,300,000

6/12/09   Berkshire Bancorp, Inc. (Wyomissing, PA)2         Pref. Stock w/ Ex. Warr.           $2,892,000

6/12/09   Enterprise Financial Services Group, Inc.         Pref. Stock w/ Ex. Warr.           $4,000,000
          (Allison Park, PA)2

6/12/09   First Financial Bancshares, Inc. (Lawrence,       Sub. Debent. w/ Ex. Warr.          $3,756,000
          KS)8, 10

6/12/09   First Vernon Bancshares, Inc. (Vernon, AL)2, 10 Pref. Stock w/ Ex. Warr.             $6,000,000

6/12/09   River Valley Bancorporation, Inc. (Wausau, WI)8 Sub. Debent. w/ Ex. Warr.        $15,000,000

6/12/09   SouthFirst Bancshares, Inc. (Sylacauga, AL)2 Pref. Stock w/ Ex. Warr.                $2,760,000

6/12/09   Virginia Company Bank (Newport News, VA)2, 10 Pref. Stock w/ Ex. Warr.               $4,700,000

6/19/09   Biscayne Bancshares, Inc. (Coconut Grove,         Sub. Debent. w/ Ex. Warr.          $6,400,000
          FL)8,10

6/19/09   Century Financial Services Corporation (Santa Sub. Debent. w/ Ex. Warr.          $10,000,000
          Fe, NM)8

6/19/09   Duke Financial Group, Inc. (Minneapolis, MN)8 Sub. Debent. w/ Ex. Warr.          $12,000,000

6/19/09   Farmers Enterprises, Inc. (Great Bend, KS)8       Sub. Debent. w/ Ex. Warr.      $12,000,000

6/19/09   Manhattan Bancshares, Inc. (Manhattan, IL)8 Sub. Debent. w/ Ex. Warr.                $2,639,000

6/19/09   Merchants and Manufacturers Bank                  Pref. Stock w/ Ex. Warr.           $3,510,000
          Corporation (Joliet, IL)2

6/19/09   NEMO Bancshares Inc. (Madison, MO)8               Sub. Debent. w/ Ex. Warr.          $2,330,000

6/19/09   RCB Financial Corporation (Rome, GA)2, 10         Pref. Stock w/ Ex. Warr.           $8,900,000

6/19/09   Suburban Illinois Bancorp, Inc. (Elmhurst, IL)8 Sub. Debent. w/ Ex. Warr.        $15,000,000

6/19/09   University Financial Corp, Inc. (St. Paul, MN)3, 8 Sub. Debent.                  $11,926,000

6/26/09   Alliance Bancshares, Inc. (Dalton, GA)            Pref. Stock w/ Ex. Warr.           $2,986,000

6/26/09   Alliance Financial Services Inc. (Saint Paul,     Sub. Debent. w/ Ex. Warr.      $12,000,000
                                                                                                                                                                                                                                                                                                         TRANSACTION DETAIL I APPENDIX D I JULY 21, 2009




          MN)8

6/26/09   FC Holdings, Inc. (Houston, TX)2                  Pref. Stock w/ Ex. Warr.       $21,042,000

6/26/09   Fidelity Resources Company (Plano, TX)2           Pref. Stock w/ Ex. Warr.           $3,000,000

6/26/09   First Alliance Bancshares, Inc. (Cordova, TN)2 Pref. Stock w/ Ex. Warr.              $3,422,000

6/26/09   Fremont Bancorporation (Fremont, CA)8             Sub. Debent. w/ Ex. Warr.      $35,000,000
                                                                                                                                                                                                                                                                                                         217
                                                                                                                                                                                                                                                                                                                                   218
CPP TRANSACTION DETAIL, AS OF 6/30/2009
            Seller                                                          Purchase Details                           Capital Repayment Details                                Final Disposition                                Warrant and Market Data for Publicly Traded Companies

                                                                                                                                                                                                                                                                     Number of       Current Amt. “In the
                                                                                                                 Capital               Capital       Remaining       Final           Disposition          Final                      Market                           Warrants    Number of    Money” /               Dividend
                                                            Investment                         Investment     Repayment             Repayment          Capital Disposition           Investment     Disposition        Current Capitalization           Strike        Originally Outstanding “Out of the           Payments to
Date        Name of Institution                             Description                           Amount           Date               Amount6          Amount        Date            Description     Proceeds      Stock Price (in millions)            Pricea           Issued    Warrants    Money” e               Treasury

6/26/09     Gold Canyon Bank (Gold Canyon, AZ)2,10          Pref. Stock w/ Ex. Warr.           $1,607,000

6/26/09     Gulfstream Bancshares, Inc. (Stuart, FL)2       Pref. Stock w/ Ex. Warr.           $7,500,000

6/26/09     Hartford Financial Services Group, Inc.         Pref. Stock w/ Warr.         $3,400,000,000                                                                                                                 $11.87          $3,863           $9.79      52,093,973      52,093,973           $2.08
            (Hartford, CT)

6/26/09     M&F Bancorp, Inc. (Durham, NC)2,3,10            Pref. Stock                     $11,735,000

6/26/09     Metropolitan Bank Group, Inc. (Chicago, IL)2 Pref. Stock w/ Ex. Warr.           $71,526,000

6/26/09     NC Bancorp, Inc. (Chicago, IL)2                 Pref. Stock w/ Ex. Warr.           $6,880,000

6/26/09     Security Capital Corporation (Batesville, MS)2,10 Pref. Stock w/ Ex. Warr.      $17,388,000

6/26/09     Signature Bancshares, Inc. (Dallas, TX)8        Sub. Debent. w/ Ex. Warr.          $1,700,000

6/26/09     Stearns Financial Services, Inc.(St. Cloud,     Sub. Debent. w/ Ex. Warr.       $24,900,000
            MN)8

6/26/09     Waukesha Bankshares, Inc. (Waukesha, WI)2,10 Pref. Stock w/ Ex. Warr.              $5,625,000

                                                            Total Purchase Amount $203,193,201,000                          Total Capital Repayment Amount: $70,124,589,000

                                Total Treasury CPP Investment Amount: $133,068,612,000
                                                                                                                                                                                                                                                                                                                                   APPENDIX D I TRANSACTION DETAIL I JULY 21, 2009




Notes: Numbers affected by rounding. Data as of 6/30/2009. Numbered notes taken from Treasury’s 7/2/2009 Transactions Report containing data as of 6/30/2009.
1
   This transaction was included in previous Transaction Reports with Merrill Lynch & Co., Inc. listed as the qualifying institution and a 10/28/2008 transaction date, footnoted to indicate that settlement was deferred pending merger. The purchase of Merrill Lynch by Bank of America was completed on 1/1/2009, and
   this transaction under the CPP was funded on 1/9/2009.
2
   Privately-held qualified financial institution; Treasury received a warrant to purchase additional shares of preferred stock (unless the institution is a CDFI), which it exercised immediately.
3
   To promote community development financial institutions (CDFIs), Treasury does not require warrants as part of its investment in certified CDFIs when the size of the investment is $50 million or less.
4
   Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009.
5
   Redemption pursuant to a qualified equity offering.
6
   This amount does not include accrued and unpaid dividends, which must be paid at the time of capital repayment.
7
   The proceeds associated with the disposition of this investment do not include accrued and unpaid dividends.
8
   Subchapter S corporation; Treasury received a warrant to purchase additional subordinated debentures (unless the institution is a CDFI), which it exercised immediately.
9
   In its qualified equity offering, this institution raised more capital than Treasury’s original investment, therefore, the number of Treasury’s shares underlying the warrant was reduced by half.
10
   This institution participated in the expansion of CPP for small banks.
11
   Treasury has three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $50 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange up to $12.5 billion of Treasury’s investment in Fixed Rate Cumulative Perpetual Preferred Stock, Series H (CPP
   Shares) “dollar for dollar” in Citigroup’s Private Exchange Offering. The closing of the Exchange is contingent on specified closing conditions, including regulatory approvals or waivers and the concurrent consummation of the other private shareholders’ exchange. Treasury will initially exchange the CPP shares for
   Series M Common Stock Equivalent (“Interim Stock”) and a warrant to purchase shares of common stock. Series M automatically converts to common stock and the associated warrant terminates upon receipt of certain shareholder approvals.
12
   As stated in Footnote 11, on 6/9/2009, Treasury entered into an agreement with Citigroup to exchange Treasury’s total investment. In addition to the conditions in Footnote 11, Treasury’s investment in Fixed Rate Cumulative Perpetual Preferred Stock, Series H (CPP Shares) will be exchanged “dollar for dollar” up
   to $25 billion as a result of Citigroup’s Private and Public Exchange Offerings. The closing of the Public Exchange is contingent on specified closing conditions, including regulatory approvals or waivers and the concurrent consummation of the other public shareholders’ exchange. Treasury will initially exchange the
   CPP shares for Series M Common Stock Equivalent (“Interim Stock”) and a warrant to purchase shares of common stock. Series M automatically converts to common stock and the associated warrant terminates upon receipt of certain shareholder approvals. If any CPP Shares remain following the Private and Public
   Exchanges, Treasury will exchange those remaining CPP shares “dollar for dollar” for Trust Preferred Securities.
a
   According to Treasury, “If a Share Dividend is declared on a common stock of a bank in which Treasury holds outstanding warrants, Treasury is entitled to additional warrants. The ‘Update’ netted is the amount of new warrant shares that have been received as a result of the corporate action.” Strike price and current
   number of outstanding warrants reflect these updates.
b
   Also according to Treasury, First Niagara Corporation, Iberiabank Corporation, and State Street Corporation executed Qualified Equity Offerings which “reduce the number of outstanding warrants held by Treasury.”
c
   Treasury made two investments in SunTrust. Since the dividends could not be allocated between the transactions, they are presented with the first investment for purposes of this schedule.
d
   According to Treasury, “Provident was purchase by M&T Bank (a public institution). Treasury is currently in the process of swapping the warrants issued by Provident for warrants issued by M&T Bank.”
e
   When a warrant’s current market price rises above the strike price, it is considered “In the Money,” otherwise it is considered “Out of the Money.” For this table, the stock price and market capitalization are as of 6/30/2009. Negative number indicates “Out of the Money.”

Sources:
Treasury, Transactions Report, response to SIGTARP data call, 6/30/2009.
Treasury, Transactions Report, 7/2/2009, www.treas.gov, accessed 7/6/2009.
Market Data: Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com, accessed 7/6/2009.
Yahoo Finance, http://finance.yahoo.com, accessed 7/7/2009.
Warrants data: Treasury, CPP Pipeline Report, response to SIGTARP data call, 6/30/2009.
Treasury, response to SIGTARP data call, 7/8/2009, Treasury, response to SIGTARP draft, 7/14/2009.
SSFI TRANSACTION DETAIL, AS OF 6/30/2009
                                                   Transaction Details                                       Exchange Details                                                             Warrants and Market Data
                                                                                                                                                                                                                                              Amount “In
                                                                                                                                                                                   Market                                                    the Money”
                                                                                                                                                                      Capitalization as of Strike Price as                    Number of    or “Out of the
                                         Investment                   Investment                   Transaction       Investment             Investment Stock Price as         6/30/2009      Stated in the                     Warrants    Money” as of   Payment
Date           Seller                    Description                     Amount Date               Type              Description               Amount of 6/30/2009            (in millions)   Agreements                       Received     6/30/2009b to Treasury
11/25/2008     AIGa (New York, NY)       Preferred Stock w/      $40,000,000,000 4/17/2009         Exchange          Preferred Stock   $40,000,000,000        $23.20               $3,123          $50.00                     2,689,938         ($26.80)       -0-
                                         Warrants                                                                    w/ Warrants1
4/17/2009      AIGa (New York, NY)2,3    Preferred Stock w/      $29,835,000,000                                                                                    $23.20                 $3,123             $0.000020             150            $23.20      -0-
                                         Warrants
                                                      Total:   $69,835,000,000

Notes: Numbers affected by rounding. Data as of 6/30/2009. Numbered notes taken from Treasury’s 7/2/2009 Transactions Report containing data as of 6/30/2009.
1
  On 4/17/2009, Treasury exchanged its Series D Fixed Rate Cumulative Preferred Shares for Series E Fixed Rate Non-Cumulative Preferred Shares with no change to Treasury’s initial investment amount. In addition, in order for AIG to fully redeem the Series E
Preferred Shares, it has an additional obligation to Treasury of $1,604,576,000 to reflect the cumulative unpaid dividends for the Series D Preferred Shares due to Treasury through and including the exchange date.
2
  The investment price reflects Treasury’s commitment to invest up to $30 billion less a reduction of $165 million representing retention payments AIG Financial Products made to its employees in March 2009.
3
  This transaction does not include AIG’s commitment fee of an additional $165 million scheduled to be paid from its operating income in three equal installments over the five-year life of the facility.
a
 AIG executed a 1 for 20 reverse stock split on 6/30/2009, therefore the market data and warrant data reflects this adustment.
b
  When a warrant’s current market price rises above the strike price, it is considered “In the Money,” otherwise it is considered “Out of the Money.”
Sources: Treasury, response to SIGTARP data call, 6/30/2009; Treasury, response to SIGTARP draft, 7/9/2009; Market Data: Treasury, response to SIGTARP draft, 7/14/2009; Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com, accessed
7/6/2009.




TIP TRANSACTION DETAIL, AS OF 6/30/2009
                                                                  Purchase Details                                                              Warrants and Market Data
                                                                                                                                 Market        Strike Price                          Amount “In the
                                                                                                              Stock Capitalization as of         as Stated     Number of            Money” or “Out
                                                   Transaction    Investment          Investment         Price as of        6/30/2009                in the      Warrants          of the Money” as       In or Out of           Dividend Payment
                                                                                                                                                                                                                          a
Date       Seller                                  Type           Description            Amount         6/30/2009           (in millions)      Agreements        Received           of 6/30/2009 a        the Money?                    to Treasury
12/31/2008 Citigroup Inc. (New York, NY)1          Purchase       Preferred                                   $2.97             $16,315             $10.61    188,501,414                    ($7.64)      Out                         $600,000,000
                                                                  Stock w/       $20,000,000,000
                                                                  Warrants
1/16/2009      Bank of America Corporation         Purchase       Preferred                                   $13.20              $104,544           $13.30       150,375,940                 ($0.10)     Out                         $528,888,889
               (Charlotte, NC)                                    Stock w/       $20,000,000,000
                                                                  Warrants
                                                                          Total: $40,000,000,000

Notes: Numbers affected by rounding. Data as of 6/30/2009. Numbered notes taken from Treasury’s 7/2/2009 Transactions Report containing data as of 6/30/2009.
1
  Treasury has three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $50 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange all of Treasury’s investments. Following
the Private Exchange and the Public Exchange (see footnotes 11 and 12 in the CPP section), Treasury will exchange Fixed Rate Cumulative Perpetual Preferred Stock, Series I (TIP) “dollar for dollar” for Trust Preferred Securities.
a
  When a warrant’s current market price rises above the strike price, it is considered “In the Money,” otherwise it is considered “Out of the Money.”
Sources: Treasury, response to SIGTARP data call, 6/30/2009; Treasury, Transactions Report, 7/2/2009; Market Data: Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com, accessed 7/6/2009.



AGP TRANSACTION DETAIL, AS OF 6/30/2009
                                                                 Transaction Details                                                          Warrants and Market Data
                                                                                                                               Market        Strike Price                         Amount “In the
                                                                                                            Stock Capitalization as of         as Stated    Number of            Money” or “Out
                                                                                                       Price as of        6/30/2009                in the     Warrants          of the Money” as        In or Out of          Dividend Payment
Date           Seller                             Investment Description     Guarantee Limit          6/30/2009           (in millions)      Agreements      Received             of 6/30/2009a         the Money?a                  to Treasury
                                                  Second-Loss Guarantee on
1/16/2009      Citigroup Inc. (New York, NY)1     Asset Pool                  $5,000,000,000                 $2.97                $16,315          $10.61       66,531,728                 ($7.64)      Out                       $107,573,333
                                                                      Total: $5,000,000,000

Notes: Numbers affected by rounding. Data as of 6/30/2009. Numbered notes taken from Treasury’s 7/2/2009 Transactions Report containing data as of 6/30/2009.
1
  Treasury has three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $50 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange all of Treasury’s investments. Fol-
lowing the Private Exchange and the Public Exchange (see Footnotes 11 and 12 in the CPP section), Treasury will exchange Fixed Rate Cumulative Perpetual Preferred Stock Series G (AGP), received as premium with the AGP agreement,
“dollar for dollar” for Trust Preferred Securities.
a
  When a warrant’s current market price rises above the strike price, it is considered “In the Money,” otherwise it is considered “Out of the Money.”
b
  AGP transaction is a guarantee, not a purchase. Treasury received a premium including preferred stock and warrants as part of this transaction.
Sources: Treasury, response to SIGTARP data call, 6/30/2009; Treasury, Transactions Report, 7/2/2009; Market Data: Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com, accessed 7/6/2009.




TALF TRANSACTION DETAIL, AS OF 6/30/2009
Date         Seller                         Investment Description                     Investment Amount
3/3/2009     TALF LLC (New York, NY)1       Debt Obligation w/ Additional Note            $20,000,000,000
                                                                          Total          $20,000,000,000
                                                                                                                                                                                                                                                                     TRANSACTION DETAIL I APPENDIX D I JULY 21, 2009




Note: Numbers affected by rounding. Data as of 6/30/2009. Numbered notes taken from Treasury’s
7/2/2009 Transactions Report containing data as of 6/30/2009.
1
  The loan was funded through TALF LLC, a special purpose vehicle created by The Federal Reserve Bank
of New York. The amount of $20,000,000,000 represents the maximum loan amount. The loan will be
incrementally funded.
Source: Treasury, response to SIGTARP data call, 6/30/2009; Treasury, Transactions Report, 7/2/2009.
                                                                                                                                                                                                                                                                     219
AIFP TRANSACTION DETAIL, AS OF 6/30/2009                                                                                                                                                                                                                                                                                                          220
                                                                        Purchase Details                                               Exchange Details                                              Warrant and Market Data for Publicly Traded Companies                                              Payments to Treasury
                                                                                                                                                                                                            Market                                  Amount “In
                                                                                                                                                                                                       Capitaliza- Strike Price                    the Money”
                                                                                                                                                                                          Stock          tion as of   as Stated   Number of      or “Out of the
                                                    Transaction Investment                       Investment                      Transaction Investment             Investment       Price as of      6/30/2009           in the    Warrants      Money” as of In or Out of                     Dividend          Interest           Principal
Date            Seller                              Type        Description                         Amount Date                  Type        Description               Amount       6/30/2009         (in millions) Agreements      Received      6/30/2009c the Money?c                       Paymenta          Paymenta           Paymenta
12/29/2008      GMAC LLC (Detroit, MI)              Purchase    Preferred Stock w/           $5,000,000,000                                                                                                                                                                                 $159,611,111
                                                                Exercised Warrants
12/29/2008      General Motors Corporation          Purchase    Debt Obligation                 $884,024,131 5/29/2009           Exchange      Equity Interest   $884,024,131                                 $666                                                                                             see note a
                (Detroit, MI)1                                                                                                                 in GMAC12
12/31/2008      General Motors Corporation          Purchase       Debt Obligation w/       $13,400,000,000                                                                                $1.09              $666           $3.47    122,035,597                ($2.38) Out                                 $143,526,108
                (Detroit, MI)                                      Warrants and Ad-
                                                                   ditional Note
1/2/2009        Chrysler Holding LLC                Purchase       Debt Obligation w/        $4,000,000,000                                                                                                                                                                                                   $52,152,222
                (Auburn Hills, MI)14                               Additional Note
1/16/2009       Chrysler Financial Services         Purchase       Debt Obligation w/        $1,500,000,000                                                                                                                                                                                                     $6,036,837     $130,802,971
                Americas LLC                                       Additional Note
                (Farmington Hills, MI)2
4/22/2009       General Motors Corporation          Purchase       Debt Obligation w/        $2,000,000,000                                                                                                   $666
                (Detroit, MI)3                                     Additional Note
4/29/2009       Chrysler Holding LLC                Purchase       Debt Obligation w/         $500,000,000
                (Auburn Hills, MI)4,5                              Additional Note
4/29/2009       Chrysler Holding LLC                Purchase       Debt Obligation w/         $280,130,642
                (Auburn Hills, MI)4,6                              Additional Note
5/1/2009        Chrysler LLC (Wilmington, DE)7      Purchase       Debt Obligation w/       $3,043,143,000
                                                                   Additional Note
5/20/2009       Chrysler LLC (Wilmington, DE)8      Purchase       Debt Obligation w/         $756,857,000
                                                                   Additional Note
                                                                                                                                                                                                                                                                                                                                                  APPENDIX D I TRANSACTION DETAIL I JULY 21, 2009




5/20/2009       General Motors Corporation          Purchase       Debt Obligation w/       $4,000,000,000                                                                                                    $666
                (Detroit, MI)9                                     Additional Note                                                                                                                                                                                                                             see note a
5/21/2009       GMAC LLC (Detroit, MI)              Purchase       Preferred Stock w/       $7,500,000,000
                                                                   Exercised Warrants
5/27/2009       New CarCo Acquisition LLC           Purchase       Debt Obligation w/       $6,642,000,000
                (Wilmington, DE)10                                 Additional Note, Equity
                                                                   Interest
5/27/2009       General Motors Corporation          Purchase       Debt Obligation w/         $360,624,198                                                                                                    $666
                (Detroit, MI)11                                    Additional Note
6/3/2009        General Motors Corporation          Purchase       Debt Obligation w/      $30,100,000,000                                                                                                    $666
                (Detroit, MI)13                                    Additional Note
                                                                              Total: $79,966,778,971

Notes: Numbers affected by rounding. Data as of 6/30/2009. Numbered notes taken from Treasury’s 7/2/2009 Transactions Report containing data as of 6/30/2009.
1
  Treasury committed to lend General Motors Corporation up to $1,000,000,000. The ultimate level of funding was dependent upon the level of investor participation in GMAC LLC’s rights offering. The amount has been updated to reflect the final level of funding.
2
  The loan was funded through Chrysler LB Receivables Trust, a special purpose vehicle created by Chrysler Financial. The amount of $1,500,000,000 represents the maximum loan amount. The loan will be incrementally funded.
3
  This transaction is an amendment to Treasury’s 12/31/2008 agreement with General Motors Corporation, which brought the total loan amount to $15,400,000,000.
4
  This transaction is an amendment to Treasury’s 1/2/2009 agreement with Chrysler Holding LLC, increasing the total loan amount to $4,780,130,642.
5
  The loan may be incrementally funded.
6
  The loan will be used to capitalize Chrysler Warranty SPV LLC, a special purpose vehicle created by Chrysler LLC.
7
  The terms of this transaction, first reported based on a binding term sheet fully executed on 5/1/2009 but made effective as of 4/30/2009, are now finalized and reflected in a credit agreement fully executed on 5/5/2009. Under the terms of the credit agreement, all commitment amounts were adjusted as follows:
Treasury’s commitment amount is $3.04 billion of the total $4.1 billion debtor-in-possession (DIP) credit facility. The amount of $1.4 billion, of which Treasury’s share is $1.04 billion, is available in weekly disbursements under the terms of the Bankruptcy Court’s interim order approving the DIP credit facility; the balance will be
available in weekly disbursements after certain Bankruptcy Court milestones are met.
8
  This transaction is an amendment to Treasury’s DIP credit agreement with Chrysler LLC dated 5/5/2009 and increases Treasury’s commitment to $3,800,000,000. The amendment was fully executed on 5/20/2009, but was made effective as of 5/15/2009.
9
  This transaction is an amendment to Treasury’s 12/31/2008 agreement with General Motors Corporation, which brought the total loan amount to $19,400,000,000, including the 4/22/2009 amendment.
10
   The terms of this transaction, first reported based on a term sheet fully executed on 5/27/2009 for an amount up to $6.943 billion, are now finalized and reflected in a credit agreement fully executed on 6/10/2009. Under the terms of the credit agreement, Treasury made a new commitment to New CarCo Acquisition
LLC (renamed Chrysler Group LLC on or about 6/10/2009) of up to $6.642 billion. The total loan amount is up to $7.142 billion including $500 million of debt assumed from Treasury’s 1/2/2009 credit agreement with Chrysler Holding LLC. The debt obligations will be secured by a first priority lien on the assets of New CarCo
Acquisition LLC (the company that purchased Chrysler LLC’s assets in a sale pursuant to section 363 of the Bankruptcy Code).
11
   This transaction is an amendment to Treasury’s 12/31/2008 agreement with General Motors Corporation, which brings the total loan amount to $19,760,624,198, including the 4/22/2009 and 5/20/2009 amendments. The $360 million loan will be used to capitalize GM Warranty LLC, a special purpose vehicle created by
General Motors Corporation.
12
   Pursuant to its rights under the loan agreement with General Motors Corporation (GM) reported on 12/29/2009, Treasury exchanged its $884 million loan to GM for a portion of GM’s common equity interest in GMAC LLC. As a result of the exchange, Treasury holds a 35.4% common equity interest in GMAC LLC.
13
   Under the terms of the $33.3 billion debtor-in-possession (DIP) credit agreement, Treasury’s commitment amount is $30.1 billion. Up to $15 billion is available pursuant to the interim order the Bankruptcy Court entered approving the DIP credit facility, of which Treasury’s share is $12.8 billion; the balance will be available
shortly after the Bankruptcy Court’s final and non-appealable order approving the DIP credit facility.
14
   Pursuant to the agreement originally reported on 5/27/2009 and fully executed on 6/10/2009 (explained in Footnote 10), $500 million of this deal’s debt will be assumed under that fully executed agreement.
a
  The information provided by Treasury on principal, income, and dividends was not broken out by transaction. For purposes of this table, it is presented in aggregate under one transaction for each AIFP participant.
b
  This table include AWCP transactions. See notes 6 and 11.
c
  When a warrant’s current market price rises above the strike price, it is considered “In the Money,” otherwise it is considered “Out of the Money.”
Sources: Treasury, response to SIGTARP data call, 6/30/2009; Treasury, Transactions Report, 7/2/2009; Market Data: Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com, accessed 7/6/2009.


ASSP TRANSACTION DETAIL, AS OF 6/30/2009
                                                                                                      Purchase Details
Date          Seller                                              Transaction Type       Investment Description                         Investment Amount         Interest Payment to Treasury
4/9/2009      GM Supplier Receivables LLC (Wilmington, DE)1       Purchase               Debt Obligation w/ Additional Note                 $3,500,000,000                           $114,521
4/9/2009      Chrysler Receivables SPV LLC (Wilmington, DE)2      Purchase               Debt Obligation w/ Additional Note                 $1,500,000,000                           $594,349

                                                                                                                        Total:              $5,000,000,000

Note: Numbers affected by rounding. Data as of 6/30/2009. Numbered notes taken from Treasury’s 7/2/2009 Transactions Report containing data as of 6/30/2009.
1
 The loan was funded through GM Supplier Receivables, LLC, a special purpose vehicle created by General Motors Corporation. The amount of $3,500,000,000 represents the maximum
loan amount. The loan will be incrementally funded. The agreement was fully executed on 4/9/2009, but was made effective as of 4/3/2009.
2
 The loan was funded through Chrysler Receivables SPV LLC, a special purpose vehicle created by Chrysler LLC. The amount of $1,500,000,000 represents the maximum loan amount. The
loan will be incrementally funded. The agreement was fully executed on 4/9/2009, but was made effective as of 4/7/2009.
Source: Treasury, response to SIGTARP data call, 6/30/2009.
HAMP TRANSACTION DETAIL, AS OF 6/30/2009
                                                                                        Cap of Incentive
                            Servicer Modifying Borrowers’ Loans                     Payments on Behalf                                          Adjustment Details                                                       Market
                                                                                    of Borrowers and to                                                                                                     Capitalization as of
Transaction                                                                        Servicers & Lenders/                               Cap Adjustment                                                                6/30/2009
Date             Name of Institution                 Investment Description             Investors (Cap)1       Adjustment Date               Amount           Adjusted Cap Reason for Adjustment                    (in millions)
4/13/2009        Select Portfolio Servicing          Financial Instrument for             $376,000,000               6/12/2009          $284,590,000         $660,590,000 Updated portfolio data
                 (Salt Lake City, UT)                Home Loan Modifications                                                                                               from servicer
4/13/2009        CitiMortgage, Inc. (O’Fallon, MO)   Financial Instrument for            $2,071,000,000              6/12/2009         $(991,580,000)       $1,079,420,000 Updated portfolio data
                                                     Home Loan Modifications                                                                                               from servicer
4/13/2009        Wells Fargo Bank, NA (Des           Financial Instrument for            $2,873,000,000              6/17/2009         $(462,990,000)       $2,410,010,000 Updated portfolio data                      $114,141
                 Moines, IA)                         Home Loan Modifications                                                                                               from servicer
4/13/2009        GMAC Mortgage, Inc. (Ft. Wash-      Financial Instrument for              $633,000,000              6/12/2009          $384,650,000        $1,017,650,000 Updated portfolio data
                 ington, PA)                         Home Loan Modifications                                                                                               from servicer
4/13/2009        Saxon Mortgage Services, Inc.       Financial Instrument for              $407,000,000              6/17/2009          $225,040,000          $632,040,000 Updated portfolio data
                 (Irving, TX)                        Home Loan Modifications                                                                                               from servicer
4/13/2009        Chase Home Finance, LLC             Financial Instrument for            $3,552,000,000
                 (Iselin, NJ)                        Home Loan Modifications
4/16/2009        Ocwen Financial Corporation, Inc.   Financial Instrument for              $659,000,000              6/12/2009         $(105,620,000)        $553,380,000 Updated portfolio data                             $875
                 (West Palm Beach, FL)               Home Loan Modifications                                                                                               from servicer
4/17/2009        Bank of America, N.A. (Simi         Financial Instrument for              $798,900,000              6/12/2009             $5,540,000        $804,440,000 Updated portfolio data                       $104,544
                 Valley, CA)                         Home Loan Modifications                                                                                               from servicer
4/17/2009        Countrywide Home Loans              Financial Instrument for            $1,864,000,000              6/12/2009        $3,318,840,000        $5,182,840,000 Updated portfolio data
                 Servicing LP (Simi Valley, CA)      Home Loan Modifications                                                                                               from servicer
4/20/2009        Home Loan Services, Inc.            Financial Instrument for              $319,000,000              6/12/2009          $128,300,000          $447,300,000 Updated portfolio data
                 (Pittsburgh, PA)                    Home Loan Modifications                                                                                               from servicer
4/20/2009        Wilshire Credit Corporation         Financial Instrument for              $366,000,000              6/12/2009            $87,130,000         $453,130,000 Updated portfolio data
                 (Beaverton, OR)                     Home Loan Modifications                                                                                               from servicer
4/24/2009        Green Tree Servicing LLC            Financial Instrument for              $156,000,000              6/17/2009           $(64,990,000)         $91,010,000 Updated portfolio data
                 (Saint Paul, MN)                    Home Loan Modifications                                                                                               from servicer
4/27/2009        Carrington Mortgage Services,       Financial Instrument for              $195,000,000              6/17/2009           $(63,980,000)        $131,020,000 Updated portfolio data
                 LLC (Santa Ana, CA)                 Home Loan Modifications                                                                                               from servicer
5/1/2009         Aurora Loan Services, LLC           Financial Instrument for              $798,000,000              6/17/2009         $(338,450,000)         $459,550,000 Updated portfolio data
                 (Littleton, CO)                     Home Loan Modifications                                                                                               from servicer
5/28/2009        Nationstar Mortgage LLC             Financial Instrument for              $101,000,000              6/12/2009            $16,140,000         $117,140,000 Updated portfolio data
                 (Lewisville, TX)                    Home Loan Modifications                                                                                               from servicer
6/12/2009        Residential Credit Solutions        Financial Instrument for                $19,400,000
                 (Fort Worth, TX)                    Home Loan Modifications
6/17/2009        CCO Mortgage (Glen Allen, VA)       Financial Instrument for                $16,520,000
                                                     Home Loan Modifications
6/17/2009        RG Mortgage Corporation             Financial Instrument for                $57,000,000
                 (San Juan, PR)                      Home Loan Modifications
6/19/2009        First Federal Savings and Loan      Financial Instrument for                   $770,000
                 (Port Angeles, WA)                  Home Loan Modifications
6/19/2009        Wescom Central Credit Union         Financial Instrument for                   $540,000
                 (Anaheim, CA)                       Home Loan Modifications
6/26/2009        Citizens First Wholesale Mortgage   Financial Instrument for                     $30,000
                 Company (The Villages, FL)          Home Loan Modifications
6/26/2009        Technology Credit Union (San        Financial Instrument for                     $70,000
                 Jose, CA)                           Home Loan Modifications
6/26/2009        National City Bank                  Financial Instrument for              $294,980,000
                 (Miamisburg, OH)                    Home Loan Modifications
                                                              Total Initial Cap:       $15,558,210,000                        Total Cap Adjustments:       $2,422,620,000
                                                               TOTAL CAP:          $17,980,830,000

Notes: Numbers affected by rounding. Data as of 6/30/2009. Numbered note taken from Treasury’s 7/2/2009 Transactions Report containing data as of 6/30/2009.
1
 The Cap of Incentive Payments represents the potential total amount allocated to each servicer and includes the maximum amount allotted for all payments on behalf of borrowers and payments to servicers and lenders/
investors. The Cap is subject to adjustment based on the total amount allocated to the program and individual servicer usage for borrower modifications. Each adjustment to the Cap is reflected under Adjustment Details.

Sources: Treasury, Transactions Report, response to SIGTARP data call, 6/30/2009; Market Data: Treasury, response to SIGTARP draft, 7/14/2009; Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com,
accessed 7/15/2009.
                                                                                                                                                                                                                                    TRANSACTION DETAIL I APPENDIX D I JULY 21, 2009
                                                                                                                                                                                                                                    221
222              APPENDIX G I CORRESPONDENCE REGARDING SIGTARP RECOMMENDATIONS I JULY 21, 2009




      CORRESPONDENCE REGARDING SIGTARP RECOMMENDATIONS
      This appendix provides copies of the following correspondence:

      CORRESPONDENCE
      Date               From                To            Regarding
      5/5/2009           Federal Reserve     SIGTARP       TALF Fraud Mitigation Factors
      5/22/2009          Federal Reserve     SIGTARP       TALF Fraud Mitigation Factors
      6/10/2009          SIGTARP             Treasury      PPIP Recommendations
      6/19/2009          SIGTARP             Treasury      PPIP Recommendations
                                                           Response to SIGTARP’s 6/10/2009 and
      7/2/2009           Treasury            SIGTARP
                                                           6/19/2009 PPIP Recommendations
                                                           Response to recommendations contained in
      7/2/2009           Treasury            SIGTARP
                                                           SIGTARP’s April Quarterly Report
                                                           Additional response to SIGTARP
      7/15/2009          Treasury            SIGTARP
                                                           recommendations
CORRESPONDENCE REGARDING SIGTARP RECOMMENDATIONS I APPENDIX G I JULY 21, 2009   223
224   APPENDIX G I CORRESPONDENCE REGARDING SIGTARP RECOMMENDATIONS I JULY 21, 2009
CORRESPONDENCE REGARDING SIGTARP RECOMMENDATIONS I APPENDIX G I JULY 21, 2009   225
226   APPENDIX G I CORRESPONDENCE REGARDING SIGTARP RECOMMENDATIONS I JULY 21, 2009
CORRESPONDENCE REGARDING SIGTARP RECOMMENDATIONS I APPENDIX G I JULY 21, 2009   227
228   APPENDIX G I CORRESPONDENCE REGARDING SIGTARP RECOMMENDATIONS I JULY 21, 2009
CORRESPONDENCE REGARDING SIGTARP RECOMMENDATIONS I APPENDIX G I JULY 21, 2009   229
230   APPENDIX G I CORRESPONDENCE REGARDING SIGTARP RECOMMENDATIONS I JULY 21, 2009
CORRESPONDENCE REGARDING SIGTARP RECOMMENDATIONS I APPENDIX G I JULY 21, 2009   231
232   APPENDIX G I CORRESPONDENCE REGARDING SIGTARP RECOMMENDATIONS I JULY 21, 2009
CORRESPONDENCE REGARDING SIGTARP RECOMMENDATIONS I APPENDIX G I JULY 21, 2009   233
234   APPENDIX G I CORRESPONDENCE REGARDING SIGTARP RECOMMENDATIONS I JULY 21, 2009
CORRESPONDENCE REGARDING SIGTARP RECOMMENDATIONS I APPENDIX G I JULY 21, 2009   235
236   APPENDIX G I CORRESPONDENCE REGARDING SIGTARP RECOMMENDATIONS I JULY 21, 2009
CORRESPONDENCE REGARDING SIGTARP RECOMMENDATIONS I APPENDIX G I JULY 21, 2009   237
238   APPENDIX G I CORRESPONDENCE REGARDING SIGTARP RECOMMENDATIONS I JULY 21, 2009
CORRESPONDENCE REGARDING SIGTARP RECOMMENDATIONS I APPENDIX G I JULY 21, 2009   239
240   APPENDIX G I CORRESPONDENCE REGARDING SIGTARP RECOMMENDATIONS I JULY 21, 2009
CORRESPONDENCE REGARDING SIGTARP RECOMMENDATIONS I APPENDIX G I JULY 21, 2009   241
242   APPENDIX G I CORRESPONDENCE REGARDING SIGTARP RECOMMENDATIONS I JULY 21, 2009
CORRESPONDENCE REGARDING SIGTARP RECOMMENDATIONS I APPENDIX G I JULY 21, 2009   243
244   APPENDIX G I CORRESPONDENCE REGARDING SIGTARP RECOMMENDATIONS I JULY 21, 2009
CORRESPONDENCE REGARDING SIGTARP RECOMMENDATIONS I APPENDIX G I JULY 21, 2009   245
246   APPENDIX G I CORRESPONDENCE REGARDING SIGTARP RECOMMENDATIONS I JULY 21, 2009
CORRESPONDENCE REGARDING SIGTARP RECOMMENDATIONS I APPENDIX G I JULY 21, 2009   247
248   APPENDIX G I CORRESPONDENCE REGARDING SIGTARP RECOMMENDATIONS I JULY 21, 2009
CORRESPONDENCE REGARDING SIGTARP RECOMMENDATIONS I APPENDIX G I JULY 21, 2009   249
250   APPENDIX G I CORRESPONDENCE REGARDING SIGTARP RECOMMENDATIONS I JULY 21, 2009
CORRESPONDENCE REGARDING SIGTARP RECOMMENDATIONS I APPENDIX G I JULY 21, 2009   251
252   APPENDIX G I CORRESPONDENCE REGARDING SIGTARP RECOMMENDATIONS I JULY 21, 2009
CORRESPONDENCE REGARDING SIGTARP RECOMMENDATIONS I APPENDIX G I JULY 21, 2009   253
254   APPENDIX G I CORRESPONDENCE REGARDING SIGTARP RECOMMENDATIONS I JULY 21, 2009
CORRESPONDENCE REGARDING SIGTARP RECOMMENDATIONS I APPENDIX G I JULY 21, 2009   255
256   APPENDIX G I CORRESPONDENCE REGARDING SIGTARP RECOMMENDATIONS I JULY 21, 2009
                                                                                                                          ORGANIZATIONAL CHART I APPENDIX H I JULY 21, 2009              257




ORGANIZATIONAL CHART

                                                                          Special Inspector General
                                                                                Neil Barofsky


                                                                                     Deputy Special
                                                                                   Inspector General
                                                                                   Kevin Puvalowski

                                            Acting Chief of Staff                                                            Chief Counsel
                                              Kevin Puvalowski                                                               Bryan Saddler




                                                Deputy Chief                                        Communications                                Director of
                                                  of Staff                                             Director                               Congressional Affairs
                                                  Cathy Alix                                           Kristine Belisle                          Lori Hayman




                         Deputy SIG–                                                 Deputy SIG–                                               Deputy SIG–
                        Investigations                                                  Audit                                                  Operations
                       Chris Sharpley                                                Barry Holman                                             Dr. Eileen Ennis




 Chief Investigative     Special Agent
                                                Desk Officer -- SSA     Director                       Director             Principal ADSIG      ADSIG -- HR          ADSIG -- CFO/CIO
      Counsel              in Charge
                                                      Paul Conlon     Mike Kennedy                     Jim Shafer            Lynn Perkoski     Deborah Mason            **AJ Germek
  Richard Rosenfeld       Scott Rebein

                                                 Hotline Supervisor
  Attorney Advisors       Investigators                                 Auditors                        Auditors
                                                  Minh-Tu Nguyen


                                                       Analysts




Note: SIGTARP organizational chart as of 6/30/2009.

**Detailee
                         SIGTARP: Quarterly Report to Congress | July 21, 2009
                                                                                                            CT
                                                                                                       INSPE OR GE
                                                                                                AL                        N
                                                                                              CI




                                                                                                                          ER
                                                                                         E
                                                                                        SP




                                                                                                                             A L
                                                                                       TRO




                                                                                                                               M
                                                                                                                               RA
                                                                                        UB




                                                                                                                          OG
                                                                                             LE
                                                                                                  D
                                                                                                      ASS                 PR
                                                                                                            E T R ELIEF




SIGTARP
SIG-QR-09-03
                         Q3
                        2009
                                                                                 SIGTARP                                            Office of the Special Inspector General
                                                                                                                                    for the Troubled Asset Relief Program
                                                                                 Advancing Economic Stability Through Transparency, Coordinated Oversight and Robust Enforcement


202.622.1419
Hotline: 877.SIG.2009                                                                                                                                Quarterly Report to Congress
SIGTARP@do.treas.gov                                                                                                                                                July 21, 2009
www.SIGTARP.gov
